<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________
                       SUBCOMMITTEE ON LEGISLATIVE
               CHARLES H. TAYLOR, North Carolina, Chairman
 ZACH WAMP, Tennessee             ED PASTOR, Arizona
 JERRY LEWIS, California          JOHN P. MURTHA, Pennsylvania
 KAY GRANGER, Texas               STENY H. HOYER, Maryland    
 JOHN E. PETERSON, Pennsylvania   

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                   Edward E. Lombard, Staff Assistant
                                ________
                                 PART 2
                   FISCAL YEAR 2000 LEGISLATIVE BRANCH
                         APPROPRIATION REQUESTS

                              <snowflake>
                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 55-450                     WASHINGTON : 1999

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                   DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California              JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois         NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky              MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia              STENY H. HOYER, Maryland
 TOM DeLAY, Texas                     ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                   MARCY KAPTUR, Ohio
 RON PACKARD, California              NANCY PELOSI, California
 SONNY CALLAHAN, Alabama              PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York             NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina    JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma      JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                 JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan            ED PASTOR, Arizona
 DAN MILLER, Florida                  CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                 DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia               CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey  ROBERT E. ``BUD'' CRAMER, Jr., 
 ROGER F. WICKER, Mississippi         Alabama
 MICHAEL P. FORBES, New York          JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,           MAURICE D. HINCHEY, New York
Washington                            LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,           SAM FARR, California
California                            JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                  CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                 ALLEN BOYD, Florida               
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania   

                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              

                                         Tuesday, February 2, 1999.
    Mr. Taylor. We will call the committee to order. I 
apologize for our late start, but our full committee was 
meeting and ran a little long.
    We meet today to begin our hearings for the fiscal year 
2000 budget for the legislative branch. And as the former 
Chairman of the District of Columbia Subcommittee, I can't tell 
you how happy I am to be here today. In fact, I had a little 
deja vu. This was our committee room here, and I wondered if 
they just put me back, Jerry, and I came back in.
    But I am good friends with Ed Pastor and the other members 
of our subcommittee on the minority, and I welcome our majority 
members, those who I have not served with on the committee 
before, and we will do our job, I think faithfully.
    We have several new members and I would like to welcome our 
majority members. Zach Wamp isn't with us today, but Jerry 
Lewis of California, chairman of the Defense Subcommittee, is 
with us and I am always pleased to be here with him on any 
committee. Kay Granger of Texas is a new member who I haven't 
served with on the subcommittee, but I am delighted to see you 
here, Kay; and John Peterson of Pennsylvania, who is an 
outstanding member also.
    Bill Young, our Chairman, may or may not be joining us. And 
it always will be a pleasure to have him participate. I served 
on the Legislative Branch Subcommittee in a minority position, 
and Bill was the ranking member on our side when I served there 
in 1993 and 1994.
    For the minority, Ed Pastor of Arizona is a good friend. 
Ed, we are glad to see you. And John Murtha, of course, is 
always welcome and a good friend. Steny Hoyer I have worked 
with in a number of ways. And then, of course, Mr. Obey will be 
the ex officio member as Mr. Young is. So I think we have a 
good committee and a good chance of working together.
    Mr. Lewis. Mr. Chairman, would you yield for just a moment?
    Mr. Taylor. Gladly.
    Mr. Lewis. I am sorry to do this, but I should mention for 
the record that Ed Lombard worked for a number of years to get 
me off of this committee. He was successful for 4 years. But, 
Ed, not forever.
    Mr. Taylor. I will keep that in mind.
    We will insert into the record our subcommittee 
jurisdiction at this point.
    [The information follows:]
                      SUBCOMMITTEE ON LEGISLATIVE
House of Representatives.
Joint Items.
Architect of the Capitol (Except Senate Items).
Botanic Garden.
Congressional Budget Office.
General Accounting Office.
Government Printing Office.
John C. Stennis Center.
Library of Congress, including:
        Congressional Research Service.
        Copyright Arbitration Royalty Panel.
        Copyright Office.
        National Film Preservation Board.
United States Capitol Preservation Commission.

    Mr. Taylor. This week we received the President's budget 
which contains the legislative branch requests, which are 
transmitted without change. The staff has compiled the 
customary budget material. The members have before them Part 
One of the Legislative Branch Hearings, which contains the 
budget justifications and explanations of the budget request.
    The budget request we are going to consider is around $2 
billion, thirty-two million, not including the Senate items, a 
drop of about $9 million from this current year. I will say 
that while these are our beginning figures, on March 15th we 
expect we will have the Budget Committee's message on the 
floor, and that may change the entire numbers. The budget 
request we are going to work with then will be finalized, but 
we don't expect a large change.
    The budget request for Congressional Operations, the House 
Joint Items, the Library of Congress' Congressional Research 
Service and Architect of the Capitol is $1.2 billion, down some 
$81 million from last year.
    The budget request for other agencies, Government Printing 
Office, GAO, Library of Congress, is $769 million, an increase 
of $72 million.
    We are now fortunate to have Chairman Young with us. As we 
move through this process we will consult with the authorizing 
committees and the Leadership to ensure that the bill we report 
conforms with the overall appropriations limitations. Our 
subcommittee will no doubt have to make adjustments to the 
proposed budget request.
    This concludes my opening statement, and I would welcome 
any additional comments. I will yield to the Chairman of the 
Appropriations Committee, Mr. Young, if he has a comment.
    Chairman Young. Mr. Chairman, thank you very much. I don't 
really have anything to add. I have had the privilege of 
serving as a member of this subcommittee for quite a long time 
and appreciate the good work that the subcommittee does and the 
very good relationship that we have had with all the agencies 
that come before us. Thank you very much.
    Mr. Taylor. Thank you.
    And Congressman Pastor.
    Mr. Pastor. Mr. Chairman, thank you very much. This 
committee is new to me, so it will be a learning experience for 
me also. But I did have experience with the Administration 
Committee when I worked with Chairman Thomas, and during that 
process, I learned about the different offices under our 
jurisdiction and their budgets and, at that time, their 
concerns. So I look forward to working with you and the other 
committee members to make sure that our ``House'' is in order, 
that we run it well.
    Mr. Taylor. Are there other members that would care to make 
comments?
    If not, we will start with our witnesses today.
    [Clerk's note.--The Chief Administrative Officer, assisted 
by the Office of Finance, submits the House budget each year to 
the Office of Management and Budget. That material is then 
included in the President's budget.
    [The House budget request totals $784.5 million 
($784,510,000). That includes funds for the operations of 
Member offices, Committees, the leadership and the 
administrative operations of the House.
    [In addition, the total ``joint items'' budget is $98.4 
million ($98,365,000). The joint items such as the Attending 
Physician, the joint committees and Capitol Police are shared 
with the Senate.
    [The other body will consider the FY2000 budget for Senate 
operations.]
                                         Tuesday, February 2, 1999.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. JAY EAGEN, CHIEF ADMINISTRATIVE OFFICER, OFFICE OF THE CHIEF 
    ADMINISTRATIVE OFFICER
HON. JEFF TRANDAHL, CLERK, OFFICE OF THE CLERK
HON. WILSON S. LIVINGOOD, SERGEANT AT ARMS, OFFICE OF THE SERGEANT AT 
    ARMS
JOHN W. LAINHART IV, INSPECTOR GENERAL, OFFICE OF THE INSPECTOR GENERAL
DR. JOHN F. EISOLD, ATTENDING PHYSICIAN, OFFICE OF THE ATTENDING 
    PHYSICIAN
    Mr. Taylor. Sergeant at Arms, we are pleased to have you, 
and you can introduce your staff. We would like to welcome the 
three House officers, the Honorable Jeff Trandahl, Clerk of the 
House; the Sergeant at Arms, Mr. Livingood; and Jay Eagen, the 
Chief Administrative Officer.
    [Clerk's note.--Also in attendance are John Lainhart, the 
Inspector General; Ms. Geraldine Gennett, the House Counsel; 
John Miller, the Law Revision Counsel; and Pope Barrow, the 
Legislative Counsel. Dr. Eisold, the Attending Physician, will 
appear before the Subcommittee at a later time.
    [Mr. Eagen is the chief financial officer for the House. He 
has prepared the House budget for presentation in the 
President's budget and to the Committee. Jay is the de facto 
``budget officer'' and is capably assisted in that area by Mr. 
John Straub, the head of House Finance Office.
    [As is customary for first time witnesses, John's 
biographical sketch will be inserted in the record at this 
point.]
    [The information follows:]

 John Straub, Deputy Chief Administrative Officer and Acting Associate 
 Administrator of the Office of Finance, U.S. House of Representatives

    John Straub joined the Office of the Chief Administrative Officer 
in March of 1998, and serves as the Deputy Chief Administrative 
Officer. In July of 1998, John also assumed the responsibilities of the 
Acting Associate Administrator for the Office of Finance, until a 
candidate is selected to fill this position.
    Prior to joining the Office of the Chief Administrative Officer, 
Mr. Straub directed the Public Affairs division of Klein & Saks, Inc., 
a management consulting firm headquartered in Washington D.C. In this 
capacity, Mr. Straub served as both a liaison to Congress and various 
government agencies on behalf of select clients, as well as directed 
several communication, publication, and research efforts for a variety 
of clients and interest groups.
    Mr. Straub began his career at the White House, Office of 
Administration, serving in various capacities from Senior Budget and 
Management Analyst to the Internal Controls Officer for the Executive 
Officer of the President. John has also worked at the U.S. Department 
of Education, and served as a Professional Staff Member and Budget 
Analyst for the Committee on Education and the Workforce (formerly 
Committee on Education and Labor).
    Mr. Straub is a native of Lima, Ohio. John graduated from the 
Catholic University of America, and currently resides in Arlington, 
Virginia.

    Mr. Taylor. Which of you gentlemen would like to start 
first?

                           Opening Statement

    Mr. Eagen. I will kick it off. It is a pleasure to be 
appearing before the subcommittee as the Chief Administrative 
Officer of the House with the fiscal year 2000 budget for the 
House of Representatives and certain Senate joint items.
    The fiscal year 2000 request for the House totals 
$784,510,000. This amount is based on statutory entitlements, 
actual spending history from consultation with administrative 
offices of the House. Overall, this budget provides funding for 
the member representational allowance, committees, leadership, 
and a host of legislative and administrative offices.
    The fiscal 2000 requests are detailed in your subcommittee 
print document that follows the overhead accounts as they 
appear in the legislative branch Appropriations Act.
    Joining me today is Jeff Trandahl, the Clerk of the House; 
Bill Livingood, the Sergeant at Arms of the House. In addition, 
the Inspector General of the House, John Lainhart, is with us. 
And Deputy CAO and head of the Finance Office, John Straub, and 
Mr. Tim Campen, the head of House Information Resources.
    On behalf of the CAO organization, we look forward to 
working with the subcommittee on the first House of 
Representatives budget for the 21st century.
    Mr. Chairman, I have a lengthy statement for the record 
that details the House's request, which I will submit for the 
record.
    Mr. Taylor. Without objection, that will be placed in the 
record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. We are opening the committee for questions, and 
I will yield to any member if you have any at the moment. I 
have some that I would like to ask.
    Ed, I will ask mine last.

                    Federal Financial System Status

    Mr. Pastor. Well, I remember maybe 4 years ago that 
financial management records were a high priority for the Chief 
Administrative Officer. And as I was leaving that committee, I 
know that we were having problems in implementing the system 
for various reasons; the consultants we had just weren't doing 
the right job. What is the status of it? As I start a new 
committee, where are we at?
    Mr. Eagen. You are referring to the Federal Financial 
System, which is the accounting and financial records system of 
the House. Mr. Pastor, we are at a point now where the FFS 
system, as we call it, has been stabilized. It has been fully 
installed and is now functional as an accounting system for the 
Finance Office.
    We are actually at a point where we are ready to make that 
system available to committee and member offices. It is a 
product that will allow member offices and committees to look 
at the records directly and actually see their accounts live, 
on line.
    It won't have the capability to have the offices manipulate 
the data or submit things by electronic format yet, but they 
will actually be able to read the accounts on an active base on 
their computer screens in their offices.
    Mr. Pastor. So I will be able to look at my accounts, both 
the current status of it in terms of what is spent, and what is 
left in my account?
    Mr. Eagen. Exactly.
    [Questions from Chairman Taylor and responses follow:]

    Question. Will it be necessary to replace the House financial 
management system? Explain the plan, timeframe, and estimated cost.
    Response. Yes, the House financial management system will have to 
be replaced at some point over the next 5 years. The House financial 
system operates on 18 year old technology (mainframe, COBOL, VSAM). 
Additionally, the House financial system vendor, American Management 
Systems (AMS) at some point over the next 5 years will no longer 
support the current version of the House financial system. AMS along 
with a host of other companies are now developing and installing new 
client server based technology.
    The Office of Finance is currently preparing a project plan for the 
replacement process of the financial system. The draft plan includes 
the House system development life cycle phases to replace the current 
House financial management system, and includes activities to develop 
requirements, analyze House business processes, develop an acquisition 
statement of work, and assess the market place for cross servicing and 
vendor products listed on the GSA Financial Management System Software 
schedule. The plan also includes the steps for selection through a 
competitive procurement, and the steps necessary to purchase and 
install the replacement system.
    Once the draft plan is finalized and approved, a project to define 
the House financial system requirements will be initiated during the 
third quarter of FY 1999 with completion expected during the fourth 
quarter of FY 2000. The cost estimate for this phase of the project is 
$963,000, of which $500,000 has already been funded and the balance of 
$463,000 requested in the CAO FY 2000 request. Following this phase of 
the replacement project,a procurement decision is expected during the 
first quarter of FY 2001 with an installation date of the first quarter 
of FY 2002.
    The preliminary estimate for the hardware, software, installation, 
conversion, training, and system enhancements is expected to be in the 
$5 million to $8 million range. A more complete cost estimate including 
system integrator, independent validation and verification, and out-
year maintenance and operation costs remains under development.
    Question. As you know, we believe strongly that all financial 
management systems in the legislative branch be compatible with each 
other. We want to strive for a common set of books and common system 
architecture. Are your plans compatible with those objectives?
    Response. Yes. The Office of Finance is working with the 
Legislative Branch Financial Managers Council (LBFMC) toward 
identifying common financial systems accounting processes and system 
architecture. In order to maintain effective coordination, the House 
has had LBFMC representation on the current FFS steering committee, and 
has done so since FFS was being implemented in 1995. As the House 
prepares to establish requirements for replacing the current financial 
system, the CAO is including LBFMC representatives to participate in 
defining the requirements and help propose common accounting and 
architecture requirements.
    Two specific areas of involvement the Office of Finance will 
continue to evaluate with the LBFMC includes the development of overall 
joint requirements, and the development of a key set of core 
requirements which achieves the common goals sought across the 
legislative branch.
    The LBFMC recognizes that there are unique differences between the 
House and the other legislative agencies, such as the difference 
between the legislative year and calendar year reporting of the House 
compared to the fiscal year reporting of the legislative branch 
agencies. These types of differences will require the House to maintain 
some unique requirements and operating practices regardless of the 
final system chosen. However, this does not mean that common system 
architecture is not possible.

                        Voucher Turn-around Time

    Mr. Pastor. What kind of turnover do you have? Will the 
turnaround be 24 hours or will it be 2 days?
    Mr. Eagen. In the case of bill-paying of vouchers and 
invoices, we track that on a daily basis and keep fairly 
immaculate records. Our average processing time for a regular 
invoice these days is just under 3 days. That is from the point 
that the office submits the invoice to the Finance Office to 
the point that the check is cut and the bill is sent out for 
payment.
    Mr. Pastor. I read recently one of the newspapers where 
some members had problems in terms at the end of the year they 
were overdrawn on their budgets. Obviously, this is going to 
help them in finding out where they stand. Do you work at all 
with the new members as they come in in terms of being able to 
understand how their budgets work, so that they will not get in 
trouble at the end of the year?
    Mr. Eagen. Absolutely. As you know, every office is 
assigned both a payroll and a financial counselor. So we have 
been making proactive visits to work with the office managers 
and the chiefs of staff in the offices to try to educate the 
offices to how the system works.
    But in addition, working with the Inspector General over 
the last few years, what the House has attempted to do is to 
establish an obligations process. There are a number of 
expenses that occur for member offices that occur over time--
whether it is rent or payroll--and what we have been trying to 
do is enhance the system so that the reports that members get 
on a monthly basis show not just the expenses that the office 
has made, but also the obligations the office will be 
responsible for somewhere down the road.
    We believe that as this system is enhanced, it gives the 
offices better opportunities to manage their budgets and make 
sure that they don't get into any tight spending situation.

                        CAO Year 2000 Priorities

    Mr. Pastor. In this term, what are your first two or three 
priorities and how much are they going to cost or how much 
money are we going to save?
    Mr. Eagen. The top of the list for priorities certainly has 
to be the remediation of the Year 2000 problem for the House. 
The Chief Administrative Officer organization is the primary 
organization in the House that is responsible. Year 2000 is now 
less than a year away. We have a full-time project manager in 
place. We have it organized into 34 distinct projects, 
classified as mission critical and essential systems; and we 
are spending quite a bit of time making sure that, when January 
1st comes, House systems are ready to roll. That, in a 
nutshell, is the chief priority for our organization.
    Mr. Pastor. Not that I get most of my data from newspapers, 
but occasionally I do. A recent article said that we were 
behind on three information systems that we have in the House 
and that we may not be able to solve them or fully implement 
them by December 31st. Do you have better news than that?
    Mr. Eagen. Yes, I can give you a very good report, Mr. 
Pastor.
    That article is the result of a follow-on audit that the 
Inspector General's Office has performed. When I first arrived 
as CAO in August, 1997, one of the first things that greeted me 
was an audit report from the Inspector General on the Year 2000 
computer problem. It was dated September 29, 1997. What the 
Inspector General attempted to do for the House in that audit, 
as I saw it, was lay out a road map, a set of benchmarks that 
the House might want to follow as it implemented its Year 2000 
program.
    This most recent audit was an attempt to come back and say, 
another year and a quarter has gone by; how are you doing? And 
he went in and evaluated the work that we have been doing.
    What we have been doing, as I mentioned, is organizing the 
House's efforts into 34 distinct projects. Each one has a 
project manager. We have to submit a quarterly report to the 
Committee on House Administration. This is the December 31st 
edition of it. That details each one of those project plans.
    We rate ourselves based upon each one of those projects, 
and we give ourselves a color-coded rating: red, green, yellow. 
Green good and red being bad. There were three projects that we 
self-rated ourselves on that we knew we needed to apply more 
attention to. They happened to be the same projects that the IG 
mentioned in his audit. Those were the fixed asset system, 
which is an inventory system; Federal funding; and, finally, 
the member payroll system contingency.
    Mr. Pastor. Which is very important to us.
    Mr. Eagen. Absolutely.
    Let me emphasize that we have several layers of remediation 
under way in the House. We usually have a replacement project. 
In this case for member payroll I think the IG was trying to 
indicate our schedule is getting awfully tight for doing a full 
replacement. We need to make sure that our contingency, which 
is a backup, will be working as well.
    We then have a third layer which is business contingency 
planning that we are working on right now so that if January 
1st comes and something goes wrong we have some way to continue 
to do the House's business. That could be something within our 
control or outside of our control, say, for example, the power 
doesn't come on or the telephones don't work.
    Mr. Pastor. Thank you.
    [Questions from Chairman Taylor and responses follow:]

    Question. Recently, the Inspector General raised some 
questions about the House's progress in meeting the Year 2000 
conversion. As I understand it, we have provided all funds 
requested. We even did a supplemental appropriation last year 
($6.4 million) that was over and above your budget request. Why 
is the IG raising these questions at this late date?
    Response. House Information Resources has been working 
closely with the Inspector General and his staff over the last 
two years in conducting our Year 2000 program. All of the 
recommendations in the recent report had been discussed when 
the audit was conducted last summer and, where they could 
result in needed additional funding, they were addressed in the 
supplemental appropriation. The findings were not unexpected, 
nor did they raise issues that we were not prepared to address. 
This aduit, as HIR sees it, was in the nature of a follow-up to 
review progress in response to the 1997 audit, and to assess 
whether or not the program was on track for timely completion. 
The recommendations made are consistent with HIRs approach to 
the Year 2000 project and reconfirmed the actions HIR has been 
taking to complete the program prior to the critical date of 
January 1, 2000. HIR agrees that there is still a great deal of 
work to be done, but there is time and resources to do it. The 
12 recommendations of the Inspector General and being addressed 
and, as the Inspector General indicates in the transmittal 
letter, the actions HIR has agreed to take will fully address 
their findings. Based upon the work HR has done and the actions 
HIR will continue to take, HIR expects to meet Year 2000 
deadlines so that the House has full capability on January 1, 
2000.
    Question. Provide an update on the Chief Administrative 
Officer Year 2000 Computer Projects.
    Response. Please refer to the table on the following page 
for the CAO Year 2000 Fact Sheet

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          House Page Dormitory

    Mr. Taylor. We will go to the Clerk of the House.
    We have heard with some dissatisfaction, I believe, about 
the condition of the page dormitory; and we in Congress, of 
course are responsible for the pages and not only legally but 
morally; and we are very much concerned about those young 
people that we appoint and who serve the Congress so well.
    Apparently, there has been disagreement between the 
Inspector General and the Capitol Architect as to the safety of 
the O'Neill Building where they are housed. Can you outline 
what you and the Architect are doing? We will be talking with 
the Architect later, but what are you all doing to deal with 
it?
    Mr. Trandahl. Absolutely. Again, it is another audit that 
the Inspector General just issued in December. And, within that 
audit, the Inspector General highlighted two statements made by 
the Architect of the Capitol or the Architect's staff.
    One statement was made during an earlier review by the 
Arthur Andersen consulting company in which the building was 
safe and habitable for the pages and that we had no issues 
regarding the structural safety of the building.
    The second was a statement within a different report by the 
Architect that identified structural issues and the 
difficulties if they would try to retrofit the building or do 
improvement to the building. No matter what, the building would 
never able to achieve an optimal level of use and that the 
infrastructure was not strong enough tosupport ADA or OSHA 
improvements.
    Based on those two statements, the IG found the need to 
fully review the structural, physical status of the building 
and whether or not it is a habitable situation for the pages to 
be in.
    The pages moved into the existing facility in 1983. We do 
house 72 pages there through the academic school year program, 
and 78 through the summer program. We are very concerned within 
the Clerk's organization that we are providing a safe, healthy 
environment for the kids as well.
    In response to the IG's report, I wrote a very 
comprehensive letter to the Architect requesting a full review 
of the physical situation of the building as well as the status 
in terms of any safety issues or other related issues that they 
can identify. I am still awaiting a response from the 
Architect.
    Mr. Taylor. We will look into that more.
    Mr. Trandahl. Yes.
    [Questions from Mr. Hoyer and responses follow:]

    Question. What is the current distribution of House pages between 
the Majority and Minority?
    Response. The Committee on House Administration has authorized 72 
page positions in the Office of the Clerk. The current distribution of 
pages among the House Leadership is 54 majority and 18 minority 
positions.
    Question. Are you actively considering alternatives to the O'Neill 
Building for housing the House pages? If so, what alternatives are you 
considering?
    Response. On January 15, I forwarded a letter outlining issues and 
concerns relative to the House Page Residence Hall. My letter was in 
response to a finding of the House Inspector General related to 
potentially conflicting statements from the Office of the Architect of 
the Capitol on the physical condition of the O'Neill House Office 
Building.
    In response to my January 15 letter, Mr. Hantman, the Architect of 
the Capitol, has forwarded the attached letter outlining issues related 
to the O'Neill House Office Building. The letter raises various 
physical issues that can be addressed related to the House Page 
Residence Hall. However, the letter also identifies underlying issues 
and limitations related to the current and future use of this building. 
It raises various options including relocation of the House Page 
Residence Hall to other existing building locations. Other potential 
building locations include: 501 First Street, SE and an additional 
building located on East Capitol Street.
    At this time, further direction and discussion from this 
subcommittee, the House Leadership, the Committee on House 
Administration and the House Page Board will be required to determine 
and appropriate response.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       Document Management System

    Mr. Taylor. Your office has been working on the Document 
Management System for several years. We are trying to see what 
you have accomplished and what the progress has been.
    Mr. Trandahl. In 1995, when the Republicans came to 
Congress, there was a concept that was created called the Cyber 
Congress. And the overall initiative here, the idea of creating 
this Cyber Congress, was to provide the public as much 
information on the Internet or electronically as available to 
lobbyists or to Members or to staff on Capitol Hill.
    And the concept of the Document Management System is 
internally creating legislative information, that we create a 
complete electronic copy as quickly as we can and certainly as 
soon as we create printed copy so it could be put out on to the 
Internet. What the Document Management System is, is taking 
every unique step of the legislative process which all used to 
be independent and an all paper driven system to make various 
steps electronic and then to string them together so the 
information would flow into a single complete document. Such 
as, when a bill was introduced or when your statements were 
made on the floor, an electronic copy could be immediately or 
as quickly as possible available to the public via the 
Internet.
    For the last two legislative cycles this committee has 
funded the Document Management System's concepts; and a series 
of contracts have been entered into, as well as a series of 
efforts between the House, the Senate, other agencies in the 
legislative branch like the Library of Congress as well as the 
executive branch to develop standards and systems that we can 
all utilize.
    We are now at the point where we are going to be moving 
towards creating models of what is called SGML DTEs, which are 
document types, and begin the process of prototyping various 
legislative documents.
    [A question from Chairman Taylor and the response follows:]

    Question. How much has been appropriated to date for 
document management? How has it been spent?
    Response. For FY'98 the committee appropriated $1.5 million 
for the Document Management System. The Office of the Clerk 
spent $1,524,305 in FY'98 on DMS development, the difference 
absorbed with other FY'98 Clerk funds. For FY'99, the committee 
has provided $1.5 million for DMS development. Already an 
estimated $300,000 has been obligated in FY'99 and the 
remaining balance is anticipated to be spent. For FY 2000, an 
additional $1.5 million has been requested for further 
development and deployment of the DMS.

    [Questions from Mr. Hoyer and the responses follow:]

    Question. On Page 6 of your testimony, you mention that 
your ``Document Management System'' will enable the Clerk's 
office ``to become the repository for House legislation and 
related documents for current and future use, for the general 
public, legislative organizations, and the House of 
Representatives.'' We already have the Depository Library 
system and the ``GPO Access'' system to do these things. Why 
does the Clerk's office need to do them?
    Response. Today the House has to rely on outside 
organizations, primarily the GPO, to complete the electronic 
creation of many House documents. The DMS would allow the House 
to complete such work prior to forwarding the documents to 
other parties, such as the GPO for printing. By allowing the 
House to control the complete ``official'' electronic version 
of a document, the House can then determine its future release 
and use--subsequently decisions related to printing, etc. The 
GPO Access and depository library systems are simply 
distributors of the information the House provides. Their 
continuation is not precluded by the DMS system. However, the 
House would not be strictly reliant on these systems for 
distribution of information to the public.
    Question. On Page 6 of your statement, you say the 
``Document Management System'' will allow the House ``to become 
more independent for preparation, printing and distribution of 
official House of Representatives documents.'' Independent of 
whom? Why is that in our best interests? Why should the House 
assume that expense and burden?
    Response. The concept behind the DMS project is to allow 
the House the ability to create ``in-house'' complete 
electronic text of documents and publications prior to their 
printing. This ability will then allow the House to rely on 
more cost-effective printing or distribution options. In 
addition, the DMS system will allow the House to more directly 
and more immediately release electronic versions of legislation 
to the public, etc.

    Mr. Taylor. I would appreciate, too, if the letter you 
mentioned to the Architect previously--can be put into the 
record.
    Mr. Trandahl. Absolutely.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    GPO AND CLERK DOCUMENT PRINTING

    Mr. Taylor. Last year we had a suggestion that the 
Government Printing Office appropriations be transferred to the 
Clerk's Office. In your opinion, what steps should be taken by 
the Clerk and by GPO before such a change is contemplated? Do 
you have any opinions?
    Mr. Trandahl. Yes, last year, there was an effort at the 
end of the Congress--a discussion about the continuation of an 
oversight entity called the Joint Committee on Printing. There 
is a single fund called the Congressional Printing and Binding 
Fund for both the House and the Senate to charge the printing 
of government documents that are printed at GPO.
    Currently, the Secretary of the Senate and the Clerk are 
the only two that can authorize charges against that account. 
We have very good management tools in place right now, but in 
an effort to try to help assist to pay for a lot of this 
document creation efforts and print on demand and cost 
efficient activity within the House, the thought is that 
eventually the funds should be managed more directly by the 
Clerk and the Secretary. I am very supportive of that concept.
    At the same time, there are other issues within Title 44 
which govern all government printing that need to be addressed 
along with that. So, last year, I think the final determination 
by the policymakers was to have a more comprehensive look at 
Title 44 when providing for the transfer of the account.
    [A question from Chairman Taylor and response follows:]

    Question. How much of the material we send to the GPO is in 
an electronic format? Does that information go on to the 
Internet directly from your office before it's printed by the 
GPO? Can you estimate the percentage of copies of the 
Congressional Record and other House documents thrown away 
without ever being read or opened?
    Response. Except in specific, limited instances noted 
below, all House official printing is now conveyed to the GPO 
by either electronic transmission, diskette, or minimally, by 
camera ready copy, particularly for official stationery. 
Documents including the Congressional Record, House Bills, and 
Committee Reports are subject to editing at the GPO prior to 
printing. House delivery of electronic copy to the GPO became 
standard policy with the 105th Congress, in great part due to 
the inauguration of THOMAS. An understanding of the scope of 
electronic copy transmission can best be illustrated in the 
context of the major House printing requirements, as follows:
    Congressional Record: total electronic transmission for 
Votes, Bills & Resolutions, Executive Communications, and 
Additional Co-sponsors: Digest Section by diskette; Floor 
Proceedings without Member edits transmitted all 
electronically; Extensions of Remarks by paper copy.
    House Documents (Committee Reports, Hearings): hearings are 
transmitted and edited electronically; reports are generally 
conveyed by diskette, with accompanying hard copy.
    Introduced Bills/Resolutions (exclusive of Committee on 
Appropriations) and Amendments for Printing in the Record: 
transmitted electronically if drafted through Legislative 
Counsel, subject to hand edits on accompanying hard copy.
    House Calendar: electronic transmission.
    Official Stationery: generally manual edits to previously 
printed copy.
    Major legislative documents, including the Congressional 
Record, the House Calendar, Bills and Resolutions, and 
Committee Reports are made available to the Internet via 
transmission to the GPO. The Clerk posts Votes directly to the 
Internet through our website. With increased public reliance on 
the Internet, the necessity for having a significant inventory 
of official House documents, particularly the Congressional 
Record, certainly has diminished. Recent GPO testimony supports 
this conclusion, citing a nearly fifty percent reduction from 
ten years ago in the House allotment of the Record-from 17,000 
copies of 9,000 copies. Although we cannot measure the 
disposition of official printed matter once within Member and 
Committee offices, reductions to the current statutory 
distribution levels for the House (referred to in law as the 
``House Document Room'') could be tolerated.

                       Comments on the year 2000

    Mr. Taylor. I can go on.
    Mr. Lewis. Mr. Chairman, if I could, just a couple of 
questions----
    Mr. Taylor. Yes, go ahead.
    Mr. Lewis [continuing]. Specifically of the Clerk, if I 
could.
    In the subcommittee I used to chair for 4 years we were 
talking to all of our agencies, a variety and mix of agencies, 
about potential Y2K problems long before it became common for 
people to talk about it. Their response over the years has been 
very, very mixed in terms of what they actually have done, how 
serious they have taken it, et cetera.
    I certainly hope that the legislative branch of the Federal 
government will be way ahead of those other branches. I have 
heard your assurances, but it is awfully important that we be 
ahead of the curve or, we will be criticized if we don't do a 
good job.

                 Member accounts and spending practices

    Separate from that, Mr. Pastor asked the question about 
accounts of Members and Members having some difficulty with 
their accounts; and you suggested that there is a mechanism for 
communicating and keeping track of these accounts.
    In the past, there have been Members who found themselves 
short and they found themselves having to make up for the 
shortfall. Was counseling provided ahead of the time all those 
circumstances and, if so, with what kind of a results?
    Mr. Eagen. Mr. Lewis, I can only speak to the 2 years in 
which I have been CAO.
    Mr. Lewis. Do you have a staff person that has been around 
that can speak to it?
    Mr. Eagen. I don't think I do.
    Mr. Lewis. I am sure you know the history, but I am not 
going to let you just cop out to your own.
    Mr. Eagen. I will try to speak to my own experience to what 
we have been doing for the last two cycles.
    Mr. Lewis. And in doing that you might speak to what they 
had been doing too.
    Mr. Eagen. I will attempt to.
    We do, starting in early summer, begin looking at members' 
accounts to see what their spending patterns are starting to 
show. And depending on what it shows, we will start 
conversations with the member offices to advise them that we 
see a spending trend that perhaps requires some reconsideration 
or adjustment in their spending practices.
    The Committee on House Administration, House Oversight in 
the last Congress, actually adopted a new policy that says 
there will be no overspending on the part of members, and that 
we are now instructed when we get to a more serious stage, 
which is really September on a calendar-year basis, to more 
aggressively go to those offices that may not have taken 
corrective action. We are now authorized later in the budget 
cycle to actually deny payment of certain bills in cases where 
the actions haven't been taken.
    So there are mechanisms in place that I think will get us 
to the point where there will be none of those situations.
    Mr. Lewis. These questions are private and the businessof 
the individual office, certainly.
    Mr. Eagen. Absolutely.

                         MEMBER ACCOUNT POLICY

    Mr. Lewis. Nonetheless, when you get to that point you 
could potentially affect the institution. And Mr. Chairman, I 
am just asking myself out loud and for the record, but 
rhetorically to our staff as well, should we think through a 
process whereby in a timely way the Clerk, in a professional 
way, is urged to discuss either with you and/or with the 
leadership on whichever the side of the aisle may be involved 
to make sure that we don't find ourselves unnecessarily 
embarrassing ourselves and affecting our members in a way that 
isn't good for them, let alone us.
    Mr. Eagen. Mr. Lewis, if I may, I think that process is 
already in place. But it works through the Committee on House 
Administration as the authorizing vehicle for the 
administration of these kinds of programs. So when there is a 
problem of that nature, our regulations from the Committee on 
House Administration require us to notify the chairman and the 
ranking member as appropriate.
    Mr. Lewis. Is that a new requirement?
    Mr. Eagen. This policy was put in place about 10 months 
ago.
    Mr. Lewis. Okay. So we have yet to test it.
    Mr. Eagen. No, it was tested this fall.
    Mr. Lewis. Elaborate on that a bit.
    Mr. Eagen. At the end of the year, as I noted, we went 
through an evaluation, a forecasting process on members' 
accounts. In those cases where we felt that people were getting 
close to the line and we did not get resolution, we would then 
go to the committee and ask for a higher level of assistance.
    Mr. Lewis. And what kind of response did you get to that? 
Did you get assistance?
    Mr. Eagen. Yes, at this point in 1998, we did not have any 
member who was in such a situation.
    Mr. Lewis. That is what I am interested in. Thank you.
    Mr. Chairman, no further questions.
    [Questions from Chairman Taylor and responses follow:]

    Question. What actions have been taken by the House 
Administration Committee which give rise to the request for the 
MRA?
    Response. The Committee on House Administration took the 
following policy actions that led to an increase in the MRA 
costs for 1999.
    Equipment--Members will incur 100% of all equipment 
maintenance costs and annual increases on equipment effective 
January 1, 1999. Prior to this, the CAO incurred these costs. 
This includes expenses on equipment formerly grandfathered 
(acquired prior to January 1992). The annual cost is $1,099,000 
of which the prorated amount of $824,250 has been transferred 
to the Members' Representational Allowance.
    District Office Telephones--Certain costs for local service 
in the District Offices were previously subsidized by HIR 
Communications. This subsidy amounted to approximately $1.2 
million per year. Beginning January 1, 1999, the District 
Offices are being charged the full cost, and the amount that 
HIR Communications had budgeted ($900,000) for the subsidy for 
this period is being transferred to the Members' 
Representational Allowance.
    The annual cost for both the telephone ($1,200,000) and 
equipment ($1,099,000) subsidies were divided and evenly 
distributed to the Members 1999 allowance by the Committee on 
House Administration. The Subcommittee approved a reprogramming 
of funds from the CAO budget to the fiscal 1999 MRA budget, 
dated December 18, 1998, in support of the policy change.
    Question. What formulas are used to determine the amount of 
travel funds that go into the MRA? Are there any provisions for 
high cost air travel markets in these formulas?
    Response. The 1999 Members Representational Allowance is 
calculated by the Committee on House Administration based on 
three components--personnel, official expenses and official 
mail. Travel costs are included in the Official Expense 
component based on a historical formula. The formula equals the 
dollar equivalent of 64 times the rate per mile multiplied by 
the mileage between the District of Columbia and the furthest 
point in the Members' district, according to the Rand McNally 
Standard Highway Mileage, Guide, plus ten percent. There are no 
provisions for high cost travel markets at this time. The 
following rates per mile apply:

Under 500 miles................................................... $0.39
At least 500 but less than 750 miles..............................   .35
At least 750 but less than 1000 miles.............................   .33
At least 1000 but less than 1,750 miles...........................   .32
At least 1,750 but less than 2,250 miles..........................   .29
At least 2,250 but less than 2,500 miles..........................   .26
At least 2,500 but less than 3,000 miles..........................   .25
3,000 miles or more...............................................   .23

    Question. Formulas are used to determine the amount of 
funds for telecommunications into the MRA, especially cellular 
phones. Are there any provisions for high cost cell phone 
markets, such as largely rural districts in these formulas?
    Reponse. There are currently no specific provisions for 
high cost cell phone markets. The cellular industry is trending 
toward more nationwide coverage options and toward a greater 
emphasis on flat-rate pricing. So the ideal pricing plan 
depends heavily on a Member's individual calling patterns and 
volume. HIR Communications has begun a program with Bell 
Atlantic Mobile, the carrier used by most Members, to begin 
regular reviews of Members' calling characteristics to identify 
those who could benefit from a different pricing plan. The 
first report from Bell Atlantic Mobile is due in February.
    Currently, the SingleRate USA plan is the best hedge 
against high District cellular charges offered by Bell Atlantic 
Mobile. It provides, 1,600 minutes for $160 per month, with no 
roaming or long distance charges. This is comparable to the 
nationwide options offered by other carriers, and Bell Atlantic 
Mobile provides extensive coverage in the Washington area.

    Mr. Taylor. Thank you, Mr. Lewis. Other members?
    Mr. Pastor. Mr. Chairman, I have one more.
    Mr. Taylor. Certainly.

           Equipment Uniformity During Increasing Technology

    Mr. Pastor. I remember about maybe 4 years back, we had a 
task force to bring every member's office to the newest 
technology as it dealt with computers and it was about that 
time that I joined the team and the effort and went ahead and 
changed my company and computers and software and all of that.
    Last year, just to make sure that I was on board, again a 
vendor came and said, no, no, we are now going even further and 
next year you are going to be out of sync with everybody. Are 
there uniform regulations now which every member has to meet in 
terms of being in place with the new technology and what is the 
status of the different members' offices? Are we all there? Are 
we lacking or where are we on this thing?
    Mr. Eagen. There is not a regulation but a standard. To be 
clear, the philosophy in the House for years has been that the 
primary call on these kinds of decisions rests with the members 
and their staff. All of us who have been around Congress 
remember when Bill Natcher insisted on keeping typewriters. If 
a member prefers to manage his office that way and satisfies 
his constituents that is what will be done.
    Mr. Pastor. Wasn't there an effort with this task force to 
bring all the members on board and also on line so that all of 
us, all 435 offices would have the most modern technology 
available and we would all be in sync so that the House would 
be able to interface with each other?
    Mr. Eagen. Absolutely.

                Task Force Technological Recommendations

    Mr. Pastor. What I am finding though is that when I started 
4 years ago I was at the cutting edge, and now I am supposedly 
behind. And talking with members, they don't even know what the 
cutting edge is or what is available.
    Mr. Eagen. Well, in fairness, the cutting edge keeps 
moving, very dramatically.
    Mr. Pastor. And I understand that and it is very expensive. 
It keeps moving every 2 years. Did that task force ever come up 
with a set of guidelines so that a member's office knows that 
they are, in fact, in compliance with what the House wants to 
do or what the task force wanted us to do? Is there such a set 
of guidelines?
    Mr. Eagen. There is not a set of guidelines specific to an 
office. Based on the task force recommendations--Congressman 
Ehlers was the chairman--a technologist was brought in by the 
name of Judy Boonstra, who wrote what was called the Boonstra 
report. It basically had 14 conceptual recommendations for the 
House to adopt. Just about every one has been pursued. For 
instance, it recommended that we go from nine different e-mail 
systems to one e-mail system. We are there. We have one e-mail 
system today. In fact, we recently upgraded the software on 
those servers. It involved the Document Management System that 
the Clerk mentioned a minute ago as one of those systems.
    The issue that you are referring to, office by office by 
office, however, there are standards that are put in place. 
Those are evaluated every 6 months and they are upgraded in 
terms of the technology, the kinds of equipment that the House 
as a minimum standard will permit offices to buy.
    So as time goes on every 6 months we are raising those 
standards. The Committee on House Administration actually 
formally adopts those standards. House Information Resources 
recommends those to the committee and that is one of the 
efforts to try to keep the members not on the leading edge but 
so far ahead of the edge to the best of our abilities.
    [Questions for Chairman Taylor and responses follow:]

    Question. The HIR budget is $26.6 million. The Honorable 
Vern Ehlers headed an information technology task force that 
has led to a number of improvements in House and member use of 
personal computers and the Internet. How much of this budget is 
based on task force findings?
    Response. The fiscal year 2000 HIR budget includes 
requested funding for related task force findings in the amount 
of $14,570,000. This amount consists of $5,248,000 for non-
personnel funds to support many of the ongoing specific 
recommendations of the information technology task force by 
providing for equipment, contracts, training, and supplies for 
the task force in the recommended areas of messaging and 
scheduling, Internet and Web, security, technical support and 
House systems, retirement of the mainframe, new technologies, 
and the administration and operation of those technological 
projects. HIR requests $9,322,000 for salaries for information 
technology personnel to support the task related projects.
    Question. Given a flavor of your plans to implement these 
improvements. What projects are not being funded in this 
budget?
    Response. HIR funding which implements and supports the 
continued sustainment of projects related to the major thematic 
objectives of the technology task force project related to the 
major thematic objectives of the technology task force 
recommendations are outlined in the ten House Support Area in 
the FY 2000 HIR budget request as follows: Messaging and 
Scheduling, Internet/Web, Communications, Information Systems 
Security, Electronic Information Services, House Systems and 
Technical Support, Year 2000, Mainframe Migration, New 
Technologies, and HIR Administration and Operations.
    In both the Messaging and Internet/Web support areas, the 
improvements that will be funded by the FY 2000 budget include 
upgrading the baseline performance of message and web servers. 
Both of these support areas require performance upgrades in 
order to keep up with the exponential growth in the demand for 
mail and web services. In the Electronic Information Services 
support area, a new web-based user interface for newswire 
information in being prepared for rollout to Member and 
Committee offices. The support and maintenance of this new web-
based interface with a robust client-server network behind it 
is being funded in the FY 2000 budget. The Mainframe Migration 
support area has seen a great deal of success in implementing 
task force recommendations for improvement. This project has 
successfully retired or migrated 83% of applications off the 
mainframe while simultaneously reducing processing power by 53% 
and significantly reducing mainframe operating costs and 
successfully transitioning personnel from mainframe operations 
to the new client server/network centric architecture. Also, 
continued funding for site licensing software, video-
conferencing and the House communication backbone upgrade are 
included in this budget request.
    Question. As you know, each Member of the House now has a 
great degree of freedom in the purchase of office computer 
equipment and software. However, with technology moving so 
rapidly, what steps have you taken to assist individual offices 
in these highly expensive systems which are prone to 
obsolescence?
    Response. The CAO staff works closely with the Committee on 
House Administration staff in proving assistance to Member 
offices in the purchase of rapidly obsolete computer hardware 
equipment and related software. The CAO staff assists Member 
offices in defining their requirements and selecting 
appropriate systems based upon the standards and software list 
which are updated and approved by the Committee on House 
Administration twice a year. Such standards assist Member 
offices with maximizing the useful life of the purchased 
hardware, by recommending the level of system, which has a life 
cycle commensurate with the needs of the office. The software 
list identifies the most appropriate applications for the 
functions needed in House offices, and excludes obsolete 
versions of software. This information is published on the HIR 
intranet site available through On Line CAO web site.
    CAO Technical Support Representatives (TSRs) provide 
consulting services to encourage House offices to examine their 
options in the purchase and use of applications software 
packages. Beginning with the 106th Congress, the CAO 
restructured the System Integrator agreements to provide the 
framework by which Members and staff purchase computers and 
support. These agreements now assign the oversight role 
relating to computer system acquisition to HIR from the Office 
Systems Management staff. This new process allows the TSRs to 
provide advice on equipment purchases and vendor service 
support plans. TSRs are now required to initial a House office 
purchase of computer systems and equipment to ensure compliance 
with House technical standards.
    The new Systems Integrator agreement replaces the legacy 
contracts that provided a subsidy for substandard equipment in 
House offices. The combination of the new System Integrator 
Agreement, the Standards for New Purchases list, and the 
Minimum Standard for Supported Equipment specifications ensures 
the life cycle of House computer systems is optimized.
    For each Congress, the CAO conducts a vendor fair to 
provide system integrators a forum for offices to be aware of 
their options for the purchase of the correspondence management 
software used in a Member office.
    The CAO has sponsored a vigorous Member outreach for 
identifying and encouraging the elimination of non-Y2K 
compliance equipment. TSRs have sponsored the testing of PCs in 
Washington and district offices, identified the Y2K failed 
systems, and participated in retiring failed systems from 
departing Members of the 105th Congress. The TSRs have held 
many Y2K education outreach sessions, and have contributed to 
the success of meeting Y2K compliance for Member and Committee 
systems in the House of Representatives. The CAO is committed 
to advancing the capabilities of Member offices, protecting 
against obsolescence, and preserving the value in expensive 
systems in the Member's office.

                         Technological Advances

    Mr. Pastor. Are we halfway there in meeting those 
standards? Are we 90 percent?
    Mr. Eagen. There are a couple of different measures. One of 
the measures would be how many offices are on e-mail. With one 
exception, all offices are now on e-mail. Another measure would 
be web sites. We now have 450 web sites in the House. That is a 
43 percent increase since the beginning of the 105th Congress. 
Sixty-six members do not have their own web sites at this 
point. We have orders for about a third of those to develop 
those kinds of web sites. So, I think that there has been an 
enormous amount of progress.
    Mr. Pastor. In December I couldn't get any e-mail. How are 
we going to solve that problem?
    Mr. Eagen. One of the implications of the increase in 
technology in the House is the volume of information that is 
coming to the House. Let me give you some statistics that I 
think will paint it for you well.
    First, I heard on the radio myself that now 35 percent of 
American households--and this is at home--are now on the 
Internet. That is only a third of the country. We are getting a 
lot of volume of traffic today, but wait until the Internet 
becomes, like a VCR or telephone. We are just getting started.
    In the springtime of last year, we were averaging 80,000 e-
mails on the House system a day. At the peak of December--and 
this is during the impeachment activity--it was up to a million 
a day.
    Mr. Pastor. I know.
    Mr. Eagen. On the Internet, HOUSE.GOV, the House's Internet 
site, we have another Internet site through THOMAS, the Library 
of Congress, we were averaging in the springtime last year 
about 10 to 11 million hits or visitors a month. In December we 
were up to 32 million visitors a month.
    Now, for the messaging system, the e-mail system 
specifically, the subcommittee and the Committee on House 
Administration fortunately saw that this was coming and funds 
were appropriated in the end of the last fiscal year to upgrade 
these various systems.
    We were, unfortunately, because of the impeachment 
proceedings, almost faced with two evils. Do we stick with the 
old system which we know is really overtaxed or do we rush 
deployment of a new system? And our experience taught us in the 
House with new technology that you have to take time to deploy 
it properly. You have to test it, and rushing it is not always 
the best answer. But we chose the best of two evils and put the 
new system in place, all new servers and the top level software 
that Microsoft provides for e-mail systems, and that is now in 
place in the House.
    Mr. Pastor. Okay.
    Mr. Lewis. Good.
    [Questions from Chairman Taylor and the responses follow:]

    Question. Mr. Trandahl, your budget is up by a slight 
amount: $466,000, or 3%. Is this primarily for salary 
adjustments?
    Response. Yes the adjustment in personnel expenses is 
directly attributed to the cost of living adjustments for FY 
2000. However, the personnel dollar increase is not the full 
COLA due to other personnel funding reductions taken to offset 
part of the FY 2000 COLA increase.
    Question. Provide an update on Clerk Year 2000 Computer 
Projects.
    Response. Please refer to the table on the following page 
for Year 2000 Compliance Status of Year 2000 Computer Projects.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            Sergeant at Arms

    Mr. Taylor. We will take up the Capitol Police budget 
separately, Mr. Sergeant at Arms. We will see you again at that 
time and go into questions. And we will, based on what has 
happened since we last met, be talking about a number of 
things.
    [Questions from Chairman Taylor and responses follow:]

    Question. Bill Livingood, your Sergeant at Arms budget is 
up slightly (by $311,000). Explain.
    Response. The $258,000 increase in personnel costs is due 
to COLAs, merit increases, and longevity increases.
    The $53,000 increase in non-personnel costs can be 
attributed to a 3.1% rate of inflation. Additionally, an 
increase in travel is requested to support two Presidential 
Conventions in August 2000, congressional committee field 
hearings which pose a security risk, party issues conferences, 
and offical special events such as funerals. There is also a 
need to purchase supplies and materials for the new Congress, 
such as Member and spouse pins, congressional license plates, 
parking permits, and ID materials.
    Question. Please explain the need for three more tour 
guides.
    Response. The Fiscal Year 1999 Legislative Branch 
Appropriation bill provided for three additional tour guides. 
At this time, we are not requesting additional tour guides.
    Question. Provide an update on Sergeant at Arms Year 2000 
Computer Projects.
    Response. Please refer to the table on the following page 
for Year 2000 Compliance Status of Year 2000 Computer Projects.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Dr. Eisold has joined us and I would like to 
welcome him. This last year I had the pleasure of visiting Dr. 
Eisold perhaps more than I would like, but it has been 
enjoyable.
    You have a real workload. The police and the pages and the 
medical surveillance and the managers. Would you like to make a 
statement first and then we will go into some questions?

                  Statement of the Attending Physician

    Dr. Eisold. First of all, Mr. Chairman, I am pleased to be 
here. And I don't have a prepared statement but I would be 
happy to entertain any questions that the committee may have.
    Mr. Taylor. Are you in good shape with your needs 
appropriations wise? I know that we have had a lot of things in 
the last 12 months that were a surprise in the sense that we 
had more activity, and we are going to be addressing that with 
the Sergeant at Arms and his budget, and I wondered if you have 
some comments in that area about needs?
    Dr. Eisold. Yes, sir, we did have to make some 
accommodations in terms of a marginal increase in staff and 
taking care of some equipment and also information systems 
which people are talking about here, and also preparations for 
counterterrorism and the support of the medical side of that 
issue. We do work closely with Capitol Police and both 
Sergeants at Arms, in fact, in that regard. So that I think 
that right now, we have been adequately supported in those 
requests that have been made.
    Mr. Taylor. Well, I would like to commend your staff as 
well as the police and Sergeant at Arms' staff for that action 
during that tragedy. I think both of you acted admirably and we 
are appreciative of your efforts as well as the police force.
    Dr. Eisold. Thank you for your comments.
    Mr. Lewis. Mr. Chairman, could I ask Dr. Eisold a question?
    Mr. Taylor. Certainly.

                       Preventive Health Measures

    Mr. Lewis. Dr. Eisold, a cudgel of mine for a number of 
years is that, especially among the Members of the House, there 
are some serious opportunities for preventive kinds of medical 
efforts and programs. Among other things, from time to time, I 
have noted that your responsibilities ebb and flow. When the 
House is in session, probably there is an increase and there 
may be a lower point in other parts of the year. But having 
professionals sit around and wait for a heart attack is one 
thing. It is another thing to be involved actively and 
aggressively with preventive efforts as well.
    To raise the question that I raised a long, long time ago, 
maybe as many as 15 years ago. Have we ever seriously, in 
recent years, discussed and is there reason to consider moving 
perhaps even your location somewhere closer to a physical 
facility that involves the gym, at least some of your people 
and coordinating with people's real health situations to 
improve their condition? I guess that is comprehensive enough 
that you could respond.
    Dr. Eisold. Yes, sir. We have a close relationship actually 
with the gym, and the gentleman who essentially is the trainer. 
We do actively participate in trying to identify people with 
risks and go ahead and tend to their preventive needs.
    We are going to be working even more closely, in fact plan 
perhaps to have a discussion at Hershey with regard to some 
prevention and preventive measures. But I think that we are 
completely on board with your thoughts in terms of health 
promotion, which is something we really try to do on a daily 
basis, even during the busy times and even during other times 
when we have a greater chance to spend some time with those 
sorts of things.
    Mr. Lewis. Mr. Chairman, what I am really suggesting here 
is that there really may be an opportunity here tapping some 
very fine professionals who are here all the time. I note you 
are nodding to the staff at the gym, but I must say that that 
is a long way away from professional oversight regarding health 
care. I don't know if there is a workup on every member that 
you deal with in terms of their general health. But how that 
relates to the gym, it does seem to me that regular exercise 
applied on a regular basis does interrelate to the quality of 
work done around the place.
    I am sorry that we cannot consider it in terms of the whole 
staff, our professional staff around here. We tried to work on 
that some years ago and fell short. But that doesn't mean that 
it is not a possibility in the offing. I would like to have us 
have a better idea of what the cost might be to implement a 
comprehensive preventive health program that addresses the 
health condition of every member and how that relates to 
exercise, diet, et cetera.
    Dr. Eisold. I would like to reassure you that with every 
member with whom we come in contact, those are the sort of 
things that we stress. We stress the diet, exercise, stress 
management and that is an ongoing, daily routine.
    I think that as big an issue would be trying to have 
everybody pay us a visit, and even when they are healthy, so 
that we can stress those things because as you can imagine, 
during the busy session there are a number of people who do not 
avail themselves of our services. But everybody who comes our 
way, those are exactly the things that we stress.
    Mr. Lewis. I must say that I note how often at the swimming 
pool there is nobody else there, and I just wonderabout that 
side of it as well.
    Dr. Eisold. If I could get everybody on a good program, I 
would be very pleased.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Pastor. I can attest, I went down with a headache and 
before I knew it I was getting a physical. So they do a great 
job, Mr. Chairman. On occasion, like today, I would have 
probably been down there with this cold. The office is very 
professional. And the few times I have been down there they 
make sure that you are treated in a professional manner and I 
commend the fine job that you do.
    Mr. Taylor. Mr. Peterson.

                           Periodic Screening

    Mr. Peterson. Is there any efforts to have periodic 
screening even for all of us? We put off the annual physicals. 
But blood pressure, cholesterol and diabetes? In the state 
where I come from, Pennsylvania, I was chairman of Health and 
Welfare for 10 years and we routinely had it set up in 
different public areas to have your blood pressure checked and 
a couple of pinpricks; you could do all three of those in a few 
minutes. It was available every quarter and to members and 
their staffs too. Anybody could go and all morning they were 
taking blood and doing blood pressures.
    Dr. Eisold. If I could, I would like to introduce my 
administrative assistant, Mr. Burg.
    Mr. Burg. That is an excellent question, sir. In addition 
to the main office in the Capitol, we have a network of seven 
health units. That is really for the estimated 23,000-plus 
staffers, we can do those things. We sponsor the House health 
fair. This will be the third year we have done that in 
conjunction with the Senate health fair. We bring in George 
Washington University Hospital and they can do anything from a 
PSA screening to your cholesterol. This is very popular with 
the staff and we are interested in doing more, if possible, on 
an ongoing basis.
    Mr. Peterson. Maybe I have been missing it. I haven't been 
to your office. My first term I have been busy and maybe I 
didn't allocate my health the time I should have, even though 
that was an issue that I worked on in the state. If you have 
places set up in public areas to have your blood pressure 
checked, diabetes, people do it. And that is an impulse. And 
oftentimes it was done by an association at almost no cost. 
They would come in and do it.
    Mr. Burg. Additionally, Dr. Eisold brings in the American 
Academy of Dermatology. Very popular. The interesting thing 
about it, they actually pick up pathology. We find skin cancers 
that are lifesaving. These are good ideas and we need to do 
more of this.
    Mr. Taylor. Ms. Granger?
    I would commend the health facilities here. At the gym you 
can have your blood pressure taken and that sort of thing 
before you get involved, as well as of course going to the 
doctor's office. In your health fair, we had one with Senator 
Dole, on what you could eat, and I just followed Strom Thurmond 
and ate what he ate. I didn't take down any notes. But I 
followed it all.
    We are going to have a small recess for this vote and then 
we will come back. We have two more areas.

                           Safety Evaluation

    Mr. Lewis. Mr. Chairman, as we go out the door, I haven't 
had a chance, I may not be able to come back and I would like 
to mention something relative to Mr. Livingood if I could.
    I have read the statement and I know we don't want to 
complain, but you have been under a lot of stress this last 
year and I would sure like to see more details regarding both 
your and the IG's evaluation of safety circumstances. I believe 
that terrorism is one of the major threats that we face as a 
country and if there is a target in the world that seems to be 
a prime target in my mind's eye, it would be the capitol 
complex.
    So the committee would be anxious to hear from you in depth 
about that, regarding what you see as a threat, whether you are 
working with the FBI and other agencies. I know of your own 
background. High priority should be for the House.
    Mr. Livingood. At our meeting tomorrow, sir, we would be 
prepared----
    Mr. Lewis. I am not sure I will be able to be here.
    Mr. Livingood. If not, I will be happy to meet with the 
committee or you individually on that. I have to watch somewhat 
what we say in open session.
    Mr. Lewis. Correct.
    Mr. Taylor. Mr. Lewis raises a valid point and I was in the 
chair when the shooting occurred, and I can tell you when you 
are told that an officer is down and they do not have full 
comprehension yet about what is going on and with the 
possibilities that we had here with children in the gallery and 
members on the floor, that is a real challenge. So I look 
forward to that too.
    [Clerk's note.--The following was provided for the record 
by the Sergeant at Arms:]

    The United States Capitol Building is a symbol of the 
United States recognized throughout the world, and a terrorist 
operation against it would bring worldwide publicity to the 
terrorist organization. The FBI has testified before the Senate 
Committee and stated that the U.S. Capitol is a vulnerable 
target for terrorism.
    At present there is no current credible intelligence to 
indicate that the United States Capitol is the specific target 
of a terrorist operation, foreign or domestic.
    Usama bin Ladin, who is currently wanted by the Federal 
Bureau of Investigation for the American Embassy bombings in 
Kenya and Tanzania, has publicly stated that the United States 
government and its populace are legitimate terrorist targets.
    The United States Capitol Police works on a daily basis 
with the FBI, U.S. Secret Service, and other intelligence and 
law enforcement agencies on sharing of intelligence information 
as it relates to the Congress.

    [A question from Chairman Taylor and response follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. We are going to close this portion of the 
hearing and then adjourn briefly and come back.
                                         Tuesday, February 2, 1999.

                          OFFICE OF COMPLIANCE

                               WITNESSES

RICKY SILBERMAN, EXECUTIVE DIRECTOR
VIRGINIA SEITZ, MEMBER, BOARD OF DIRECTORS
GARY GREEN, GENERAL COUNSEL
    Mr. Taylor. We are going to go ahead and start, even though 
we are finishing a vote and we are likely to get called back to 
the floor.
    We will reconvene the meeting and take up the budget 
submission of the Office of Compliance. This office was 
established by the Congressional Accountability Act of 1995.
    We have today the Executive Director, Mrs. Ricky Silberman, 
and some of her staff members. There is also a five-member 
Board of Directors. The Chairman of the Board is Mr. Glenn 
Nager, a Washington attorney at law, and he cannot be with us, 
but we do have Ms. Virginia Seitz, the vice chairman.
    The fiscal year 1999 appropriations bill provided 
$2,086,000 to this office. The budget before us is $2,076,000, 
a reduction of $10,000. The staff level is 17 FTEs and remains 
unchanged. That is a reduction of two FTEs below the number 
funded in 1998.
    Now, your prepared testimony has been given to the 
committee, and we can go directly to questions, but I would ask 
if you would have a statement that you might make in summary or 
any other comments. It is not necessary, but if you would like, 
we will go into it.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Silberman. We are delighted to be here, Mr. Chairman. 
This is the fourth time we have testified before this 
Committee.
    I wish to also introduce Mr. Gary Green, who is our General 
Counsel. He enforces OSHA and ADA, and much of the labor-
management comes under the aegis of the General Counsel's 
Office.
    I would be delighted to answer any questions that you have, 
as well as Ms. Seitz and Mr. Green, and we can just go on from 
there. We are glad to be here.
    Mr. Taylor. Any other comments?
    Ms. Seitz. No.
    Mr. Taylor. We will start with our questions, and I will 
lead off.

                        Rate of Employee Injury

    You mention in your submission the high rate of injuries 
experienced by the AOC employees. Can you explain how many 
injuries, why this is occurring, and is the AOC dealing 
adequately with the problem?
    Ms. Silberman. If you don't mind, Mr. Chairman, I am going 
to ask Mr. Green to answer that question. It is in his purview.
    Mr. Taylor. Certainly.
    Mr. Green. We take our answer from the figures compiled by 
the Department of Labor in the Workmen's Compensation Office, 
which collects the claims, and another office, which analyzes 
them for the whole Federal government and breaks them down on a 
per hundred basis from one agency to another.
    The Architect's injury rate is the highest in the Federal 
government. It is a rate of about 10 on a scale of 100. And I 
must say, before we go further, the injury rate is calculated 
by reference to lost time injuries. It is only when an employee 
has been out of work for more than a day that it counts for 
these purposes. So in the report that the General Counsel's 
Office filed with the Congress in the last session, we 
highlighted this as one of the more serious safety and health 
issues that needed attention. And, in our view, the injuries 
and the illnesses are a symptom of a general management problem 
which can be cured by appropriate managerial changes.
    The Architect's Office has 2,000 employees. There is a 
diverse variety of custodial, repair and maintenance and 
skilled trade tasks. And they can, like any other diverse 
group, I think, produce better statistics and a lot less 
suffering. But there has to be, in our opinion, an effort to 
copy the better practices in similar organizations in the 
private sector and similar organizations within the Federal 
government, and that involves a number of steps which we have 
outlined in our report to the Congress.
    Mr. Taylor. For all the members who weren't here, the 
Office of Compliance was created by the Congressional 
Accountability Act of 1995, and its primary duties are to 
resolve employee grievances and unfair labor practices. They 
conduct health and safetyinspections of the legislative branch 
buildings and write regulations, provide education and information to 
agencies and employees about these matters.
    You have had almost 3 years experience with our branch of 
government. How do we stack up as far as these laws and 
regulations are concerned? And is our compliance record 
comparable with other employers in the private sector, for 
instance?
    Ms. Silberman. It is hard to compare to the private sector. 
I think, by and large, the 3-year story of the CAA and the 
Office of Compliance is a positive one. There was a lot of fear 
and trepidation in the beginning about the passage of this new 
law, and that was the reason why there was so much emphasis on 
education and information.
    Insofar as the health and safety and labor and employment 
laws were made applicable, it seems to us, in general, that 
Congress is trying very hard to comply with these laws. The 
numbers show a diminishing number of complaints, and this could 
be read as evidence of compliance, and I think probably should 
be read, in certain areas, as evidence of compliance. But in 
areas such as health and safety, which Mr. Green just 
addressed, there is more work to be done. There is no doubt 
about that.
    And I would call your attention to the 102(B) report which 
the CAA requires us to make and in which we looked at laws that 
had been made applicable and how well the Congress was doing 
and came to some conclusions about some changes that might be 
salutary.
    Mr. Taylor. We have given the Architect almost every dollar 
that he has asked for to implement the ADA and any other 
lifesaving projects that he has identified. Are the 
congressional buildings satisfactory in safety and especially 
with the ADA, American Disabilities Act?
    Mr. Green. Well, as you probably know, Mr. Chairman, we are 
required also to do an inspection and report to Congress 
periodically on that, too. And our report this year finds very 
good news. The Capitol campus is compliant with ADA and is, I 
think, probably the most noncontroversial and successful area 
within our jurisdiction. Complaints are almost zero, and one 
does not hear objections from those who represent disabled 
people or from the disabled people themselves.
    It is not perfect yet. There is construction going on right 
now which is designed to improve signage, to improve the 
clearances in restrooms, certain restrooms, which are still not 
up to requirements. But between what has already been done--and 
Congress got an early start on this--but between what has 
already been done and what is now on the books and in the 
works, there is a lot to be satisfied about in our degree of 
compliance with the law.
    Mr. Taylor. Mr. Pastor, would you have any comments? I can 
go on, but I hesitate to.
    Mr. Pastor. You have in your report reasons for employee 
contacts, and you have about 74 that dealt with title VII. How 
do you resolve them? Do you investigate them?
    Mr. Green. Well, the General Counsel's Office is not 
involved with investigating those problems with discrimination, 
but I think our Executive Director can tell you about the 
procedures we have.
    Ms. Silberman. The Act is really divided into two areas. We 
have a model alternative dispute resolution procedure. We have 
no investigating authority for the discrimination charges. That 
is one of the things we have discussed in the report, as to 
whether or not Congress might want to look and see if that is 
something that they would want.
    Mr. Pastor. What authority do you have, if you don't 
investigate it?
    Ms. Silberman. Our authority was to establish an 
alternative dispute resolution system, and employees can also 
come to us requesting information. They get counseling, 
mediation; and, if their claims are not satisfactorily 
resolved, we then have a hearing process where I appoint a 
hearing officer. They have an adjudicative hearing which can 
then be appealed to the board and go to Federal court. There is 
no enforcement authority on the discrimination side.
    Mr. Pastor. You think it might be a good idea if you did 
have that?
    Ms. Silberman. Our board's report concluded that they 
thought it would be a very good idea if we did have enforcement 
authority, and we are specifically asking for enforcement 
authority in one area which we think is very important, and 
that is in terms of retaliation.
    I don't know whether you noticed in the numbers in one of 
these reports, but we have very few requests for information 
about retaliation. But we have a large number, that is 26 out 
of a possible 70 discrimination law requests for counseling. 
These are actual complaints in the area of discrimination. We 
think retaliation is an area in which alternative dispute 
resolution really doesn't work very well. Because people, once 
they have filed a complaint, they come back in and they are 
afraid to go forward with a retaliation complaint.
    So I think if there is one area the Congress might want to 
look to change, that is the most important area, and the board 
has spoken to that in this report.

                          Appeals to the Board

    Mr. Taylor. Ms. Seitz, the report cites four cases last 
year. Were these actions publicly disclosed? And can you maybe 
summarize some of those? That might help what Mr. Pastor was 
talking about, also.
    Ms. Seitz. We decided four appeals from hearing officer 
decisions, and two of what are called ``R'' cases, that is 
representation cases, which are disputes before union matters 
came to election. All of these decisions are publicly available 
on the office's web site and, of course, in the office's files 
upon request from anyone.
    The four cases actually were a fairly varied diet for us. 
One of them involved the WARN Act. And in that case, which was 
called Jarvis Gray v. Office of the Chief Administrative 
Officer of the House of Representatives, the board affirmed the 
hearing officer decision that notice provided to employees 
respecting the closing of the House Post Office substantially 
complied with the notice requirements of the WARN Act.
    In a second case, Lawrence Hatcher v. Office of the 
Architect, the board affirmed the hearing officer's decision 
dismissing a claim by appellant. He claimed he was transferred 
in reprisal for filing a complaint of sex discrimination. We 
agreed with the hearing officer that substantial evidence in 
the record supported the decision that he was transferred, in 
fact, because of poor job performance.
    A third decision involved the Family and Medical Leave Act. 
In that case, David Culver v. Office Supply Service, the board 
affirmed a hearing officer decision dismissing a claim of 
employment discrimination based both on race and on a failure 
to comply with the provisions of the Family and Medical Leave 
Act. We concluded that substantial evidence in the record 
supported the hearing officer's finding that his employment was 
terminated by a neutral decision maker, unaware of his race 
because of repeated failures to comply with an office leave 
policy. We also concluded that he received adequate notice 
under the Family and Medical Leave Act.
    In the final case, which is Betty Johnson v. Office of the 
Architect of the Capitol, we found the record supported a 
hearing officer conclusion that she was not denied a promotion 
because of her color or religion, and we affirmed the hearing 
officer decision that preclusion principles barred the 
relitigation of a sex discrimination claim which she had 
previously litigated in another jurisdiction.
    So each of those cases involved different sections of the 
act, and those were the four appellate decisions we rendered 
this year.
    In the ``R'' cases, one involved the Senate recording 
studio, and we issued a decision and order directing a 
representation election. And in the course of doing that, we 
resolved questions about whether some employees were or were 
not supervisors and thus eligible to be part of the bargaining 
unit.
    And a second case, also involving the Senate recording 
studio, we issued a decision setting aside a representation 
election on the ground that the employing office had committed 
objectionable conduct. It had changed the employment terms 
during the critical period immediately preceding the election, 
and that interfered with employee free choice in the election; 
and we ordered a new election.
    Those were our six appellate decisions in the course of the 
year.
    Mr. Taylor. Your budget was down $10,000. How did you 
achieve that? I want to pass that on to the Administration and 
our Leadership.
    Ms. Silberman. Well, each year we have come in here and 
asked for less money than the year before. Part of that started 
out with ignorance and not knowing how much we were going to 
need in the beginning, because we werea brand new organization 
and nobody really knew what it was going to take to enforce and 
administer this act.
    But we are very proud of the management of the office. And 
what we have tried to do from the beginning is have a very 
flexible workforce, each of whom is able to do multiple tasks. 
And, frankly, we have also had a diminishing caseload, which 
makes a big difference because our costs for mediators and 
hearing officers have diminished.

             Space and Services at the Library of Congress

    Mr. Taylor. Now, you take space at the Library of Congress, 
I believe.
    Ms. Silberman. That's right.
    Mr. Taylor. Do you know how much space you have? I think 
you increased it last year.
    Ms. Silberman. Well, we have 6,000 square feet, which we 
have had really pretty much from the beginning. We did not 
actually increase it last year. What happened was that we 
inherited all of our equipment from the Office of Technology 
Assessment, which went out of business, and we took quite a bit 
of surplus from them. We were keeping that in a storage space 
which the Library of Congress was not using, and they decided 
to use that storage space.
    So what we did was consolidate whatever surplus that we 
really felt that we frequently needed, and we have a 10-by-12 
closet close to us for stuff we need all the time for hearings. 
The rest of it has been sent out to a Library of Congress 
warehouse.
    Mr. Taylor. The Library charges you an administrative 
charge?
    Ms. Silberman. Yes.
    Mr. Taylor. And what do you get for that? Is that over and 
above the space requirements?
    Ms. Silberman. Right. They charge us for some financial and 
personnel work that they do.
    Mr. Taylor. The reason I am asking is, I know it is going 
up $24,000 this year, and I just wondered why.
    Ms. Silberman. Well, we wondered why, too. It was going to 
go up even more than that and we went back to them. They have 
said that they have done an actual audit of the work they do 
for us. There was, frankly, some difference of opinion as to 
how much of that really we thought we ought to be paying. And 
what we have done is take back some of the work that they were 
doing and we are trying to do it in house.
    But the Library has been absolutely wonderful in terms of 
their administrative support for us. We wish the costs were not 
escalating quite so high, but it is very difficult when you 
have a landlord to be able to effectively negotiate these 
things, particularly when you are not paying any rent.
    Mr. Taylor. Don't look a gift horse in the mouth, I guess.
    Ms. Silberman. Exactly.
    [A question from Chairman Taylor and response follows:]

    Question. It would make it a great deal easier to 
understand your workload statistics if they added up to the 
total pending and received. For example, in 1998, there were 6 
counseling cases pending at the beginning and 68 received 
during the course of the year. But only 13 were closed and 5 
were left pending a year's end. That begs the question of the 
disposition of the remaining 56. Can you tell us what happened 
to them? (In future, please submit tabulations that reconcile 
all workload cases.)
    Response. The 56 proceeded from counseling to the next 
stage of our alternative dispute resolution procees, and 
requested mediation.

                     Occupational Safety and Health

    Mr. Taylor. I was looking at the detailees in your 
justification from the Occupational Safety and Health Agency. 
What are the duties of those detailees?
    Ms. Silberman. Well, we have one, and I am going to let Mr. 
Green tell you what he is doing. But I would like to say that 
we have been very fortunate with OSHA in that we have had an 
unreimbursable detailee from OSHA since we started our OSHA 
program, and that person has been absolutely indispensable to 
our being able to run the program. And I hold my breath every 
year hoping it continues to be unreimbursable, but I am kind of 
juggling one slot that I am keeping, because there is no way we 
can do this program without that detailee. We have now had two 
of them and they are just fantastic, and Gary can tell you what 
they are doing.
    Mr. Green. The detailee's job description is actually 
called industrial hygienist, which is actually a specialty that 
requires specialty training and certification. The incumbent, 
who works directly in my office under my supervision, is an 
industrial hygienist with a little over 20 years' experience 
with OSHA.
    The job involves the technical side of employee safety and 
health. He is the person who knows how to test for asbestos or 
lead containment. He is the person who knows how to walk into a 
room and inspect it for compliance for electrical safety or for 
fire safety.
    In order to make OSHA work really well, you have to have 
well trained, experienced people in the law and in the 
sciences. And when you don't find them both in the sameperson, 
and you seldom do, what you need is what I have now, which is a good 
lawyer and a good industrial hygienist.
    Mr. Taylor. Moving on to other items, I want to ask about 
the power plant cooling towers. Now, you mentioned there were 
certain bacteria there. What action is being taken to eliminate 
that problem?
    Mr. Green. Well, I will take that question, too, because it 
was our inspector, our industrial hygienist I mentioned just a 
moment ago, who tested the water of the power plant and found 
the Legionella bacteria in high concentrations. The power plant 
management and the Architect have been very responsive to the 
hazard, very appreciative of it, and have begun to implement a 
number of engineering and design controls aimed at preventing a 
recurrence of this hazard.
    It is a specialized area. What is wrong with a power plant 
or a cooling tower that permits the generation of a lethal 
level of this kind of bacteria is something not a lot of people 
know about. From our budget we went out and hired a person who 
happens to be the recognized national expert on it from the 
private sector, and the power plant management cooperated in 
our bringing him in to do a complete inspection and a thorough 
report with a number of engineering and design control changes 
over the power plant, which are now being implemented.
    As of today, I can't tell you that all of his 
recommendations are being implemented, but I can tell you that 
the major ones, to my firsthand knowledge, are being 
implemented. So that is very encouraging.
    Mr. Taylor. Do you have adequate resources and is the AOC 
doing everything that it needs to be doing to take care of the 
problem?
    Mr. Green. At the moment, I would say that the AOC is 
making substantial effort, which may very well succeed. And if 
it doesn't, I am confident that additional measures will be 
taken. There is no tolerance or casualness about the problem on 
their side.
    Mr. Taylor. Recently, the House Inspector General found 
several fire safety systems that protect the House complex in a 
deficient status, and I am emphasizing the ``deficient'' word; 
that is the IG's word. Have your OSHA and other inspectors 
validated these findings?
    Mr. Green. Well, actually, we made our inspection first and 
published our findings first. And in many respects they 
corroborate and----
    Mr. Taylor. Before the IG?
    Mr. Green. Yes. As a matter of fact, one of the first 
things the IG did when he put together his inspection team on 
fire safety was to visit with us and sit through a briefing in 
which we told him the problems that we had seen based on our 
inspections, the likely conclusions we were going to put in our 
biennial report, and the problems we thought he would run into 
in terms of a divided and sometimes confusing array of 
jurisdictions here on the Capitol Hill campus.
    We haven't seen all of the Inspector General's report. As 
you know, portions of them have remained private. But I have 
written for those portions and am attempting to get them for 
use in my office so that we don't have to go through the same 
time-consuming inspections that he did again for our purposes.
    Ms. Silberman. Unsuccessfully, so far.
    Mr. Pastor. Why are they private, Mr. Chairman?
    Ms. Silberman. We don't know, but we haven't been able to 
get it. I just thought I would drop that in there.
    Mr. Green. The report just says there are a number of 
appendices to the part that was released to the public, and 
those appendices will be kept private. There is no public 
explanation for it, and our attempts to get it have been--over 
the telephone and by letter, have not been responded to so far. 
So I can't shed more light on it.
    [Clerk's note.--The following letter was submitted by the 
Office of Compliance:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Ed and I were just talking. Maybe we can get a 
meeting with the IG and you folks, and then we can see if we 
can't see that it is made public; and then you will have an 
opportunity to address it and act accordingly.
    Ms. Silberman. It doesn't have to be made public if it can 
be shared.
    Mr. Taylor. We don't have to do that. I guess when I say 
``made public,'' I mean made public to this committee and to 
your organization.
    [Clerk's note.--The following letter for the record was 
provided by the Office of Compliance:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Pastor. We have the three House buildings. If you had 
to rate them in terms of OSHA requirements and safety, how do 
we rate? Because I work here.
    Mr. Green. I am going to decline the opportunity to put a 
number on that, because I don't know how to do that. All I can 
tell you is that based on our inspections, you are about as 
safe here as you are going to be anywhere.
    Mr. Pastor. Have we met minimum standards? Are we past the 
minimum standards? These buildings are old; they now probably 
don't meet some codes in terms of having sprinklers and similar 
items, or how the electricity or the wires are in place.
    I think it is important we know the status of our buildings 
so that if we need to bring them into compliance, we can do it 
long-term.
    The reason I ask is just for my own information, because 
you walk through these buildings and you see where there may be 
some hazards. If you go through the Rayburn and you see wires 
go down the hallway to connect for a TV interview, you wonder, 
while these people are wandering here if somebody is injured, 
what kind of liability are we going to have.
    Ms. Silberman. Congressman, 2 years ago I was going to the 
appropriations hearing, I believe on the Senate side, and I was 
in a rush. We are all together----
    Mr. Pastor. Because you were going to the Senate or just 
because?
    Ms. Silberman. No, no, no. Maybe it was the House side. I 
can't actually remember. All I know is I walked smack into this 
huge planter, and I had a gash on my leg. And when they were 
asking questions about health and safety, I said I thought the 
compliance, that there was something lacking in the compliance 
because the Executive Director of the Office of Compliance had 
sustained a workmen's comp injury.
    But in our reports, which you all have--and we will be glad 
to leave more--generally the House buildings, with the 
exception of fire and safety, have come out pretty well.
    Mr. Pastor. What do you do when we set up a TV room for all 
the announcers with wires all over the floor and you have the 
public in the hallways running up and down? You begin to wonder 
what hazards are we creating, because we don't have adequate 
outlets for all the cameras.
    A couple of times I was worried that somebody might shock 
themselves by stepping on a wire, because you don't know how 
well these wires are insulated.
    Mr. Taylor. We are going to stipulate that the press is a 
hazard.
    Mr. Pastor. Well, I agree with that, too.
    Mr. Green. Next time, Congressman, that you see what you 
think may be a hazard to employee health and safety, there is 
my card. I would appreciate hearing from you.
    Mr. Pastor. Now, if I call you, can I expect an immediate 
response, or 2 or 3 days later?
    Mr. Green. Immediately, absolutely.
    Mr. Pastor. Okay, then I will be calling you, Mr. Green.
    Ms. Silberman. You are an ambulance chaser, Mr. Green.
    Mr. Green. I was in private practice.
    Mr. Taylor. Well, I would like to ask a question just as 
three friends, Ms. Granger and Mr. Pastor and myself--don't 
think of us as the committee that holds your financial life in 
jeopardy--but just about in correcting the cooling towers. Is 
there any danger from the Legionella bacteria right now, or 
have we caught it early enough and are we acting on it early 
enough that we won't have any problems with the program that 
you have in place?
    Mr. Green. Nobody can answer your question with certainty. 
We do know this: that the growth of Legionella bacteria to 
levels where it becomes a public health menace depends very 
much on temperature. During the winter, you don't expect to see 
an outbreak of Legionella, even from highly concentrated 
sources. This summer will be another test of the Architect's 
capacity to implement appropriate design and engineering 
changes to prevent what happened last summer from happening 
again.
    But until we get the temperature conditions, we can't be 
sure that the problem is licked. And even then there will have 
to be continuous monitoring of the water so that we know what 
is actually going on. And we have a commitment from the 
Architect that something will happen.
    [A question from Chairman Taylor and response follows:]

    Question. For the record, please insert all requests and 
dispositions of transfers and reprogramming made last year.
    Response. in FY 1998, no nonexpenditure transfers were requested or 
made between accounts. The following table lists the expenditure 
transfers that have made to other agencies for services rendered on the 
Office's behalf in FY 1998. No funds were reprogrammed between object 
classes.

------------------------------------------------------------------------
                  Agency Reimbursed                          Amount
------------------------------------------------------------------------
Library of Congress..................................            $48,950
Government Printing Office...........................              8,443
Dep't of Agriculture (National Finance Center).......              6,729
U.S. Postal Service..................................             17,787
General Services Administration......................             26,483
Federal Mediation and Conciliation Service...........             14,266
------------------------------------------------------------------------

    Mr. Taylor. Are there questions? Any others?
    Well, thank you very much for your presentation, and we 
will follow up on some of the items that we have talked about.
    Ms. Silberman. Thank you very much. And I just want to say 
again, as I started to say earlier, one of the reasons we have 
been able to do what we have been able to do is because we have 
always had the unstinting help of this committee and staff, and 
you have just been wonderful from the beginning.
    We thank you all.
    We have these 102(b) studies, if I can leave them.
                                         Tuesday, February 2, 1999.

             LEGISLATIVE BRANCH FINANCIAL MANAGERS COUNCIL

                               WITNESSES

RICHARD BROWN, GENERAL ACCOUNTING OFFICE, CO-CHAIRMAN
JOHN WEBSTER, LIBRARY OF CONGRESS, CO-CHAIRMAN
STUART PREGNALL, ARCHITECT OF THE CAPITOL
BETH BROWN, OFFICE OF COMPLIANCE
BRUCE HOLSTEIN, GOVERNMENT PRINTING OFFICE
JOHN STRAUB, DEPUTY CHIEF ADMINISTRATIVE OFFICER, HOUSE OF 
    REPRESENTATIVES
JOHN W. LAINHART IV, OFFICE OF INSPECTOR GENERAL, HOUSE OF 
    REPRESENTATIVES
    Mr. Taylor. Next we have the Legislative Branch Financial 
Managers Council.
    We will now take up the Financial Managers Council, a new 
entity that was formally recognized in the 1998 fiscal year 
appropriations bill and repeated in the 1999 bill. Section 307 
of the bill authorizes the expenditure of up to $1,500 of 
participating agency funds to be allocated to the council for 
administrative needs.
    For the benefit of the new members of the subcommittee, I 
would like to outline the history of this very small council.
    In 1996, in consultation with the Appropriations Committee, 
a group of agency financial officers banded together to form 
the Legislative Branch Financial Managers Council. Their goal 
is to improve financial management throughout the legislative 
branch of government.
    Such an undertaking is truly needed. The legislative branch 
does not have an umbrella organization comparable to what the 
Office of Management and Budget provides for the executive 
branch. OMB is the President's policy and procedure arm.
    In the absence of that function, this subcommittee, 
together with our Senate counterpart, has attempted to provide 
a limited amount of policy and procedural guidance. For 
example, the legislative branch telecommunications effort was 
instituted under authority enacted in the Legislative 
Appropriations Bill. This came after extensive hearings and 
investigations that were patterned after what the executive 
branch was contemplating with the Federal telecommunications 
systems project.
    Another endeavor has been the committee urging the use of 
standardized payroll systems and consolidated administrative 
service centers, such as the National Finance Center.
    In the executive branch, OMB overseas the utilization and 
implementation of these initiatives. It has fallen to this 
subcommittee to be the legislative branch impetus for getting 
the agencies within our funding jurisdiction into these 
programs.
    It is fair to say, though, that our ability to do this is 
limited. We look with favor on the Council's initiatives.
    I would like to welcome the co-chairmen of the Legislative 
Branch Financial Managers Council, Mr. Richard Brown, General 
Accounting Office; and Mr. John Webster, Library of Congress. 
We have your prepared remarks, and I will give you a chance to 
make a statement, if you so desire, just a summary and then we 
will go into questions.
    Anything you might like to say?
    Mr. Brown. I would like to introduce a few of the members 
here with us today, if we could, please. Stuart Pregnall, from 
the Architect of the Capitol; Beth Brown, Office of Compliance; 
Bruce Holstein, Government Printing Office; John Straub, House 
of Representatives; and John Lainhart, Inspector General's 
Office, House of Representatives.
    Mr. Taylor. Welcome.
    Mr. Brown. There is no need for us to say more about the 
statement. We can insert it in the record and go directly to 
your questions, if you wish, Mr. Chairman.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      ARCHITECT'S FINANCIAL SYSTEM

    Mr. Taylor. We will do that. Last year we asked you to 
review the plans of the Architect of the Capitol to adapt his 
internal accounting system so that it would be compliant or 
compatible with the year 2000 and improve its budgetary 
controls. Your group cautioned that the end result would be a 
general ledger accounting system that would not be compliant 
with Federal standards. As a result, the Architect redirected 
his efforts to eliminate the noncompliance problems.
    Have you followed up to learn how the AOC project is going; 
and we would like to know if it meets Federal standards.
    Mr. Brown. We have followed up with the Architect. They 
have begun a project to replace their current systems. They 
have hired a project manager and they are now in the process of 
evaluating system alternatives.
    They have not yet selected a system, so we are not in a 
position to determine whether or not their new system would be 
compliant with the standards. It is my understanding that the 
systems that the Architect is considering have been certified 
as compliant by the vendors. We will need to work closely with 
them as they get closer to selecting a system to make some 
determinations in that regard.

                          House Payroll System

    Mr. Taylor. Recently the Chief Administrative Officer of 
the House of Representatives has decided to replace our payroll 
recordkeeping and disbursement system with a modernized 
version. We are going to do away with the abacus that we have 
been using.
    We know your group has been consulted on this project. What 
can you tell us about the efforts and how they relate to the 
goal of standardizing financial systems?
    Mr. Webster. Thank you, Mr. Chairman. We are working with 
the House on this very important project. We are helping them 
analyze the available alternatives.
    The selection of a payroll system for the House will be 
guided by the requirements of the House, and the requirements 
of the House are somewhat unique. They are more unique than the 
requirements of the other agencies in the legislative branch. 
As a result, it will be more difficult to implement a payroll 
system for the House that may be shared with other agencies 
because of these unique requirements.
    I would like to give one example of a unique House payroll 
requirement. The House can have, for the same person, five 
different employment contracts; whereas in another agency, 
like, for example, the Library, one person can work at five 
different locations or on five different types of jobs but that 
person would still only have one employment contract. When this 
type of unique requirement exists, which is not a normal 
requirement in most of the vendor payroll systems in the market 
place, the payroll system will require some customization.
    Therefore, the ability of the legislative branch to have a 
standardized payroll system will become more difficult because 
of the unique House requirements.

        Legislative Branch Standardization of Financial Systems

    Mr. Taylor. Well, we were talking about some day, if it is 
possible, merging all the Legislative Branch systems. Is the 
direction the House is taking, compatible with that 
possibility?
    Mr. Webster. Yes, it is. In fact, a better example, I 
think, is the financial system. Right now the House is on an 
interim financial system which is also the same system used by 
a number of the other legislative branch agencies. The 
requirements for the House's financial system are much closer 
to the requirements of the other legislative branch agencies. 
There is not as big a difference in requirements.
    Therefore, I believe there is a very realistic chance of 
having a standard system in the finance area. And, in fact, the 
House, at the last council meeting, presented to the members 
the idea of working together on requirements for a new 
financial system. So, I think there is a good chance for a 
shared central financial system.
    The payroll system is another issue because of the unique 
House requirements.
    [Questions from Chairman Taylor and responses follow:]

    Question. Is it realistic for the legislative branch to strive for 
a common financial management system? What about a consolidated set of 
financial statements for this entire branch of government?
    Response. Yes. The councils goal is to operate an integrated 
financial management system in the legislative branch. We believe we 
can achieve this for our financial systems, but it may be more 
difficult for our payroll systems. Implementation of shared systems is 
dependent on whether agencies have significant unique requirements that 
require a separate, unique financial system solution. The legislative 
branch financial accounting requirements are more common or standard, 
but payroll rules are not. For example, the House has some unique 
payroll requirements that would make a shared system very difficult, if 
not impossible, to obtain. Shared systems would also be dependent on 
the availability of a host agency to run or a commitment to operate 
shared systems by legislative agencies.
    If legislative branch entities use the federal government's 
standard general ledger and follow standard guidelines and accounting 
practices, it would be possible to consolidate financial data for 
reporting.
    Question. What would the benefit be if we were to achieve these 
objectives?
    Response. Achieving the Council's objectives would yield several 
types of benefits. First, a single consolidated financial statement and 
audit would save money by reducing audit costs. For example, multiple 
auditor procurements would be eliminated, the auditors would have a 
different level of materiality and thus not spend time on the small 
stuff, and the same auditor would not need to repeat reviews of shared 
financial systems. Second, shared financial systems would save money by 
spreading the cost of maintaining the systems among the various 
agencies and eliminate duplication. Finally, a single consolidated 
financial statement and audit would contribute to an informed Congress 
and assure the public that legislative branch assets are being 
safeguarded, financial results are reported accurately, and laws and 
regulations are being complied with.

    Mr. Pastor. Can I ask something on that?
    Mr. Taylor. Sure.
    Mr. Pastor. Well, the difference is in the House, I guess, 
as compared to the rest of the agencies. What does it take to 
change it? Is there a rule change?
    Mr. Webster. I just gave you one instance of a unique 
requirement, there are others. To eliminate these unique 
requirements the House would need to change some of its 
business practices.
    Mr. Pastor. But they are doable?
    Mr. Webster. You would have to ask the House, but I believe 
they would be doable, yes.
    Mr. Pastor. My staff asked me when are they going to get 
paid every 2 weeks.
    Mr. Webster. That issue is another example of a unique 
requirement. Most of the other payroll systems are programmed 
for biweekly pay. In addition, there is no lag-time for the 
House payroll. In other words, most payroll systems are 
timekeeping driven, which requires a lag-time of about a week 
between the end of the pay period and the time the actual 
paycheck goes out the door. For the House, there is no lag.
    If the House went to biweekly pay, a House employee would 
get half of their pay early and half of their pay a week later. 
Biweekly pay would require a business practice change.
    Mr. Pastor. What has been the historical reason not to 
change the business practice? I am new to the game, so you will 
have to bring me up to speed.
    Mr. Brown. I don't know the answer to that, Mr. Pastor.
    Mr. Webster. From a legislative branch standpoint, it is 
very important to have common systems. To cite one small 
example, the House has the same financial system as the 
Library. And, when the House started to implement the 
electronic funds transfer (EFT), for their corporate vendor 
payments, the House was able to use a piece of the Library of 
Congress software that interfaced with our common financial 
systems. The House was able to use the Library's software as a 
starting point which saved time and money.
    Mr. Pastor. So it is a business practice in the House for 
the payroll system?
    Mr. Brown. Principally for the payroll system.
    Mr. Webster. Right.
    Mr. Pastor. Well, I will try to find out.
    Mr. Taylor. Other questions? Ms. Granger?
    Mr. Pastor. No.
    [A question from Chairman Taylor and response follows:]

    Question. For the record, please insert all requests and 
dispositions of transfers and reprogrammings made last year.
    Response. Not applicable.

    Mr. Taylor. Well, thank you very much for being with us, 
and we appreciate the work you are doing.
    We will meet at 9:30 tomorrow morning and continue our 
hearings, and the hearing today is adjourned.
                                       Wednesday, February 3, 1999.

                        JOINT ECONOMIC COMMITTEE

                               WITNESSES

HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
CHRISTOPHER J. FRENZE, CHIEF ECONOMIST TO THE VICE CHAIRMAN
    Mr. Taylor. We will call the meeting to order. I know that 
we are going to have some Members come in later, and Mr. Pastor 
is on his way.
    We are pleased to welcome the former Chairman of the Joint 
Economic Committee, our colleague from New Jersey, Mr. Jim 
Saxton. Jim chaired the joint committee during the 105th 
Congress, and he put this budget together. Jim is pinch-hitting 
today for Senator Connie Mack, who is the incoming Chairman. 
Senator Mack cannot be with us today, but Jim will very capably 
represent him, I am sure.
    The budget justification material has been printed in Part 
1, which has been distributed to the members.
    Mr. Chairman, your letter reflects a request of $3.2 
million. That is an increase of $104,000 above the current 
level, and your staffing level will stay at 38.
    I would like to see, if you have a statement that you would 
like to make. I know a formal statement will be placed into the 
record.
    Mr. Saxton. Mr. Chairman, thank you very much. It is a 
pleasure to see you here. I am sure that you will enjoy this 
assignment, as it is very important, and I know the great job 
that you did on your previous assignment. I bet it is safe to 
say that you are glad you are here.
    Mr. Taylor. You are right.

                        Savings from IMF Reform

    Mr. Saxton. Mr. Chairman, I will submit my statement for 
the record. It is a pleasure for me to be here to offer my 
strong support for the budget that has been submitted for 
fiscal year 2000. This budget will permit us to continue to do 
what, I believe, is the high-quality research and the high-
quality reports that we have been able to issue for use by 
Members of Congress and for the public at large.
    One of the things that I would like to point out relative 
to our activities over the past 2 years is that early in the 
105th Congress, the Administration submitted a request for an 
additional $18 billion to be appropriated for use by the 
International Monetary Fund. That gave us the opportunity to 
look into the workings of the International Monetary Fund and 
to explore the stated reasons for its existence and take part 
in its activities. It also gave us the opportunity to point out 
some things that we thought that the IMF could do differently, 
and perhaps operate more effectively so as to accomplish its 
stated mission.
    We pointed out five areas that we thought should be looked 
at in terms of making some changes. As a matter of fact, two of 
those areas finally found their way--or a version of our 
recommendations found its way--into law during the 
appropriations process.
    When we began to study the IMF, we found out that it was a 
fairly hard organization to study because it operates pretty 
much under a cloak of secrecy.
    We suggested to them over a period of time that they should 
open their doors and let us look in to see what they are doing 
with our money. Subsequently, the appropriators decided that 
would be a good provision to attach to the monies that were 
ultimately appropriated.
    We also noted that the IMF was making loans far below 
market interest rates. A reformed provision reducing these loan 
subsidies was attached to the United States appropriation for 
the International Monetary Fund. We believe that the 
contribution that we made in that regard was very important. In 
fact, the basis upon which those changes to the IMF were made 
originated with the Joint Economic Committee, and the studies 
that we did, and the recommendations that we made.
    Suffice it to say that more changes should be made to the 
International Monetary Fund, and those changes will be the 
subject of a fair amount of activity through the committee this 
year.

                           JEC Budget Request

    We have asked for a modest increase to permit us to 
continue to put on our staff qualified economists who are very 
good in helping me and other Members of Congress understand the 
relatively complicated, sometimes arcane, but extremely 
important, issues with which we deal. I might add that, working 
without the JEC, or an organization like the JEC, is in some 
respects, like walking down a blind alley.
    We thank you for the support that this committee has given 
us in the past, and hope that we will be able to proceed with 
the modest increase that we have requested.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Do you have the right mix of economists and 
other expertise on your staff.

                             JEC Resources

    Mr. Saxton. We believe that we have a wide array of 
economists. For example, when we began to become interested in 
the International Monetary Fund, we found that we needed 
someone with background in monetary policy. So we hired someone 
who had been employed by the Federal Reserve for slightly more 
than 12 years, Bob Keleher. Bob has been a great help in 
helping me to understand monetary policy, particularly as it 
relates to the IMF. I am not sure of the staffing requirements 
that Senator Mack has set forward. But when we staff up, we try 
to get a good mix of economists to help us understand those 
issues which are going to be before us.
    Mr. Taylor. I will venture to talk just a moment about the 
IMF. It is not the subject of this budget itself, but that is 
something that your committee is working on. I am familiar with 
it in Russia, and there is a lot of work to be done. I am not 
as familiar in Asia or Brazil, but a lot of our plans in Russia 
have probably exacerbated the problem more than helped. There 
is a wide array of people that would testify on that measure.
    Your major product is an analysis of the Economic Report to 
the President. When will you say that report will be ready?
    Mr. Saxton. We have not seen the President's Report yet. It 
is scheduled to be delivered to Congress, I believe, tomorrow. 
We are already examining a variety of issues that we expect to 
be used in the Report, and we will have our analysis of the 
Report done in a timely fashion. I can't tell you exactly when 
that will be, but we are just on the verge of beginning that 
process.
    Mr. Taylor. We added about $300,000, I think, in the 
conference of the Omnibus Bill at the end of last year. How 
were those funds used?
    Mr. Saxton. Those funds were used modestly to expand the 
size of the staff, and I might say to maintain the quality of 
the people that we have working for us. Obviously, this is a 
highly specialized field, and we try to get the best people we 
can, and we were very pleased to be able to use those monies in 
that way.
    Mr. Taylor. Is there any need for contracting out the 
economic analysis?
    Mr. Saxton. Sometimes it is more effective to contract out. 
For example, if we decide, or someone requests that the 
committee look into some very specialized area where you need 
very specialized expertise, there are two ways that you can get 
that expertise. You can hire somebody and keep them on staff, 
or you can find somebody on a contract basis to do a specific 
study over a relatively short period of time. We have used 
contracting out from time to time on those types of specialized 
studies.
    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. I have no questions, Mr. Chairman.
    Mr. Taylor. Thank you. We appreciate your work and your 
report.
    Mr. Saxton. My pleasure.
                                       Wednesday, February 3, 1999.

                    GENERAL ACCOUNTING OFFICE (GAO)

                               WITNESSES

DAVID M. WALKER, COMPTROLLER GENERAL OF THE UNITED STATES
JAMES F. HINCHMAN, PRINCIPAL ASSISTANT COMPTROLLER GENERAL
JOAN M. DODARO, ASSISTANT COMPTROLLER GENERAL FOR OPERATIONS
INDIA JENKINS, BUDGET OFFICER

                            Opening Remarks

    Mr. Taylor. We will now take up the budget of the General 
Accounting Office. The budget request is $389 million and 3,275 
FTEs. The funding includes $1.9 million that will be derived 
from offsetting collections. We have the newly appointed 
Comptroller General, the Honorable David Walker, and several 
members of his staff are with you today. Mr. Walker was 
appointed by the President and confirmed by the Senate. He was 
sworn in on November 9, 1998.
    Welcome, Mr. Comptroller General. We are pleased to have 
you. Before proceeding, would you care to tell us something 
about yourself, and then regarding your statement, we will have 
it entered into the record, and you can summarize it as you 
best see fit.
    Mr. Walker. Thank you.
    Joining me today is Jim Hinchman, who is the Principal 
Assistant Comptroller General, and was the former Acting 
Comptroller General for the last 2 years; Joan Dodaro, our 
Assistant Comptroller General for Operations; Dick Brown, who 
is the Controller for GAO; and India Jenkins, who is our Budget 
Officer.
    It is a pleasure to be here. I am new in the position. It 
is my third month of a 15-year term, so fortunately I have the 
ability to take a little longer-term view on things.
    My background includes 25-plus years of experience in the 
public and private sector. I previously ran two federal 
agencies. I was a trustee of Social Security and Medicare. I 
was global managing director for Arthur Andersen's human 
capital practice. I am also a CPA and have a variety of 
experience at executive management, financial management, human 
capital strategy, et cetera.
    I am pleased to be at GAO. Obviously, as you know, the 
Congress is our client. We represent your front-line troops in 
trying to achieve oversight of the executive branch and 
improving the economy, efficiency, and effectiveness of the 
Federal government. And while our name is the General 
Accounting Office, it is really a misnomer. Less than 20 
percent of our work is about accounting; we are really about 
accountability.
    With regard to our budget request for fiscal year 2000, we 
are not requesting an FTE increase. Almost all of our budget 
request, other than 1.9 percent of it, represents mandatories, 
such as cost of living increases, et cetera. The 1.9 percent 
represents certain targeted investments in several critical 
areas outlined in our budget request. I believe these are 
essential for us to be able to meet the needs of the Congress 
on a timely basis.
    As you probably know, our FTEs and resources have gone down 
significantly in the last few years. We are down 39 percent on 
head count. We are down 25 to 30 percent on the budget. But our 
mandates and congressional requests have gone up significantly, 
and, as a result we have very little flexibility. In 
particular, we are in a difficult situation with regard to 
things like performance rewards, where we are on an uneven 
playing field with the executive branch. We need to create a 
level playing field in order to attract and retain the talent 
that we need to do work for the Congress.
    The bottom line, I intend to engage in a comprehensive 
review of a number of areas in GAO in order to ensure our own 
economy, efficiency, and effectiveness. I think we have to lead 
by example. I would respectfully request your support for these 
modest increases, because I think they are critical for us to 
be able to get the most out of the resources that we have. I 
would be happy to answer any questions that you might have.
    Mr. Taylor. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         Employee Compensation

    Mr. Taylor. Your budget is up $32.2 million. A large part 
of that, as you said, is going to be for salary adjustments. 
How does GAO compare with the private sector, and what kind of 
salary increases does that budget contemplate in order to reach 
the parities you describe?
    Mr. Walker. We are a multidisciplinary professional 
services organization. In many ways, you can compare us in part 
to a Big 5 accounting and consulting firm. I have been a 
partner at Arthur Andersen, and I have been at Price Waterhouse 
Coopers. We have more diverse skills at GAO. Frankly, we do 
more important work. The bottom line is that our compensation 
is just not competitive with the private sector.
    Most of the people that join GAO come because they have a 
deep commitment to public service, want to have a more 
reasonable quality of life, or other circumstances. Our 
compensation increases relate to merit pay and cost-of-living 
increases. Those are the standard increases for the existing 
level of personnel.
    The other thing that I am asking for is to put us on a 
level playing field with the executive branch. Right now our 
performance rewards--our awards pool for performance and for 
results, not just for being there--equate to only one-third of 
the rewards rates in the executive branch. We have some of the 
best and brightest people in government. People are always 
looking to raid the GAO, both from within the government and 
the private sector. Frankly, we need to be at least on a level 
playing field with the executive branch with regard to our 
compensation system.

                        Performance Recognition

    Mr. Taylor. Maybe we ought to cut the executive branch.
    You have about $2.5 million in the budget for performance 
rewards. Can you be a little more specific in how you would 
award those?
    Mr. Walker. Part of that figure would be for executives, 
and a lot of that would be for nonexecutives. We are going 
through a strategic planning process right now. We will 
complete that strategic plan by the end of this fiscal year. We 
will then make sure that our performance measurement and 
evaluation systems are aligned with our strategic plan. With 
this request, we will then have a pool of money that we can use 
to reward both group performance, which I believe is important 
in a multidisciplinary organization, as well as individual 
performance. Awards will be based upon performance results and 
will be linked with our strategic plan.
    Conceptually, that is how we will deal with it, Mr. 
Chairman. I think it might give you some comfort to know that I 
had global responsibility for running a human capital services 
practice where performance measurement rewards were one of the 
biggest parts of that business. I can assure you that our 
awards will be based on results and performance.
    [A question from Chairman Taylor and response follows:]

    Question. Giving awards for work that is demonstrably above and 
beyond the expectation in a position provides real incentives to the 
workforce. But many times performance rewards are given for doing a 
really good job, when a really good job is expected from every 
employee. Do you have a philosophy on performance rewards that 
distinguish between those approaches?
    Response. A performance awards program must provide a meaningful 
differentiation in performance and recognize a variety of performances. 
Performance awards must be based on results and performance, and they 
must be linked to agency goals and objectives. In a matrix management, 
professional services organization such as GAO, awards should recognize 
both individual and team-based performance. Performance awards must be 
for noteworthy achievements, such as work results, products, or 
services that substantially contribute to achieving GAO's mission, 
goals and objectives or providing outstanding service to GAO's internal 
and external customers, particularly the Congress, as demonstrated by 
timely, responsive, proactive delivery of high quality information and 
products.
    As I stated, we are implementing a new strategic planning process 
that will be completed by the end of this fiscal year. The strategic 
plan will identify, among other things, GAO's goals and objectives for 
the next 5 years, focusing on specific aspects of our mission and 
assistance to the Congress. Once that plan is completed, our human 
capital program, including performance awards practices, will need to 
be aligned with that strategic plan. Any awards performance must be 
made based upon how an individual's or team's performance and results 
contribute to achieving GAO's mission and serving the Congress.
    An appropriately designed and absolutely funded performance awards 
program is critical for a successful human capital strategy. GAO's 
awards program, however, has not been adequately funded. During GAO's 
downsizing period, all monetary awards programs were suspended because 
GAO management concluded it was inappropriate to give out cash awards 
and conduct a reduction-in-force at the same time. Today, GAO's awards 
program is less than one-third of what the executive branch spends for 
its employees. As an employer, GAO has been at a competitive 
disadvantage and has lost dozens of managers and skilled staff to other 
federal agencies. GAO's funding of its performance awards program needs 
to be competitive with the rest of the government in order to help it 
attract and retain high caliber, skilled staff, particularly at a time 
when its workforce is aging and increasing percentages of staff are 
becoming eligible for retirement. The additional funds that GAO is 
seeking for its performance awards program will also help ``level the 
playing field'' with the executive branch.

                           Contract Services

    Mr. Taylor. How about for contract services, you have a 
half million dollars there.
    Mr. Walker. We have several requests for contract services. 
One request is for the human capital area. While we have a lot 
of bright and talented people within the government, in general 
my view is that the government needs to pay a lot more time and 
attention to human capital strategies. I am a big believer that 
you cannot maximize the performance of any organization without 
effective human capital strategies. In fact, I am a published 
author on that topic.
    I believe we need to engage in a fundamental reassessment 
of our human capital strategies, organizational alignment, 
staffing patterns, number of field offices that we have, 
performance measurement reward systems, and training programs. 
A lot of this reassessment can be done by internal people. But 
I believe it is important to bring in outside experts to team 
with our people to make sure that we look at best practices 
within and outside GAO, and make sure that we have adequate 
capacity to get the job done within a reasonable time frame. We 
also need to make sure that we look outside the box and not 
just consider what has been done historically at GAO.
    This would be a special purpose request rather than a 
baseline request. It is something that I believe would result 
in improvements in our efficiency and flexibility in future 
years, and, therefore would reduce increases we might need in 
the future.
    Mr. Taylor. I understand that sometimes you get a good look 
at yourself through someone else's eyes outside your agency, 
but wouldn't it be better to consult your congressional clients 
and get the viewpoint from that perspective since they are the 
ones that you are serving rather than going to an outside 
expert?

                     Impact of Legislative Mandates

    Mr. Walker. Mr. Chairman, I am glad you mentioned that. It 
is a great question.
    Mr. Taylor. Couldn't you do that with your own staff?
    Mr. Walker. I am glad you asked that because priority one, 
and you can talk with the executives at GAO, is client service. 
The Congress is our client. I have met with about 30 percent of 
the Members in the House and Senate so far. I know a number of 
the Members personally, and I have gotten a lot of feedback 
already.
    We are working diligently to enhance our client 
satisfaction, to make sure that we get input from our clients 
before we develop our strategic plan, and to make sure that we 
get feedback on a recurring basis from our clients as to what 
we are doing right, what we can do better, and how we can serve 
them better. So absolutely, positively, we are doing that. We 
will do that within our existing resources and personnel.
    Really what this relates to, Mr. Chairman, is after we 
complete the client outreach effort, which will continue, and 
our strategic plan, we will have the needed baseline of 
information. Then we ask, how are we aligned to meet those 
needs, and are our performance measurement rewards systems 
structured to get that done? That is what the funding would be 
for.
    Mr. Taylor. Don't get too enamored with outside 
consultants, or Congress might decide to eliminate GAO and, 
when we have a need, get outside consultants.
    Mr. Walker. Even though I have been with two outside 
consulting firms and a global partner with one, I recognize 
that there are times when consultants can be helpful, but there 
are certain things that you cannot outsource.
    In my view, you have a tremendous amount of institutional 
memory at GAO. And with the reduction in staff, increasing 
turnover, and frankly, not as much experience on the Hill, 
there are not as many people like Ed up here as there used to 
be. GAO is the Congress's institutional memory to a growing 
extent, and GAO obviously doesn't have independence problems. 
GAO also has more disciplines that we can bring to bear on a 
problem than the private sector can.
    So I do believe in using contractors, but I believe in 
using them when you are looking for additional capacity, when 
you are looking for selective expertise that you don't have 
internally, or when you are looking to supplement your 
resources in a situation where you have a one-time or short-
term need.
    [A question from Chairman Taylor and response follows:]

    Question. Mr. Walker, we have found that outside contractors can be 
of immense help to GAO in its program evaluations and financial audits. 
The benefit is that they can be called in; you get a fresh look at 
problems, and produce a highly professional product. You also need not 
hire them again if they do not perform well, or if you see a bias in 
their work. That is so superior to an entrenched bureaucracy. We 
encourage you to think about utilizing that approach at GAO. You may 
want to use attrition or some other reengineering technique to generate 
the funds needed to replace those resources with ad hoc consulting 
assistance. Do you have any plans along those lines?
    Response. As part of the strategic planning process, we are meeting 
with members of the Congress and committees to identify their needs and 
areas in which GAO should focus its attention over the next 5 years. 
Once complete, the strategic plan will determine our needs for core GAO 
staff and identify areas in which we can supplement staff with contract 
assistance.
    GAO uses contract audit support for a variety of purposes, ranging 
from data collection and analysis to full-scale reviews. Our largest 
efforts are in conducting legislatively mandated financial audits. GAO 
also has been instrumental in encouraging and facilitating the use of 
public accounting firms by Chief Financial Officers (CFOs) and 
Inspectors General (IGs) throughout government. In fact, most of the 
IGs use contractor support for major components of their financial 
statement audits.
    Using contractors makes especially good sense when 1) GAO lacks 
expertise, 2) there is not enough work in a particular area to justify 
hiring full time GAO staff, or 3) GAO lacks the capacity to complete 
work within required timeframes.
    Using GAO staff makes especially good sense when 1) GAO's 
institutional knowledge and experience is important, or 2) using GAO 
staff would be less expensive then using contract staff.
    GAO is trying new approaches to staffing. For example, we have 
begun hiring staff on term appointments to address bodies of work that 
do not require permanent staff.

    [A question from Mr. Hoyer and response follows:]

    Question. Congress seems to be focusing more on outsourcing through 
GAO for studies and major audits. Is this a good thing for GAO, 
Congress or the government generally?
    Response. GAO uses contract support for a variety of purposes and 
has been instrumental in encouraging and facilitating the use of public 
accounting firms by CFOs and IGs throughout government. The 
determination to outsource work should be made on a case-by-case basis 
and consider a number of issues. In general, outsourcing should be 
considered when GAO does not have enough resources or the needed skills 
to complete the job within the required timeframe. GAO itself will 
contract for selected skills and personnel in instances when it does 
not make sense to maintain full time staff in the area (ie, inadequate 
recurring demand), when we can not attract and retain persons with 
certain skills (eg, due to compensation limits) or where we need 
additional human capitol resources to meet a nonrecurring project. At 
the same time, when GAO is tasked to outsource a study, we provide 
oversight to ensure the integrity of the audit and evaluation process 
and the availability of information once the study has been completed.

                       Work Process Reengineering

    Mr. Taylor. Can you tell me about work process 
reengineering? You have budgeted $500,000 for that.
    Mr. Walker. Mr. Chairman, one of the important things that 
we are doing is to make sure that we are serving our clients 
well, that we are producing a quality product on a timely basis 
for a reasonable cost. One of our goals is to look at how we do 
what we do.
    Over half of our resources are dedicated to the issuance of 
so-called blue cover and other types of reports.
    About 5 years ago, GAO engaged in a comprehensive review of 
its job processes that resulted in some efficiencies. It is 
time to do that again. It is particularly critical that we do 
so because we are going to have feedback from the client 
satisfaction process that we will need to react to. In 
addition, we are down to where only 4 percent of our audit 
resources are used for self-initiated jobs; 96 percent of the 
audit resources used in fiscal year 1998 are either mandates, 
or they are congressional requests. We need to have more 
flexibility than that. The only way we are going to get more 
flexibility with existing resources is to reengineer our 
processes to try to streamline things while improving the 
quality and timeliness of what we do.
    [Question from Chairman Taylor and response follows:]

    Question. Please provide a list of GAO's mandates.
    Response. Attached is a list of outstanding mandates as of 
February 11, 1999.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. For the record, let's insert all reprogramming 
requests and dispositions.

                           Source of GAO Work

    Mr. Pastor, do you have any questions?
    Mr. Pastor. I have a question. This is my second day on the 
job, but I have seen where personnel has been downsized. And 
while you once had a balance with mandated audits and self-
initiated audits, now it is being skewed toward almost all 
mandated audits. Is that due, to the downsizing, or what do you 
attribute that shift to?
    Mr. Walker. Two things. First, reduced resources, reduced 
head count; second, increasing mandates by the Congress.
    We have some graphs in our submission that I would 
recommend to you. Some are in the material and some we can 
provide as supplemental information if you desire.

                           Changing Workload

    What you will see is that the legislative mandates have 
gone up significantly. In addition, our congressional requests 
are starting to increase, however, we have only a finite amount 
of resources.
    The client comes first. If the Congress says by law or 
conference report that we have to do something, that is going 
to be our first priority. If we get a request from a committee 
or Member of Congress, that is our second priority. So, 
therefore, by definition, self-initiated work gets squeezed.
    GAO needs to have flexibility to do self-initiated work. It 
needs more than 4 percent. Some of our best work has come from 
self-initiated work: our high-risk series, which has been 
critically acclaimed both domestically and internationally; our 
new performance and accountability series, which we were going 
to do on our own and then we got a request; the work that we 
did on S&Ls; and the work that we have done with regard to food 
safety. A lot of these things--S&Ls in particular--has been 
some of our best work. This work resulted in saving billions 
and billions of tax payer dollars.
    Realistically, in my opinion, the Congress tends to be 
focused on more immediate concerns, and that is understandable. 
But it is critically important that in addition to focusing on 
short-term concerns, the GAO, with the benefit of my 15-year 
term and our institutional memory, needs to focus on emerging 
issues. Though these issues may not be crises today, we need to 
deal with them and we need to allocate some resources to these 
issues so we can get that information to Congress so they can 
act before the issues become crises. So, head count has a lot 
to do with it.

                          Self-initiated Work

    Mr. Pastor. To the question of work in process 
reengineering, I am assuming that this is a study that may show 
that the mandates are so heavy on the time and personnel that 
the self-initiating reports you may want to do you can't do 
because you don't have the personnel. You can only fine-tune 
something so far.
    Mr. Walker. Right.
    Mr. Pastor. So are you of the philosophy that the self-
initiating reports or studies are important enough that you may 
come back next year and say, we may have to rethink the number 
of personnel because I maxed out in terms of what I can do?
    Mr. Walker. My preliminary view is that about 15 percent of 
our job reports need to be self-initiated. We need that amount 
of flexibility. What I would like to be able to do is get these 
targeted investments, that are not baseline increases, and try 
to see what we can do to improve the efficiencies of our 
systems, to see how far toward that 15 percent we can go 
through maximizing the efficiency and effectiveness of the 
resources that we have. Depending on the results of our review, 
there may or may not be a need for additional resources. I want 
to get the most from what we have before I ask for anything 
else. But that is why these resources are needed.
    Mr. Pastor. As I understand your plan, you want consultants 
and maybe self-analysis so that you can formulate a plan that 
will take you to the future, the specific plan that you talked 
about?
    Mr. Walker. Yes, the strategic plan is going to be the 
result of our outreach to the Congress, which is our client, 
our self-analysis, as well as our outreach to other interested 
parties that are knowledgeable in areas that we deal with. 
First the client, second ourselves, and third other sources.
    Then what we will do is look at our human capital 
strategies, and we will make sure that our organizational 
alignment, our field office structure, the number of issue 
areas that we have, and our performance measurement/reward 
systems make sense. That will be done using a team approach 
with internal personnel and selected outside consultants 
supplementing them to make sure that we get best practices and 
are thinking outside the box.

                      Duration of Self Assessment

    Mr. Pastor. What is your time line?
    Mr. Walker. I want to be done with the human capital 
assessment as early as possible next fiscal year. Obviously, we 
need some funding to get it done. The fiscal year doesn't start 
until October 1. That means, from the standpoint of the 
external consultants, we can't do it until October 1. There are 
a lot of things that we are doing internally right now to be 
prepared when we get the funds. If we get the funds, we will be 
prepared for a fast start and get it done probably in 6 months.
    Mr. Pastor. So you are talking June of next year?
    Mr. Walker. No later than June of next year.
    Mr. Taylor. Mr. Pastor, we could reprogram past budget if 
we needed the money earlier.
    Mr. Pastor. I am trying to get a sense of time, because 
here we are in February. We are talking about October, and now 
we are talking about June of the year 2000. So rather than 
cause you to have to delay the planning effort, maybe that is a 
solution.
    Mr. Walker. If we can get supplemental resources.
    Mr. Taylor. No, no. We can't. But we can reprogram and 
maybe make it up in the next one.

                         GAO Performance Awards

    Mr. Pastor. How are you going to tie in your performance 
evaluations and bonuses? Are you going to give the bonuses as 
you are developing a plan?
    Mr. Walker. First, we have a modest amount of money for 
awards now, and people are obviously meritorious of awards. 
When we get the additional funds, next fiscal year, we will 
have our strategic plan. We will have looked at our performance 
measures, and we will have a more objective basis on which to 
issue awards.
    There will be three primary factors for issuing awards 
primarily to management: Number one, results, quantifiable 
results, outcomes from the work that we do; second, client 
satisfaction, and that ties with the client satisfaction 
process, the outreach process; and third, employee 
satisfaction.
    We are working on client satisfaction. We have started 
working on our outreach effort. We are working on human 
capital, but I need some outside help to fill in that human 
capital dimension to make sure that we can fill that element of 
the evaluation.
    Jim Hinchman has done an excellent job as Acting 
Comptroller General. If you look at our statistics, GAO has 
improved its overall productivity despite significant 
reductions in resources. On the other hand, timeliness as 
referred to in our statement is based upon when GAO agreed to 
deliver the work. I think it is more important to define 
timeliness as when the client needs the work because there may 
be a gap between those two goals. We have to rethink our 
measures to make sure that they are focused on the client and 
make sure what we have been doing is appropriate.

                         Performance Standards

    Mr. Pastor. You currently have performance standards as 
people are being evaluated. Are your performance standards to 
demonstrate better performance where they qualified for a 
bonus, are they being developed internally?
    Mr. Walker. It will be a combination. In my opinion, our 
performance measurement/reward systems do not adequately 
differentiate performance between individuals. They do not 
provide adequate feedback to our employees and do not represent 
enough dispersion in performance among people where you can 
make meaningful decisions regarding who should get a reward and 
who should not, and what the difference should be. GAO is 
better than most Federal agencies. This is a problem that 
exists in the whole Federal government.
    I am committed to make sure that we get our strategic plan 
updated, we do our client satisfaction surveys; we work on our 
job process, and our performace measurement/reward systems. We 
will also link rewards to our strategic plan, and there will be 
a meaningful differentiation in results and meaningful 
differentiation in rewards.
    By the way, performance rewards are not just money. There 
are a lot of things that we can do and are doing and more that 
we could do that are nonmonetary. But, frankly, we have so much 
wage compression right now, in our SES levels 5 to 8, and next 
year it is going to include level 4. All levels make the same 
amount of money, and every year they keep getting squeezed and 
squeezed and squeezed. If you look at how marketable our people 
are and that 50 percent of the people in SES are going to be 
eligible for retirement in 4 years, we are going to have to 
start doing something or else we are going to have a flight of 
intellectual capital that is going to hurt the Congress and the 
country.
    [A question from Mr. Hoyer and response follows:]

    Question. Nearly 60 percent of your workforce will reach retirement 
age within 5 years. How do you plan to cope with the threat of an 
exodus of your institutional memory?
    Response. The number and composition of staff eligible for 
retirement varies each year. In 1999, about 16 percent of our executive 
staff and 11 percent of the audit and evaluation staff will be 
retirement eligible. By 2004, about 60 percent of the current 
executives and 34 percent of the current evaluators will be retirement 
eligible.
    Historical data indicate that all retirement eligible staff will 
not leave in the first year of eligibility. Additionally, given the 
average length of service for GAO employees, when those of retirement 
age leave, a significant reservoir of institutional memory will remain. 
Importantly, we have hiring plans in place to fill critical areas as 
needed, and efforts are underway to develop a 5-year strategic plan to 
establish clear program goals and objectives to help ensure we will be 
well prepared to continue addressing critical issues in the future. 
This effort will be complemented by a comprehensive human capital 
strategy review that will include a skills gap analysis and succession-
planning component.
    While the above reference actions will help to reduce our loss of 
institutional memory, we are likely to experience much higher 
retirement rates in the future. We believe that it is extremely 
important that we obtain a reasonable level of performance award, 
training, and travel funds to help stem this potential exodus. We also 
believe that action needs to be taken to deal with the increasing wage 
compression at the executive levels. This increasing wage compression 
combined with the marketability of GAO professionals and the strong 
economy serves to place the agency ``at risk''. This risk will increase 
significantly if the existing wage caps are not raised and modified on 
a more frequent base.

    Mr. Taylor. Are you recommending raising the age of 
retirement then?
    Mr. Walker. No, Mr. Chairman, I am not.
    Mr. Pastor. On compression, you have X number of 4s, and 
now because of seniority they are getting up at the higher 
grades. Now, is the problem that you don't have enough 5 slots 
available?
    Mr. Walker. No, it is not a matter of that. We have a 
certain number of SES slots.
    Mr. Pastor. What is causing the salary compression?
    Mr. Walker. It is because there is a cap on how much SES 
professinals can make.
    Mr. Pastor. Step 10, grade 4, for example?
    Mr. Walker. There is a cap on how much SES staff can make, 
and it is linked to congressional pay.
    Mr. Pastor. See, that is good to know. We are helping our 
employees.
    Mr. Walker. There are certain limits on how much a Federal 
government employee can make in different positions. My point 
is that those limits have become more and more confining. Many 
of those limits are tied to congressional pay. As the 
government moves more towards being performance-based, that 
will need to change. And I am hopeful, frankly, that the GAO 
might be able to be a model for the Federal government in the 
area of being a high-performance organization and that we might 
move toward being more performance-oriented in how our people 
get compensated. But I have to work with the Congress to do 
that. Right now, I am going to work within the confines of what 
we have.
    Mr. Pastor. So your pay or the executive level is linked to 
the congressional salaries?
    Mr. Walker. Yes. To the executive schedule, which is linked 
to congressional salaries. There is the linkage.
    Mr. Taylor. We will see them with signs which say, ``Raise 
Congress' salaries''.
    Mr. Pastor. He will be our best advocate.
    Mr. Walker. We are all for you, Congressmen.

                        Reducing Printing Costs

    Mr. Pastor. Have you seen other areas in the agency where 
you think that you might be able to save money? Maybe the 
Congressional Record?
    Mr. Walker. Printing you mean?
    Mr. Pastor. Yes.
    Mr. Walker. I am taking a hard look at that area. We have 
certain constraints. The GPO has a monopoly on certain types of 
printing. Ironically, we are in a situation where we do 45 
percent of our printing in-house because printing is integral 
to our business. We are a knowledge business. We are an 
intellectual capital business. Our blue cover reports, et 
cetera, are our products. We do about 45 percent of our own 
printing, so we incur the costs, and yet GPO gets 85% of the 
revenue from the sale of our publications.
    Something is wrong there. I am taking a hard look at that 
to try to find out what, if anything, can be done in the 
context of current law. Or to the extent that we need somebody 
to take a look at change, we need to determine what that change 
might be without setting an adverse precedent for the entire 
government, because I do believe that GAO is a unique 
organization. We procure services that GPO does not provide. We 
contract for distribution of our reports including retrieval 
and distribution electronically or through microfiche. GPO does 
not do all that.
    And so we have a situation now where we are doing part of 
our printing, GPO is doing part of it, and outside contractors 
are doing part of it. We incur the costs, and they get the 
revenue. So we are, on a priority basis, taking a hard look at 
that and trying to find out what we can do to economize there 
or make it more equitable.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Taylor. Stop revenue to GPO is my third recommendation.
    Mr. Walker. Keep revenue for GAO.
    Mr. Taylor. I didn't have that part.
    [A question from Mr. Hoyer and response follows:]

    Question. Given that much government printing work is done by the 
Defense Automated Printing Service, the National Technical Information 
Service, and otherwise, and since you do 45 percent of your own 
printing, how can the Government Printing Office be a monopoly?
    Response. While there are limited exceptions, including those 
granted by the Joint Committee on Printing, the Government Printing 
Office effectively has a statutory monopoly over printing for the 
federal government--either by contracting with commercial sources or 
producing work in-house. GPO also controls distribution, pricing and 
allocation of revenues for government documents through sales agent 
contracts. GAO has addressed GPO's printing monopoly in several 
reports. In 1990, we pointed out that GPO's monopoly-like role in 
providing printing services perpetuates inefficiency because 
centralized control permits GPO to be insulated from market forces. As 
a result of its monopoly, the agency did not have incentives to improve 
operations and processes that would insure quality services at 
competitive prices. Government Printing Office: Monopoly-Like Status 
Contributes to Inefficiency and Ineffectiveness (GAO/GGD-90-107, Sept. 
26, 1990). See also Government Printing: Legal and Regulatory Framework 
is Outdated for New Technological Environment (GAO/NSIAD-94-157, April 
15, 1994); and Management Reform: Implementation of the National 
Performance Review's Recommendations (GAO/OCG-95-1, Dec. 5, 1994).

    Mr. Taylor. Mr. Wamp, we are delighted to have you with us.

                       Use of GAO by Congressmen

    Mr. Wamp. Thank you, Mr. Chairman. I want to encourage you 
because this drain in the work force problem is a problem all 
across the Federal government. I run into it everywhere I go. 
It is a big problem. Be as proactive as you can there.
    I wonder how many Members of Congress really know how to 
use your organization? On our Interior Subcommittee during the 
last few years, we have really had the Park Service and other 
Interior agencies do studies and develop data on how they can 
better reach their customers and inform their customers. I just 
wonder more specifically what you are planning so that Members 
of Congress, particularly newer Members of Congress will know 
how to use your organization more effectively? Obviously you 
are going to have to educate a lot of Members of Congress on 
what you do, how you do it, and why it is a necessary 
expenditure for this subcommittee.
    Mr. Walker. That has a direct bearing on our congressional 
outreach effort. Under a program that we are designing now as 
part of our strategic planning, we are reaching out to key 
staff and Members to get input on our agenda. Our Assistant 
Comptrollers General and I are meeting with the leadership in 
the Senate and House over the next few months to try to get 
their feedback on these issues. We are going to update our 
communications materials and make them more concise and 
targeted to try to educate people in this regard.
    I have talked to some of my colleagues in the legislative 
branch, for example, Dan Mulhollan, at CRS, to try to find out 
what they do and what we can do cooperatively with new Members 
to try to educate them as to the capabilities of the 
legislative branch agencies and to provide more integrated 
solutions. We do a lot of things with CBO where they run the 
numbers, but we come up with various options. What can we do to 
team together to communicate and educate new Members?
    Many Members use us heavily, and other Members have no idea 
who we are, and we have a responsibility to reach out to them. 
The problem is that once we do, we may end up getting more and 
more requests, and we have a finite amount of resources. We are 
already down to only 4 percent flexibility for self-initiated 
work. All the more important to do the kinds of things that we 
are talking about so when we do this outreach, we don't end up 
getting a tidal wave that we can't respond to.
    One last thing on that. I, along with our executive staff, 
are working on a set of congressional protocols. I have talked 
to the leadership in the House and the Senate. Specifically, 
there is a 10-member commission that came up with candidates 
for the CG, the Majority and Minority leaders, Ranking and 
Minority Members of the Governmental Affairs and Government 
Reform Committee and others, that I am trying to work with to 
finalize this set of protocols for how we are going to set our 
priorities, and how we are going to interact with the Congress 
to try to deal with some of these issues if we do end up 
getting more demand than we can deal with and make sure that we 
are focused on the right thing.
    Mr. Wamp. In terms of setting priorities as to what you can 
and cannot do, you will have to say this is the threshold you 
must meet in order for us to extend our resources in order to 
get to the bottom of this?
    Mr. Walker. Right, and to set our priorities. Obviously, if 
we have a legislative mandate, that is priority one. Congress 
has spoken as an institution.
    If it is a Chair of a committee, with the Chair comes a 
responsibility for setting the agenda and a responsibility for 
leadership. That is a high priority.
    But the Minority has to be able to get some resources. If 
it is a committee request, it should be higher than a Member 
request. If it is a Member who is on a relevant committee of 
jurisdiction, maybe that should be higher priority than a non-
Member, but we need to come up with that priority and make it 
transparent. People don't understand what our priorities are. 
That is part of the outreach and education process, because 
basically we are about good government. It shouldn't make any 
difference who is the Majority and Minority party, GAO's 
approach ought to be the same, and that is what we are 
dedicated to do.
    Mr. Wamp. Do you feel right now that very little of your 
time is wasted? With some of the reports, if you were honest 
with yourself, would you say, ``We don't have any business 
doing that?''
    Mr. Walker. We are taking a hard look as part of our 
congressional protocols and other efforts, at what can be done 
to make sure that mandates are really in the interest of the 
Congress and the country; second we are trying to provide 
incentives for people to think before they ask us to do 
something; and third, in situations where the work may be a dry 
hole or where it may not make sense to continue the work, to 
make sure that we are advising the Member up front so we can 
cut our losses early. That has to do with job process 
reengineering and the outreach effort, but I think we have a 
responsibility to do that.
    Mr. Wamp. Thank you.
    Mr. Taylor. I would hope that you would consult with the 
Appropriations Committee as part of your consulting because we 
are responsible for a lot of the requests.
    Mr. Walker. We will.
    [Questions from Chairman Taylor and responses follow:]

    Question. For the record, insert all reprogramming requests 
and dispositions.
    Response. There are none to provide.
    Question. Please provide the committee the customary 
staffing and workforce statistics.
    Response. Insert follows.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Thank you. I appreciate your presentation 
today.
    Mr. Walker. Thank you, Mr. Chairman. We will consult with 
you, I can assure you of that. We know that the person who 
controls the money is very important in connection with our 
budget and in other respects as well. Thank you.
    [Question from Chairman Taylor and response follows:]

    Question. Please provide an update on legislative branch 
Year 2000 (Y2K) efforts.
    Response. GAO is currently reviewing the status of 
legislative branch organizations' programs to address the year 
2000 computing issue. We have periodically briefed the Senate 
and House Appropriations Subcommittees on the Legislative 
Branch on our ongoing work. Each of the legislative branch 
organizations have made progress in renovating, validating, and 
implementing their mission-critical systems. However, the 
legislative branch still faces challenges in thoroughly testing 
all mission-critical systems, conducting end-to-end tests of 
critical core business processes, and developing and testing 
business continuity and contingency plans.
                                       Wednesday, February 3, 1999.

                       GOVERNMENT PRINTING OFFICE

                               WITNESSES

MICHAEL F. DiMARIO, PUBLIC PRINTER
ROBERT T. MANSKER, DEPUTY PUBLIC PRINTER
FRANCIS J. BUCKLEY, JR., SUPERINTENDENT OF DOCUMENTS
WILLIAM M. GUY, BUDGET OFFICER
CHARLES C. COOK, SR., SUPERINTENDENT, CONGRESSIONAL PRINTING MANAGEMENT 
    DIVISION
ANDREW M. SHERMAN, CONGRESSIONAL, LEGISLATIVE, AND PUBLIC AFFAIRS 
    DIRECTOR
MARY BETH LAWLER, SPECIAL ASSISTANT TO THE PUBLIC PRINTER
    Mr. Taylor. We will now consider the fiscal year 2000 
budget from the Government Printing Office. We want to welcome 
Mr. Michael DiMario, the Public Printer, who is with us.
    The 2000 budget request totals $128.5 million. There are 
two appropriation accounts involved: the Congressional Printing 
and Binding appropriation and the Superintendent of Documents 
program.
    In addition, under the Government Corporation statutes, the 
appropriation bill authorizes the operation of the GPO 
revolving fund that finances all printing that flows through 
GPO. This includes executive and judicial branch printing and 
printing obtained by GPO from commercial sources for those 
branches of government.
    Although the revolving fund is normally self-sustaining 
through customer billings and reimbursements, the agency has 
asked for a $15 million appropriation for the revolving fund 
for three specific items.
    Now, before proceeding, Mr. DiMario, you might like to 
introduce your staff, the people who are with you.
    Mr. DiMario. Immediately to my right is Mr. Francis 
Buckley, the Superintendent of Documents. We have Mary Beth 
Lawler, who is an assistant to me; Bob Mansker, our Deputy 
Public Printer; Andrew Sherman, who is our Congressional and 
Public Affairs Director; William Guy, who is our Budget 
Officer; and Charles Cook, who is our Congressional Printing 
Management Director.
    Mr. Taylor. Thank you. We have entered your full statement 
in the record and we will let you give us what part of it you 
desire.

                       Public Printer's Statement

    Mr. DiMario. I have a brief summary of it.
    Mr. Taylor. Certainly.
    Mr. DiMario. And I will start with our request and thank 
you for asking us to be here this morning.
    As you have noted, we are requesting a total of $128.5 
million. The request includes $82.2 million for Congressional 
Printing and Binding appropriations and $31.2 million for the 
Superintendent of Documents salaries and expense program. It 
also includes $15 million for GPO's revolving fund for 
extraordinary expenses associated with air-conditioning 
replacement, elevator renovation, and ensuring the year 2000 
compliance.
    Most of the new funds we are requesting for Congressional 
Printing and Binding--$5.8 million--are to cover anticipated 
workload increases. After a period of reduced workload in the 
105th Congress, we anticipate a return to workload levels more 
consistent with historical trends during the 106th Congress.
    We are continuing to participate with the House and Senate 
in the development of new legislative informationsystems that 
will expand the capability to create and utilize electronic information 
products in Congress. One objective of these systems is the adoption of 
Standard Generalized Markup Language, SGML, to permit the submission of 
machine-readable keystrokes requiring less processing by GPO prior to 
final production.
    The majority of the increase for the Superintendent of 
Documents, or $1.1 million, is for the Federal Depository 
Library Program's electronic collection. Managing and expanding 
this collection is crucial to the objectives of transitioning 
the depository library program to a more electronic basis. We 
are requesting an increase in the statutory limitation on 
travel from $150,000 to $175,000, due primarily to the rising 
costs of travel.
    The request of $15 million for the revolving fund includes 
$8.1 million for extraordinary expenses required to ensure year 
2000 compliance; $6 million for our air-conditioning system, 
which is in critical need of replacement; and $900,000 for 
necessary elevator renovations. Without a direct appropriation, 
financing these unusual capital expenses through the revolving 
fund will require us to reimburse the fund through rate 
adjustments. The installation of our air-conditioning system in 
1974 was funded by a direct appropriation to the revolving 
fund, and we request that these extraordinary costs be funded 
similarly.
    Finally, we are requesting an increase in the statutory 
ceiling on employment of full-time equivalents, or FTEs, to 
3,550. We have reduced employment levels by 33 percent over the 
past decade and by more than 25 percent since 1993. Our 
employment levels are now dangerously low. Overtime utilization 
has increased by 11 percent in the last year. Our ability to 
continue providing mission critical support for Congress is 
being jeopardized by continued attrition and reductions in our 
FTE ceiling.
    Because of the age of our workforce, we need to replace 
essential skills. In addition, our expanding electronic mission 
requires an infusion of new technical skills that are not 
readily available in-house. We also need additional staffing to 
fulfill the recommendations of the Booz-Allen & Hamilton, Inc., 
management audit of GPO. The restoration of our FTE ceiling to 
3,550 will provide us with the staffing we need to continue 
providing essential support for Congress.
    Mr. Chairman, this concludes my prepared remarks, and I 
would be pleased to answer any questions you have.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           Paper Publications

    Mr. Taylor. Thank you.
    It seems that the country is increasingly accessing 
information on the Internet; my three boys tell me that. They 
started with computers, and this is all past my age. When we 
had the Starr report, there were millions of people accessing 
it that way before it was ever printed. Is technology leap-
frogging the GPO and making paper obsolete?
    Mr. DiMario. Well, it is certainly having an impact. I do 
not believe it is making paper obsolete, and I think the Starr 
report is an example. We were putting the information up on 
line and at the same time producing the paper copies so that 
the Starr report that you were accessing on line was also 
coming out in print.
    The demand for the on-line product was very, very 
significant, and we could not satisfy that demand. But, at the 
same time, the demand for the paper copies caused us to go back 
to reprint on it. It was exceptionally high, and it was 
exceptionally high not just from the general public but from 
publishers, republishers of information.
    It was an awful lot of information to read on line. People 
want to download that eventually. And so while you can access 
it on line, it is a lot more convenient and usable to most 
people if they can have it in the printed product. And I think 
that is true of all sizable paper products, by the way. I don't 
think it is just true of the Starr report.
    I think when it gets beyond two or three pages, people want 
the full paper product, and the demand is there. I think 
actually Mr. Bill Gates spoke to that issue at one point. He 
may have used a larger number, something like 20 pages, but it 
is still not a significant number of pages before it becomes 
much more useful to get the paper product.
    And then you have the issue of not everyone having 
electronics. To this day, for many, many people, especially in 
certain rural areas, lower-income people, access to paper 
products is still needed.
    Mr. Taylor. It is hard to take a computer out under a tree 
and read it, I know.
    Mr. DiMario. I would agree with that observation.

                   Congressional Printing and Binding

    Mr. Taylor. You have asked for $82.2 million for 
Congressional Printing and Binding. To what extent is the $7.7 
million increase due to increases in wages and other costs as 
opposed to workload increases?
    Mr. DiMario. About $1.9 million is for increases in salary, 
mandatory increases, under our collective bargaining 
agreements, which have been approved by Congress pursuant to 
law. So those agreements require this increase.
    In addition, we have $5.8 million, which is volume 
increases, anticipated workload increases for this coming 
Congress. We have done that based on historical data. We have 
looked at previous even-year Congresses and have estimated the 
number of pages that we would have to produce in order to 
satisfy the needs of Congress, and those are pure estimates. 
They could change from time to time, but this last year, the 
last 2 years, in fact, were unusually low in volume. So we have 
moved the figures up based on the historical data that we have.
    Mr. Taylor. We are spending over $150,000 per congressman 
and senator on congressional printing. I would like to ask that 
$50,000 of mine be put on the Internet, and I have a list of 
poetry and historical books that you can bind and send to my 
office. Can we reduce that, do you think?
    Mr. DiMario. I think we can, and I think we have.
    Mr. Taylor. Without denying us essential information?
    Mr. DiMario. We are actually, through increased use of 
electronics, reducing the prepress cost by about 15 percent in 
the actual cost of processing electronic input vis-a-vis paper 
input. And we have realized that cost savings in the past.
    When you mention $150,000 per congressman, this is not 
money that goes directly to each Member's account but takes in 
the Congressional Record, it takes in all the reports, the 
committee reports, and all the services we provide for 
Congress. If you would divide that total figure, or our total 
Congressional Printing and Binding budget, by the number of 
Members, I assume that is how you came to the $150,000, that 
figure would probably be realized. But by moving towards 
electronics we have essentially been saving money, and we will 
continue to put forth that effort.
    We went into the electronic business in terms of delivery 
of products, in terms of on-line products, after the passage of 
the Government Printing Office Electronic Information Access 
Enhancement Act of 1993. So we are in a relatively new 
business.
    If you will also notice, I took over in 1993. That is a 
time when I was charged with moving the agency in the 
electronic arena and especially with respect to the depository 
distribution program.
    We have reduced the size of the agency by some 1,300 
employees during that time span. That translates indirectly to 
savings. So part of that savings is through the enhanced use of 
the electronics.
    And if you look at the historical data, the Congressional 
Printing and Binding appropriation, you will see that, in terms 
of nominal dollars, we are essentially flat. Our funding is 
flat. And at the same time the real cost is about half of what 
it was in 1979. So we basically have taken the agency's cost 
base down dramatically, and that is all savings to Congress.
    So the answer to your question, in short, is, yes, we can 
continue to move towards more savings through the use of 
electronics, but we are not fully there.

                          Congressional Record

    Mr. Taylor. Well, you mentioned, I believe, that you have a 
projection of an 8,000 page increase in the Congressional 
Record, which is one of the most expensive programs. That is 
almost 28 percent. Now, there has been a general decline in 
that publication over the past several years. What is your 
basis for this projected increase?
    Mr. DiMario. Well, those are actual number of pages, not in 
the number of distributed copies. The increase is based on the 
historical estimate of what an even year would cause us to 
print. So we are estimating more production of pages per 
product, but the actual volume of distribution has declined 
dramatically.
    As an example, we are down today to under 9,000 copies that 
are being distributed--8,792 copies. That is down from 17,000 
copies just a few years ago. So we have dramatically cut the 
distribution of the Congressional Record, especially here in 
the House and especially through the efforts of this committee, 
and that continues. But the volume of pages, that depends on 
the amount of work that is done on the floor, in the House and 
the Senate, and that may vary from year to year. Our 
anticipation is based on historical data, again.
    Mr. Taylor. I was going to ask, and you may not know, how 
much of the Congressional Record do you think goes into the 
recycling bins? I know it is not your area, but I was curious.
    Mr. DiMario. I have no idea. We don't control the numbers 
that are distributed, and we assume that the people use it when 
they receive it. The Daily Record is intended to be a newspaper 
of the previous day's activities, and I would simply point out 
how many newspapers go into the recycle bin on a daily basis.
    Certainly there are some people who need the Record for a 
longer period of time, certainly until the bound or permanent 
Record comes out. Most libraries will retain the Daily Record 
for an extensive period of time, but many users will look to 
their immediate needs, and it will be a discard item.
    Mr. Taylor. House Members no longer can charge the 
appropriations for sending copies to constituents. However, the 
Senate can. What portion of your budget do you think goes to 
the Senate for their constituents? Do you have a figure?
    Mr. DiMario. The cost of the Senate constituent 
distribution is around $450,000. They are entitled to designate 
up to 37 copies of the Daily Record to public agencies and 
institutions. The actual distribution is about 1,800, 1,900, 
somewhere in that range.

                         Detailees to Congress

    Mr. Taylor. I don't know whether that speaks to the 
literacy of the Senate or their constituents.
    The House committees reimburse the GPO for employees 
detailed to assist committees in preparing their documents for 
printing. We continue to appropriate funds for Senate 
committees on that. How much do you think is in the budget for 
that?
    Mr. DiMario. There is $1.4 million in the budget for Senate 
details, and we currently have some 24 detailees on the Senate 
side--23 on day side and one on night side. In addition, we 
have four details to Senate support offices; and that is two on 
days and two on nights. And all of that money is charged to 
Congressional Printing and Binding.
    On the House side, we have some 48 details, but they are 
charged basically to the committees themselves and not out of 
the CP&B.
    Mr. Sherman. The House detail in total is 48.
    Mr. DiMario. Excuse me, I was giving you a total number. 
The House detail is 14; and of that 14, 13 are on days and one 
on nights. And those people are charged essentially to the 
committee budgets and not to the Congressional Printing and 
Binding appropriation.
    There are a number of details, six in total, that are to 
House support offices, and there are five on days and one on 
nights, and those six details are charged to our Congressional 
Printing and Binding appropriation.
    Mr. Taylor. I have a few more questions but, Mr. Pastor, do 
you have any?

                               Year 2000

    Mr. Pastor. I have a couple. And one deals, I guess, with 
the $50 million you are asking for the air conditioning and 
elevators and I think I read somewhere about $8 million is for 
the Y2K.
    Mr. Mansker. 8.1.
    Mr. DiMario. 8.1.
    Mr. Pastor. 8.1. In reading your summary, you are now at 90 
percent of the critical systems being renovated; and 78 percent 
has been validated, implemented; and by March of 1999 mission 
critical applications, you are assuming, will probably be done 
with the validation. So what is the $8 million for?
    Mr. DiMario. Mr. Mansker, who is directing the program, 
might want to speak to it.
    Mr. Pastor. That would be fine.
    Mr. Mansker. Congressman, these are extraordinary costs 
that were not anticipated to come out of the revolving fund, 
which is used for normal maintenance and operating costs. So 
they have depleted--these specific Y2K costs have depleted and 
will continue to deplete the revolving fund so that we will be 
that much shorter in being able to do the other programs.
    Mr. Pastor. Okay, let me make sure I understand it. In 
March of 1999 you will have pretty much validated your print 
systems?
    Mr. Mansker. We hope.
    Mr. Pastor. You hope. Let's say with the professional staff 
you have, it probably will be there. So the $8 million is 
basically to replace monies you have already spent on it?
    Mr. Mansker. Correct, reimbursement.
    Mr. Pastor. How does that work out in the budget?
    Mr. Mansker. We came up with that figure primarily at sort 
of the behest of Senator Bennett last year, who said we are 
going to have some money for these expenses that you are 
incurring.
    Mr. Pastor. So, basically, you had expended money and you 
are now looking to replace those monies for the revolving fund. 
So you do this any time you have a problem, you have a 
revolving fund you can go to?
    Mr. DiMario. Well, the revolving fund is a capitalized 
fund.
    Mr. Pastor. I understand.
    Mr. DiMario. As to extraordinary expenses, if you read the 
language of the revolving fund, it is for operation and 
maintenance. It is not really geared to sustain expenses for 
extraordinary activities.
    Last year, and I think Mr. Mansker is saying this to 
you,when we submitted our budget request we did not put in a request 
for the expenses associated with Y2K. We had some $12 million or what 
have you. Some of that was sunk costs that we already had, about $4 
million, for anticipated projects that we had asked for funding 
separately under the revolving fund.
    When we met with Senator Bennett in that hearing, he raised 
the issue at the time whether we needed more money. And rather 
than adjust last year's appropriation request, which we 
considered doing, we have put it in this year's appropriation 
request.
    Mr. Pastor. Okay, let me understand. In last year's budget, 
or before October of 1998, when you were doing the 1999 budget, 
you anticipated you were going to have expenses for the Y2K 
problem and you put in about $4 million. Did I hear that right?
    Mr. DiMario. No, last year, we had the $4 million in for 
other projects that had to be Y2K compliant, with ongoing 
expenses that we would have in the system.
    Mr. Pastor. That you are expending now.
    Mr. DiMario. Right, which we considered to be purely 
operations and maintenance. And we still consider that to be 
the case. The $8 million is for money expended for things that 
are purely being done because of Y2K compliance, not for any 
other reasons. It is Y2K compliance, and so it is an 
extraordinary expense. And we are asking for that money for 
that reason to reimburse the revolving fund, which is for 
operations and maintenance for money already expended.
    Mr. Pastor. So since October of 1998 to October of 1999, 
have you already spent the $8 million?
    Mr. Guy. Most of it has already been spent; and most of the 
rest of it has already been committed and obligated, in many 
cases.
    Mr. Pastor. So by spending that $8 million, in March of 
1999 you hopefully will be validated. That was your cost to 
solve this problem?
    Mr. DiMario. Yes, sir.
    Mr. Taylor. One of the areas we were talking about was Y2K. 
A portion of that which is spent, I think it ran over $8 
million, is conduced for the Administration. Why should GPO 
charge the legislative branch of the Congressional Printing 
Office for that cost? Could you tell us maybe exactly what we 
are paying for the administrative's portion?
    Mr. DiMario. Of the Y2K?
    Mr. Taylor. Or if you cannot do it today----
    [Clerk's note.--The following information was provided by 
GPO for the Record.]

    The proportion of the $8.1 million requested for Y2K that 
can be allocated to support of Congress is $2.5 million.

    Mr. DiMario. I will have to furnish that to you. We have 
asked for the $8.1 million, and I am not certain that we have 
broken it down in that fashion at the moment, but I understand 
your point. You are suggesting that the system or all systems 
are used for the benefit of the executive branch and the 
judicial branch as well and that we should not be charging the 
full $8.1 million to Congress.
    We are treating, of the $15 million that we are requesting 
for air-conditioning and elevators and the other systems, as 
ones that are benefiting Congress and others, but they are 
extraordinary expenses. Our only reason for dealing with this 
is the view that it is an extraordinary expense based on Y2K, 
not on which branch of government will support it.
    The $4 million, and you will remember before I indicated 
there was a total of $12 million that we had looked at last 
year for Y2K, and $4 million of that was, in fact, for items 
that we had in the pipeline. Obviously, that would be equitably 
dealt with between the executive branch and the Congress, 
because it wouldn't be just out of CP&B, it would be out of 
others.
    But in terms of the administrative costs on the $8.1 
million, I don't know why, but we will look at it and give you 
an answer and come back on it.
    Mr. Taylor. Appreciate that.

                         Electronic Processing

    Mr. Pastor. This is my second hearing, so you will have to 
bear with me. It seems that a lot of the core work you used to 
do has been taken over by other agencies. I heard yesterday 
that the Clerk's Office is doing more and more, and possibly 
they are going to request additional resources so they can do 
additional printing. They seem to think that they are probably 
at the cutting edge of technology with the electronic transfer.
    Although it seems your responsibility is decreasing, you 
say that you are going to ask for an increase because you 
anticipate greater costs based on historic requirements. But it 
is difficult for me to understand the need if more and more 
agencies are taking business away. Last Congress we weren't 
requiring as much but yet you are asking for an increase due to 
historical trends. Somehow, it doesn't gel for me.
    Mr. DiMario. Okay. We now receive from the House about 51 
percent of copy electronically. In the last 3 years we have 
received about the same amount, 49 percent, 50 percent, 51 
percent.
    Charlie, do you have a copy of some of that material we 
received that you showed me in the hall?
    Material, when it comes over electronically, is not 
validated. It is not verified and validated so that when we put 
it up on the system we can't automatically pick it up 
electronically and go with that product. We have to go through 
and proofread it. We have to go in and correct the problems 
with it.
    If I understand from Mr. Cook correctly, this is material 
that we received electronically, and these are corrections that 
are made on that material. And you can take a look at this, and 
if you think that can go up electronically the way it is, 
without some human intervention to put it up on line, you have 
got a different view of the world than I have. We are putting 
up as much as we can electronically, but it is still not coming 
over in a quality that can be put up that way and support the 
needs of the Congress.
    We understand the objective of the Clerk's Office, 
andperhaps the whole House, I don't know, to move the creation of 
products up to the House itself, and we have been working with people 
to allow that to happen. We were working in an SGML base structure 
before other people were. We also have our own system that is an SGML-
based system, Micro Comp, that has been in operation for some time. So 
our capability is greater.
    They want to move it up there. To me, it is a duplication 
of efforts if it replicates capability that is already 
available in GPO. This issue is something that needs to be 
carefully examined before it is adopted and funded. We don't 
think personally that that is necessary. But if that is the 
view of the Congress that they want to do that, the question 
is, are you ready to do that now?
    I would submit, by just looking at the kind of copy that we 
receive, that you are not there yet. Now, you can have 
substantial savings if you move in that direction, and we are 
not opposed to supporting that effort.
    Mr. Pastor. Tell me what I am looking at.
    Mr. DiMario. Charlie.
    Mr. Cook. That is a Record copy, manuscript copy, that was 
sent along with the electronic file that Members have time, 
after they speak on the floor, to go back and revise their 
remarks. And that is what has happened in that particular case. 
The examples that you have there are from last September-
October, in that time frame. The yellow printouts, or laser 
proofs, are from the Record that we produced last night.
    Now, certainly we are very much appreciative and have 
worked with the House and the Senate in the acceptance of 
electronic files. It certainly has helped out efforts to date 
and it has really enabled us to get the Record out on time on a 
daily basis now. But there are still areas that we need to 
improve on, and we try to work with the Clerk's Office and make 
them aware, and the Official Reporters, of examples like that. 
Where we are getting the electronic file, however, there are a 
lot of things that we have to do when we get the hard copy 
marked like that.
    We have to go back in, as Mr. DiMario said, first output 
the file as a laser proof, carry the marks from the hard copy 
over to the laser proof, send it back to the keyboard area, 
correct it, proofread it. And, if there are additional 
corrections to be made, it has to go back through the system 
again. So that is all time consuming. Whereas if we could get 
verified data that wouldn't require those efforts, that would 
cut down the processing time.
    Mr. Pastor. If the Clerk would send you better copy or 
verified copy, the effectiveness would be there?
    Mr. Cook. Yes, sir.
    Mr. DiMario. But bear in mind, even when we say 51 percent, 
we are talking about 49 percent that is still coming over as 
just manuscript copy. It is not coming electronically. So even 
if it were all verified at this point, the amount that they are 
sending over, while it is now comparable to the amount that the 
Senate is sending over, they are both a little above 50 
percent, it is still such that you cannot eliminate the manual 
process.
    [Questions from Chairman Taylor and responses follow:]

    Question. Data preparation charges continue to be the 
highest cost item, over $12 million for the Record alone. That 
cost should be declining since much of the data preparation now 
is done by the House staff before it gets to GPO. Instead of 
copy, we are sending electronic input in many cases. Why are 
these costs continuing to grow?
    Response. The growth of data preparation costs in FY 2000 
is due to the projected increase in the volume of pages. The 
proportion of pages submitted electronically has been fairly 
stable during the past two years. Even when data is submitted 
electronically, GPO has to perform many steps, such as 
proofreading, keyboarding corrections and submitted changes, 
and formatting for print and online dissemination.
    Question. Have you taken any actions to reduce these costs, 
particularly the cost of data preparation?
    Response. GPO has a long tradition of implementing 
technology to reduce costs of data preparation. Decades ago, 
GPO phased out hot metal in favor of electronic 
photocomposition. GPO created the MicroComp program, which was 
an industry leading application for many years, to drive the 
phototypestting system and to allow the same electronic files 
to be used for multiple purposes. GPO provided early leadership 
and currently participates in implementation of SGML/XML for 
congressional publications. This project has the potential to 
further reduce data preparation costs and to make information 
more usable. This year, GPO is implementing computer-to-plate 
technology. We recently reorganized the Electronic 
Photocomposition and Press Divisions and created a new Digital 
Prepress section, which eliminated three sections. GPO 
established an Executive Steering Committee to reduce waste and 
spoilage and increase recycling. The Booz-Allen recommendations 
called for expanding staff in critical skill areas and 
modernizing information systems, which will require some 
increased cost in the short run.
    Question. For the record, provide a tabulation of formats 
supplied by House and Senate for the daily Record for the past 
five years.
    Response. For FY 98, 52% of the Record was submitted 
electronically by the House, and 47% by the Senate. For FY 97, 
51% of the Record was submitted electronically by the House, 
and 53% by the Senate. Only incomplete records exist prior to 
FY 97, but there were significant increases, particularly by 
the House during FY 96.
    Question. One of the major reasons these costs continue to 
increase is because your costs have not declined to the extent 
that your workload has declined. The study by Booz-Allen last 
year confirmed a finding of plant inefficiencies. Since you 
merely pass on plant costs to your customers in this 
appropriation, our billings for congressional printing from GPO 
reflects workload and, to some extent, whatever inefficiencies 
there are in the plant? Please provide a copy of the annual 
reports as outlined in the FY 99 Conference Report.
    Response. It's useful to recall that the Booz-Allen report 
found both strengths and weaknesses in GPO's plant printing 
operations. Some of the strengths include: ``Production has 
established important information access and dissemination 
systems and capabilities (p. 4-14); ``The Production Department 
is implementing industry state-of-art printing technology, 
computer-to-plate (CTP) to improve quality and throughput and 
reduce operating costs'' (p. 4-14); ``The Production Department 
consistently meets a demanding congressional production 
schedule'' (p. 4-17); ``Representatives in Congressional 
Printing Management have developed strong and cordial 
relationships with their contacts within congressional 
organizations and offices'' (p. 4-17); ``Communication with the 
congressional customer is frequent and regular'' (p. 4-17); 
``Production functions are geared toward rapid and consistent 
turnout of congressional products'' (p. 4-18); and ``Both 
Congressional Printing Management and the Production Department 
are flexible and responsive to changing congressional needs'' 
(p. 4-18). Weaknesses in plant printing operations were 
addressed in 13 specific recommendations advanced by the 
report. GPO is either planning to act, is acting, or has acted 
on all but two of these recommendations. A copy of the annual 
report required by the FY 1999 Conference Report is attached.
    Billings to Congress for congressional work reflect the 
costs of producing that work by GPO, including maintenance of 
available staffing, equipment, paper, and other necessary 
resources in order to be prepared to respond to any 
congressional requirement, at any time it arises. GPO's 
accounting systems for developing and reporting congressional 
printing and information product costs have consistently been 
approved by GAO and GAO-contractor audits. GPO, under the 
direction of the JCP, the Appropriations Committees, and its 
legislative oversight committees, has consistently worked to 
minimize costs to Congress for it printing and information 
products, and over time has been very successful in achieving 
this objective. Adjusted for inflation, congressional printing 
costs have declined by more than one-half in the past twenty 
years (see p. I-2, GPO Budget Justification, FY 2000). We are 
continuing in our efforts to reduce the costs for producing the 
work required by Congress in the discharge of its 
constitutional functions.
    Report follows:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            BUYOUT AUTHORITY

    Mr. Pastor. In your presentation you talked about how 
employees have been with you for a number of years. Maybe they 
don't have the skills that are now being required in terms of 
electronic transfer and the new technology that we have and so 
you may find yourselves with an aging workforce that is not as 
skilled.
    Last year, you were given the buyout. Now, how have you 
used that to improve the skills or to adjust to the new 
technology?
    Mr. DiMario. I have not used the buyout. Number one, the 
way the buyout was structured, we had an early out and a buyout 
both in there. The early out was totally self-operating. Anyone 
that wanted to go, who was eligible, could go. That is the way 
the language read, and we had it verified through counsel's 
office. There was no selective process I could use in deciding 
who could go into an early-out program. We put that in place 
immediately to see how many people we would have leave.
    At the same time, the demands inside have been very strong 
on me to get more people into the pipeline. Last year, if you 
recall, we asked for a level number of people, that the 
statutory base that you had given us be left in place and not 
reduced. Congress, nevertheless, reduced that number. In my 
judgment, we were getting very close to a dangerous level then. 
We have since lost a lot of people.
    By using the buyout procedure, we have so many people who 
are eligible for a buyout right now, I was afraid that we would 
have a landslide of people going out the door. And even though 
it is structured in a more selective way, it is very difficult 
to apply it selectively. I can't afford to have all these 
people go out the door and perform the duties for the Congress. 
And I just can't let it go. If you want that, you might as well 
close the place, and you won't get your products.
    Mr. Pastor. No, I don't want that. I want you to have the 
people that are skilled so you can do your job. I am trying to 
find a way.
    Mr. DiMario. If you read the language for the buyout last 
year, it says, essentially, if you are facing a RIF, but we 
weren't facing a RIF. We had already reduced below the numbers 
that Congress had asked us to reach. But we are in the opposite 
situation. We just can't afford to let all this experience go 
out the door and not have some training program to bring some 
more people back.
    Mr. Pastor. Let me ask about the training program. Is that 
available to you in terms that allow you enough flexibility to 
retrain the people that you have in place who would like to 
learn a new skill. Where are we on that?
    Mr. DiMario. I think from your perspective, yes, you would 
allow us enough flexibilities. I am not certain the Civil 
Service law will necessarily allow us as much flexibility as we 
would like in order to cross-train people from different crafts 
to the crafts that we need. We are always having some people 
who are in skills that, because of changing technology, the 
skills become obsolete, if you would, and there are other 
technologies where the skills are in high demand.
    Right now, the demand is for IT professionals, information 
technology professionals. Everyone wants them. It is very 
difficult to retain those people. And to train people in, let's 
say take someone who is in another craft and move him over to 
that, we can do it, but it is difficult under Civil Service 
laws. And it is also something that within the unions we have 
to work out an equitable scheme that allows the people to be 
treated fairly.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. Hoyer is with us, and it is always good to 
see you, sir. Do you have any questions? We are going to move 
on to the Superintendent of Documents next.
    Mr. Hoyer. I have a few questions, if I might, Mr. 
Chairman.
    Mr. Taylor. Yes, sir.

                                 FTE'S

    Mr. Hoyer. Thank you very much. I apologize for being late. 
I had another committee meeting.
    Mr. DiMario, welcome to the committee. Nice to see you 
again.
    What are the FTEs currently at the GPO?
    Mr. DiMario. I think our current FTE level is at----
    Mr. Guy. 3,383 is the current ceiling.
    Mr. DiMario [continuing]. 3,341. But these are employment 
figures. These are actual on-boards.
    Mr. Hoyer. 3,341. And the ceiling is 3,383?
    Mr. DiMario. I believe so.
    Mr. Guy. That is correct.
    Mr. Hoyer. And you are asking for 167 additional to take 
you to 3,550. I am not going to take the time now, but I want 
to go into why that is necessary because, obviously, that is 
going to be a contentious item both in the committee and on the 
floor.
    Mr. DiMario. Yes, sir.

                           COPY REQUIREMENTS

    Mr. Hoyer. Let me ask you some specific questions. Who 
controls the numbers of copies and publications that GPO prints 
for Congress? Do we do that or do you?
    Mr. DiMario. You do.
    Mr. Hoyer. So that you really don't have control over the 
demand in terms of the numbers of copies?
    Mr. DiMario. That is correct.

                                INTERNET

    Mr. Hoyer. Let me ask you something about the Internet, 
because we hear a lot about it. I have been over there, I have 
seen your operation, but perhaps you can explain to the 
committee, if you have not already done so--if you have already 
done that, I will pass--about the electronic presence of GPO 
and how heavily is your web site used. And do your electronic 
efforts support other web sites?
    Mr. DiMario. Okay, we have not gone into that.
    Mr. Hoyer. Well, I think it is important to do that because 
I think there are some Members who have the old concept of GPO 
as just printing documents. And there are a whole lot of people 
who understand that we are no longer communicating only this 
way but also doing it on the Internet and doing it 
electronically. And I think it is important for the committee 
to understand how up-to-date you are in terms of that mode of 
communication.
    Mr. DiMario. Every product that we prepare is prepared with 
an electronic database--the ones that we do internally in GPO, 
not everything that we buy. And the bulk of what we require is 
through purchase.
    Of those products that we prepare in-house, and some other 
products that we have, some 70 databases that are up on line, 
governmentwide databases, The U.S. Code, as an example, is a 
data bases and we have that fully up on line. The Federal 
Register is up on line. The Congressional Record is up on line. 
So there are some 70 major databases that we have.
    There are some 45,000 separate publications that are up on 
line. There is quite a number. Of that, we have between 10 and 
15 million, I believe it is in my prepared statement, that are 
downloaded from that GPO Access system, from that on-line 
system, from the Internet, if you would, every month. That is a 
monthly download of 10 to 15 million documents, on an average. 
It is very, very substantial.
    The American public uses it.

                              STARR REPORT

    Mr. Hoyer. Let me ask you something about the Starr report. 
You did an extraordinary job within our tight time constraints.
    Mr. DiMario. Our workforce did an extraordinary job.
    Mr. Hoyer. I meant that.
    Mr. DiMario. But thank you, sir.
    Mr. Hoyer. What kind of reaction have you gotten from the 
Judiciary Committee and others?
    Mr. DiMario. The Chairman of the Judiciary Committee sent 
an extraordinarily kind letter, a very, very positive letter 
for the work that we did. And, in fact, I received another 
letter within the last few days from Chairman Hyde and naming a 
specific individual with respect to the work and activity. I 
have received a similar letter from the Senate within the last 
couple of days, the Assistant Secretary of the Senate.
    Mr. Hoyer. Mr. Chairman, I have other questions, but I know 
I was late and you want to move on, so I will submit those for 
the record.
    Mr. Taylor. That will be fine.
    Mr. Hoyer. Thank you, Mr. DiMario.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           ELECTRONIC FORMATS

    Mr. Taylor. We have the Superintendent of Documents, Mr. 
Francis Buckley, with us; and the budget for the Superintendent 
of Documents is $31.2 million. The largest item is for the 
depository program, $26.8 million.
    A lot of your publications are now in electronic form also. 
How much has that saved you, do you think, in your area?
    Mr. Buckley. Well, we have been transferring our funding 
from the printing and binding of materials to the actual cost 
of disseminating the electronic materials, so that we have had 
a cost transference within our program budget for the last 
several years. But, as you can see from this year's request, we 
have reached the point where we need to ask for some additional 
funding to manage this process.
    We are now at the point in our transition to electronic 
information dissemination where we are mounting and putting up 
into GPO Access as many publications as we are sending out. The 
last 3 months it has been 50 percent each. So we are moving 
very steadily along in this transitional mode, but the cost for 
cataloguing and indexing these titles still remains because we 
have to provide locator services to identify them even on line.
    The cost to organize the information, to prepare it for 
mounting, in some cases, has to be borne. And that is done on 
the production side of GPO. This whole process is a very 
integrated one within the whole agency. But, beyond that, we 
are looking at the ongoing cost of maintaining this information 
available.
    In the traditional print environment, we sent the documents 
out to libraries, and they could retain them long term. Now we 
have the only copies of information up on our servers, and we 
have to continually maintain that. We are seeing an 
accumulation of electronic information that we have to maintain 
readily accessible to people, and that process means that we 
have some increased costs as we look at ongoing, long-term 
access to this information.
    Mr. Taylor. Do you have the authority to solely make 
materials for depository libraries--I have two in our 
district--available on Internet or CD and not actually send 
them the printed material?
    Mr. Buckley. Yes, where electronic formats are available 
and satisfy user needs as well as other requirements, such as 
for permanent availability. This whole transition is going on 
in conjunction with agency publishing plans and the evolving 
capability of the library community. And agencies more and more 
are moving to only creating their information in electronic 
format, on CD or, more often now, on line. So that is the only 
version for the information, and we have authority to acquire 
that and to distribute it.
    [Questions from Chairman Taylor and responses follow:]

    Question. The budget for the Superintendent of Documents is $31.2 
million. The largest item is for the depository program, $26.8 million. 
A lot of your publications are not in electronic format: CD-ROM, 
Internet, Access, and so forth. How much has that saved your program?
    Response. Through FY 1999, GPO's electronic dissemination 
initiatives have been in large part funded by savings in the Federal 
Depository Library Program (FDLP) related to the reduced numbers of 
tangible products (paper and microfiche) distributed to the libraries.
    It is difficult to quantify savings due to the use of electronic 
information technologies. Clearly some cost savings are realized in the 
initial publication and dissemination stages of the product life cycle. 
The FDLP Electronic Collection already contains some 140,000 titles, 
including links to over 45,000 titles on agency Web sites. Many of 
these titles would not otherwise be available to the FDLP. If these 
additional 45,000 agency titles were delivered to users in ink-on-
paper, the cost would be about $12.4 million above the current level of 
funding.
    However, the ongoing costs of providing permanent public access to 
electronic information cannot be estimated. In the traditional print 
products environment these costs were borne by the depository 
libraries, but with online electronic publishing the costs of permanent 
access fall to the Government. Congress' historical commitment to 
keeping Government information available to the American people results 
in increased funding and more technical staff skills for an 
increasingly electronic FDLP. GPO's FY 2000 request for the S&E 
appropriation includes for the first time an increase of approximately 
$1 million which is directly related to collecting more electronic 
publications and to the longer-term costs and added complexities of 
providing permanent access to the electronic publications in the FDLP 
Electronic Collection.
    Question. Do you have the authority to solely make materials for 
depository libraries available on the Internet or CD and not actually 
send them printed copies?
    Response. Under section 1914 of Title 44, GPO has the authority, 
with the approval of the Joint Committee on Printing, to determine the 
most appropriate and cost-effective distribution medium for products 
distributed to depository libraries. Our approach to carrying out this 
authority is to make such decisions based on discussions with the 
depository library community and taking into account the needs of 
users. In our discussions with the library community it is clear that 
the success of the transition to a more electronic FDLP is incumbent 
upon the Government's ability to guarantee permanent access to the 
electronic versions.

                                Title 44

    Mr. Taylor. Last year the much advertised revision of Title 
44 failed to be enacted into law. Are you asking that we 
revisit that this year? And, if so, will that have any impact 
on your depository budget?
    Mr. Buckley. If is a big word.
    Mr. DiMario. We are not asking anyone to specifically 
revisit the Title 44 proposals of last year. That was in S. 
2288 that the Senate was attempting. We do have recommended 
changes to Title 44.
    Now, most of them do affect the documents side, the 
depository side, and we have submitted these in the past to 
Congress. We think they would enhance the program, the statute, 
and would gladly send you a copy of what we previously 
submitted.
    But at this point in time we have entertained no thoughts 
to seeking out sponsorship of a specific change to Title 44. It 
was so problematic last year that we need to think about things 
pretty heavily. But the recommendations I will send you are 
recommendations that we have looked at and we believe would 
enhance the ability to provide electronic services.
    Mr. Taylor. Well, what committees are considering the 
changes?
    Mr. DiMario. Last year, the committee that was considering 
it was on the Senate side. It was Senate Rules and 
Administration under Senator Warner and Senator Ford as the 
Ranking Member. The bill was passed out of committee in the 
very, very last days of the session. It was never considered on 
the floor of the Senate and never taken up in the House at all.
    Normally, if a bill were to come up this session, it would 
come out of House Administration. And in previous years bills 
have emanated from House Administration, but I have not 
received any indication from Mr. Thomas, the Chairman of that 
committee, or from anyone else that there is a bill being 
considered.
    Mr. Hoyer. Mr. Chairman.
    Mr. Taylor. Yes.
    Mr. Hoyer. We are going to be considering this afternoon in 
the House Administration Committee the projected work for the 
committee, and the issue of GPO will be on the committee's 
agenda.
    But I might say, Mr. Chairman, we eliminated the Joint 
Committee on Printing on the premise that Title 44 reform was 
going to pass, a premise that I thought was questionable at 
best. But the committee, in its wisdom, decided to do that at 
the request of Mr. Thomas.
    We are proceeding to some degree as if the Title 44 reform 
had actually passed; the staff of the Joint Committee on 
Printing has been eliminated. So it is an interesting situation 
in which we find ourselves, but the reality is the Joint 
Committee on Printing has been effectively shut down although 
we never passed the legislation to do that in an orderly and 
comprehensive way.
    Mr. DiMario. May I address that? In S. 2288 there were a 
number of authorities that, under the existing statute, 
belonged to the Joint Committee on Printing that were being 
downloaded to the Public Printer. Without an existing 
committee, we are sitting with sort of a legal dilemma as to 
the way those statutes ought to be carried out.
    The outgoing Chairman, Senator Warner, sent me a letter 
suggesting that certain things should be carried out by me as 
Public Printer and, to a degree, I am using that letter as an 
authority to move forward. But at this point, I don't know 
whether Mr. Thomas shares those views. And I think that some of 
the difficulties are downloading statutory responsibilities by 
letter to the Public Printer, letter of the Chairman, and not 
by action of the full committee or by statute itself. So there 
are some difficulties with that.
    Mr. Hoyer. Mr. Chairman, that is an interesting legal 
situation. I wouldn't want to argue that in court.
    Mr. Taylor. Mr. Pastor, do you have any more questions?
    Mr. Pastor. I have none.
    Mr. Taylor. For the record, then, we will insert all the 
report and documents submitted to the committee; and if there 
are no other questions.
    [A question from Chairman Taylor and response follows:]

    Question. For the record, insert all reprogramming 
documents submitted to and received from the Committee.
    Response. No reprogramming requests were submitted.

    Mr. Taylor. Ms. Granger, we have just had the GPO, and do 
you have any questions?
    Ms. Granger. No.
    Mr. Taylor. Okay. Thank you. We will recess now until 1:30 
when the Architect of the Capitol will appear.
                                       Wednesday, February 3, 1999.

                        ARCHITECT OF THE CAPITOL

                               WITNESSES

ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL
HERB FRANKLIN, ADMINISTRATIVE ASSISTANT
ROBERT MILEY, SUPERINTENDENT, HOUSE OFFICE BUILDINGS
AMITA POOLE, SUPERVISING ENGINEER, CAPITOL BUILDING
STUART PREGNALL, BUDGET OFFICER
JACK BOERTLEIN, ASSISTANT BUDGET OFFICER
HECTOR SUAREZ, DIRECTOR, HUMAN RESOURCES MANAGEMENT DIVISION
LYNNE THEISS, EXECUTIVE OFFICER
MICHAEL G. TURNBULL, ASSISTANT ARCHITECT OF THE CAPITOL
DAN HANLON, CHIEF ENGINEER
BILL ALLEN, HISTORIAN
    Mr. Taylor. The committee will come back to order after our 
lunch break. We will have Mr. Archer who will come in and 
interrupt the meeting perhaps, but we want to start with the 
Architect of the Capitol.
    We are taking up the fiscal year 2000 budget for the 
Architect of the Capitol. We have Mr. Alan Hantman, the 
Architect of the Capitol, who is making his third appearance 
before the committee. We welcome you.
    Before we get into the hearing, can you introduce your 
staff and give a few figures about the budget that we will take 
up today.
    Mr. Hantman. First of all, Mr. Chairman, let me say that I 
truly look forward to continuing to build a strong relationship 
with this subcommittee under your leadership and continue to 
work in an open, professional and a very constructive way.
    Sitting to my right is Stuart Pregnall, our budget officer, 
and to his right is Lynne Theiss, our executive officer. And we 
have a cast of thousands in the back row. Herb Franklin is our 
administrative assistant and Dan Hanlon, who is our chief 
engineer. Our new assistant architect is Michael Turnbull. Jack 
Boertlein is the assistant budget officer. Amita Poole is the 
superintendent basically of the Capitol Building and Bob Miley, 
superintendent of the House office buildings.
    Mr. Taylor. Who is your curator?
    Mr. Hantman. We have a curator, and she reports to Herb 
Franklin.
    Mr. Taylor. Who is your best historian?
    Mr. Hantman. Bill Allen is our historian. He in fact is 
writing a new book updating the entire history of the Capitol, 
and it is due for publication soon.
    Mr. Taylor. Good. Funds may be contingent whether he wins 
in a shoot-off with me later in the Capitol on who finds the 
most insignificant fact.
    Mr. Hantman. Okay. He has a wealth of insignificant facts.
    Mr. Taylor. Things like John Paul Jones' bust is over in 
the Senate. He is wearing two medals, and can he name both of 
them?

                           Opening Statement

    Mr. Hantman. You may have him on that.
    The budget presented to you today, Mr. Chairman, really 
talks about numbers, and it also talks about the agency in and 
of itself. This is an agency that is in transition. Today marks 
two full years since I assumed the position of Architect of the 
Capitol, February 3rd, 2 years ago. And again, a lot of changes 
are needed, a lot of changes have occurred and I am very proud 
of what we have accomplished over these years.
    In addition to the budget information in the statement, 
there is an appendix on life safety issues, appendix B on 
security, another appendix on the Architect of the Capitol 
Human Resources Act, the Congressional Accountability Act and 
labor relations. All of these issues are very important to the 
agency, how we build and support the needs of the Congress over 
the coming years.
    We also have an appendix on re-engineering, a program which 
we have worked on with this committee before and on capital 
projects itself.
    We have increases in Capitol projects this year, minor, 
lower level increases in the operating costs, and we can 
certainly talk about specifics in that and the rationale for 
that as we go through the hearing.
    [Clerk's note.--The statement of Alan M. Hantman, AIA, 
Architect of the Capitol, follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. The estimates are around $215.9 million and 
1400 FTEs. My challenge to your historian comes from a love 
that I have for the Capitol, and we entrust you with a major 
responsibility, you and your staff.
    The 16 acres of area here are visited by people from all 
over the world, and certainly we encourage the children and 
adults who come here, especially the children that come here to 
learn history and be a part of it, both today and see what 
happened over our 200-year history, and I support the efforts 
that have been made in the last 2 years.

                             VISITOR CENTER

    I certainly support the funding for the Visitor Center that 
we have discussed for some time. I served on this committee 4 
years ago, 1993 and 1994, and I was interested in it at that 
time, and I will certainly be working with our leadership and 
the minority leadership to see that this comes about. Mr. 
Pastor and I both share that and support the project.
    The budget for the Architect of the Capitol is a reduction 
of almost $31 million below last year. That is primarily 
because of the additional $100 million Visitor Center project 
that we funded in the Omnibus bill. Can you give us an update 
on the Visitor Center and how long it will take to complete the 
necessary plans and updates before we will be able to break 
ground?
    Mr. Hantman. There was some hundred million dollars of 
midyear money meant to be supplemented by private funds, and we 
have approximately $25 million in the preservation kitty at 
this point in time as well. Each milestone of the project needs 
to be reviewed and approved, as we understand it, by some 6 
different committees. So a big part of any schedule that we 
have will be based on how long it takes to get approval at each 
step of the project.
    Initially our mission is to be coming before this 
Appropriations Committee and the matching Appropriations 
Committee on the Senate side to talk about the first phase of 
the work, which is really our mission, to go back and take a 
look at the 1995 plan, which was developed over a period from 
1989, as I understand it, and to revalidate all of the 
components of that plan. That would include the sizes of the 
spaces, the support facilities within the spaces, in fact the 
location of the Visitor Center, whether the East Front is in 
fact the best location for it.
    Clearly things such as security concerns need to be 
addressed more thoroughly than the 1995 plan. So revisiting it 
in that context certainly makes an awful lot of sense.
    We have been working with the General Accounting Office to 
define a scope of work so we can come to you and to the Senate 
to talk about what magnitude of dollars we need to draw down in 
the first instance to begin this evaluation. We basically don't 
have any money at this point in time to do any work other than 
begin to define the first phase of work, which is the 
validation phase.
    So we have been working with the General Accounting Office 
and we have a conceptual listing of elements that we need to 
flesh out more with them before we come to you with an estimate 
of what the costs might be to study these issues. Location, of 
course, the access policy, who gets screened and how, sizing of 
the facility, whether visitors are allowed to back flow into 
the facility once they tour the Capitol. The cafeteria size, 
gift shop, how many auditoriums, should we be excavating the 
proposed additional expansion space next to the visitor 
facility. 163,000 square feet are currently shown as 
unprogrammed space basically to accommodate needs that the 
Capitol might have. My sense is that the Capitol does have 
needs for support spaces, which don't need to be in the primary 
building but could be in an adjacent center, buffer groups, 
other functions. Certainly the police can be pulled out.
    We need to look at those needs and get some input from 
leadership in terms of what that might be all about. How cars 
and trucks and VIPs come and visit them, we need to validate 
that issue.
    Security, the outside light, utility issues, all of these 
things need to be revisited. So the concept is once we present 
to you this scope for the updating of the plan and the 
validation of the plan, it can take a year and a half for us to 
come up with a report on this working with all of the folks in 
the Capitol as well as the General Accounting Office and 
consultants, bring consultant teams on, working with them to do 
this work.
    Again, once that report is submitted, how long it takes for 
us to get approval on that before we go into the basic design 
phases will have to be determined. I can't control the approval 
process, and once again if 6 different committees are involved 
in the approval process, no matter how much I enjoy testifying, 
6 committees could take quite a bit of time. So that may need 
to be addressed up front. What happens if committee A and 
committee B agree with the entire plan and approve it, but the 
third committee disagrees with component X and the fourth 
disagrees with component Y, how do we get consensus among 6 
committees to be able to move forward at all. That needs to be 
worked out as well.
    So once we get the design phase done--approval on the first 
phase, we expect that another 18 months would be needed for 
full, and we would try to condense the engineering and design 
phase into one. We really don't think that engineering and 
design are separate. They are fully integrated. That is 
probably an 18-month period until we come back for further 
approval. Then construction documents, and after that period of 
time we estimated the 1995 plan for a 3\1/2\- to 4-year 
construction time frame.
    So if you start adding all of those together, we might not 
be breaking ground until 2003 or so.
    Mr. Taylor. In other words, I would be premature to expect 
the dedication to be in December?
    Mr. Hantman. I think so, Mr. Chairman.
    Mr. Taylor. It has been my observation that government will 
mess up a one-car funeral; and having to operate inside 
government on this important project is a necessary task, I 
suppose, but the schedule you are laying out, I would think the 
House and the American people would want that limited and sped 
up a lot, because what happens if you start with $100 million? 
In fact, we were talking about $100 million being more than 
enough to do it, and now we are up to 125-plus and the longer 
we take to do the project, the more money it is going to take 
and the chance that the future Congresses may run out of 
patience, and if you raise money to complete the project, with 
inflation it may be a never ending task.
    Mr. Hantman. We agree with you, Mr. Chairman.
    [Clerk's note.--Subsequent to the hearing, the following 
correspondence was received:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    VISITOR CENTER APPROVAL PROCESS

    Mr. Taylor. Now if you as a professional will put your 
attention toward being able to do the joint engineering and 
architectural plans to move that as expeditiously as possible, 
I will get with Mr. Pastor and perhaps our joint leaderships 
and see what we can do to cut through the bureaucracy. Perhaps 
we can have joint meetings with the Senate and maybe put 
together leadership from both sides of the aisle to meet 
together rather than having you meet every time with 6 
different committees and have to go back through 6 different 
committees and so forth. We will do what we can do to speed 
that up as fast as is prudent.
    We are going to hear more about security later on today--
the Sergeant at Arms will talk about security, and we are all 
concerned about security--but the American people deserve the 
right to enter their Capitol, and it would be a tragic event if 
we curtail that drastically. You will never have total security 
in a democracy, and those of us who represent the people in 
this body and in this building will always be at risk, and we 
ought to assume that that is part of the job. So I think we can 
be prudent with security, but I wouldn't want it focused on as 
the primary result of any efforts we have in the Capitol. I 
think we should focus on the purpose of the Capitol, the 
people's right to come in and observe and to learn historically 
and to attend meetings, in either House or the committees, and 
we will have to do the best we can on security. But as I say, 
we will never be totally secure in a democracy.

                        VISITOR CENTER SECURITY

    Mr. Hantman. I am heartened to hear you say that because I 
fully concur. The concept of a Visitor Center certainly has a 
strong security component to it, but basically we are also 
trying to welcome our visitors, to make their visits more 
pleasant than they are now. People will be jostling each other 
in the Capitol today without knowing what they are seeing and 
not being able to hear the people next to them. Conceptually if 
they come to the Visitor Center, they will be able to hear the 
history and look up the voting records perhaps of their 
representatives, to be able to learn about American history. 
All of these components would have to be planned into the 
Visitor Center, along with the amenities such as bathroom 
facilities and dining facilities.
    Mr. Taylor. I would hope that could be done simultaneously. 
You could be designing the schedule and doing the architectural 
design while we are working with the committees to go forth 
because there will be a number of things that will be standard 
that will fit any program.
    Mr. Hantman. We welcome an opportunity to meet with you and 
the committee members to talk about the issues. If we come down 
to a basic validation of where we are with the 1995 plan, I 
think we could move a lot more quickly than in the outline.

                        VISITOR CENTER EXHIBITS

    Mr. Taylor. Who would be handling your historical side in 
the plan that you put together? I understand what you are 
saying. I often thought that history is taught by osmosis. When 
you walk around, for instance, the old Supreme Court Building 
without knowing anything about it, all of the history is 
supposed to jump from the chairs into those minds that walk by 
it, and I haven't found that too reliable. It helps to have 
some understanding before you get there, and that of course is 
what you are talking about.
    Who would be designing the program in that area?
    Mr. Hantman. One of our concepts which we can share in more 
detail and flesh it out, we probably need a blue ribbon panel 
of noted historians on a nonpartisan basis to talk about what 
is the story that wants to be told to the visitors that come to 
the Capitol. These are people in private practice, whether 
historians or with a real knowledge of what the legislative 
branch of our government is all about. Perhaps 3 people to come 
together with approval from the House and the Senate to help 
define the philosophy and the theme of what the exhibits are 
all about. That information would have to be done fairly early 
on, parallel to the shell we are designing to enclose that 
information. So I agree, we certainly could be working in 
parallel on that.
    Mr. Taylor. We have the artifacts that we have.
    Mr. Hantman. We have access to wonderful artifacts.
    Mr. Taylor. That will limit to some extent what you show.
    Mr. Hantman. Right.
    Mr. Taylor. Let me sum up by saying that we will try to get 
together and do what we can to cut back on the bureaucracy, 
getting everyone's opinion, but doing it as quickly as we can 
if you will work on the technical side.
    Mr. Hantman. Absolutely.
    Mr. Taylor. Before I go on with other questions, Mr. 
Pastor, do you have any questions?

                  VISITOR CENTER REVALIDATE 1995 PLAN

    Mr. Pastor. On the subject of the Visitor Center, do we 
have to revalidate the 95 plans?
    Mr. Hantman. Correct. The first bite of the hundred million 
dollars would go towards an outline proposal to begin that 
validation process.
    Mr. Pastor. So part of that hundred million would be used 
for that?
    Mr. Hantman. We would be coming to this committee and the 
matching committee on the Senate side, I think it is just the 
Appropriations Committee that takes a look at this first bite 
of the hundred million. With this plan for validation, we would 
be able to bring the consultants on to revisit where we are 
specifically, revalidate it and change it as necessary.
    Mr. Pastor. And the time line may be a year and a half?
    Mr. Hantman. It depends on how quickly we move. It could be 
a year and a half. Talking with GAO, they thought that was not 
an unreasonable time frame.
    Mr. Pastor. An issue of concern with the Visitor Center in 
the past has been parking. Is that off the table? For the 
visitors' cars, VIP cars and all of the buses. The Union Square 
idea hasn't floated very well, but is that something that we 
are going to be looking at again?
    Mr. Hantman. We would certainly be looking at the bus flow 
and the way that it works right now. Neither the Capitol nor 
the Supreme Court appreciates the fact that First Street is 
sometimes buses two deep. It could remain a drop-off location 
because the Visitor Center is still oriented to be on axis to 
East Capitol Street.
    One of the alternatives to do with the buses is lot number 
6, which is under the highway to the south, is a very large, 
very close-in lot currently controlled by the District of 
Columbia. Congress used to control that lot. If we were to get 
control of that, and administratively we say discharge your 
passengers, go to lot 6 or go over to Union Station, without 
idling on local streets. When your tour group comes back out, 
you would be called and your bus comes back and picks you up 
perhaps on the West Front. So we are looking at possibly coming 
in from the East Front, going up and ending your tour in the 
Grand Rotunda with the most magnificent space in the building 
and exiting down looking towards the Mall towards the west. 
This is one of the concepts. So the buses waiting for 
passengers would no longer be on First Street, they would be on 
that circle on that West Front. That is one of the concepts we 
are looking at. Certainly the buses should not be idling in 
neighborhoods. These are some of the bus control issues that we 
have talked about.
    We have had meetings with the District of Columbia, with 
the Capitol Police, with local police, with people from the 
local communities while talking about traffic control and bus 
control. We have made some inroads regarding parking and access 
and egress from Union Station.
    But in terms of regular car parking, the only issue that we 
have been addressing thus far is how comfortably can we 
eliminate parking from the East Front plaza. There used to be 
hundreds and hundreds of cars out there. Basically it is now 
just leadership cars, and we need to talk the level of parking 
and what is needed on the House side and the Senate side and 
what alternative solutions there may be for that.
    Mr. Pastor. Let me go back, of that hundred million, you 
said the first bite comes to validate the 1995 plan. How much 
money is that? What is your ballpark figure?
    Mr. Hantman. We had requested about a year and a half ago 
when the Secretary of the Senate was I think the executive 
officer for the commission that was looking into this, the 
joint House and Senate commission, an amount of about $5 
million be made available for studies and consultants. That is 
what we are looking into right now, to see how valid that is 
and how the General Accounting Office agrees or disagrees with 
that number and what we need to accomplish with that first 
phase.
    Mr. Pastor. $5 million?
    Mr. Hantman. That is what we were talking about, the 
philosophy of the blue ribbon panel, all of these issues were 
rolled up into that.
    Mr. Pastor. Engineering, after we validate the plan, about 
a year and a half?
    Mr. Hantman. Again, it depends. I said that; and it also 
depends on whether or not the existing plan gets modified or we 
are starting from ground zero. We might be able to cut that 
down if in fact it is the existing Visitor Center and we are 
looking at modifications to it.
    Mr. Pastor. So I heard you say in the first phase of 
looking at the plan, we may say that it doesn't work and we 
have to start over? Is that a possibility? I want to make sure 
that I heard you right.
    Mr. Hantman. The conference report that accompanied the 
hundred million dollar bill called for a thorough review. It 
directed that the Architect of the Capitol may not expend any 
funds without an obligation plan approved by the House and 
Senate Committees on Appropriations. But the thorough review 
has to encompass location, existing facility, uses of every 
space in that facility, justification that we are doing what 
needs to be done and not excess. All of the components really 
need to be revisited.
    Mr. Pastor. It could be possible that you may say that the 
1995 plan is not worth implementing?
    Mr. Hantman. That is possible, but frankly I think----
    Mr. Pastor. What is that probability?
    Mr. Hantman. Looking at it, there are a lot of things that 
made a lot of good sense relative to how the Capitol relates to 
it, improving the flow of people from the House side to the 
Senate side, the issue of underground deliveries serving both 
sides of the Capitol. A lot of good thinking went into it. I 
would be surprised if the base of that plan did not prove to be 
very sensible.
    Mr. Pastor. What is your ballpark figure for the 
engineering cost? You have estimated $5 million for the first 
phase.
    Mr. Hantman. Engineering costs could be calculated in many 
ways. It is often a percentage of the construction costs.
    Mr. Pastor. What have you estimated?
    Mr. Hantman. I don't have a breakdown on that right here, 
sir. Depending on the nature of the project, I think we have 
spent some $2.8 million on the project--$2.55 million to get to 
the 1995 plan. There are some other issues, steam tunnels that 
need to come in, and certainly the interior design was not 
addressed. So that is what was spent on the project to date. 
How much modification we need to do, designing security systems 
to go into that. That is where we would be starting from.
    Mr. Pastor. You are an architect?
    Mr. Hantman. I am.
    Mr. Pastor. Usually architects can give you ballpark 
figures as they make their bids. What would you estimate would 
be reasonable?
    Mr. Hantman. If you are talking about a hundred million 
dollar facility, I would think that your percentage rate for 
something like that would be in the range of 6 percent, plus or 
minus, which would be for a hundred million, $6 million.
    Mr. Taylor. Does that count the $2.55 million?
    Mr. Hantman. It depends whether you are starting all over 
again. And then we would have to go into the interior design, 
exhibit design and other design issues, so it is not simply 
base building or core design.

                  Visitor Center Private Sector Funds

    Mr. Pastor. People may think that they have $100 million 
and that it is enough money to do everything that you need to 
do to validate the plan, engineer it, design it and then move 
dirt. So I guess what I am trying to get to is that we can look 
at the hundred million which has been appropriated, but how 
realistic are we that it is not going to need to be increased? 
That is why I am trying to get ballpark figures so at least in 
my mind I have a better understanding of what needs to be done 
and what is an expectation that is more realistic than just 
throwing a hundred million at you and saying thank you.
    Mr. Hantman. In earlier discussions we were talking about 
matching funds coming from the private sector, and the 
Secretary of the Senate and the Clerk of the House were 
mandated to put together a program essentially to match that 
hundred million if that magnitude of money is necessary.
    Mr. Pastor. How much money do we have in match in the 
private sector?
    Mr. Hantman. $25 million right now, which was raised from 
minting of the commemorative coins and things of that nature.
    Stuart makes a good point. The Capitol Preservation 
Commission has that money, but they have not formally dedicated 
it to the Visitor Center. We have talked about that money in 
those terms.
    Mr. Pastor. Is it realistic that we are going to get the 
match? Is it a 1 for 1 match that we are looking at?
    Mr. Hantman. Potentially that has been talked about. The 
issue of the scope is yet to be determined. For instance, there 
is 163,000 square feet of unprogrammed space that we talked 
about earlier. Does that get built?
    My sense is that there are a lot of needs that the Capitol 
has relative to giving leadership more flexibility in terms of 
who sits in the Capitol and who supports the Capitol in 
adjacent spaces.
    There are other issues to look at such as the Capitol 
Police Control Command Center might appropriately go there. 
Recording studios for the House and the Senate need to be 
upgraded.
    While you are digging the big hole on the East Front, when 
you are talking about the cost of excavation per square foot, 
it is significantly less than if you wanted to do that project 
alone. So it is an opportunity to look at other needs that 
Congress may have and see if that can be comfortably 
accommodated in this area.
    Another issue is whether or not the 500-seat auditorium 
that is currently in the plan originally requested by the 
Library of Congress is something that Congress believes we 
really need, for Congress or the Library. Whether or not a 
tunnel to the Library of Congress for $10 million is something 
that we want to do. All of these issues will be discussed and 
validated.

                        Visitor Center Timeline

    Mr. Pastor. Just taking your time lines that you gave us, 
we are about 9 years away from opening this center.
    Mr. Hantman. If we are eliminating some of the bureaucracy, 
easily a couple of years can be lopped off that.
    Mr. Taylor. I think that is our challenge to get with the 
joint leadership and see what we can do to meet the concerns 
but at the same time cut the time because you are going to cut 
the costs. The longer we drag this out, the more it is going to 
cost in the end.
    Mr. Pastor. You basically have 6 bosses that if they meet 
you will be happy, but when they do meet they may not agree 
which would cause some problems.
    Mr. Hantman. Right. Stuart clarified a point. When I 
indicated this committee and the matching committee on the 
Senate side would appropriate the first phase of funds, that is 
true, but the 6 committees would have to approve that plan 
before we came to you for the money.
    So yes, how review and approval proceeds is, I think, 
critical to whether this project moves at all.
    Mr. Taylor. I would love to discuss with you any thoughts 
on what we might do about cutting this.
    Mr. Pastor. Mr. Chairman, I went through the briefing 
papers, and I read some editorials from people saying build it. 
Then they said get it done. I think there is a lot of demand 
that we have this Visitor Center functioning, and I think it is 
incumbent upon us to get the 6 committees together and give 
some direction, otherwise the first part of the validating of 
the 1995 plan will never get done. I believe that with your 
leadership, we may be able to do something.
    Mr. Taylor. It might be that we get the leadership from 
both sides and each of the committees to form some sort of 
group to meet with the Architect rather than having him go to 6 
committees. If we do a central meeting each time, that would 
save a lot of time. There are things like that that we could 
probably do.
    Mr. Pastor. As members of some of these committees we may 
have to put our ego aside and work with each other. We can only 
lay the blame so many times on the Architect of the Capitol, 
and at some point we have to assume some of the responsibility.
    [A question from Chairman Taylor and response follows:]

    Question. For the record, supply the latest cost estimates, 
construction schedule, and the conceptual layout of the Visitor Center.
    Response. The most recent ``official'' cost estimate is based on 
the 1995 plan; it is now four years old. That plan, which will be 
reviewed as described below, called for the construction of a 532,389 
square foot facility. It included 226,805 square feet for the visitor 
center itself, 57,069 square feet for Capitol support services areas, a 
57,939 square foot auditorium for the Library of Congress, a 27,621 
square foot service tunnel and 162,955 square feet for future 
expansion. The estimate for that work assumed a June 1998 construction 
midpoint and totaled $95 million. The estimate included the cost of the 
CVC shell and core, all exterior improvements for the East Plaza, and 
allowances for all interior finishes for the CVC proper. The 1995 plan 
estimate did not, however, include interior fit-up and exhibit costs 
and their associated design costs, enhanced security provision, the 
tunnel to the Library of Congress or the CVC connection to the existing 
steam and chilled water system on 2nd Street which also needs to be 
addressed. Thus, the 1995 plan estimate would need to be increased to 
cover these additional scope items, other scope changes identified 
through the review process, the design, interior finishes and fit out 
of the future expansion area if desired, and also by approximately 
three percent annually to a new construction mid point to cover 
inflation.
    With respect to the construction schedule, pursuant to directives 
in H. Rept. 105-825, the Conference Report accompanying the fiscal year 
1999 Omnibus Appropriations Act, we are currently preparing a proposal 
and obligation plan to present to the Appropriations Committees, as 
well as others, for the planning phase of the project. This will be the 
``thorough review'' of the project called for by the Conference Report. 
The office is working with GAO in the drafting of this obligation plan 
so that their participation in this phase can be meaningful. This plan 
will be presented to the Committees in March, and will anticipate an 
18-month planning phase that will be comprehensive in scope.
    Upon completion of the planning phase a new revised plan for the 
project will be presented for review and approval by the House 
Appropriations Committee, House Administration Committee, House 
Transportation Committee, Senate Appropriations Committee, Senate 
Committee on Rules and Administration, and (presumably) the Senate 
Committee on Environment and Public Works. There is no way to assess 
how much time would be entailed in such review and approval process.
    If the plan is approved, another obligation plan for the next 
phase--engineering and design--would be presented to the Appropriations 
Committees for approval. The engineering and design phases would 
necessarily be combined and might require up to an additional 18 months 
of work depending upon the extent of revisions to the 1995 plan 
required in the approved plan.
    It would seem prudent to allow a period of 8 months to be consumed 
by review and approval processes, which would schedule the beginning of 
construction at approximately 44 months from March 1999, or December 
2002. Construction would take approximately 3\1/2\ to 4 years. Certain 
``fast tracking'' techniques will be explored in the planning phase to 
determine whether this schedule can be accelerated.
    In 1998 a preliminary cost re-assessment, done as an order-of-
magnitude allowance projection without the benefit of a schematic 
design, raised the cost estimate to $160 million. This resulted from 
allowances for security enhancements, exhibit design, interior fit-up 
and other considerations as noted above. This is not a hard cost 
estimate. The upcoming review of the CVC will establish the conceptual 
baseline for the scope of the project from which a more accurate 
preliminary cost projection can be made.

                                Security

    Mr. Taylor. Ms. Granger?
    Ms. Granger. In light of the shooting last year at the 
Capitol, have you reevaluated the security or is that being 
addressed through the establishment of the Visitor Center?
    Mr. Hantman. The concept is that 95 percent of the visitors 
that come to the Capitol should be flowing through the Visitor 
Center. That was the concept, but again never signed off by 
leadership. We have so many doors right now. Part of our 
Capitol Police budget accounts for 4 officers at doors where 
visitors come through, 3 officers at doors where staff and 
members come through. And if visitors are allowed to come 
through every one of those doors, their job becomes much more 
difficult, and basically the visitors are not oriented and 
welcomed the way that they should be.
    So the original plan did take into account having 
magnetometers remote from the Capitol itself by several hundred 
feet towards East Capitol Street and everybody coming through 
there would be screened and once through that area, they could 
choose to take self-guided tours and go up through the Capitol 
itself or wait for a tour guide. They could see a film which 
oriented them to what they were going to see, other exhibits 
based on the history of our country and the way that our 
government does business. All of those issues.
    So you are perfectly right, it is meant to enhance the 
experience of the visitor and security was always a part of 
that, but the issue relative to the shootings is that we 
probably have to look at the security and, with the chairman's 
comments in mind, still make it a very welcoming experience but 
a secure one as well.

                          Fire and Life Safety

    Mr. Taylor. Mr. Hoyer.
    Mr. Hoyer. Mr. Hantman, welcome. On the subject of fire 
safety, can you bring us up to date? The Inspector General 
described our system as deficient. As you may know, before your 
time here there was a fire in Jim Wright's Longworth office. 
Curt Weldon, a member from Pennsylvania, raised the issue of 
fire safety. He and I have co-chaired the Fire Service Caucus 
and are concerned. Significant steps were taken in Longworth 
and other places, but can you tell me what the plans are?
    Mr. Hantman. First of all, let me state I welcome the IG 
report. Anything that helps Congress focus on life safety and 
facilitates our ability to accelerate the program and get 
required funding for it is welcomed.
    Appendix A of your report, sir, has a report on life safety 
in terms of what we are doing. We have reorganized a special 
group under Lynne Theiss, our executive officer, specifically 
to address life safety issues, among others.
    We have requested funding in life safety projects to the 
extent of $16 million in this year. We have brought on 
consultants as early as 1997 to work on various subprojects for 
us, such as doors. Many of the doors in the Capitol complex--in 
fact in the Capitol building itself, there were virtually no 
doors on the West Front that had panic hardware and that swung 
in the right direction, with alarms on them for security 
purposes. Thus far we have completed 7 door renovations in the 
Capitol and now we will start on the House side. All of the 
parts have been fabricated so we will have minimum disruptions. 
We have another 33 or 40 that have been completed, another 18 
under design. We have outside firms that are coming in to help 
us. They are working with the Corps of Engineers and other 
government agencies to support our capabilities and move the 
project along.
    What we really do need is to be able to sit down and talk 
about accessibility, for instance. A prime concern is in the 
Capitol. Most of the work that we have been able to accomplish 
relative to life safety and security issues in any occupied 
space is during a break. It is when people are out in August or 
November or December come around and people are not there. That 
has been a very limiting factor in terms of our being able to 
accelerate the work in the Capitol.
    Mr. Hoyer. Regarding the problem on the South Door, there 
is some concern about notice that that was going to be done. 
Are you aware of that? Was there any notice to the Members of 
Congress?
    Mr. Hantman. Notice had been sent out.
    Ms. Poole. The Sergeant at Arms is getting ready to send 
notices out once we are ready to proceed.
    Mr. Hoyer. The South Door is closed now, is it not?
    Ms. Poole. No, sir. It is still open.
    Mr. Hoyer. I know Mr. Thomas talked to me about some 
concerns that he had with the South Door.
    Mr. Hantman. So, we are addressing in the design phase many 
aspects of life safety and security. We meet regularly with the 
Sergeant at Arms of the House and Senate to plan methodologies. 
We need to meet with leadership to talk about accessibility for 
major committees and leadership offices, as well, so we can get 
in there and chase walls, put in fire detectors and conduits 
and the alarms and sprinkler systems. All of that needs to be 
done. That certainly is the major positive aspect of the IG 
report to help focus on that.
    Mr. Hoyer. In terms of a time line, do we have one, 
realizing the problems that you have about access that the 
House and the Senate has to operate while you are doing this, 
but do we have a time line?
    Mr. Hantman. Each component of the life safety program is 
different. We have been trying in the Capitol to coordinate our 
work with the CAO so we go into a room once. They put in the 
telecommunications and we put in life safety and the member 
comes back in and there is no further damage. Do you have an 
answer?
    Ms. Poole. The Capitol building, the entire basement in the 
Capitol building has been upgraded and we do have the smoke 
detectors in the testing phase right now in the basement, and 
that is the backbone of the entire fire alarm system.
    A lot of the major areas in the House, and the House is 
further along than the Senate, we are about 30 percent complete 
going through the major areas.
    However, we have lead paint in the building. We are having 
to comply with the standards of proper hazardous material 
abatement which takes from 8 to 12 weeks per room.
    Mr. Hoyer. I don't want to cut you short, but my colleagues 
want to ask questions.
    Is there a time line? In other words, do you have an 
expected time when the deficiencies will be corrected and the 
Capitol complex will be considered meeting fire safety codes?
    Mr. Hantman. We have some 13 million square feet up here on 
the Capitol and as you know, the Congressional Compliance Act 
of 1995 kind of changed the ground rules. So we have a lot of 
catchup to do. There are so many variables relative to this 
that it is tough to give you a number. We can come back to you 
with an analysis building by building, assuming an approval 
process, assuming dollars are there and assuming that we have 
access.
    Mr. Hoyer. If you don't have a time line, you will never 
get there. That is my point. I understand that all of us waste 
time. We have disagreements with one another and we hold you 
up, and that is our fault and that is what Mr. Pastor was 
talking about. But if we don't have a time line it will not be 
accomplished.
    The House is ahead because of Curt Weldon, because he 
raised that and he said we are going to do this. So we got 
about the business of doing it. And Vic Fazio as chairman and 
Jerry Lewis as ranking member made it happen.
    My suggestion to you is that this is a critical problem. As 
you know, we had a fire in Longworth last year and some of the 
fire fighters and some of our police got people out of the 
building. The alarm system did not work properly. So we need to 
get our buildings safe both for those folks who work here and 
for those who visit us.
    Mr. Hantman. Most of the life safety systems do have time 
lines, but we have to organize it by building to give the 
overall picture and show where the holes are so we can more 
clearly explain that.
    Mr. Hoyer. I think the committee would be interested.
    [Questions from Chairman Taylor and responses follow:]

    Question. How much is in this budget for fire safety? Are the 
budgeted items responsive to the IG's analysis?
    Response. The AOC Fiscal Year 2000 budget request (excluding the 
Senate Office Buildings) consists of 23 projects identified, which 
require funding in the area of fire safety.




------------------------------------------------------------------------
House.............................           11               $4,057,000
Capitol...........................            5                2,170,000
Library of Congress...............            7                1,115,000
                                   -------------------------------------
    Total.........................           23                7,342,000
------------------------------------------------------------------------

    It should be noted that our total request in this group is 
$9,792,000 as one project's funding request in the RHOB has both the 
installation of sprinklers as well as the installation of the 
telecommunications cable tray system. The original request for the 
Rayburn Building included only the sprinkler portion of the request. 
The table above includes only fire sprinkler costs.
    Nine of these 23 projects will require multi-year funding for 
completion. The estimated out year requests for these is $6,135,000 and 
are outlined in the Five Year Capital Budget.
    There is one project which is in design at the present time, 
Install Emergency Signs, Lighting, and Safety Areas, that is planned 
for fiscal year 2001 funding, which is valued at approximately 
$2,000,000.
    Annual funds totaling $360,000 are requested in the fiscal year 
2000 budget to accomplish the inspection, testing and maintenance of 
the existing fire protection systems in the Capitol, House and Library 
Buildings. Based on present analysis by contractors, we are evaluating 
the sufficiency of this projected level of support.
    None of the above projects are in response to the HOIG report. 
However, we have used the report to determine that there are an 
additional 15 funding requests that will be needed to provide an even 
more comprehensive program within the House complex.
    The additional funding requests will be needed to: Install systems 
after they are designed by outside vendors--rather than the previous 
method of using in-house forces to install as time allows, funds to 
expand the areas of coverage for sprinkler systems in the Cannon 
Building to cover special height spacing such as the Rotunda space as 
well as the Caucus Room and the rooms above and below the Caucus Room, 
funds to expand the areas of coverage for sprinkler systems in the 
Longworth Building--to cover the basement areas that have not been 
renovated to date, the Ways and Means Assembly room, lobby and adjacent 
corridor, and all the committee rooms, as well as funds to be included 
in the infrastructure study of the Capitol to provide for the 
integrated design of a sprinkler system and its installation.
    The current conceptual estimate pending design and construction 
documents for these projects is approximately $27 million on the House 
side of the complex. We are currently validating the conceptual scope 
of these additional projects to include Member impact (if any), 
manpower requirements to initiate and complete the project and 
potential time lines. At the same time, we are prioritizing these 
projects so we may seek approval to reprogram funds to begin design in 
fiscal year 1999 and adjust budget funding in fiscal year 2000 so that 
work can begin once designs are complete.
    Question. Over the past several years, we have appropriated $35 
million for fire safety-related projects. I am going to place in the 
record a letter the Committee sent to the Architect of the Capitol 
regarding the IG Report and the use of the $35 million, and the 
Architect's reply.
    Response. The information follows.

    [Clerk's note.--The Fire Safety Report can be accessed 
through the House Inspector General's web page www.house.gov/
IG.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          Capitol Power Plant

    Mr. Hoyer. My last question in this round, Mr. Chairman, 
and thank you. I have a parochial interest. As one approaches 
the Capitol from my district one sees a power plant, a 
magnificent structure that we have mucked up the skyline with. 
The highway is there and we can't do anything about the 
highway. I notice that the power plant chillers are on your 
list. Now, we don't have time here but I want to note, Mr. 
Chairman, in talking about the Capitol, that a drive across the 
South Capitol Street Bridge is the worst entrance to the 
Capitol of the United States. This is one of the most 
magnificent structures in the world, and we have a chilling 
plant spewing forth steam. That is a real tragedy that Congress 
itself has despoiled the aesthetic impact of coming across the 
South Capitol Street Bridge, which is where foreign visitors 
come in from Andrews Air Force base. It is a beautiful parkway 
until you get to the South Capitol Street Bridge and then you 
have a great problem. We frankly need a Pennsylvania Avenue 
project for that entranceway to the Capitol of the United 
States, and I would hope as our Architect that you would focus 
on that, working with the District of Columbia, working with 
GSA and others, and let's see another Southwest Federal Center 
which hopes to solve some of those problems.
    Whatever we are doing with the power plant chillers, I want 
to know because every time I see it, I am chagrined about what 
we ourselves have done to that skyline and impinged upon and 
degraded the view of the Capitol.
    Mr. Hantman. Understood.
    Mr. Hoyer. That was not a question, obviously, but a 
comment.

                             Botanic Garden

    Mr. Taylor. Could you give us a brief point on the Botanic 
Garden?
    Mr. Hantman. Certainly. One of the first things I did as 
Architect of the Capitol in a life safety vein was indicate 
that the Botanic Garden was unsafe for people to come in. The 
glass rattled in the wind. The doors swung in the wrong 
direction. There were inadequate ADA facilities, tripping 
hazards throughout. So we had a $33.5 million emergency 
appropriation approved.
    We have signed a contract with Clark Construction and they 
began working in September. There is a 2-year schedule. They 
started removing the glass and glazing. They started excavation 
along Independence. They are making good progress on this, and 
we expect that project will be completed by Clark Construction 
in September of 2000, and we will be bringing in plants at that 
time.
    In April we will bid a contiguous project that fills out 
that block front. It is the National Garden. We raised some $10 
million from private funding. It will have an interpretive 
learning center, a butterfly garden, a First Lady's rose garden 
directly accessed from the Botanic Garden, and we expect that 
also will be completed concurrently with the Botanic Garden. So 
we are making good progress on that. The next monthly report 
will be coming out this Friday to indicate the progress that 
Clark Construction has been making.

                             Capital Budget

    Mr. Taylor. The capital budget is $87.3 million. It is up 
almost 90 percent over 1998, and you are 168 percent above the 
current year. If the Visitor Center is excluded, how do you 
plan to manage that exploding workload?
    Mr. Hantman. As I started talking about earlier relative to 
the life safety programs, we have turned a lot of our folks 
into project managers as opposed to designers who would be 
pushing the pencils on the design board. We have also entered 
into indefinite quantity contracts with architectural 
engineering firms and also with procurement and legal support 
services to get the contracts ready to push the paper out, so 
to speak.
    We are working with other governmental agencies, whether it 
is NOAA, or the GSA, Corps of Engineers, to support us and give 
us project specific people to work on projects.
    Each of the projects that we come forward with right now 
will have dollars assigned to it for control and management of 
that project separate from our normal appropriations for our 
people, our full time people.
    So this is what we are planning to do to expand our scope 
by grafting on, so to speak, external resources to support us 
as we need them to be supportive.
    [A question from Mr. Hoyer and response follows:]

    Question. I noticed in your capital budget that you call 
for the replacement of the Russell subway, which had a major 
accident recently. Is there a similar request to replace the 
Rayburn subway?
    Response. Yes. The program for the replacement of the 
Rayburn Subway has been submitted with our five year Capital 
Improvement Budget. The current schedule calls for design to be 
funded and completed in fiscal year 2001 with construction 
funded in fiscal year 2003. It is anticipated that construction 
will also be complete within fiscal year 2003.

                            Capital Projects

    Mr. Taylor. How many projects are in this budget and how 
many have not been completely designed or have formal cost 
estimates?
    I keep hearing that as a question by all of the committee. 
I know that I am building a house and it has taken a lot longer 
than I thought, but I am the contractor, the architect, the 
electrician and I have no money, so I know what my excuses are. 
Are we attacking the problem of design in any of these areas 
and getting a cost estimate up so that Congress can focus on 
it? There is not going to be a lot of sympathy to appropriate 
money without design and cost estimates and so forth.
    Mr. Hantman. A general policy that I have instituted is 
that we will request money for design, get that design work 
done, get an estimate. Often we would have to skip a year once 
that is done just because of the timing of appropriations.
    October 1 if we have monies to design, and we start that 
process, obviously it is going to run past when we are 
submitting our budget for the next fiscal year. So normally we 
would have to skip the next year, have detailed information, 
come to you with a fairly secure line of construction costs, 
estimated construction costs. There are exceptions to that, 
though. One of them is the Capitol Dome. We had an emergency 
appropriation of some $7.5 million for the Capitol Dome. And 
when I came before this committee, what I indicated was what we 
are estimating is the first phase so we can open up the 
patient, find out what the problems are so we can come back to 
you with the request for the rest of the money.
    This gets back to the skipping a year process again. We 
have an 18-month project for that $7.5 million which is meant 
to clean out the lead-based paint from the interstitial space 
between the inner Dome and the outer Dome. So where we can look 
at the cast iron plates on the exterior of the Dome and see 
where there are cracks and what we might have to recast, what 
the basic problems are with the Dome as part of this 
investigation for this phase of the work. We have a signed 
contract on that. The contractor should be coming on site next 
month. We will probably see scaffolding going up probably in 
March so that the contractor can be coming in and doing his 
work for this phase.
    Conceptually speaking, when we have photographed every 
plate and saw what every fastener was all about, we would be 
able to come up with a more detailed number for the total cost 
of the project. In this year's budget you will see that we have 
$28 million requested for the next phase of the project. We are 
doing that based upon the information that we have in hand 
which we hope to validate during this phase of the work. We 
also have an out year possible request of some $2 million in 
case we are off the mark. This is our order of magnitude before 
we have full construction documents and before we have done all 
of our exploratory work because we don't want to lose a year in 
the process, which would happen if we waited until the end of 
this project and came up with hard numbers based on full 
construction documents and came back to you again. It is 
difficult to know full cost unless you go through the entire 
design process, and where the completion of that is in the 
budget process. We could lose a year in the appropriations 
process. So there are some projects that we are talking about 
that we don't have full estimates for, but those are the 
exceptions. Most of the projects we try to have full 
construction bids and costs so we can come to you and say this 
is the cost of the project.

                        Increased Project Costs

    Mr. Taylor. I hope you appreciate the concern that the 
Congress has about what has happened. Within the Dome project 
we were talking about $3 million to 4 million costs, and now it 
is up to a 40 million; and we are not sure beyond that.
    The Cannon garage project was $3 million and now it is up 
to $11 million, and we don't know where it is going to go from 
there.
    We are going to have to work with you to put focus on the 
problems that are there. If it takes legislative changes, we 
can go to the authorizing committees and see what needs to be 
done. If it is staff changes and funding, we can work with you 
there. But we have to come up with some better processes which 
go beyond our conversation today, but I would hope that we 
could work in that area.
    Mr. Hantman. Normally in the past this agency had put 
markers out in out years to be based on design work yet to be 
done. And relative to the Cannon garage as well as the Dome, 
clearly the markers didn't bear any relationship to reality.
    [Questions from Chairman Taylor and responses follow:]

    Question. How many projects are in this budget and how many have 
not been completely designed and had formal cost estimates based on the 
design?
    Response. The AOC has requested fiscal year 2000 funding for a 
total of 139 capital projects.
    All major new projects, except for the Renovation of the Rayburn 
Cafeteria, are based on formal cost estimates and either completed or 
substantially completed designs. The Rayburn Cafeteria estimate is 
based on conceptual input from the Chief Administrative Officer of the 
House and the current food service contractor and the historical cost 
of doing similar work in the Capitol. Despite the absence of a formal 
cost estimate, this project was included in the fiscal year 2000 
request because of the desire to advance the completion schedule of the 
project. There are also several life safety projects that have been 
included without completed design and formal cost estimates because of 
the high priority for completing these projects as quickly as possible. 
These life safety projects are ``Replace Exit Doors for Emergency 
Egress and Security'' in both the Capitol ($750,000) and House Office 
Buildings ($900,000). The costs for these two projects were based on a 
consultant's survey of the number of doors that required modifications 
and their conceptual estimate based on similar work in the complex. A 
consultant is currently on board designing the door modifications and 
validating the conceptual estimates. Final design has not been 
completed on some of the smaller projects; however, most of the 
estimates related to these projects were developed by AOC staff based 
on similar work and historical costs. On rare occasions, projects such 
as the Dome rehabilitation, arise that require extensive investigation 
before final design can be developed, but the expected magnitude of 
cost is still requested in order to avoid a years delay.
    A detailed status of design of each project for which construction 
funds have been requested is provided in response to a question that 
follows.
    Question. We continue to believe strongly that construction funds 
should not be appropriated unless design and firm cost estimates have 
been produced. What is your policy on that?
    Response. For the fiscal year 1998 budget request the AOC initiated 
and officially adopted a policy of requesting study/design funding for 
all significant projects two years before requesting construction 
funds. The process of asking for design funds and skipping a year 
before requesting construction funding gives the agency sufficient time 
to hire a consultant, complete the design, and develop a credible cost 
estimate based on the completed design before including a request for 
construction in the budget. Projects that cannot wait for this lengthy 
process to proceed, such as life safety or time-sensitive projects, may 
require deviation from this policy. Those projects in the fiscal year 
2000 request that do not have completed designs are outlined in the 
response to the previous question.
    Question. For the record, list all projects for which construction 
funds are requested, the status of design and final cost estimates, and 
when the designs will be completed. Also indicate the projects that 
require Speaker or House Office Building Commission approval, and the 
status of same.
    Response. The table that follows provides the design status of all 
projects for which construction funds were requested. The following 
seven projects in the House Office Buildings require HOBC approval. Six 
of the seven projects do not currently have HOBC approval. There are no 
projects in the Capitol that require the Speaker's approval. In 
addition we will follow the normal process of coordinating the timing 
and actual construction with the appropriate committees/offices for any 
project that could impact the Congress.

Renovations to Rooms 2137 & 2138, RHOB (Judiciary 
    Committee) \1\......................................        $115,000
Renovate Rayburn Cafeteria \2\..........................       3,400,000
Renovate Room B310, RHOB (CAO) \2\......................          30,000
Expand/Renovate Computer Center, FHOB (CAO) \2\.........         250,000
Renovations to Room 2128, RHOB (Banking Committee) \2\..         170,000
Upgrade Committee Room PA System Wiring \3\.............         220,000
Emergency Generator, LHOB \4\...........................         609,000

\1\ This project was approved by the HOBC in August 1998.
\2\ Project approval will be requested upon completion of scope and 
detailed estimate.
\3\ This project will require HOBC approval for each individual 
committee room.
\4\ HOBC approval of the space for the generator is required.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        Capitol Dome Renovation

    Mr. Taylor. I would like to have an arrangement for our 
committee to tour the Dome with you and go over with you some 
of the ideas and how long the Dome is going to be closed and 
the construction, and will that affect the Rotunda and the 
closure of that area. This is very important, I think, to most 
Members of Congress and certainly to the general public.
    Mr. Hantman. I can talk to that if you would like.
    Mr. Taylor. Go ahead.
    Mr. Hantman. Because we are working between the inner Dome 
and the outer Dome. Any containment for the lead based paint 
will essentially be localized between those two shells. We 
propose to erect a netting on the inside of the Rotunda which 
would hang from the top walkway area down below the coffered 
ceiling in the upper part of the Dome to catch any debris that 
might fall off from the inner face so that people would not be 
dissuaded or unable to walk in the Rotunda during the 18-month 
projected period of the first time frame.
    Rather than going back to what was done in 1959 and 1960, 
when there was scaffolding rising from the floor of the Rotunda 
and people had to walk through tunnels, in this scheme, and 
this is the way that we bid it, we would have the netting set 
up. We would have to close the Rotunda for a period of 2 to 3 
weeks to set up that netting. And when it comes down at the 
end, you would have to close the Rotunda again for that same 
period to remove it.
    One of the issues that we have raised in a letter to the 
Speaker, and also on the Senate side, is if there should be a 
lying in state or a special need in the Rotunda during the time 
of this work, we would request clearance and we would try to 
design it so that this netting could remain in place because 
you could not get it down within the 2 to 3-day turnaround that 
you would need to prepare the Rotunda for that issue. Hopefully 
when we finish this 18-month phase and we go into working on 
the outside of the Dome and again on the inside of the Dome in 
the Rotunda as well, we would be looking at possibly using the 
same methodology but setting up a scaffolding. So again we 
would hope to be able to keep the Rotunda open because we are 
talking about a period of 4 years or so for the next phase of 
the work.
    [A question from Chairman Taylor and response follows:]

    Question. When and for how long will the Dome be closed to tours? 
Will the Rotunda be closed as well?
    Response. Based on the timing of the award of the lead-based paint 
removal contract, it is our expectation that the Dome will have to be 
closed to tours in early March 1999. It will remain closed through the 
end of Phase II construction which is scheduled to be completed during 
the Summer of 2003. It is not feasible to continue Dome tours during 
the process of removing the lead-based paint because of the need to 
minimize lead exposure risk to staff and visitors. Since the Dome will 
be closed for an extended period of time, we are making every effort to 
keep the initial closing date as flexible as possible to allow access 
to tours until the contractor's staging work has begun in the 
interstitial space.
    It is anticipated that the Rotunda will be closed on or about April 
5, 1999, for approximately 2 to 3 weeks for the installation of the 
safety netting. We will have a definite date once the contractor has 
provided confirmation of a start date for the installation. We are also 
cognizant of the need for the Rotunda to be available for the annual 
observance of the Holocaust which is held in April. Any potential 
conflict with the Rotunda closing and the Holocaust observance will be 
avoided. There will be a similar closing of the Rotunda at the end of 
Phase I, which is scheduled for May 2000, for the removal of the safety 
netting. After the Presidential Inauguration in 2001, the interior 
portion of Phase II construction will begin, which will include 
renovations to the cast iron colonnade and shell above the Rotunda. 
This will require the closing of the Rotunda for what is currently 
estimated to be a one month period for the erection of scaffolding.
    Our goal is to keep the closings of the Rotunda as short as 
possible and to keep it as unobstructed as possible. For this reason 
two Rotunda scaffolding options are being considered for the erection 
of protective netting: 1) standard scaffolding from the Rotunda floor 
up, similar to that used in the mid-seventies when the Rotunda was last 
repainted, and in the mid-eighties when the Apotheosis of Washington 
was conserved, and 2) suspended scaffolding, which would keep the 
Rotunda floor virtually free from obstruction. Near the end of Phase II 
construction the Rotunda will be required to be closed in either event 
for approximately three months to allows for interior stone cleaning 
and the removal of the scaffolding. It is hoped that the second option 
will be technically and economically feasible for the different needs 
of each phase to avoid closing the Rotunda for the entire length of the 
project.

                         Re-engineering the AOC

    Mr. Taylor. Last year at your request we provided authority 
to offer early out bonuses to your work force. Your intention 
is to re-engineer the organization. What are the current plans 
in that regard?
    Mr. Hantman. As required by Public Law 105-275, which you 
refer to, we have prepared year 1 of our re-engineering 
program, 3 separate programs. The plan has been presented to 
the House Committee on Administration, the Senate Committee on 
Rules Administration for approval. It has also been presented 
to staff on both the House and the Senate Legislative Branch 
Appropriations Committees.
    At the present time we have received approval from the 
Senate and we are working with the House committee to address 
their concerns and comments on our re-engineering program. In 
fact we have a meeting scheduled for tomorrow afternoon to meet 
with staff. Hopefully we will be able to answer their questions 
satisfactorily and get signed off on that program so we can 
begin to implement the offer of these voluntary buyouts to 
specific groups within the Architect of the Capitol 
organization.
    Other specific groups would be identified for the second 
and third year depending on the needs of the Congress. We are 
getting to the point, Mr. Chairman, where we need to be able to 
make that decision and start the process almost immediately 
because we are planning to pay for the buyouts from the 
appropriated funds of those salaries. So we are now at the 
midpoint of the year basically and we only have 6 months left 
of salary left to apply towards those buyouts. And so if we are 
able to get approval and answer the questions successfully and 
begin to move, we will be able to implement that fairly soon. 
We will need a month to offer it to our employees, answer their 
questions and walk them through the procedure and make sure 
that they understand what their benefits are and issues are, 
and if we get approval hopefully in the next couple of days we 
would be able to have those employees receive their buy-out 
opportunities and leave by--what was our time frame on that? I 
guess it would be early March. Early March.

              Thermal Storage Facility/East Plant Chiller

    Mr. Taylor. You touched upon the power plant in answer to 
Mr. Hoyer's question. We have the thermal storage facility. 
What is that?
    Would you also touch upon in the same answer the east plant 
chiller replacement project? How long do you think that it will 
take to complete that?
    Mr. Hantman. For the east plant chiller, we have requested 
funding in 3 increments. We have $5 million and we are 
requesting another $5 million, an estimated $15 million total 
cost on the east plant chiller. They are aged facilities. They 
have PCBs. It is a life safety issue. They really need to go 
away. Freon, I'm sorry. The freon, that needs to come out.
    So that is basically a must do life safety type of issue. 
Also it has basically outlived its usable life and we can't 
risk keeping it on.
    In conjunction with that, we are looking at a thermal 
energy storage system of water or ice storage that would 
provide a portion of the cooling required for the buildings in 
the Capitol complex. When you have this water or ice storage 
facility, it is a lot cheaper to cool off that water at 
nighttime electricity rates, use that water for cooling during 
normal daytime, basically stockpile it, having produced it at 
lower energy rates. We think that there are major savings that 
could be achieved.
    When the Capitol Visitor Center had projected using thermal 
storage and it turned out not to be effective for the Visitor 
Center, there was a projected cost of about $8 million for the 
project with a $1 million payback on an annual basis. So 
basically it would have been an 8-year payback on the project, 
but we have to calculate what we think the savings are on this 
particular element. We think that it is good news and it would 
be useful for us to be able to maximize the value of the energy 
that we are using.
    [A question from Chairman Taylor and response follows:]

    Question. What is the status of design work for the East 
Plant chiller replacement project? When do you expect to get 
the replacement project underway? At what total cost and how 
long to complete?
    Response. The East Plant Chiller Replacement project will 
be in design this Spring. A Commerce Business Daily 
announcement seeking consulting firms interested in performing 
the design for this project was issued last summer. Proposals 
were received from numerous highly qualified firms in the fall. 
These proposals have all be evaluated to identify those firms 
that have the highest technical qualifications and best cost 
proposals. Interviews for the final section of a consultant are 
scheduled to occur in February 1999, and award of a contract 
will follow thereafter. Upon award of the contract, design will 
proceed immediately with a study to confirm the exact 
configuration of the chiller replacement and development of a 
pre-purchase bid package for the chillers and other large 
equipment with long manufacturing lead times. This pre-purchase 
bid package should be bid and awarded this summer. Final design 
of the entire project should be complete in early 2000.
    The phased installation of the new chillers is scheduled to 
begin in fiscal year 2000 and continue through fiscal year 2003 
at a total estimated costs of $15 million based on the 
schematic design.

    Mr. Taylor. Mr. Pastor, do you have any further questions?

                        Perimeter Security Plan

    Mr. Pastor. I do. I have 2 questions. The security plan, I 
haven't had a chance to review it, but where are we? I will ask 
briefly on that.
    Mr. Hantman. The perimeter security program?
    Mr. Pastor. The reason that I ask this question, I had a 
conversation with some of the Speaker's staff, and one of the 
concerns is that there is a security plan that has been 
approved by a task force but it hasn't been implemented. And so 
my question to you is: What are the problems and why haven't 
you been able to implement it?
    Mr. Hantman. $20 million in emergency funding was 
appropriated for the perimeter security plan. That was the 1998 
supplemental bill.
    There are two components of that. The major component was 
to deal with Capitol Square, the Capitol and the grounds 
surrounding the Capitol building. There were about 3 or 3\1/2\ 
million dollars allocated to secure the issues relative to the 
Senate office buildings. The House did not have a component at 
that point.
    We have gotten approval from the Senate to proceed with 
Delaware and C Street components around their office buildings. 
We have made presentations to them relative to the type of 
bollards that we want to be using, which are basically the same 
as the White House bollards that is used around the security 
perimeter of the White House. It is a Secret Service bollard 
that has been designed by the Secret Service specifically for 
the White House. It is crash tested by the Secret Service. We 
propose to use that bollard not only on the Senate side but on 
Capitol Square. We have gotten approval from the Senate side, 
and approval has not been forthcoming from the House side. Some 
of the issues relate to the fact that it is not a total 
security system. Clearly if we put bollards 4 feet on center, 
motorcycles can get through unless you put chains, and some 
areas would have chains for normal police concerns, but there 
are issues that are open and have not been satisfied to the 
extent of the House and we have not been able to move forward 
on the program.
    Mr. Pastor. When do you think that we are going to move 
forward?
    Mr. Hantman. This is a great concern to the Capitol Police 
Board, which I sit on, and we can talk about it when the 
Capitol Police Board comes in.

                          Re-Engineering Plan

    Mr. Pastor. The second question that I have deals with your 
re-engineering plan and the buyout. I think that is one factor. 
Not knowing all the problems that you have, I know that you 
have the office cleanup people concerned about what is going to 
happen to them. Obviously many people have been here many years 
and they have invested a lot of time and effort.
    Is your re-engineering plan causing this discontentment 
with your employees? It seems to me that you are having 
problems with your staff, and I usually say that the best union 
organizer is a bad manager.
    Mr. Hantman. We are in the service business. Our most 
important component of our organization are our people. There 
is every intent and every opportunity for us, and we have been 
rebuilding our agency so that we in fact make our people the 
most important thing. We have totally rebuilt our human 
resources organization. There basically was none when I came 
here. We have hired Hector Suarez from OPM to come in and come 
up with uniform standards across the campus. Things were done 
differently on the House and on the Senate side and in the 
Capitol. We are trying to standardize that, and working with 
the union, people represented in all of those buildings, we 
need to have those agreed to. We are bargaining in good faith 
with the union. We look forward to very strong positive working 
relationships with the union.
    The concept of offering the buyout is one that from my 
perspective is a win/win situation for everybody. From an 
economic and governmental perspective, it is more economical to 
offer a buyout, a voluntary buyout. It has a cap of $25,000 
based upon years of service and age, things of that nature, and 
there is a governmental formula that is worked out on that 
basis. Also it is a voluntary opportunity. We have a very low 
turnover rate in this agency. In order for us to re-engineer, 
to have a job where instead of sending an electrical guy or a 
mechanical guy and a carpenter and a painter out to do a job, 
if we had multi-tasking, where people are trained and have had 
their salaries adjusted for multi-tasking, it enriches their 
job and saves us money as well.
    We are not considering a RIF. A RIF would cost us more 
money than a buyout. So if we re-engineer the organization, 
create the type of succession plan needed, bring on younger 
people in areas that currently everybody is at a level 10. You 
have an electrician screwing in a light bulb. You need a level 
5 to do that. We need to stratify our work levels.
    The concept of a buyout would give us elbow room to be able 
to fill those positions, either internally or go outside to get 
the best quality service at the most economical price for the 
government.
    [Questions from Chairman Taylor and responses follow:]

    Question. For the record, estimate annual savings and costs of your 
re-engineering program. Indicate the improvements and other changes you 
hope to make as a result of this program.
    Response. Based on the plan developed by the Superintendents, 
Senior Management Staff and Arthur Anderson Consulting, Inc., we 
project with full participation and acceptance of the 212 buyout offers 
for Phase I, a potential annual savings to up to $618,643 based on 
withholding the refilling of up to 17 voluntarily vacated positions. 
These positions will not impact our commitment to provide service 
excellence and preserve, maintain, and enhance the national treasures 
entrusted to our care. We also project with the above assumptions an 
additional savings potential of $1,458,763 which is a result of the 
restructuring of vacated positions as outlined below. These savings 
will be reinvested into Agency operational needs to provide for 
improvements and or changes in operations such as: Interim staffing 
while jobs are filled on a permanent basis; Investment in program and 
policy development in such areas as Health and Safety, Workers' 
Compensation, Human Resource Program and Policy Development (to meet/
exceed Human Resources Act requirements); In support of business 
process reengineering to streamline program and service delivery 
(correspondence management and control, personnel transaction 
processing, etc.); In support of program roll-out needs of current and 
future funded automation initiatives (policy and program development 
and documentation).
    The total estimated cost for each employee that accepts the buyout/
earlyout will be approximately $33,159, (this includes an incentive 
payment of $21,542, the additional retirement contribution of $6,841, 
annual leave payment of $4,173 that would be made upon retirement even 
in the absence of a buyout program and agency's FICA and Medicare 
contribution of $603).
    It should be noted that these estimates are based on the assumption 
the sufficient numbers of AOC employees will exercise their option to 
apply for a buyout/earlyout. If less than projected numbers exercise 
their option, then the projected results will be reduced.
    As noted above, through this program will be reengineering 
positions that are vacated (based on employees' resigning or deciding 
to retire to accept a buyout/earlyout), to provide for: A component of 
multi-skilled staff with expertise to work in several disciplines; The 
restructuring of positions to ensure that work is performed at grade 
levels commensurate with identified tasks; Positions that can be used 
for the Architect's Mobility Program. The Program will provide 
opportunities for staff in career limiting positions.
    Another element of our program provides for a continuous assessment 
to determine additional opportunities for work process consolidation. 
Through this type of effort we have already achieved a number of 
successes: consolidated the landscaping and ground maintenance 
functions for the Supreme Court and the Library of Congress under the 
Agency Landscape Architect; consolidated the U.S. Capitol House HVAC 
shop and the U.S. Capitol Senate HVAC shop resulting in a reduced 
number of supervisory positions.
    Question. For the record, explain the savings and the time 
sequencing of savings with the completion of the project.
    Response. The attached time line provides an overview of the 
projected time sequencing of savings for our buyout/earlyout program. 
The specific time line and savings projections for Year II and III have 
not been fully developed because up to this time we have focused our 
efforts on developing a comprehensive plan for Year I. Upon approval 
and implementation of the Year I buyout/earlyout program, we will 
replicate the process and analysis completed with the Superintendents 
to develop our Year I plan in order to complete development for the 
Year II plan. We will then submit the Year II plan for Committee review 
and approval prior to implementation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Mr. Wamp?

                    Construction and Cost Estimates

    Mr. Wamp. Thank you, Mr. Chairman. It is good to be back, 
and Mr. Hoyer and I return from the last Congress sitting on 
this committee. I am concerned, though, often when we get into 
these construction and cost estimate issues that things seem to 
be slipping and part of the problem is the turnover of the 
Congress and turnover of this committee and the budget cycles 
that you talk about and not having forward funding for 
construction projects.
    I came out of the private sector, and I came out of the 
construction industry where we funded things at the bank, 
drawing down funds until the project was finished. And then we 
were forced to stay within the constraints of the budget and 
finish on time.
    The big three for me are the Dome, the Visitor Center and 
the Botanic Garden. Being a Republican, I was battered by my 
colleagues over the Botanic Gardens and it ended up in the 
supplemental emergency spending bill. You say the cost will be 
$31 million. You now have your contractor. They are going to 
report on site and you believe they will be finished by 
September of 2000?
    Mr. Hantman. That is their schedule.
    Mr. Wamp. In that case on that project, have you actually 
finished all of your work?
    Mr. Hantman. We have finished all of the construction 
documents. We went out to competitive bid. We established that 
$33.5 million budget based on firm drawings and firm estimates. 
And the numbers for this contractor came in within the area 
that we projected and we are on budget on that.
    Mr. Wamp. So it is a lump sum contract, not a cost plus 
contract. Do you expect that to come in on or under budget and 
on time?
    Mr. Hantman. Yes.

                          Capitol Dome Project

    Mr. Wamp. But when you look at the Dome, I am fascinated 
every time--both of my brothers and my father are licensed 
architects and my younger brother particularly, he lives in a 
CAD machine. He never even picks up a pencil, and he has all of 
these computer models to show how everything is going to look 
to the point that in a three-dimensional kind of way you can 
walk through the buildings.
    How automated are we with computer models of the Dome? 
Would we be as fascinated looking at your work as I am with my 
brother's?
    Mr. Hantman. I think you would be. One of the projects that 
we accomplished within this $7.5 million issue is we had an 
internationally known structural engineer do a 3-dimensional 
CAD analysis of the structure of the Dome to make sure that 
there were no fundamental problems with the Dome. We were 
talking about cracked plates and sealant and paint removal and 
recasting of balustrades and things like that. We certainly 
could share that with you.
    In terms of again the first phase of this project, the 
$7\1/2\ million phase, we had drawings. We had estimates. We 
went out to bid on this first phase, and we came in with our 
budget. So this first phase is going to be fine. But the first 
phase was only to determine the cost for the overall estimate. 
As I described, we don't have all of that information yet and 
we have come before you with what we think will be the next 
phase.
    Level of security, we think is fairly good. We have 2 and a 
half million in an out year because we don't know if we will 
need that additional money. That is the magnitude of where we 
think that we will be ending up, but those construction 
documents will be done in the next phase.
    Mr. Wamp. But let me point out that because of technology 
and your ability through this CAD analysis of the Dome itself, 
it is such an extraordinary project, that we could very well be 
saving big dollars by doing this early in the most efficient 
way. I think this may be the most valuable part of this. We 
need to plug in and get involved in this because when you have 
phase 2, which is unknown right now, we don't want this project 
to explode in cost. I know that is what you are working on with 
the $7.5 million--to come up with the most efficient way of 
addressing this. And when you get to the Visitor Center, we 
need to address this again. And like the Botanic Garden, we 
need to stay on top of it.
    Mr. Hantman. The concept, whether it is 18 months initially 
or 12 months, whatever it turns out to be, one of the biggest 
fears in any architect's or engineer's area is the words, the 
four little words, ``While you are at it, add this in, add this 
in.'' We need to define the scope of work clearly and not 
change the scope because that is normally what impacts the 
budget.
    Mr. Wamp. Which is the nature of government projects versus 
private sector projects. They love change orders. Thank you.

                             ADA Compliance

    Mr. Hoyer. Let me ask just some quick questions and 
hopefully get quick answers. The South Door that I referred to, 
how long is that going to be closed to make that ADA compliant?
    Mr. Hantman. Please go ahead, Amita.
    Ms. Poole. 30 days.
    Mr. Hoyer. Haven't most of the improvements been 
prefabricated?
    Mr. Hantman. Absolutely. They are ready to come on site.
    Mr. Hoyer. Why will it take so long?
    Ms. Poole. We are going to be demolishing the existing 
structure, and we are building a vestibule. All of the 
electronics needs to be run, including the wiring for the 
camera and all of the security wiring. Additionally, we are 
bringing it up to telecom standards so you don't have wires. 
Currently you have carpet rugs that are laid over the wires. We 
are going to be channeling the floor to put the wires inside 
the floor and make it not only ADA compliant but life and 
safety compliant.
    Mr. Hoyer. I am confident that you are not ascribing ADA 
compliance costs to the ancillary work which probably costs 
more than the ADA compliance costs?
    Ms. Poole. Yes, sir. We are charging it----
    Mr. Hoyer. The reason I say that, as you know, I was the 
sponsor of the ADA in the House, and the projected costs are 
far beyond what they actually are, and I want to make sure that 
we have an accurate cost of what that is.

                            Waste Recycling

    Mr. Hoyer. House recycling program, where are we on that 
just quickly because I have to go. I apologize.
    Ms. Theiss. Currently the House complex sends about 2,200 
tons of paper for recycling annually. The program has not been 
very successful, but during fiscal year 1998 it underwent a 
renovation in the House group.
    The Superintendent of the House introduced color coded bags 
for material separation that our custodial staff actually used 
each evening when they were removing the office recycle program 
materials. And through the efforts of an ad hoc task force many 
of the office members from this committee staff did a pilot 
program that had at-your-desk recycling. It was a dual bag 
process of a waste basket, a high grade and mixed grade paper. 
That has provided us with the information to say that this 
pilot will work and people in the House will recycle at their 
desk and they don't consider this an inconvenience. So we are 
preparing to expand that pilot out.
    During fiscal year 1998, we were basically out of service 
for 3 months to meet some life safety issues that had to be 
addressed in our recycling program. However, we have this 
$23,000 as value for recycled materials compared to $2,000 in 
1997.
    Mr. Hoyer. Would that include aluminum and glass?
    Ms. Theiss. We do aluminum cans and glass and some 
plastics.
    Mr. Hoyer. We have some cans in my office, but we are not 
as good as we ought to be. I recycle at home, and in St. Mary's 
County we have a transfer station where we put our trash and 
somebody else picks it up. They are overflowing. We use so much 
material on this Hill that if we recycled, $25,000 would be a 
drop in the bucket, if we really did it. $25 million over the 
course of a year ought to be what we are doing.
    Mr. Chairman, we need to focus, maybe it is an educational 
thing; but just look at this table. Just the paper on this 
table and make sure that it is recycled.
    Ms. Theiss. We have worked with the superintendents in this 
jurisdiction, as well as the task force and determined that we 
had a couple of limitations that initially impeded the 
recycling program. Some of it was space in offices to put the 
trash cans. Other space to further sort the materials once it 
came out of the office space and went downstairs to be sorted. 
We have encountered violations of life safety codes, OSHA 
requirements for life and safety that had to be addressed, and 
we didn't have storage space available to take the materials 
until they were ready to be picked up by our group.
    Thanks to the efforts of our House Administration and 
working with the superintendents, they have located places 
where we can move things. Bob has initiated an effort with our 
current contractor to possibly get daily pickup so we can 
accommodate this need and further increase the ability to do 
recycling.
    Mr. Hoyer. Mr. Harrison on my staff will pursue this with 
you. We need to escalate this. We want Americans to conserve, 
and we ought to do that ourselves. The last question, and, Mr. 
Chairman, if I can submit some questions for the record.
    Mr. Taylor. Sure. Without objection.
    [Questions from Mr. Hoyer and responses follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             Privatization

    Mr. Hoyer. You talk about human resources. That is treating 
people fairly, making sure that people feel good about their 
jobs, making sure that they feel that they are not under attack 
and feel relatively secure in their employment. ``Re-
engineering'' can be a fancy word for getting rid of people. I 
am concerned about that.
    With respect to privatizing or contracting out, where are 
we at this point in time with janitorial services and other 
services which are perceived to be noncritical to Capitol 
performance?
    Mr. Hantman. We are looking at each individual group and 
using Arthur Andersen as a consultant to help us determine 
relative costs on the outside, doing benchmarking.
    There is not much privatization for this first year's 
buyout for the groups which have been identified. We are 
talking about one small group potentially. And it depends on 
the buyouts, who takes the buyouts. This is all voluntary.
    Mr. Hoyer. Contracting out would not be voluntary. If you 
make a determination to contract out, the employee is subject 
to whatever deal we make with the contracting authority.
    Mr. Hantman. What we are doing is seeing where our buyouts 
leave us the holes and what flexibility we have in the 
organization. And when we see what flexibility we have and 
determine the cost whether we bring people back to staff up or 
whether it is best done in the private sector. It is totally 
voluntary. Nobody is being RIFed or pushed out in any of the 
things that we are considering.
    We have upward mobility programs that we are planning. We 
have major training programs that are available to all of our 
people, for computers and other things so they can improve 
their skills and hopefully move up in the organization.
    [A question from Mr. Hoyer and response follows:]

    Question. Many AOC workers are convinced you are planning 
to privatize the custodial services in the House. Is that under 
active consideration?
    Response. Our fiduciary responsibilities dictate that we 
evaluate every element of the Agency in terms of efficiency and 
cost effectiveness. Part of that evaluation is the benchmarking 
process, where we compare all current in-house operations 
against industry standards and best business practices. That 
evaluation throughout the Agency is ongoing and is 
investigating opportunities for improving efficiency and cost 
effectiveness through re-engineering. Current information on 
government and private sector standards for custodial services 
indicate that our current custodial operations can be improved 
through re-engineering. I have not ruled out any reengineering 
tool to achieve cost effective and efficient services. However, 
privatization for privatizaion's sake will not be the basis on 
any decisions.

                            Employee Morale

    Mr. Hoyer. I think the morale of the people who work on 
Capitol Hill is very, very important. I talked last night about 
Bill Malry, who died and had been with us from 1966, but there 
are an awful lot of people on this Hill who are sort of 
anonymous and nobody knows, but without them we couldn't 
function well and keep it healthy, clean, and safe, and we need 
to make sure that they know that we are concerned about them.
    Mr. Hantman. My goal is that when I leave office, well 
before then, we set up standards, procedures and methodologies 
and an organization that will help maintain the services that 
Congress needs in a quality way and maintain these wonderful 
landmark structures that we have going forward. We are building 
an organization for the future.
    Mr. Hoyer. Thank you.
    Mr. Taylor. Ms. Granger?

                          ADA Compliance Costs

    Ms. Granger. You have mentioned ADA compliance. I would 
like some information about where we are with ADA compliance 
overall, what costs we have incurred thus far and what the 
projected cost is going to be for compliance? I hate to take my 
fellow Texan's time, Mr. Archer is waiting.
    Mr. Hantman. The major thrust with ADA compliance is 
accessibility to buildings. That is the first level. All of our 
buildings are accessible for the ADA. Not every entrance, but 
basically it is required that one major entrance is required, 
and we have that. There are areas, just south of the South Door 
on the House side and north of the North Door on the Senate 
side which have ramps that are wooden. They are falling apart. 
We are asking for funding to reconstruct those the way that 
befits the Capitol with ADA ramps so that those levels are 
accessible to the handicapped.
    The door replacements that we are doing right now, we are 
removing revolving doors for both code as well as ADA issues, 
and we have monumental doors in this building which currently 
in terms of accessibility or egress don't meet code. We have to 
solve those. We are ready to do our 8th door in the Capitol 
now, and you probably won't be able to tell that those doors 
were done because they are done in keeping with the fabric of 
the Capitol. They have panic hardware and security devices so 
if someone wants to go through, the police know about that. We 
are very serious about that.
    In the Visitor Center, ADA accessibility is critical so 
they can move through the facilities and into the Capitol with 
ease. Elevators would be prepared on the East Front to take 
people down as well as the ramp ways. There is more work to be 
done, but we have been spending the money along with 
Congressman Hoyer's concerns very appropriately, and we 
continue to budget that on an annual basis.

                             Reprogrammings

    Mr. Taylor. For the record, insert all reprogramming 
actions or other documents that require committee approval.
    [A question from Chairman Taylor and response follows:]

    Question. For the record, insert all reprogramming actions 
or other documents that required Committee approval.
    Response. The following information is provided for the 
record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. We thank you very much.
    Mr. Hantman. Thank you, very much. We look forward to 
working with you all.
    [Questions submitted for the record by Chairman Taylor and 
responses follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                       Wednesday, February 3, 1999.

                      JOINT COMMITTEE ON TAXATION

                               WITNESSES

HON. BILL ARCHER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS; 
    VICE CHAIRMAN, JOINT COMMITTEE ON TAXATION
LINDY L. PAULL, CHIEF OF STAFF
MARY M. SCHMITT, DEPUTY CHIEF OF STAFF
BERNARD A. SCHMITT, DEPUTY CHIEF OF STAFF
    Mr. Taylor. We have Vice-Chairman Bill Archer. And I am 
pleased to welcome you, Chairman Archer. The last time we 
appeared together was in my district, I believe, in your hope 
to bring us a 10 percent across-the-board tax cut. And I don't 
want to stand in your way a minute longer, so I welcome you to 
the committee.

                             Oral Statement

    Mr. Archer. Mr. Chairman, I wish I could at any point in my 
life have the popularity that you have with the people in your 
district, I will say that. But we are here on another matter 
today, and I appreciate the opportunity to appear before you in 
order to make the request for the Joint Committee on Taxation's 
appropriation for the year 2000.
    Senator Bill Roth and I have submitted a written statement, 
which I would ask unanimous consent to appear in your record. 
But, just briefly, let me make a couple of points.
    The Joint Committee is requesting for the fiscal year 2000 
an amount of $6,256,000, and that is a $290,600 increase over 
1999. This is a 4.7 percent increase, which I think fits within 
the general standards. Of that amount, $223,000 will be 
allocated to cost of living expenses for personnel and the 
remaining $67,600 will be used for nonpersonnel expenses.
    The Joint Committee, as a result of the IRS Restructuring 
and Reform Act, has been given additional responsibilities 
under the law. In fact, it was estimated during the 
consideration of the IRS Reform Act, which all of us wanted and 
all of us applauded on a bipartisan basis, was that their 
additional responsibilities would require approximately 
$290,000 of additional staff resources annually.
    That is not being requested in this budget, but what we are 
requesting is 1\1/2\ more full-time employees for staff 
economists. These economists will work on revenue estimates to 
accommodate Members with this complex Tax Code.
    I would say as an aside, Mr. Chairman, that I would like to 
save you the bulk of all of this money when I appear next year, 
if I can succeed in my quest of abolishing the income tax and 
replacing it with the consumption tax, which would eliminate 
all of these complexities in the Code and all of the need of 
the Joint Committee to be able to make estimates to Members who 
feel that there is some little part of it they want to change. 
It is very, very difficult to accommodate all of the requests 
that come in from 435 Members.
    So these additional 1\1/2\ full-time employees would work 
on that, and it would also give additional staff resources to 
develop macroeconomic estimating capability so that we can move 
toward greater accuracy in our estimates of new changes in the 
Code.
    Under the IRS Reform Act that I mentioned, the Joint 
Committee is required to report to the Congress at least once a 
year on the overall state of the Federal tax system and to make 
recommendations for any changes in the tax law, provided that 
you appropriate extra money for that purpose, and the law says 
that, subject to amounts being appropriated to cover the costs 
of doing that. No amount is included in this request for that 
purpose. Should you desire to see that the Joint Committee make 
that kind of report to both the Senate and the House at least 
once a year, that would require an additional $200,000 and 
three new full-time employee slots.
    Briefly, that is all that I would say to you. The entire 
witness statement is more comprehensive. And thank you again 
for your time, for your consideration, and for the funding that 
you have given over the years to the Joint Committee.
    Let me, also as an aside, say that the Joint Committee is 
virtually unique. This staff is professional, it is 
nonpartisan, and it serves both the House and the Senate, which 
makes it very, very unusual, and it does an outstanding job in 
essential areas to enable us to cope with the Tax Code and to 
be able to make changes where Members believe that those 
changes are appropriate.
    So I have with me Ms. Paull, Lindy Paull, who is the Chief 
of Staff of the Joint Committee and is doing an excellent job 
over there; and we will both be available for any questions 
that you might have.

                           Written Testimony

    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. And I believe you also have Ms. Mary Schmitt 
and Bernard Schmitt, who are committee Deputy Chiefs of Staff.
    Mr. Archer. Exactly. I did not mean to ignore the two of 
you. They are outstanding professionals.

                           Revenue Estimates

    Mr. Taylor. We welcome you all.
    Mr. Chairman, you mentioned that you, of course, serve the 
Members of the Ways and Means and Finance Committees, and 
Members of the House and the Senate, who are nonmembers of 
those committees. That presents a special workload for you. 
Would you care to describe that workload, what you provide 
outside the Members of the House and Senate taxwriting 
committees?
    Mr. Archer. You mean services that are made available to--
--
    Mr. Taylor. Nontax writing committee.
    Mr. Archer [continuing]. Or individuals or organizations 
that are not Members of Congress?
    Mr. Taylor. Yes. Yes.
    Mr. Archer. Lindy, do you want to respond to that?
    Ms. Paull. Well, I think the nontax writing committee 
members is what you want. Our staff is available to all Members 
of Congress, all 100 Senators, 435 Members of Congress, to help 
develop, analyze, provide advice, and estimate proposals to 
change the tax law.
    We have an attachment to our written testimony that you 
entered into the record that shows you the number of requests 
that we received last year. It is attachment Number D, item D, 
from all Members of Congress; and there are a few other 
requests. We get some requests from CBO and some from GAO as 
well, almost totalling 5,000 requests for the 2 years of the 
last Congress. And also you can see how successful we were in 
responding to those requests. In some cases, the requests 
become outdated and we correspond with the Members over that.
    We are very sensitive to making sure that our resources are 
available to nontax writing committee members, and you can see 
a breakdown of our responsiveness to them as well.
    Mr. Archer. I would like to be sure that we are completely 
responsive to your question. What is included in the ``others'' 
category?
    Ms. Paull. It is principally the Congressional Budget 
Office and the GAO that we would provide estimates to.
    Mr. Archer. So these are not services that are provided to 
any private citizens outside of the congressional operation, 
but the only nonmember part, which if you look at this sheet is 
very, very, very small, relative to the total, would be to the 
GAO and operations that are directly part of the congressional 
operation. I don't know of any services--and correct me if I am 
wrong--that are given to private citizens.
    Ms. Paull. We, of course, meet with constituents and 
Members and help with the development of the proposals that 
Members would like.
    Mr. Taylor. Those were the areas we were concerned about in 
our earlier question.
    Mr. Archer. Mr. Chairman, let me also be absolutely certain 
this is clear. No private citizen can request an estimate and 
get an estimate from the Joint Committee. The only people who 
can get estimates are people who are Members of Congress.

                        High Income Tax Returns

    Mr. Taylor. How much of the committee's workload is devoted 
to the review of high income tax returns? And I would be 
interested in knowing what conclusions the committee may have 
drawn from the complexity of the returns. I have an idea what 
your recommendations may be to solve it.
    Ms. Paull. For major tax proposals, we do look at the 
distribution of those proposals by income class. Our models 
break down by income class what the effect of major proposals 
would be. So we are attentive to the income distribution when a 
proposal is moving through Congress. We are attentive to the 
effects it would have on all income classes, including high-
income taxpayers. In recent years the Congress, however, has 
been targeting many proposals so that the high-income taxpayers 
do not benefit from them.
    Mr. Taylor. Of course, that is a definition of high income 
tax.
    Ms. Paull. Correct.
    Mr. Taylor. Some of the things we try to encourage are 
capital gains reductions. The other parts of the Code often 
negate that. Have you any other conclusions in reviewing that 
about this tax simplification or what could be done, what 
should be done to improve the Code?
    Ms. Paull. To improve the Code?
    Mr. Taylor. Well, that is a broad question. You can answer 
it any way you would like.
    Ms. Paull. One of the missions for the staff of the Joint 
Committee is to make recommendations to simplify the Tax Code. 
We have made recommendations in the past. It has been some 
time. We are undergoing an effort right now to make more bold 
simplification proposals to the Congress.
    If the Congress wanted to focus on fundamental tax reform, 
which the Ways and Means Committee held 11 to 15 hearings in 
the last 2 years on, and the Chairman has been working on a 
proposal, then you would see a big change in the Tax Code. And 
that would be something that would obviously be focused more on 
simplifying the Tax Code for people.
    We also, under the IRS restructuring bill, have been asked 
to do a complexity analysis of any proposals that have 
widespread applicability to individuals and small businesses 
that are reported by the Ways and Means Committee and the 
Senate Finance Committee. And we are undertaking efforts to be 
prepared for that as well, as soon as legislation moves this 
year.
    Mr. Taylor. Well, your Chairman, Mr. Archer, is an 
excellent advocate for his proposals that he mentioned a moment 
ago. And I have been impressed by him and certainly support 
him.
    Mr. Pastor, do you have any questions?

                             Refund Review

    Mr. Pastor. I just have one question on Exhibit II.
    Ms. Paull. Okay.
    Mr. Pastor. You have types of taxpayers, and then you list 
them out--individuals, estates, trusts. What does that mean? 
Here, I will hand it to you.
    Ms. Paull. These statistics are for our refund cases. One 
of the statutory duties of the Joint Committee on Taxation is 
to review all refunds in excess of $1 million, and this is a 
tabulation of the cases in our most recent year. And, actually, 
it is a short year, nine months, because we are trying to get 
on to Congress's fiscal year for this reporting. We would have 
reviewed 23 individual income tax refunds, 7 refunds for 
taxable estates, 1 trust and 408 corporate refund claims.
    Mr. Pastor. So you get the information from IRS?
    Ms. Paull. Yes, from the IRS.
    Mr. Pastor. And then you look at it and----
    Ms. Paull. That is right. And we look at it for the purpose 
of making sure the IRS is administering the law in a uniform 
basis across the country, as well as making sure the 
congressional intent is being adhered to for recent 
legislation.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you very much, Chairman Archer. I 
appreciate your appearing today and, not only that, your hard 
work in your committee and what you have done with the 
Congress. We appreciate that.
    Mr. Archer. I appreciate the Chairman's nice words.
                                       Wednesday, February 3, 1999.

                          CAPITOL POLICE BOARD

                               WITNESSES

HON. JAMES W. ZIGLAR, SERGEANT AT ARMS, U.S. SENATE; CHAIRMAN, CAPITOL 
    POLICE BOARD
HON. WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. HOUSE OF REPRESENTATIVES; 
    MEMBER, CAPITOL POLICE BOARD
HON. ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL; MEMBER, CAPITOL POLICE 
    BOARD
GARY L. ABRECHT, CHIEF, U.S. CAPITOL POLICE
    Mr. Taylor. We will now go to the Police Board.
    The committee will be in order. We will now take up the 
U.S. Capitol Police budget, which was presented by the Capitol 
Police Board. The members of the board are accompanied by Chief 
Gary Abrecht and members of his staff.
    It is good to have the Chairman of the Capitol Police Board 
here today, the newly appointed Senate Sergeant at Arms and 
Doorkeeper, James Ziglar. Glad to have you, sir. That is a very 
important assignment. The Senate needs a great deal of care, 
and we appreciate them. If there is anything to the contrary 
being said in the House, we certainly want to dispel that.
    Mr. Ziglar. I will take your message.
    Mr. Taylor. As is customary, we will place your 
biographical sketch in the record at this time.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. We also have the House Sergeant at Arms, Bill 
Livingood. And I want to welcome you and, of course, the 
Architect of the Capitol, who has just been before us. And we 
welcome you as a member of the board.
    Before we proceed, let me state the budget requests that 
has been submitted to the committee. Members will find the 
details on page 247, if you need. Overall, the request is for 
$90.2 million. $81.2 million is for salaries, and $9 million is 
for general expenses. These funds would support 1,251 FTEs, 
which is the current level.

      Statements of Capitol Police Board and Chief Gary L. Abrecht

    Now, all of your statements have been put into the record, 
but I will offer you an opportunity to make a brief statement, 
if you would like, before we start questions. And it is not 
necessary. We can start right in with questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Livingood. Mr. Chairman, I would like to introduce Mr. 
Ziglar professionally to the committee on behalf of the rest of 
the Police Board. And Jim Ziglar comes to you with a background 
in law, finance and business management. I think this will be a 
big benefit to the Capitol Police Board, and already we have 
seen enthusiasm and a real interest in security and security 
matters, and I think this will be a tremendous benefit to our 
board. And he might want to make a statement.
    Mr. Ziglar. Thank you, Mr. Chairman. It is indeed an honor 
to be able to serve as Sergeant at Arms and Doorkeeper of the 
Senate. I am very fond of the House; and we have very strong 
feelings, positive feelings over there toward the House.
    I inherited the job of Chairman of the Police Board shortly 
after my arrival, so I am very pleased to have such good people 
as the Chief, Bill Livingood and Alan Hantman to bring a lot of 
knowledge and wisdom to me. And we have developed a very close 
working relationship on the Police Board just in a very short 
period of time. I have made some good friends out of all of 
this already.
    I should note that we have been going through some 
extraordinary times on the Hill in the last few months. I 
arrived here in November in the middle of the impeachment 
process; and that has obviously created a number of security 
issues up here. And while I only know secondhand about how well 
the police force responded on the House side, I can tell you 
that on the Senate side the police force has been 
extraordinary. We have gone almost without a hitch over there 
in terms of security, and the efficiency and professionalism of 
this police force is just remarkable to me.
    So I wanted to say how much we appreciate the Chief and the 
job you have done. And I can certainly say that I am a very big 
supporter of the police force, and I know Senator Lott is also 
very interested in security and is a big supporter of the 
police force.
    There are a number of issues that we are identifying that 
are important such as physical security upgrades, personnel 
needs and those sorts of things; and I am very much in support 
of the plans that are being put together. Coming from a 
business background, where I ran a business, the one thing I 
know is that when you need to do something and you have figured 
out what you want to do, then you go ahead and do it. And so I 
will--that is my approach to things.
    And I will sometimes push hard to get things done, because 
where I came from, time is money. And, in this case, it is not 
just money, but it is also the security and safety of the 
public that comes up here and, obviously, the security of the 
Members and the staff that work up here. And I think that we 
have some big challenges, but we are up to it. And certainly on 
my watch as Chairman of the Police Board, we are going to push 
hard to get things done in a very efficient manner.
    I am also looking at the way we do business on the Police 
Board and in the Police Department, as the Chief knows, and 
asking some questions based on my background as a businessman. 
I hope that we can do things most efficiently so that the 
taxpayers get the best bang for their buck.
    So that is my agenda this year. I am looking forward to 
serving as Chairman, and I am looking forward especially to 
working with this committee and working with the House folks. I 
appreciate the opportunity to say a few words.
    Mr. Taylor. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. I certainly, in my nine years here, have 
appreciated the police force and what they have done. I often 
comment on the fact that you have an unusual job, Chief and 
Sergeant. You are law enforcement for a large portion of the 
area of the Hill and with what that all entails, and which 
every policeman does. But you have some 9 million people coming 
through a very small area, which you have got to protect. You 
protect not only those people, but the staff and the Congress 
at the same time and you are courteous, answer questions, serve 
as a guide, and as an information service at the same time.
    In addition, you have unusual care of visitors from other 
countries, and some of them bring terrorists or other 
attractions that certainly find the crowds, and all the work 
you have to do makes it very attractive to them and you do a 
superb job in your efforts there.
    And, of course, courage is not lacking in your department 
at all. I was in the chair last fall when we lost two officers 
here, and their conduct was exemplary, and the actions the 
remaining police force took to protect the people here, 
including our guests and our staff and Members of Congress, was 
superb. I commend you for that action, seemingly, if not your 
entire action everyday.
    I, of course, have spoken to the Architect and his staff 
earlier. We all want to protect our guests, foreign, and our 
national citizens here and Members of Congress. But we want to 
keep the Capitol open. Most Members of Congress, I feel, desire 
that. Because it is the People's House, and as long as we are 
under a democracy you are going to have, hopefully, millions of 
people coming in.
    That will be our first concern, to take reasonable steps to 
protect our guests and ourselves, but to keep this building 
open and in a way that is not so inconvenient that people 
wouldn't want to come here.
    Having said that, I would like to start with our questions.

                         Security Enhancements

    Last year, the Congress proposed $106 million for security 
enhancements to the Capitol complex now, including the Library 
of Congress buildings and what has been termed our campus in 
this area. Can you give us a general idea of how you plan to 
expend these funds? I will ask that to the whole board, and any 
one of you can answer it if you would like.
    Mr. Abrecht. The $106 million for security, Mr. Chairman, 
for security enhancements, will be used to correct security 
deficiencies which were identified in two reports. First, the 
1995 United States Capitol Police and United States Secret 
Service Joint Survey; and it was supplemented by a 1998 Capitol 
Police Security Task Force which together identified these 
security deficiencies.
    These reports identified several vulnerabilities throughout 
the Capitol complex attributed to staffing shortages at 
perimeter entrances and the lack of technology to provide early 
warning of intrusions and threats. The security enhancements 
package will provide additional personnel at perimeter posts, 
improve detection capabilities against intruders by the 
deployment of alarms and closed circuit television cameras and 
improve detection capabilities against explosive, chemical and 
vehicular attacks. It also increases our operations 
capabilities to counter and respond to these threats.
    A security enhancement plan was developed and will be 
submitted to this committee and the several other committees of 
jurisdiction hopefully this week. That outlines the entire 
processes we intend to utilize to identify new technology and 
properly deploy it. It outlines each item, how it will be 
acquired and designed and the process to implement it.
    It is a pretty monstrous book. You should have it this 
week.
    Mr. Taylor. Good.
    Congress has made several appropriations for physical 
security. Can you explain the difference between this fund and 
the security enhancements fund?
    Mr. Abrecht. Yes, sir. You will recall that, in 1996, we 
identified some physical security problems on the campus. And 
we at that time outlined a three-phase physical security 
upgrade. That upgrade focuses on replacing vital infrastructure 
for our security systems and replacing some of the antiquated 
systems that provided protection.
    This program has been very successful, as demonstrated by 
our new capabilities for the Members' duress alarm system, the 
fiber-optic backbone, access control and alarm systems and 
state-of-the-art monitoring. We are now in the process of 
completing phase II and will soon come back to the committee to 
initiate phrase III.
    When the security enhancement fund became available, we 
reassessed our three-phase program to ensure that we could 
build upon the existing upgrade to implement the security 
enhancement plan. As outlined in our original briefing on the 
upgrade, we provided infrastructure designed to meet all the 
future requirements to include all of the security enhancements 
that will be coming in the second plan.
    Mr. Taylor. Should we combine those funds, do you think, or 
keep them separately?
    Mr. Abrecht. It is our position that they should be kept 
separate.
    The physical security upgrade is on track. It will be 
finished here within the space of less than a year. We believe 
that we can finish that program out. There is no conflict 
between the two. That one essentially provides the backbone 
upon which the enhancements will ride. That will come from the 
security enhancement plan. There is no need to combine the two.
    Mr. Taylor. We have had certain authorities for planning 
and overseeing our security-related expenditures that have been 
transferred from the Architect to the Capitol Police in recent 
years. Can you summarize those transfers and why they were 
necessary?
    Mr. Abrecht. In 1995, Mr. Livingood became the House 
Sergeant at Arms; and coming as he did from a large security 
organization in the executive branch, he noted that there were 
some deficiencies with the alarm systems throughout the Capitol 
complex, that they were antiquated, they were ineffective and 
in disrepair. As a result, in February of 1996, the Architect 
of the Capitol commissioned a study to review the security 
organization and security management providing security for the 
Capitol complex.
    The study found that the physical security program was 
largely reactive, reflected limited strategic vision and lacked 
the human and technical resources necessary to effectively 
produce the best possible physical security program. It noted 
that the program lacked individuals with specialized training 
and physical security backgrounds for identifying, designing 
and deploying state-of-the-art technology.
    The report cited that the current programs for testing, 
maintaining and repairing alarm systems did not provide 
adequate assurance that alarms would function when required in 
an actual security incident. As a result, in fiscal year 1996, 
the responsibility for security installation was transferred 
from the Architect of the Capitol to the Capitol Police. In 
fiscal year 1997, the responsibility for security maintenance 
was also transferred to the department.
    Mr. Taylor. Do you think these operations have improved as 
a result of the transfers?
    Mr. Abrecht. Absolutely. Our ability to focus solely on 
security concerns within the physical security division has led 
to some obvious examples of that. The most obvious is the 
improvement of the duress alarm system. It now sounds an alarm 
in under 2 seconds, a vast improvement over our previous system 
which took 30 to 180 seconds to send an alarm from a Member's 
office when there was some problem in the office.
    Or you can look at the deployment of state-of-the-art 
screening equipment that now accurately screens all of the 
visitors each day, much of which was in great disrepair at that 
time and it was antiquated equipment. We replaced most of the 
sensitive machinery, but yet there is still more to come in the 
security enhancement plan. But we have made vast improvements 
in the security as a result of that transfer.
    Mr. Livingood. If I may say something, Mr. Chairman, with 
the transfer, we are spending--we have a group that is spending 
full-time, as the Chief said, instead of part-time, and the 
dedication and the ability of this group is phenomenal. For a 
small group of individuals, they are extremely responsive and 
are extremely knowledgeable. And I am very proud of what they 
have done since the transfer by this committee.
    [Questions from Chairman Taylor and responses follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Fire Safety

    Mr. Taylor. The House Inspector General found more 
incidences of lack of coordination between the Architect of the 
Capitol and the Capitol Police in a recent audit of fire safety 
in the House complex. Do you agree with the findings? Anyone 
who would like to comment?
    Mr. Abrecht. That came as a bit of a surprise to me. We 
think we have a very good, cooperative relationship with the 
Architect on fire safety issues primarily in two areas: In the 
area of fire safety, we have cooperated tremendously, 
particularly on resolving the problem of fire exits, which is a 
major issue because, of course, the Architect's concern is for 
there to be as much egress in the immediate area as possible. 
And we have a great concern that there not be surreptitious 
entry.
    So there is an obvious rub there. But we have worked very 
closely with the Architect to resolve that. In fact, we have 
used our duress alarm system in order to alarm certain doors in 
the interim before the proper fire exit hardware can be 
installed so the doors could be unlocked. So we feel we have a 
pretty good, cooperative relationship on that. And we have 
worked very closely on the evacuations with the Architect. They 
worked with us on the Capitol Building Emergency Preparedness 
Program and are active participants on the Critical Incident 
Command Group which controls all of the evacuation preparedness 
for the complex. They participate with us. We work together. I 
am unaware of any coordination problems that exist.
    Mr. Livingood. I would just say from the board's side that 
the cooperation that we have received from Mr. Hantman has been 
excellent. It is a pleasure to have him on the board because he 
can nip things in the bud and move them along much faster.

                            Crime Statistics

    Mr. Taylor. I notice you have a chart with the crimes 
against persons. Could you explain that?
    Mr. Abrecht. We have all of these crimes against persons. 
The crimes against persons charts, according to the FBI uniform 
crime reporting definitions of that term for the Capitol 
ground, which is the line inside the red line here, which is 
the ground over which the Capitol Police has the primary 
jurisdiction; and the larger area is the so-called extended 
jurisdiction zone where we have concurrent jurisdiction, where 
the primary jurisdiction resides with the Metropolitan Police 
Department of the District of Columbia.
    Mr. Taylor. And that is up about Union Station, coming 
across?
    Mr. Abrecht. Right around Massachusetts Avenue, that is 
correct. This is 2nd Street. The south boundary is roughly D 
Street, basically; and over to 3rd Street is roughly the 
building. It is basically the grounds of the jurisdiction of 
the Architect. The larger boundary is 7th Street on the east, H 
Street on the north, 3rd Street on the west, and goes down as 
far as P Street, because there are some congressional 
facilities down in the southern end there that are encompassed 
in that larger map.
    Mr. Pastor. The larger boundary is also extended 
jurisdiction?
    Mr. Abrecht. Yes.
    Mr. Pastor. You go up to Eastern Market then?
    Mr. Abrecht. We have concurrent jurisdiction with the 
Metropolitan Police Department out to 7th Street, that is 
correct.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Taylor. Go ahead.
    Mr. Abrecht. And the dots obviously represent crimes. The 
red dots are robberies, the yellow dots are homicides, and the 
green dots are assaults, and the blue dots are sexual assaults. 
There were no sexual assaults on the grounds during the fiscal 
year. There were two homicides, which I am sure you were aware 
of. And there were five robberies and three assaults total 
during the fiscal year.
    Obviously, you can see that in the extended jurisdiction 
there was a greater level of crime, being a more residential 
area.
    Mr. Taylor. For those of us whose glasses are sort of 
dirty, could you tell us what the numbers are for the various 
areas?
    Mr. Abrecht. Yes, for the Capitol grounds, during the 
fiscal year, there were three assaults, two homicides, with 
which I am sure you are familiar, and five robberies or 
attempted robberies which are included in that category.
    Mr. Taylor. Is attempted robbery, when someone comes up 
with a weapon and takes possession or is it breaking into cars?
    Mr. Abrecht. No, robbery is taking something from a person. 
So an attempted robbery could be someone pointing a gun at you 
and your saying, I am not giving you anything or, in this 
particular case, if I recall correctly, the attempted robbery 
was an attempt to snatch a purse from a woman who was on the 
sidewalk on Independence Avenue in front of the Rayburn 
Building, the guy on a bicycle came by and tried to snatch her 
purse and failed. And that was an attempted robbery.
    Mr. Taylor. What about thefts from cars?
    Mr. Abrecht. Those are crimes against properties.
    Mr. Taylor. Before we go on to that, what would you say 
would be the motive for this? Is it drugs or is it just common 
felons or what do you suspect?
    Mr. Abrecht. Obviously, you know the situation of the two 
homicides. As to the robberies, they were relatively minor 
street robberies basically, the ones that occurred on the 
Capitol grounds. The motive is a great sociological question as 
to why people commit crime. Obviously, I am not sure I am any 
more qualified than anyone else to speak to that issue. The 
perpetrators tend to be generally destitute. They are often 
street people, as you see around town.
    Mr. Taylor. If you would go to the crimes against property.
    Mr. Abrecht. Yes. The dots are smaller here because the 
number of them is larger. But, again, I think we are fairly 
proud of the fact that we, by and large, have been able to keep 
both property and persons crime off of the grounds of the 
Capitol itself.
    Mr. Taylor. What is the number?
    Mr. Abrecht. They were five burglaries on the grounds 
during the year, 19 stolen automobiles, 42 thefts from auto, 71 
office thefts and 78 general thefts, which we do not have 
broken down any further. Those are generally in the buildings 
but not in any particular office, like in a hallway.
    Mr. Taylor. How does that, both person and property, 
compare with, for instance, 1993?
    Mr. Abrecht. I can tell you that we had substantial 
reductions over the previous fiscal year in both crimes against 
persons and crimes against property. I have the exact figures 
if you would like.
    Mr. Taylor. Yes, I would.
    Mr. Abrecht. Okay.
    [Clerk's note.--Information provided for the record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. The reason I am asking this is I served on this 
committee in 1993 and 1994. I remember I was quite impressed by 
the large number of crimes. And I see today that it is 
substantially reduced.
    Mr. Abrecht. I believe it has been. It tends to fluctuate. 
I think it follows the election cycle. When you get a new year, 
a new staff coming, possibly people pay less attention for a 
little while. And so we have a little more--it seems to me that 
we have a little more in the fiscal year that follows an 
election, and then it goes back. So there is a cyclical trend 
to it.
    But I believe it has also actually has gone down overall 
some. And I could get you the comparison with that year, of 
course. But I can give you the comparison right now going back 
2 fiscal years.
    On the Capitol grounds, for instance, and this is the 
property crimes, we are down 31 percent this year. So we have a 
very nice reduction in property crimes over the previous year, 
and a 28.57 reduction in crimes against persons.
    Mr. Taylor. And coming from the D.C. committee for 2 years, 
our new Chief is beginning to address crime here in the 
District. And I think we have helped the Park Police with their 
assets to work both with you and with the District Police. I 
know this is your jurisdiction.
    Does that improve your situation?
    Mr. Abrecht. Oh, absolutely. Interesting, since you 
mentioned that, in the extended jurisdiction zone, the green 
line, which is Chief Ramsey's responsibility, they have a good 
reduction last year as well. In crimes against persons, they 
were down 22 percent in the extended jurisdiction; and in 
crimes against property they were down 19 percent. And so they 
had a good crime reduction as well.
    Mr. Taylor. We took the point of view from our committee, 
both parties, that D.C., of course, is the Nation's Capitol and 
not only did we want the Nation's Capitol to have a good 
record, but it had a definite impact on all our facilities on 
Capitol Hill. And I am pleased to see that improvements were 
made, and I am pleased to see that you are working with them.
    With the 9 million people coming to the Capitol itself, we 
are an attractive place for crime against property, I think.
    Mr. Abrecht. Right. It is an ongoing problem. Breaking into 
cars is one of the things that we spend our time making sure it 
doesn't happen to visitors to the Capitol, because it obviously 
presents a negative image for the Congress when that happens.
    Mr. Taylor. Right. I have some other questions, but I am 
going to yield to some of our other committee members.
    Ed.

                           Perimeter Security

    Mr. Pastor. In a casual conversation yesterday with a new 
staff person in the Speaker's office, it was mentioned that we 
were having a problem implementing the security plan in the 
House.
    And so I just ask the question, are we having that problem? 
And if we are, how can we help you solve it?
    Mr. Abrecht. If the plan he was referring to was the 
perimeter security plan----
    Mr. Pastor. Let's start with that one, yeah.
    Mr. Abrecht [continuning]. My life is bound by approvals by 
committees. And there is no question that there is very little 
we are allowed to do that is not subject to the approval of 
four committees, generally speaking. And so getting each one of 
those approvals for this is difficult. The members of the 
committee and the staff are very busy people, so sometimes it 
is very difficult to get some of these approvals.
    In the case of the perimeter security plan, we have three 
of the four required approvals; and we are still hoping to get 
the other one soon.
    Mr. Pastor. So he was correct in telling me that we had not 
implemented the security plan because although three of your 
four bosses have said okay, we have a problem with one 
committee not finalizing the approval?
    Mr. Abrecht. That is correct. We have been able to 
implement the Senate portion of that plan, because the Senate--
both Senate committees have approved.
    Mr. Pastor. How long has this plan been available to be 
implemented? I am assuming that after the officers had their 
tragic death that there was a big push to get these security 
plans done, How long has it been sitting there that we haven't 
implemented it?
    Mr. Abrecht. Let me see. Perimeter security was submitted 
to the committees on June 16th of 1998, according to your 
records.
    Mr. Pastor. So almost 6, 7 months? Which of your four 
bosses hasn't approved the plan?
    Mr. Abrecht. We are still working with the Committee on 
House Administration.
    Mr. Pastor. House Administration.
    Mr. Taylor. In other words, the House Administration, the 
authorizing committee, hasn't approved it?
    Mr. Abrecht. That is correct.
    Mr. Taylor. Is there any reason that is apparent?
    Mr. Abrecht. None has been communicated to me. I believe 
Mr. Hantman may have spent more time discussing this with the 
committee than me since it is primarily a physical security 
plan.
    Mr. Hantman. One of the concerns raised by the committee 
was how this perimeter security plan interfaces with the 
Capitol Visitors Center. And we met with the chairman and 
indicated that the Visitors Center and this perimeter security 
basically didn't supersede one another, that it is mutually 
supportive, but the perimeter security could proceed without 
the visitors center, if necessary. But that may still be a 
concern.
    Mr. Pastor. I think you and I had discussion about an hour 
ago that it may be at best 7 years from now before we have that 
Visitor Center. So that means we are going to have engineering 
plans before we do the security?
    Mr. Hantman. Two layouts were prepared, one with the 
Visitors Center and one without the Visitors Center. There is 
very little that needs to be changed if we do the perimeter 
security plan and then the Visitors Center comes in. Very 
little needs to be changed. Very few dollars to be spent.
    Mr. Pastor. I suggest that we implement this perimeter 
security so we have it in place in the relatively near future. 
As we worry about the Visitor Center, we at least have some 
security.
    Mr. Taylor. You run a Catch-22 and we will be doing that 
for years and years.
    Mr. Livingood. Mr. Chairman, I also think that the 
committee was looking at the total security package that we 
were going to be submitting, so that we have an integrated plan 
and are looking at the perimeter with the rest of the plan to 
ensure it is all integrated.
    Mr. Pastor. Let me ask you, does that integrated plan 
include the Visitor Center?
    Mr. Livingood. No, sir, it does not.
    Mr. Pastor. If we are waiting for the Visitor Center, we 
are talking at best 7 years from now.
    Mr. Livingood. The integrated plan does not include a 
Visitors Center.
    Mr. Pastor. The integrated plan includes the perimeter plus 
the House itself?
    Mr. Livingood. Yes, sir, it includes the entire----
    Mr. Abrecht. He was referring to the security enhancement 
plan that I mentioned earlier. We intend to have that, which is 
essentially our plan to expend the $106 million that Chairman 
Taylor was mentioning earlier, our specific plan for all of 
that, other than the staffing part of it, we expect to have to 
the committees this week.
    Mr. Pastor. Other than personnel, what does it mean? More 
cameras?
    Mr. Abrecht. Yes. There is a whole long----
    Mr. Pastor. Oh, okay.
    Mr. Abrecht. It is mostly physical security. But it 
includes new weapons for the officers, new soft body armor, new 
telecommunications equipment for the department. But it is 
largely physical security improvements, cameras, new 
magnetometers, new X-ray equipment.
    Mr. Livingood. X-rays.
    Mr. Abrecht. And we have not yet submitted that, so that is 
not on any committee's ticket yet.
    Mr. Livingood. That would be forthcoming within the next 
week.
    Mr. Abrecht. The staffing proposal has been with the 
committee since December, and they have been actively working 
on that.
    Mr. Pastor. Has anything been appropriated for that?
    Mr. Abrecht. Yes, it is implemented. There is somewhat of a 
complex approval process that is required before we can 
actually spend the money, but we are actively working on that.
    Mr. Pastor. Talk about the complexity of the 
implementation. I think we would probably want you to simplify 
it so we can be secure, because it is in our interest to have 
this plan in place. And so I would hope that people who are 
looking at this would say, let's find a way we can simplify it 
and get it implemented, because, really, we are hurting 
ourselves.
    Mr. Taylor. And our 9 million guests that come through.
    Mr. Pastor. Absolutely,
    Mr. Ziglar. Certainly, if I might add, in addition to 
looking at it from a safety factor, the longer you put off 
starting something like that, the more it costs--the time value 
of money.
    Mr. Pastor. That is exactly right.

                           COMPARABILITY PAY

    Chief, in your statement, you talk about the need for 
funding for personnel. And in there you have a statement says 
part of the money is going to be used to cover the comparison 
that you are going to make between what you are paying your 
officers here and as they compare it to outside jurisdictions. 
Am I right?
    Mr. Abrecht. I am not sure--let me just take a quick look 
at what you are saying exactly.
    Mr. Pastor. Okay. It is right here.
    Mr. Abrecht. What you are making reference to?
    Mr. Pastor. It is the second paragraph, the last sentence: 
``In addition, funding is included to cover the anticipated 
COLA and pay comparability increases.''
    Mr. Abrecht. Yes. The pay comparability is really a term of 
art, Congressman.
    Mr. Pastor. You use it well.
    Mr. Abrecht. What it refers to is what in the Executive 
Branch is referred to as locality pay. Because, as you know, if 
you are a police officer, let's say----
    Mr. Pastor. I understand what you are doing. Now, my 
question is this: Are we having a problem where you are 
recruiting officers, and once we get them on board, our pay 
scales are lower than outside jurisdictions, so that we will 
become a training ground for different police organizations?
    Mr. Abrecht. We were. We were. Not any more. Thanks really 
to the tremendous efforts by this committee----
    Mr. Pastor. We were, okay.
    Mr. Abrecht [continuing]. Among others, obviously, to 
resolve that issue for us in the last fiscal year. At the end 
of the fiscal year, several pay initiatives that the department 
had been pushing for some time came to fruition thanks to a lot 
of support on both the authorizing and the appropriating 
committees on both sides. We were able to get longevity pay for 
the officers and to get some shift differentials approved that 
other police departments had.
    Mr. Pastor. What about uniforms?
    Mr. Abrecht. Pardon me?
    Mr. Pastor. Uniforms.
    Mr. Abrecht. We furnish all uniforms. We furnish all of our 
uniforms.
    Mr. Pastor. All right.
    Mr. Abrecht. And we try very hard to make sure the officers 
have sharp-looking and fresh uniforms so they present the 
proper image for the department.
    Mr. Pastor. That is not a problem?
    Mr. Abrecht. No.
    Mr. Pastor. I was worried because maybe we were just 
becoming a training ground and losing good people, which is an 
expensive and unproductive prospect.
    Mr. Abrecht. There were years when that was a problem, but 
our attrition has gone down dramatically as a result of the 
great effort that the committee has put into resolving those 
discrepancy issues for us last year. And on behalf of the men 
and women of the force, I would like to thank all of you who 
worked on that. I know it is not easy. It is never easy to find 
money for things like that. And we greatly appreciate it.

                COMPUTER AND TELECOMMUNICATION EXPENSES

    Mr. Pastor. Is there any way you can get the Senate 
Sergeant at Arms to just forgive the debt that we have on the 
computer services?
    Mr. Abrecht. He has been doing that for a number of years, 
and I think he is getting tired of it.
    Mr. Pastor. In terms of your computer and 
telecommunications, are we pretty much up to par with what you 
need and want or are we going to have to borrow some more money 
from the Senate?
    Mr. Abrecht. I am afraid we are not. As you know, the GAO, 
at the request of the board and the committees, conducted an 
evaluation of some of our administrative operations, and one of 
the things they found in fairly dire straits was our 
information technology area. All of our base programs, things 
like that, our time and attendance system, our personnel 
database, our financial management system are very antiquated 
and are in serious need of replacement. So there is some need 
for some serious work in the information technology area.
    The Senate Sergeant at Arms has been generous over the 
years in maintaining our operation. But they have really not 
been able to fund us at a level that would cause a real 
improvement to be made. And so there is a real need to move in 
that area.
    Mr. Pastor. In this budget you are asking that we pay the 
Sergeant at Arms?
    Mr. Abrecht. No, we really aren't. That is a misnomer. We 
are asking to become responsible for our own IT and 
communications. We have been a dependency of the Sergeant at 
Arms on this, we ought to take our own responsibility for it. 
We ought to be funded separately from them, and then we will be 
held responsible. If we screw it up, then you ought to hammer 
us for it. But we should be in control of our own destiny and 
have to be accountable for how we spend the taxpayers' money in 
that regard.
    Mr. Ziglar. If I could just make a comment on that. And, 
obviously, I am new to this job, so I only have a history that 
I have read or has been told to me. But, over the years, the 
Senate Sergeant at Arms has provided a lot of the technology, 
and in the last few years, with the exception of one year, 
where I guess we put a million and a half into it, we generally 
have put in about $500,000 to $600,000, on average, each year.
    The police force is in bad need of a technological leap 
forward. And that requires a substantial amount of money well 
beyond the $500,000 or so that the Senate side has provided 
each year. I believe that as a business principle having the 
police department subject to the supervision of the Capitol 
Police Board, manage its own technology fund and being able to 
procure the equipment that they really need, as opposed to 
being forced to use what the Senate has adopted as a technology 
standard, makes an awful lot of sense.
    And, frankly, the Senate is going to have a very difficult 
time putting anything more than this sort of maintenance level 
amount that we have provided--and it comes right out of my 
budget. Plus the fact that I guess I should put on the record 
that I have been instructed by the Committee on Appropriations 
on the Senate side to continue to push to have all this 
technology cost go into the police department budget and taken 
out of my budget.
    But I think just as a common sense matter, and a business 
matter it makes a lot of sense for the police department to 
control its own destiny in the technology area. We strongly 
support that.

                    EQUIPMENT LIFE-CYCLE REPLACEMENT

    Mr. Pastor. My last question goes with your last category, 
the life cycle replacement. We know that a car or a vehicle has 
so many years of life. Do you have a plan that says, this year 
we are going to replace X number of cars and then, next year, 
et cetera?
    Mr. Abrecht. Yes, we do. We try to. Unfortunately, we have 
fallen a bit behind with the vehicles. We are hoping that some 
funds may be available out of the security enhancement end to 
get us caught up on that. But really what we are trying to put 
primarily on a life cycle replacement is all of this physical 
security hardware. So we don't get back into the situation that 
the Congress was in when we took it over, that it had been 
neglected and not replaced in a timely fashion for so many 
years that a huge amount of money was required.
    The best business practice is to replace a certain amount 
of this equipment every year so you never have to all of a 
sudden ask for large sums to replace it all.
    Mr. Pastor. Reasonable maintenance?
    Mr. Abrecht. Yes.
    Mr. Pastor. Thank you, Mr. Chairman. I appreciate it.

                            Physical Threats

    Mr. Taylor. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    We haven't gotten together as a committee since Officers 
Gibson and Chestnut gave their lives in our defense, and we are 
ultimately grateful to them and their families but also 
grateful to the combined forces of this board, all of you.
    I have been proud many times of this institution in the 4 
years I have been here but no more proud than I was with the 
way that we all came together and with the presentations that 
you two made on behalf of these men and women under you there 
at that time.
    It was truly the best that this institution has ever been. 
When we were under fire like that, we came together in an 
unprecedented way.
    We hate to lose anybody in any of our forces. I am reminded 
of my friend Bill Malry who worked for the Clerk's Office and 
died of a heart attack the night of the State of the Union 
address. I spoke to him that night, and I did not know until 
earlier today that he passed away. Nobody got word to me. But 
he was a great friend and a great guy. We called him Slim, 
those of us who talked to him on a daily basis. He worked for 
the Clerk's Office, not the Sergeant at Arms, but he was 
another one who gave more than three decades of service in the 
Capitol day in and day out, and that means everything. I gave 
Slim a shirt for Christmas, and I hope he wore it before he 
died.
    These are the times when you are appreciated so much, and I 
want to thank you again today on behalf of this committee. And 
I think that the pay equities issues are the very least that we 
can do, given the sacrifices that you all make. Again, we think 
of those families that have been affected.
    The Threats Task Force, I want to commend them, too. That 
doesn't mean much to a Member of Congress until they have had a 
physical threat made against them, and then the Threats Task 
Force is very germane.
    I have a hard time differentiating what is held for 
executive session and what is public, so I will be careful when 
I ask questions when the world is watching or in an open 
meeting like this, but how is that going?
    And in response to what Mr. Pastor said about the problems 
with our perimeter plan not being approved yet, not that the 
Botanic Garden being included in the emergency supplemental was 
ever a good precedent to set. And I don't think that was a good 
precedent to set, but if you look at that as a precedent, what 
could be more of an emergency than us getting our act together 
with our perimeter plan of this Capitol with 9 million people?
    Our security plan worked when Officers Gibson and Chestnut 
gave their lives because they were there as a deterrent. But it 
also tells us what is left to do. We need to make sure that the 
officer is not the first thing that a bad person comes in 
contact with, and that means getting this perimeter plan 
executed in a timely manner. I would think our safety and 
health is at risk until we do that. And so I would appeal that 
it be classified as a real emergency to put a little emotion 
behind this request, that this is serious business. I also ask 
you how the Threats Task Force is coming along.
    Mr. Abrecht. I think we are doing an increasingly good job. 
We have better intelligence-gathering capabilities. Our 
relationship with the intelligence agencies of the Executive 
Branch, the CIA and those groups, have never been better. We 
have recently detailed an officer to work directly in the State 
Department so we will have better capability to prepare for 
congressional travel abroad and to have interface with their 
intelligence-gathering capabilities throughout the world. So I 
think we are in good shape in that area.
    The threats themselves were essentially even. We had 
roughly the same number in fiscal year 1998 as we had in fiscal 
year 1997.
    Some other categories are going up. Implied threats and 
nuisance calls, these are continuing to increase. The level of 
work for the threat assessment section is continuing to 
increase, but direct threats against Members of Congress is 
essentially static over the last 2 years.
    Mr. Wamp. A lot of people don't take that seriously enough. 
If the general public knew that when you make a physical threat 
to a Member of Congress, it is serious business. If you are a 
family member or a Member of Congress, we are not any different 
than anybody else. Those threats are taken seriously by you, 
and if people knew that it was serious, maybe they would be 
less inclined to do it, and it would be on the decline instead 
of static.
    Mr. Abrecht. You are correct. When the FBI goes and knocks 
on these people's door, they say, I didn't mean to harm 
congressman so and so; I was just venting my spleen. We say, 
that is not an appropriate way to vent your spleen. They are 
remorseful in many cases, and we never hear from them again.
    But it is a concern when people get aggressive in writing 
or in telephone conversations. E-mail has become a new way to 
do this, and so the number coming over e-mail has vastly 
increased.
    Mr. Livingood. It is a felony. Every one of them is 
investigated seriously.
    Another thing, the speed has increased with which these 
threats are investigated, and I give a lot of credit to the 
Capitol Police threat section for that and the FBI. They have 
picked up the investigative portion of this and run with it 
immediately.

                             Retirement Pay

    Mr. Wamp. I think there is a bill floating around by Mr. 
Traficant about changing the retirement age for the Capitol 
Police. Have you taken a position on that or plan to?
    Mr. Abrecht. For years the Capitol Police sought to have 
one thing, which was to have a retirement system that was the 
same as Federal law enforcement. This was before my time. We 
were granted that. It is our position that we are very thankful 
for that, and we would like to remain wherever Federal law 
enforcement is. If Congress decides that they want to take a 
look at the whole issue of mandatory retirement for Federal law 
enforcement and change that for everybody, then we would 
support that.
    But our position is that we really wish to remain part of 
the Federal law enforcement retirement system, and I don't 
believe that that would be possible and also to carve out this 
little exception for just us.

                     Bulletproof Vests and Weapons

    Mr. Wamp. So it is like the pay issue. Equity is your goal 
across the board, and includes pay and benefits. Speaking of 
that, will every Capitol police officer who wants a bulletproof 
vest have one?
    Mr. Abrecht. Every Capitol police officer already has a 
bulletproof vest. The security enhancement fund will get them a 
newer, higher quality vest, hopefully one with more 
wearability.
    There has been some improvements in that technology since 
we acquired the ones that we currently have which will make 
wearing them on the plaza in July less oppressive and we will 
feel more comfortable in requiring the officers to wear them. 
That is one of the things that we are looking for, in addition 
to higher ballistic resistance characteristics.
    Mr. Wamp. We are grateful to all of you.
    Mr. Abrecht. I am tremendously grateful to the Congress for 
the way that they reacted after the shootings. The way that 
Congress came together and the support that we received in so 
many different ways, including the great honor paid our 
officers to lie in the Rotunda, is something that has really 
impressed the force and moved me greatly. And since you are the 
Congress before me this afternoon, I thank you.
    Mr. Livingood. I, too, as an observer and being at the 
scene, saw the coming together of this Congress, the Capitol 
Police, the staff and everyone. I particularly thank on 
mybehalf the two committees that I work for, House Administration and 
this committee, both staff and members from that committee were there 
instantly. What can we do for you? Can we help in any way?
    When you are in the midst of things, that is a tremendous 
support. It makes you feel comfortable. It reassures you that 
you are doing the right thing, and it was welcomed by all of 
us.
    Mr. Taylor. Let me follow up a little. There is adequate 
funding for the new vests?
    Mr. Abrecht. Yes, sir.
    Mr. Taylor. When do you think the new procurement will be 
had?
    Mr. Abrecht. The security enhancement plan proposal will be 
received by the committees this week. As soon as that is 
approved, we will actually be able to do the procuring. We are 
not waiting until that time to identify the model that we would 
like to buy and all of that. That is ongoing. So as soon as the 
funding is actually released to us, we anticipate within a very 
short period of time we will be able to do the procuring. We 
are putting together the procurement request at the present 
time in anticipation of receiving the approval.
    Mr. Taylor. What about for new side arms?
    Mr. Abrecht. We have decided what caliber of weapon we 
would like to move to. We were looking at two basic ways to 
procure those. One would be to put out an RFB, request for 
bids. Another way would be that one of the large Federal 
Executive Branch law enforcement agencies went through a very 
expensive process to identify a weapon and issued some bids. It 
is possible for other agencies to piggyback onto that so we are 
looking at the possibility of short-circuiting this process by 
purchasing additional weapons off of that bid and thereby 
vastly shortening the time line to get the weapons on board.
    Mr. Taylor. Any time we can save money is commendable. 
However, at the same time you may have different needs.
    Mr. Abrecht. We are going to look at all of that.
    Mr. Taylor. I have heard that some of the officers might 
have to cannibalize their weapons to get enough spare parts to 
operate, and I am not going to ask if that is true or not, but 
obviously how long will it take, do you think, for us to 
procure the new weapons? Are we talking about the same thing 
for the vests and so forth? Are we going to be waiting on the 
six committees or whatever, to get together and so forth?
    Mr. Abrecht. Before we can actually spend the money the 
committees do have to approve, but I don't imagine that the 
committees are going to want to get into the nitty-gritty of 
what brand of weapon that we are going to want to purchase. We 
are expecting by the summer we will have these weapons in hand.
    Mr. Taylor. What are those committees again?
    Mr. Abrecht. House Administration, this committee, and the 
two Senate Committees: Rules and Administration and Senate 
Legislative Branch Appropriations.
    Mr. Taylor. All right.
    Here again, I think it behooves us, Mr. Pastor and myself, 
to get together with our leadership and those committees to 
see, as we were talking about doing with the Visitor Center, if 
we can give ourselves a much faster time line. In matters such 
as this, waiting beyond the criteria evaluation of the guns or 
the vests, to spend more weeks trying to get together is 
certainly endangering our officers and our guests, and we are 
as responsible as any of the committees, so we are not pointing 
to any one.
    Let's see, a few other questions that we have. I wanted to 
have you explain the need for the request for $1.8 million to 
transfer to the Sergeant at Arms.
    Mr. Abrecht. That was a computer item that Mr. Pastor 
brought up.
    Mr. Ziglar. It is to put it in their budget for that 
computer and other technology support. The Senate is not 
requesting repayment. But if you want to repay it----
    Mr. Taylor. Mr. Pastor, do you have any other questions?
    Mr. Pastor. No, I don't think so. Thank you.
    [Questions from Chairman Taylor and responses follow:]

                Evaluation of Administrative Operations

    Question. Recently, the GAO undertook an evaluation of your 
administrative operation, including financial management, human 
resources, and information management. Please outline those areas where 
they indicated improvement is needed.
    Response. The Board has been briefed by the staff of the General 
Accounting Office and has had an opportunity to review a draft report 
provided by the consultant, Booz-Allen and Hamilton. However, the final 
report has not been provided to the Board.
    Generally, the consultant found that the United States Capitol 
Police is receiving the necessary support services from its 
administrative infrastructure, but that infrastructure is fragile and 
unlikly to be able to provide adequate service in the future with 
changes in strategy, organization, and business processes. Noted areas 
for improvement gleaned from the briefing process include: 
Reorganization of the Department's administrative functions under a new 
position of Assistant Chief for Administration; Development of a 
strategic plan for infrastructure support; Development and execution of 
a plan for reviewing, documenting, and distributing policies and 
procedures for all support activities.
    Question. Specifically, outline what actions have been taken since 
the findings of this study were presented to the Board.
    Response. As previously stated, the findings of the study have only 
been provided to the Board in preliminary form. Nevertheless, steps 
have been taken to begin moving toward implementation of the 
consultant's recommendations.
    Funding was requested and approved in the Omnibus Appropriations 
bill to permit hiring of a consultant to assist in the development of 
the Department's strategic plan.
    A draft reorganization plan, along the lines of that recommended by 
the consultant, has been developed.
    New position requirements needed to rectify identified staffing and 
skill deficiencies which were noted by the consultant in the areas of 
financial management, information management, and human resources 
management have been identified, classified and transmitted to the 
appropriate committees of the House and Senate for approval.
    Policy review, in contrast with those of benchmark agencies 
identified by the consultant, is underway. A determination has been 
made to transfer existing administrative policy documents from their 
place in the Department's overall policy and procedure manual into a 
separate administrative manual, as recommended by the consultant. 
Existing policies will be revised, reformatted into a more 
understandable form, and reinforced with new policies and procedures 
identified through the review and benchmark process.
    An improved personnel evaluation process has been drafted and is 
under study by department human resources personnel. However, this 
process contrasts from that recommended by the consultant in some 
significant areas that will require careful consideration and 
reconciliation.
    The Board is scheduling an off-site conference in the first week of 
March to thoroughly review, among other issues, the Department's 
business processes. The consultant's report and recommendations will be 
central to these discussions.

            Comparison of FY 99 and FY 2000 Budget Estimates

    Question. The salaries budget is up by $4.4 million (from $76.8 to 
$81.2 million). Most of this is for the routine COLA's, and the 
annualized items. But there is $1.3 million for a ``base pay'' 
adjustment. Explain that.
    Response. Amounts appropriated for fiscal year 1999 allowed for 
historical lapse rates in employment of officers and civilians. The 
FY99 appropriation was further reduced by $422,000 on the basis of 
savings that accrue when hiring a recruit to replace an officer. The FY 
2000 estimate for base salaries was prepared using the actual salaries 
of 1,251 incumbents on board. The estimate has not been adjusted for 
lapse in that the Department anticipates virtually no retirement 
activity due to the revision to the longevity pay scale.
    Question. The general expense budget is up $2.8 million. There is a 
37% (+$204,000) increase in the ``transportation of persons'' budget. 
Explain that increase.
    Response. The total increase requested for transportation of 
persons is $204,000. Of this amount, $126,000 is requested to cover the 
travel costs associated with the political conventions scheduled for 
July and August of the year 2000. Of the total amount requested, 
$551,000 is for the Dignitary Protection Division personnel assigned to 
protective details by the Capitol Police Board. The amount of $138,000 
is requested for travel associated with professional and specialized 
training. This estimate represents about $110 per FTE per year. It is 
the position of the Capitol Police Board that training is essential to 
a professional and prepared police force.
    Question. How many of our police will be needed at the conventions?
    Response. It is somewhat difficult to gauge manpower for events 
this far in the future. Much depends upon the site and the threat level 
at the time. However, based on the 1996 numbers in San Diego and 
Chicago, I would expect staffing levels to be in the neighborhood of 30 
for each event. That number includes post standers, Intelligence 
agents, Officials, and agents assigned to leadership protection. We 
used 26 in San Diego and 25 in Chicago in 1996.
    Question. For the record, provide a list of all trips charged to 
this budget item, the purpose of each trip, the number of police 
personnel traveling, and a summary of the expense items.
    Response. In the aggregate, the Department expended $442,545 in 
fiscal year in support of its dignitary protection mandate. This 
encompassed 462 total trips and involved 1,995 staff travel days. The 
Department would be pleased to brief the committee on other details of 
this function at their convenience, but considers much of the data to 
be law enforcement sensitive.
    Question. For the record, itemize the $926,000 decrease in ``other 
services'', and list the identity, number, and cost of the life cycle 
replacement items in the ``capital asset'' budget. Describe the age and 
condition if the items you intend to replace.
    Response. The amount of $500,000 as appropriated in the General 
Expenses account to reimburse amounts used to cover overtime in fiscal 
year 1998. This amount was eliminated in the FY 2000 request. Further, 
start-up costs for a hazardous materials program totaling $160,000 in 
FY 99 are not recurring. Other offsets include funds provided for one-
time miscellaneous repairs and acquisitions.
    While we had requested 1.6M in FY99 for the physical security life-
cycle replacement program, 1.2M was ultimately funded.
    The funding received by the Capitol Police allows for the 
replacement of existing security systems and equipment that is failing 
and obsolete. This program is a continuation of existing initiatives to 
replace security equipment as it reaches the end of its usable life 
cycle and to procure additional systems for new requirements, while 
continuing an orderly security equipment upgrade program. It prevents 
the need for wholesale replacement of security systems through no-year 
funding by establishing a fully funded physical security program. 
Replacing security equipment as it reaches the end of its usable life 
cycle will avoid long down times for repairs or failure during critical 
events.
    This program also attempts to continuously update security 
equipment as new technology becomes available. Typical equipment that 
will be replaced in this program are X-ray machines, weapons detectors, 
bomb detection systems, access control, and intrusion detection 
systems. As new security equipment is installed, it is important that 
it be maintained and placed on a planned life-cycle replacement 
program. In doing so, we can ensure our physical security systems are 
always fully operational and that we can methodically purchase 
equipment and keep pace with advancement in security technology.
    Also attached are the vehicles in need of replacement in FY 2000.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Again, I would say that we appreciate your 
being here and your cooperation, and we will be working with 
you through the remainder of this session and markup, and we 
will be calling on you probably again if we can.
    Thank you very much. And for the record please supply all 
of the reprogramming requests made last year and disposition of 
each of the appropriations committees.
    This committee is now adjourned.
    [Questions from Mr. Hoyer and responses follow:]

                               Facilities

    Question. What new training facilities does the Capitol Police 
need, and how soon do they need them?
    Response. The Architect of the Capitol has contracted a consultant, 
EDAW, to prepare a facilities master plan for the United States Capitol 
Police that will identify, among other facility needs, the Department's 
training facility requirements. Phase One of this project began in 
October, 1998, and includes the following activities: developing 
facility requirements and performing asset evaluations; preparing 
alternatives and a concept plan; preparing draft and final reports; and 
preparing briefings and brochures.
    Question. What improvements are needed to the USCP's current 
training facilities, short--or long term?
    Response. The facilities master plan is expected to identify short 
and long term improvement needs. In the very short term, the Department 
has requested a temporary expansion of its training facility in the 
Ford House Office Building to accommodate an anticipated staffing level 
increase of 215 officers.
    Question. What training facilities upgrades, if any can be funded 
from last year's $106-million security-enhancement appropriation?
    Response. Last year's security enhancement appropriation included 
funding of $1 million for the design of a police training facility. The 
design product will include completed construction drawings, 
specifications and a cost estimate for a new police training facility.
    Question. What existing facilities under the control of Congress or 
other entities are you considering as possible ways to meet these 
training needs, if any?
    Response. The facilities master plan will include a number of site 
recommendations for a training facility. Presently, properties owned, 
leased or managed by the Federal and District governments are being 
considered, as are properties owned by commercial or private interests.
                                      Wednesday, February 10, 1999.

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS
DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
RUBENS MEDINA, LAW LIBRARIAN
JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
LINDA WASHINGTON, DIRECTOR, INTEGRATED SUPPORT SERVICES
KENNETH E. LOPEZ, DIRECTOR OF SECURITY
HERBERT S. BECKER, DIRECTOR, INFORMATION TECHNOLOGY SERVICES
MARYBETH PETERS, REGISTER OF COPYRIGHTS
DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
    PHYSICALLY HANDICAPPED
BEN BENITEZ, ACTING DIRECTOR, OFFICE OF THE ASSOCIATE LIBRARIAN FOR 
    HUMAN RESOURCES SERVICES
JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
KATHY A. WILLIAMS, BUDGET OFFICER

                            Opening Remarks

    Mr. Taylor. Since this is a single vote, I would like to 
ask Dr. Billington with his staff to come and be seated, and we 
will go and vote while you are being seated, and we will come 
right back. It shouldn't take more than a couple of minutes. We 
are in recess.
    [Recess.]
    Mr. Taylor. The committee will come back to order. We will 
now take up the Library of Congress. We want to welcome Dr. 
James Billington, the Librarian of Congress, and also welcome 
retired General Donald Scott, the Deputy Librarian of Congress.

                             BUDGET REQUEST

    The 2000 budget of the Library assumes total funds 
available will be $567.3 million from a variety of sources, 
including appropriated funds, receipts, gifts, trust and 
revolving funds and the reimbursable program. The direct 
appropriations request before the committee today is $416.8 
million, and that is an increase of some $25.1 million or 6.4 
percent over the current level. This level of resources 
includes $33.1 million in offsetting collections.
    The Library is requesting funding for 82 additional 
employees but plans to assume these positions within their 
current FTE level. The current level is 4,076 permanent FTEs.
    Dr. Billington, would you like to introduce your staff and 
proceed with any comments you would like to make?
    Dr. Billington. Thank you, Mr. Chairman.
    In addition to myself as Librarian of Congress; General 
Scott, the Deputy Librarian; Winston Tabb, Associate Librarian 
for Library Services; Rubens Medina, the Law Librarian of 
Congress; Jo Ann C. Jenkins, the Chief of Staff, Office of the 
Librarian; Linda Washington, Director of Integrated Support 
Services; Kenneth E. Lopez, our Director of Security; Herbert 
S. Becker, the Director of Information Technology Services; 
Marybeth Peters, Register of Copyrights; Daniel P. Mulhollan, 
the Director of Congressional Research Service; Frank Kurt 
Cylke, Director, National Library Service for the Blind and 
Physically Handicapped; Ben Benitez, Acting Director, Office of 
the Associate Librarian for Human Resources Services; John D. 
Webster, Director of Financial Services; and Kathy A. Williams, 
Budget Officer.

                         LIBRARIAN'S STATEMENT

    I am happy to begin by responding to your questions, Mr. 
Chairman. We have submitted, of course, a fairly full 
statement, perhaps even more than you would want. So I and my 
colleagues would be happy to respond to your questions right 
from the beginning.
    Mr. Taylor. Thank you. We have circulated your statement, 
and it will be printed as part of the record.
    [The prepared statement of Dr. Billington follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     Transition to Digital Formats

    Mr. Taylor. Your statement highlights that the Library is 
making a transition from paper and related forms to digital 
formats. Explain how you are making that transition.
    Dr. Billington. Mr. Chairman, this is one of the more 
exciting aspects of the Library of Congress as we prepare for 
our third century of existence as the Nation's oldest 
federally-mandated cultural institution, the largest repository 
of knowledge and creativity in the world. Because it is no 
longer just the books, the tapes, the movies, and the maps, 
most of which we have the largest collections in existence. It 
is also the electronic world that is coming into being. Not 
only is the Library a large collection, approaching 116 million 
artifactual objects used here in the buildings on Capitol Hill, 
the three buildings on Capitol Hill, but it is also an 
electronic library that is available 24 hours a day to every 
State of the Nation and localities.
    We are getting close to three and a half million electronic 
transactions now every working day. It is increasing 
dramatically. I think these aids are in your package, attached 
to the statement. But the Library is collecting not only the 
ever-increasing artifacts--people don't realize the production 
of books increased more than 6 percent last year--but also this 
exploding electronic world that is coming in to being.
    Now, we have a plan. We are asked, how is the Library going 
to get there? How are we going to integrate the emerging 
electronic materials and the ever-increasing traditional 
materials? We are really working in two areas, getting access 
to the entire digital universe, not just that which the Library 
is digitizing but that which is created in exclusively digital 
form. As much as a fifth of the world's legal production now is 
available only in electronic form, as our Law Librarian informs 
us.

                             Five Year Plan

    So, acquiring the digital collection at the same time as 
reengineering our traditional functions involves a lot of 
technology as well, but, basically, we are getting the two 
collections blended together. In the next 5 years, of the new 
century, we will be trying to assure that first and foremost, 
the Congress and, second, the people of America have access not 
just to a wholly reengineered traditional collection made 
available largely through this integrated library system that 
the Congress was so generous with last year, but also to the 
Librarys increased storage of digital information produced by 
others as well as the increasing amount of digital information 
that we are creating.
    Our goal, of course, is to be able to provide traditionally 
what we have always done, but in new ways that integrate both 
the traditional and the artifactual, the physical objects and 
the new network electronic information.
    We want to have at the end of this period of development a 
new, dual capacity which integrates the two, making the Library 
a one-stop shopping for the end user. We want to have usable 
material for a democratic government through the Congress. That 
is our first priority.
    Secondly, we want to make available locally throughout the 
country the memory and imagination material for all Americans, 
especially for young Americans, a development which has proved 
so exciting for the K through 12 population. And, finally, of 
course, we want to have as seamless a navigation method as 
possible in a secure environment.

                       Automation Building Blocks

    Those are very traditional objectives which we now have on 
a much-expanded scale. What we are asking for this year, are 
all of the different initiatives transitioning to the next 
phase. What you see here--the top two are solely the digital 
collections: the Legislative Information System for the 
Congress and the National Digital Library which goes out to 
your constituents.
    Below, you have the Integrated Library System and the 
Electronic Cataloging Publication System, which reengineer the 
traditional processes. The three in the middle serve both the 
digital collections and the reengineered traditional processes, 
and for those three, we are asking for modest increases in this 
year's budget submission, which net a 5.5 percent increase 
overall.
    But the principal initiatives where we need further help 
this year are the Global Legal Information Network, which gets 
the Law Library connected so that we have in realtime law codes 
and law materials from foreign countries, to be able to serve 
the Congress and the country in that way.
    The CORDS, the electronic registration system for 
copyrights, becomes something that ordinary users can easily 
access electronically, to simplify that function, and, finally, 
electronic resources, which is the largest need, so that we can 
store and make available to the Congress and the Nation the 
enormous amount of material that is only being produced in 
digital form.
    We are trying to bring that all together and at the same 
time, sustain our traditional services. That, in brief, Mr. 
Chairman, is how we hope to satisfy this need to bring the two 
together.
    It is important to stress that we cannot disregard the 
traditional services while we develop new electronic ones. By 
combining the two together, I think, we have a chance to make 
the Library far more usable both to the Congress and to the 
American people generally.
    Mr. Taylor. Thank you. It has been my experience over the 6 
years I have been on the Appropriations Committee that the 
Library has done an excellent job in trying to accomplish this, 
and with limited funds. I understand that we all could spend 
more money perhaps, if we had it, but I would like to commend 
you.
    General Scott, the transition will create the need and 
opportunity for the Library to reengineer the traditional way 
of providing information and services. What capability do you 
have on your staff to look for cost savings during this effort?

                         Reengineering Program

    General Scott. Thank you, Mr. Chairman.
    As Dr. Billington just pointed out, we do have a number of 
initiatives underway that will require reengineering of our 
processes to ensure that we can keep up the high-quality 
service to our customers. We have an excellent planning 
schedule, and I would say that we are world class in that 
effort.
    Within the next 5 years, there is an opportunity for us to 
be able to reengineer and, at the same time, look for some cost 
savings as we do this. We need individuals who have the right 
expertise and background in business reengineering who could 
work for the Library for a limited period of time, like 5 
years, to help us look for these opportunities to save as we 
reengineer.
    Mr. Taylor. Please let us know how we can help in that 
area.

                              ILS Project

    Could you give us an update of the Integrated Library 
System project?
    General Scott. Yes, sir. The Integrated Library System, 
which the Congress approved for us over 2 years ago, is on 
track. It is scheduled to be implemented October 1999. We have 
met all of the milestones that we have briefed Congress about; 
and, in fact, our most recently forwarded report that was 
delivered to the Congress on the 29th of January. That report 
lays out everything that we have done and what we have to 
accomplish between now and October 1999.

                            Off-site Storage

    Mr. Taylor. Next year you plan to occupy a new off-site 
facility that is being built at Fort Meade, I believe. Can you 
explain that project to us?
    General Scott. Yes, sir. The Fort Meade project consists of 
constructing modules to house the additional books and 
periodicals that we don't have room for here on Capitol Hill.
    The first module is scheduled to be completed--according to 
the Architect of the Capitol--in July 2000 and will house 
approximately 2.2 million books and periodicals.
    The second module will have a 2.8 million volume capacity.
    We have selected a design that will provide an efficient 
method of retrieving those lesser-used collections for 
researchers who request them.
    Mr. Taylor. You would use your contract support to operate 
that building?
    General Scott. Yes, Mr. Chairman. We have thought very 
carefully about the use of contract labor to operate that 
facility; and, of course, we would only do it if it proved to 
be in the best interest of the government.
    Mr. Taylor. Okay. I have several questions, but let me open 
it to other members of the committee.
    [Questions from Chairman Taylor and responses follow:]
                               Fort Meade
    Question. Next year, you plan to occupy a new off-site storage 
facility that is being built at Fort Meade. Please explain that 
project.
    Response. We have four primary objectives for off-site storage: 
providing an efficient method of storing lesser-used collections, 
providing an environment to ensure the long-term preservation of these 
collections, ensuring efficient and timely retrieval of requested 
items, and vacating leased collections storage space.
    The Library plans to start occupying the new Fort Meade book 
storage facility in the summer of 2000, about one month after the 
Architect of the Capitol completes construction. We plan to occupy the 
second book storage facility in fiscal 2001, a third book storage 
facility in fiscal 2003, and a fourth book storage facility in fiscal 
2004. We also plan to occupy a copyright deposits facility and a 
screening/holding facility in fiscal 2004, and a warehouse facility in 
fiscal 2005.
    This book storage project consists of constructing sequential, 
adjoining modules to accommodate growth of the Library's collections 
which can no longer be accommodated on Capitol Hill. The first module 
will house approximately 2.2 million books and bound periodicals. We 
anticipate that the first module will be filled within 550 work days or 
approximately 2\1/2\ years after occupancy--meaning, if Module #1 is 
ready for occupancy in the summer of 2000, it will be full by November 
2002.
    The Library's fiscal 1999 funds will purchase items that have a 
long procurement lead-time and items that need to be logically 
incorporated into facility construction, such as specialized equipment 
and supplies, and security equipment. The fiscal 2000 funds will be 
used to purchase equipment and supplies that have a shorter procurement 
lead time and begin to fund the actual operation of the facility, e.g., 
contract staff to transfer material from Capitol Hill to Ft. Meade, to 
operate Module #1 at Ft. Meade, and to clean and maintain the facility.
    Question. Will you use contract support to operate that building? 
If not, it should be possible to use part time staff from local 
colleges, as Harvard and other schools have found useful. Will you look 
into that?
    Response. We have and will continue to consider this option. Our 
plan is to contract the operation of this facility if it proves in the 
best financial interest of the government to do so. The specific mix 
and source of the staff will be the discretion of the contractor, and 
will be such that the contractor will be able to meet the contractor 
requirements we specify. The use of part-time student help may or may 
not be considered practical by a contractor because Fort Meade is not 
adjacent to a college.

    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. Thank you.

                             Reengineering

    You talked about the reengineering. I am assuming that 
deals with personnel?
    General Scott. Not completely. That is a part of the 
effort.
    Mr. Pastor. What are we talking about?
    General Scott. We are also talking about reengineering 
processes of how we catalog and inventory. We are talking about 
reengineering the processes that incorporate, for example, how 
we receive the material, process it, tag it, and code it.
    Mr. Pastor. In other agencies they have talked about 
reengineering, but they also talked about personnel needs. You 
have people with unique talents. But as you look to do 
different things, sometimes the talents that personnel have, 
don't match. Then, you have people now who are leaving, and so 
you have to look for the short-term present time and then to 
the future. So I think it deals with personnel changes, and 
what are you doing about that as you reengineer everything 
else?
    General Scott. You are quite correct. We are looking at how 
we train and develop staff currently doing the work and then to 
come up with ways that we can retrain people to do different 
work. That is part of the reengineering package, that we 
currently have the expertise in-house to do that, and we are 
currently doing that.
    Mr. Pastor. So you have to do in-house training?
    General Scott. Yes. We are conducting in-house training 
through our internal university.
    As far as personnel changes, we are also currently 
reviewing our entire human resources system to identify how we 
might streamline and make that faction more efficient. However, 
I don't want to get too far ahead of the process. What we are 
currently doing can be accommodated in-house with the people 
that we have.
    Mr. Pastor. Am I understanding that you are not adding any 
new personnel positions but you are changing the type of FTE 
position?

                         Full-time Equivalents

    General Scott. We don't expect to have to hire a great 
number of new people, because the objective is to take the 
people that we currently have, whose job may need to be shifted 
and where we can find a match to retrain people to do that. So 
the emphasis will be on retraining employees that we currently 
have.
    Dr. Billington. One thing, the funding for the 82 FTE's we 
are requesting this year, would not exceed the current budget 
level. The Library is operating at a level slightly below the 
FTE's approved by the Committee, primarily due to higher 
average salary costs.
    Let me say as a general point on this, there are two big 
issues. We have lost 591 positions since 1992, 13 percent of 
our staff. We are getting a lot more work done with less people 
already.
    We face really two problems, slash, opportunities. But 
there are other problems. There is very little turnover in the 
workforce, so we have a rather aging workforce. Forty-five 
percent of them are going to be eligible to retire by the 
middle of the next decade.
    We also have an enormous need, because of these technology 
changes, to retool people from doing sort of repetitive work 
into being knowledge navigators. We have got to serve you 
properly in the future. We are going to have to be able to deal 
with this enormous flood of material that is coming on the 
Internet plus the explosion of publishing around the world. 
There will be a lot more players in international politics and 
international economics.
    In order to keep up with that, we are going to have to 
continue to acquire all this material and make it accessible, 
we are going to need people who are skilled navigators, who can 
help guide you and who can help provide objective navigation 
through this great explosion of knowledge and information which 
results from this economic expansion. Many of our exports are 
in knowledge-based industries. This is a big training and 
retraining job.
    This involves necessarily a succession plan which is part 
of our proposal this year, so that the invaluable knowledge of 
the current staff who have been with us a long time, gets 
transmitted to other people. We have got to retrain people, to 
make it possible for our very skilled people to move into the 
knowledge navigation business and to get the added training 
that they may need. We are going to hire a lot of people, and 
this is going to put a lot of strain on the personnel system.
    General Scott and others are working on this, and we think 
it is an enormous opportunity. It is also going to be a key 
part of the whole reengineering process so that, at the end of 
this, we will have new people, but we also will have the 
knowledge transmitted by their predecessors, not just lost with 
their retirement. That is why the succession plan is important.
    And we are going to have to retrain a lot of the very 
talented people we currently have. We are going to have to find 
imaginative ways to do this in view of our limited training 
budget.
    We think this mentoring process will help, and a thorough 
study of the human side of reengineering is definitely a key 
part of our thinking.
    Mr. Pastor. So the 82 positions that we talk about in this 
budget----
    General Scott. Right.
    Mr. Pastor [continuing]. They are positions that you have 
in place presently, they are unfilled, and basically you want 
to change or reclassify them so you can implement them in your 
reengineering program?
    General Scott. No, sir.
    Mr. Pastor. These are all new positions?
    General Scott. No. Now I clearly understand what the 
question is. We are not talking about the ability to increase 
by 82 FTEs. What we are talking about here is that since we 
didn't get all of our mandatories for last year, that means 
that in order just to stay somewhat close to the 4,076 FTEs as 
authorized, that we need to have the additional money to keep 
close to that. And, we still will not exceed the 4,076 FTEs.
    Mr. Pastor. Okay. One more question. Security was a problem 
a few years back, and I know that monies have been appropriated 
for securing the collections in the Library and making sure 
people aren't taking books or tearing books or whatever they 
were doing. Where are we on that and where do we still need to 
go?

                          Collections Security

    General Scott. Well, we did receive considerable assistance 
from a special appropriation from Congress, basically to 
improve our perimeter security. So those plans are still in the 
process of being finalized.
    With respect to the internal security that we were working 
on last year, we have made significant progress. We do have a 
security plan now that we are implementing; and within that 
security plan the money we are asking for in this year's budget 
is for help to expand our current reader registration.
    This will require that all researchers who come to the 
Library of Congress get a library card that would be part of a 
data bank. This will enable us to know who is there and what 
their needs are. It also permits the reader ease of access into 
the reading rooms.
    We also have found that the registration helps the reading 
rooms because it gives staff, who man the reading rooms, 
immediate access to information about the reader.
    We are asking for money to extend these reader registration 
programs to the Madison Building. This program is currently 
being implemented in the Jefferson and the Adams. So we think 
this will help us to reduce the risk of people coming in and us 
not knowing who they are.
    The other piece needed to improve security is the marking, 
tagging and bar coding of material that comes in. The Congress 
approved and funded marking and tagging for copyright items in 
fiscal 1999, and we think that we need to have additional money 
to help us to expand the marking and tagging program to include 
acquisitions through gifts, exchanges and purchases.
    Then, finally, the money we are asking for is to help us 
make sure that we monitor the collections that come out of a 
secure area and then go into the reading rooms. If we had some 
additional security monitors, it would help to maintain contact 
with people who take these rare books or precious items, and we 
can see what they are doing in that regard.
    So that is the additional $1.4 million we are asking for in 
this particular budget. That is what it will be used for.
    Mr. Pastor. Thank you, Mr. Taylor.
    [A question from Chairman Taylor and response follow:]

    Question. There is a $1.4 million item for improved collection 
security. Explain that program. How many budget years will be affected? 
What will the overall cost be?
    Response. This program covers three critical collections security 
program areas: reader registration, security of collections while in 
use, and marking, tagging, and bar coding.
    The reader registration portion of the program will cost $466,791 
(funding for 8 FTEs) in fiscal 2000 and continues into the out years. 
The Library's Security Plan specifies, as a minimum standard, the 
identification of all patrons requesting material from the collections. 
The current program is limited to Thomas Jefferson and John Adams 
Buildings' reading rooms; this additional funding expands the current 
program to the James Madison Building reading rooms. To date, 
approximately 130,000 cards have been issued.
    The marking, tagging, and bar coding portion of the program will 
cost $476,378 (in material and supplies) in fiscal 2000 and continues 
into the out years. The Library's Security Plan specifies, as a minimum 
standard, the marking and tagging of most material. The Congress 
approved and funded the marking and tagging of materials received via 
copyright deposit starting in fiscal 1999. This request will expand 
marking and tagging to other sources of acquisitions (i.e., gifts, 
exchanges, purchases).
    The security of collections while in use portion of the program 
will cost $409,032 (funding for one FTE and contract support) in fiscal 
2000 and continues into the out years. The Library is requesting $370 
thousand in contractual services funding to improve the enforcement of 
security standards by placing security monitors in five additional 
reading rooms. Contract security monitors are now used in the 
Manuscript and Main reading rooms. We are asking that this successful 
program be expanded to five other reading rooms where unique materials 
often of great value are used: Law, Geography & Map, Music, Prints & 
Photographs, and Rare Books.

    Mr. Taylor. Mr. Wamp.
    Mr. Wamp. So how many FTEs do you have now total? How many 
people?
    Dr. Billington. I believe it is 4,076.
    Mr. Wamp. Well, let me say that I am proud of those 4,076 
and certainly both of you as leaders of the Library of 
Congress. Very few things do I enjoy as much as the Library of 
Congress, both physically and in terms of the research that I 
access, as well as just the ability to check books out and read 
them on a regular basis.
    I was going to approach the grading of the workforce issue, 
but you covered it pretty well. Just to clarify, this 5.5 
percent increase, most of it, maybe like 80 percent of it, is 
required pay raises?
    General Scott. Right.
    Mr. Wamp. The rest of it just a thin slice, $3.5 million or 
so, right, and that is it----
    General Scott. Yes.
    Mr. Wamp [continuing]. Basically? So with inflation 
factored in, you are not even asking for an increase, is that 
right?
    General Scott. That is correct.
    Mr. Wamp. This is pretty much a maintenance budget for the 
next year, even though we are approaching--and this is what I 
want you to do during my 5 minutes--the great bicentennial of 
this incredible natural asset. So how about whetting our 
appetite just a little bit, give us a sneak preview of where we 
are headed next year with this great, grand 200 year 
celebration of the Library of Congress?
    [A question from Chairman Taylor and response follow:]

           Largest Source of the Fiscal 2000 Budget Increase

    Question. Overall, the Library is requesting a total appropriation 
of $16.9 million ($16,905,618) in the various accounts for mandatory 
pay items and price-levels changes. Is that primarily for the cost-of-
living and increase in the President's budget and the normal price 
increases for printing, travel and the like?
    Response. Yes, that is correct; $13.9 million is for pay increases 
and $3.0 million is for inflation on non-personal categories of 
expense.

         Workstation Replacement as a Growing Workload Increase

    Question. So the balance of the increase is $8.2 million for 
workload items? One of these items is $4.2 million for automation 
projects and $1.6 million is for the staff succession program. What 
about the $1.5 million for the workstation replacements? How many work 
stations and how long will that take? What is the overall cost of the 
project?
    Response. Approximately 2,200 workstations will be replaced over a 
five-year period. The 2,200 workstations represent about 70 percent of 
the staff located in the Madison Building. The total cost of the 
replacement project is $10,889,000. We plan to use $650,000 a year for 
five years (a total of $3,250,000) of our Furniture and Furnishings 
base toward this priority program. The total five-year amount requested 
from Congress is $7,640,000.
    Question. Is this just to bring these workstations up to date?
    Response. Yes, twenty years ago, when the James Madison Building 
was built, typical office furniture was designed to accommodate the use 
of standard typewriters and manual tasks. This program will replace the 
original furniture with efficient and flexible workstations designed 
specifically and ergonomically to accommodate modern desktop computers 
as staff spend more and more time working on their computer. The 
workstations in the Thomas Jefferson and John Adams Buildings either 
have been or are currently being updated as part of that renovation 
project.
    Question. What productivity gains should we expect to see from this 
program?
    Response. The existing furniture does not perform well in a 
personal computer environment. The new workstations are expected to 
provide enhanced productivity by making more job tools readily 
accessible. The real gain from ergonomic workstations will be the 
efficiency of movement and reduced stress from repetitive movements. 
The Library has already experienced a reduction in work related 
injuries in areas where ergonomic workstations have been established:

                                  CARPAL TUNNEL SYNDROME COSTS VS. TOTAL COSTS
----------------------------------------------------------------------------------------------------------------
                                                        1996                  1997                  1998
                                               -----------------------------------------------------------------
                                                   Amount    Percent     Amount    Percent     Amount    Percent
----------------------------------------------------------------------------------------------------------------
Carpal Tunnel.................................     $214,296     20.7     $147,498     12.9      $98,910     11.1
All other.....................................      820,570     79.3      994,674     87.1      790,548     88.9
                                               -----------------------------------------------------------------
      Total...................................    1,034,866             1,142,172               889,458
----------------------------------------------------------------------------------------------------------------

                       Bicentennial Commemoration

    General Scott. That is for the maestro.
    Dr. Billington. Well, I will say a few things; and then 
maybe Jo Ann Jenkins, who is the Chief of Staff, may want to 
add something.
    Briefly, we are going to start this June. At the beginning 
of the century, the Congress commissioned the Library of 
Congress at the St. Louis World's Fair, to summon the greatest 
thinkers of the world to identify the frontiers of knowledge 
for the 20th century. Well, we are going to do that again this 
June; and we hope many of you can be there. We are going to 
assemble some of the great minds of the world to discuss this; 
and we are also going to bring young, bright high school kids 
from all over the country to cross-examine them so that the 
people who will have to create the 21st century will have a 
chance to ask questions about the predictions of the great 
minds. That is the kick-off.
    We will also hold another big conference on the spread of 
the rule of law and representative government throughout the 
world, have speakers from all over the world, with law 
librarians, cosponsored with the New York University Law 
School. So there will be some big conferences like that and 
smaller conferences that serve the Library particularly.
    The basic thing that we are doing is celebrating what we 
call Gifts to the Nation, to celebrate not just the Library of 
Congress but the whole American tradition of knowledge-based 
democracy, of open access to information and knowledge, of 
creativity, as the escalator on which everybody ascends.
    Now, the big Gift to the Nation, of course, we hope is the 
5 million items of American history and culture that we have 
digitized as the National Digital Library, the American memory 
package that is usable in every locality throughout the 
country. We already have a million and a half on-line and 
another three million in the pipeline. We are on track with 
that.
    Every congressional district has received a big package, 
both your district office and here in Washington, inviting each 
congressional district to identify something that ought to be 
in the national collection, that is characteristic of your 
district that hasn't been sufficiently appreciated as 
representative of your district.
    We will have a snapshot view of important things about all 
regions of America that people ought to remember at this turn 
of the century, turn of the new millennium.
    We will have a lot of other activities. We are going to 
have a retrospective on the whole history of American music. 
The first book ever published in America was a musical book, 
the Bay Psalm Book. We have by far the greatest collection of 
American music of all kinds, which has transformed the 
soundscape of the 20th century. We are going to celebrate 
American creativity.
    We are going to reassemble Thomas Jefferson's full library, 
which was the basis of the Library in the 19th century. We need 
only 900 volumes. We have most of the 6,500 volumes and we are 
going to have a mega exhibit about Jefferson to celebrate the 
richness of his library, his papers and so forth.
    This is going to be a celebration. We are also working with 
the American Library Association very closely. A lot of these 
local district treasures will be deposited in local libraries, 
but the library will digitize them and add them to the American 
memory.
    Mr. Wamp. As excited as you are, you are going to turn it 
over to someone else?
    Dr. Billington. But, I will turn it over to Jo Ann Jenkins. 
She has really been leading a tremendous team working in the 
Library. We are working closely with the American Library 
Association. I think it is going to be a celebration that 
doesn't just look back at the past, but looks ahead to the 
future and what we are going to be able to do with this 
treasure chest.

                      Bicentennial Coin and Stamp

    Ms. Jenkins. The only other thing I would mention is the 
coin and the stamp. We have been approved for a stamp, a 
bicentennial stamp, which will be released April 24th, 2000 as 
well as two coins. We are still working to determine whether 
one coin will be the first bimetallic coin or whether it will 
be a gold coin as well as a silver coin.
    I would just also add that we are supporting our 
Bicentennial with private funding, with the exception of the 
staff that is working in-house. Most of the funds supporting 
these projects are coming directly from our Madison Council and 
other private contributions.
    Mr. Wamp. How much is that, roughly? What do you think it 
will cost?
    Ms. Jenkins. We are working on that now. The part that is 
unfinished is really the television programming that we are 
working on. We have a commitment in hand of about $4.9 million 
so far from private sources.
    Mr. Wamp. Thank you, Jo Ann.
    Indulge me one more second, if you will, Mr. Chairman.
    Dan Mulhollan with CRS, tell me what you think about what 
Congressman Shays and Congressman Price gave to us a few 
minutes ago in the form of an idea. What do you think?

                  Public Dissemination of CRS Products

    Mr. Mulhollan. Well, actually, Mr. Shays and Mr. Price were 
gracious enough to give us an earlier copy, but I haven't seen 
the final copy of the bill. I think that they have made--and I 
appreciate, first of all, a compliment to CRS in the proposal. 
Secondly, they have been very conscious of our concerns with 
regard to speech and debate protections, and protecting us from 
litigation and discovery of confidential memoranda that serve 
as the underpinning of our general reports that are distributed 
to all the Congress, but there are two components to 
accomplishing that. One is that Congress is the site rather 
than ourselves, so it is distributed by Congress, and the 
second component is the ability of each member to be selective.
    Wholesale dissemination is a concern arising from Doe v. 
McMillan, the Supreme Court case. If, in fact, you are 
determined to have a public information function, it is 
imortant to continue current policy which is that any Member or 
committee--House Judiciary has a number of impeachment studies 
up on its Web page, for example--is able to select those items 
and place them on the Web site. I think that follows 
traditional policy of CRS reports being congressional documents 
for decades. It is the same principle.
    The concern that we need to discuss with them is, in fact, 
more than anything else the issue that the whole package, all 
of the products, undifferentiated, would be there available 
under their proposal.
    I will submit that the proposal last year, and now this 
year, has been submitted to House Administration. The Joint 
Committee on the Library established a task force to examine 
this, and it shows the increased complexity of the issue as you 
unfold it because you are dealing with decades of precedents.
    Again, on the costs, I have to fall back upon the previous 
CBO estimate at this point.
    Mr. Wamp. So that while they represented that there is no 
authorization necessary, the fact is with this House 
Administration task force, we actually do have an authorization 
question on the table, and things need to be resolved before we 
would be prepared as a subcommittee to go forward with their 
recommendations?
    Mr. Mulhollan. I would submit that with the complexity of 
the issues involved, that House Administration and Senate Rules 
Administration are very interested in this, and there has been, 
for instance, a letter signed by the Chair and Ranking Member 
from Senate Rules Committee on this matter to the Senate, and I 
know House Administration has been diligently looking at the 
issue itself.
    Mr. Taylor. Do you have any possible estimate of what the 
costs for their full bill would be?
    Mr. Mulhollan. Well, the costs that had been identified 
were correct with regards to the technical side, but we also 
identified other implications. One, for instance, is that we 
anticipate, notwithstanding the good intention of the bill, 
additional public inquiries. We had additional costs there. It 
is interesting that they see that this would decrease in 
publication costs.
    We see a possible alternative explanation that, in fact, a 
lot of people don't have downloading capacity; that, in fact, a 
number of people throughout the country would identify those 
reports and ask for printed copies of those. A third cost we 
anticipate, based on conversations with LAs and LDs, 
legislative directors, is that they would be more apt to ask 
for tailored confidential memoranda on legislative issues 
before they go before the Congress, and that is the significant 
expense. The Congressional Budget Office's estimate ranged 
between $2 million and $7 million from the previous bill.
    It is a preliminary cost estimate. We need to underscore 
that because it was not reported out. But at this point I would 
say that subsequent considerations would be implied in the 
current draft, but I have to take a closer look--H.R. 654 was 
introduced yesterday, and I haven't seen its final version.
    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. I was going to ask, $100,000 to $2 million, 
that is a long way.
    Mr. Mulhollan. I think that is because the Members were 
pointing to the technical side, setting up a separate Web site, 
and then ongoing costs of that. In fact, in their proposal, as 
I understand it, these would be costs borne by HIR. But there 
are additional costs arising from a change of behavior and the 
impact on our services and that is where our estimates of the 
additional costs come in.
    Mr. Pastor. What would be the change of behavior?
    Mr. Mulhollan. Change of behavior would be in the number of 
public inquiries, which we have estimated previously at 55,000. 
Another would be in printing. We estimate, on the contrary to 
their assessment, that there would be increased printing costs 
on our part because of what I previously mentioned, and that 
ranges between $200,000 and $400,000. But themajor cost was the 
additional staffing necessary to meet the increased demand for 
confidential reports. By that I mean, for instance, right now, when 
someone asks us to do a memorandum for someone, they are saying, can we 
turn this into a report? We say, yes, that is fine, and we would change 
it to make it more available not just to a member of a committee, let's 
say, but a whole committee or even Members for a floor vote.
    We believe that there would be more reluctance for that if 
they thought that this would be immediately broadcast to the 
world, and I think this is implicit in the provision that there 
is a 30-day layover, recognition and concern about that, and 
that itself is an administrative issue that would have to be 
attended to.
    CRS is the only organization that I am aware of that has 
constantly moving products, where on active legislative issues 
we have roughly 500 reports, and 200 issue briefs; that if you 
are on a high-velocity issue, it can change three times that 
week with the analysts attendant to that, so that you have a 
constant change of these documents. We are trying to meet your 
needs.
    Mr. Pastor. Thank you, Mr. Chairman.
    [A question from Mr. Hoyer and response follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Mr. Peterson.
    Mr. Peterson. First, I am new on the committee, but I want 
to congratulate the Library of Congress in general for the role 
you are playing in this country of preserving our history and 
hopefully providing us with the information that we need to be 
good legislators.
    I would like to focus in on the CRS side, if I can. I am 
not as excited about it being a public information system as 
maybe some are. This is a competitive business, and having 19 
years in State government, we always had to compete against 
Governors and all the departments, and I don't know that all of 
their workings are public, but it is a debate process for the 
public good. I guess I am more interested in your ability to 
maintain the quality.
    I have been impressed here, my short time in 2 years, with 
CRS in the kind of work they do and the institutional memory, 
and I think that is the key thing. I guess the ability for us 
to compete with the Presidents of the future, I don't care 
which party they are from, and the need as a legislative body 
to protect our ability to debate the issues and understand the 
issues, and institutional memory is so vital.

                          CRS Succession Plan

    I got a little nervous when I read here on page 6, since 
many of the staff will be retiring soon, CRS will lose 
expertise in a significant number of areas including public 
finance, Social Security, health, constitutional law, 
biomedical policy, natural resource policy, macroeconomics and 
military personnel, and by 2006, 50 percent of current 
employees are eligible for retirement. Now, that is like 
dumping the brain out.
    I mean, I not only think we need to be thinking about 
bringing the next team in and training them, but maybe we ought 
to look at incentives for people not to retire. Instead of 
having a small percentage leaving annually, it looks like we 
are going to hit a period where we are going to dump half our 
brains out, and I think it is a very dangerous thing for the 
Congress to lose that much brain power.
    Maybe we ought to be looking at even more acceleration. You 
are talking about bringing the next team in and training them, 
but also we ought to be looking at incentives to keep people 
and try to get this balanced out somehow. You said you had a 
buildup in the 1970s.

                         History of CRS Buildup

    Mr. Mulhollan. The Legislative Reorganization Act of 1970 
was a significant legislative milestone which increased our 
staff by more than two and a half times in the early 1970's. If 
you recall, it was the time of both Watergate and another 
Presidential impeachment issue, and Congress was finding doors 
closed looking for information from the executive. They found 
that, in fact, as a result they needed their own expertise, and 
Congress decided shortly thereafter not only to increase us, 
but they also established the Budget Office--the Congressional 
Budget Act of 1974, to provide its own budget analysis as well. 
It was a time when Congress said it had lost too many of its 
own resources.
    Those people who came to CRS stayed with CRS. We are very 
proud of that. One example, if you will bear with me, is that 
there was a panel requested by the Judiciary Committee, and 5 
of the 10 people who were on that panel from CRS had been here 
for the 1974 impeachment inquiry. I think that our 
institutional memory has served Congress well.
    Mr. Peterson. I think institutional memory is so vital, and 
even more so in the future. How many people are really 
designated to research like that? I mean, what are the numbers?
    Mr. Mulhollan. I think the number is roughly 294 who are 
eligible to retire that we have identified.
    We have had terrific cooperation of our staff, and we had 
those people to give us the time frames when they anticipated 
to retire, and what we have done is to analyze the impact on 
those subject areas. So, for example, if we have six people in 
natural resources, and three of those are planning to retire by 
2002, that is our highest risk.
    So we have, at the same time, revived the graduate recruit 
program where--we have 20 this year--we are trying to get the 
best and brightest with a real emphasis in getting greatest 
diversity in our work force as well. And for the 20 positions 
we had over 500 applications from the graduate schools across 
the country, a great range, and we are hoping to bring the best 
and the brightest the country can offer from those who want to 
sustain democracy and work to help to maintain the democratic 
process. There are a number of students interested in public 
service, and that is what we are trying to do here.
    Mr. Peterson. Has there any thought been given to some 
enticements, inducements, in areas that are considered critical 
so that people wouldn't retire as quickly?
    Mr. Mulhollan. We haven't considered that one issue. More 
than anything else what we have done on a very selected handful 
of cases is provided contracts to people who have retired to 
help do some mentoring. For example, our person in Federalism 
stayed on and did a whole series of products and basically laid 
out in written form her institutional memory. That is one 
example. We are looking, in very selective areas, to having 
some others do this, as well.
    Mr. Peterson. I think we would be wise to have a bonus 
system that would be available; not just for anybody, but I 
mean when it is needed.
    Mr. Mulhollan. We would be happy to explore it.
    Mr. Peterson. I don't know how the other Members feel, but 
it seems to me that you are going to be losing an inordinate 
number of people in a short period of time; at a time when 
information is exploding. What we need to know as legislators 
today is so much more than 10 years ago. It is going to be even 
more in 5 years or 10 years. It is almost scary.
    Dr. Billington. I would stress not just for the CRS 
analysts, but particularly for the Law Library, which is 
responsible for the U.S. Government for foreign law codes, 
which are changing all the time. Now we are getting foreign law 
codes electronically in realtime, and it is a problem for our 
foreign language collections.
    Increased globalization of the economy affects every part 
of what we do internally in this country, and we have unique 
resources there. We need to replace analysts up and down the 
line, because this is a librarywide problem. It is also a 
librarywide opportunity.
    I do want to thank the Committee for giving us the 
beginnings of a succession plan with CRS last year, which has 
helped a lot, and that is an important request that we have in 
this year, and it really is quite minimal for the nature of the 
need that we have. It is the best way to go because these are 
not cookie-cutter jobs. These are unique researchers, using 
unique resources for a unique deliberative body in the world, 
and therefore really the only way they can ever learn it is on 
the job given some basic skills.
    We appreciate your concern for this, and we want to work 
with you to make sure that we continue to be able to provide 
you what you need.
    Mr. Peterson. I think we must make sure we don't 
shortchange our brain trust.
    Dr. Billington. Absolutely.
    General Scott. Mr. Chairman, if I might just address an 
answer I gave to Congressman Wamp just a moment ago.
    Mr. Taylor. Yes.

                  Growing Workload Increase in Budget

    General Scott. When I told you, when you said there would 
be no increase to the budget, we do have a $3.4 million net 
growing workload increase, and that is mainly for automation.
    Mr. Wamp. $3.4 million?
    General Scott. Yes, a $3.4 million net increase. But the 
rest is as you said it was, 83 percent of that budget is for 
wage and price-level increases.
    Mr. Wamp. That was a 1 percent increase, exclusive of 
salary increases?
    General Scott. Yes, sir.
    Mr. Taylor. Thank you.
    There is a $1.4 million item for improved collections 
security. Can you explain that program for us, Doctor or 
General? And what the overall costs would be and how many 
budget years would be affected?
    Dr. Billington. For collection security, I think we already 
covered that, didn't we?
    General Scott. I would be happy to go back over it. We are 
talking reader registration. That was the reader registration 
that we want to expand to Madison Building reading rooms.
    Mr. Taylor. Okay.
    General Scott. That was also making sure that we can have 
additional tagging and bar coding.

               National Audio Visual Conservation Center

    Mr. Taylor. Okay. There is $300,000 for the National Audio 
Visual Conservation Center. Have you occupied that facility 
yet, and what are your future plans for the facility?
    General Scott. Yes, sir. With your permission, I would like 
to call up Mr. Winston Tabb, who is our expert on that 
important acquisition.
    Mr. Tabb. Thank you, Mr. Chairman.
    The Culpepper National Audio Visual Conservation Center was 
authorized by Congress at the end of 1997. Last summer we moved 
the first several thousand reels of film there to temporary 
storage. Right now we are working with the Architect of the 
Capitol to select firms which will do construction management, 
as well as the architectural design work. We hope to have those 
contracts let by the end of March and have construction begin 
next January. That is where we are with that.
    The total cost of the project we estimate to be something 
around $66 million, including the purchase price as well as all 
the design and construction work still to be done.
    [A question from Chairman Taylor and response follow:]
                                Culpeper
    Question. Finally, there is $290,000 for the National Audo-visual 
Conservation Center. Have you occupied the building yet? What are your 
future plans for the Center? Have you estimated the total cost to 
renovate that building yet? (Put an estimate in the record).
    Response. The facility in Culpeper, Virginia will become the 
National Audio Visual Conservation Center to house and preserve all of 
the Library's audio/visual collections. Several thousand reels of film 
were moved into storage at Culpeper in August 1998. The Architect of 
the Capitol and the Library are working together in the selection 
process for construction management and architectural firms to work on 
the Culpeper project. The total cost of the approved Master Plan 
option--approved by the Oversight Committees last December--is about 
$66 million--including the purchase of the Culpeper facility and 
associated costs.

    Mr. Taylor. Okay. Thank you.
    The Global Legal Information Network is about $1.1 million. 
Could you tell us a little bit about that and why it is needed?

                    Global Legal Information Network

    General Scott. Yes, sir. Dr. Billington just referred to 
the importance of making sure that we have the laws from other 
countries, and we need to have $396,000 that will help us to 
complete the development of the Global Legal Information 
Network. The increase would help us to continue the development 
of GLIN and bring additional countries on-line through training 
and other administrative needs that would have to be there.
    We also have included in this request for the funds to 
ensure that we can keep the law library reading room open 
during regular hours. We have had to reduce the regular hours 
of the law library reading room because we have a stuffing 
shortage. So, we need another four to five people to keep the 
reading room operating.
    Dr. Billington. I might mention also in addition to the 
electronic resources, the Law Library request is for looseleaf 
services to be kept up to date. Because of tremendous demands, 
we are on this continuous effort to reduce our arrearages, 
which we have reduced by nearly 52 percent since we started. It 
has been a major heroic effort, but a major area of 
accumulation in this year has been in these looseleaf services. 
It is obviously just a basic duty in serving the Congress and 
the government more broadly as the place of reference for all 
questions, on international law, being the largest 
international law library in the world. We must keep that up to 
date. That is just simply human work that has to be done, and 
we are understaffed to do it.
    Mr. Taylor. I know, Dr. Billington, from the time I have 
been on the Appropriations Committee, you have worked hard to 
digitize much of the collection of the Library of Congress. One 
of the things that I have been most encouraged about is your 
administration's effort to spread that knowledge throughout the 
U.S. Because as long as it is just in the Library of Congress, 
the whole citizenry doesn't get the end result of the wonderful 
work you all are doing.
    Specifically in the areas that are for teachers and 
students, what are you doing to emanate that information out, 
and do you have a plan that you put together that you could 
submit to this Congress to help you in that area?

                          Digital Access Plans

    Dr. Billington. That really is crucial to the future. We 
have opened up a whole new vista with this American Memory 
National Digital Library. We want to sustain it because it has 
been proven to be of enormous value particularly for 
educational use K through 12.
    We want to expand this. We have brought in 21 other 
institutions. We have raised private money to help, 21 other 
institutions also add their resources from all over the 
country--small institutions, big institutions, and we will add 
another 10 probably in the next year which will be the third 
annual competition. We want to continue our cooperative efforts 
to enrich these resources. We want to find other ways to make 
our collections usable at the local level.
    Now, key to that is a series of teachers' institutes we 
have conducted. We have established a network of teachers who 
have some experience with this, but we really need to work more 
with school systems at the local level and with institutions 
that train teachers. We need to develop a workable model.
    The great thing about this material is that it tells the 
story of America through an interactive technique to stimulate 
creativity in people everywhere, in the most remote rural area, 
or in places that don't have access to the great repositories 
of our country. It also presents materials in a user-friendly 
way with a lot of on-line teaching material from our teachers' 
institutes.
    But, we really need to work with districts, to get a whole 
panoply of people involved. We have got something that goes 
direct to the kids. We have a usable library here that is great 
for scholars, but in between is the whole world of teachers and 
teacher training and local school districts with which we don't 
have a natural communication.
    We need to develop some models to make sure that there is a 
human resource at the other end which we can work with in the 
districts and communities.
    So, I think that is a very important frontier, and we hope 
to develop some models that will be useful all over the country 
after being tested in depth in some local communities.
    Mr. Taylor. I appreciate that. I hope we can develop that 
as the session moves on. I think the next century is a 
knowledge century, and I think the Library is going to play 
such an important part in it, if we can find efficient ways to 
disseminate this knowledge to our young people who will be 
utilizing it, because it is wealth, and how we create and 
expand that wealth is the important function, I think, of 
government.
    Dr. Billington. We think, Mr. Chairman, that it is also 
very important for our bicentennial celebration, because the 
basic principle, the original Jeffersonian idea behind the 
creation of the Library of Congress and our open access to 
knowledge, is that more people should get more access to more 
knowledge and information so that they can use it in more ways 
in our country; that we are going to add without subtracting; 
that we are going to open up more and more possibilities.
    We are very excited about this digital material, but the 
digital material is ultimately no better than the teachers and 
the people at the other end of the connection who can help, 
because it is an electronic hook to attract an audiovisual 
generation back into reading and thinking and getting theminto 
our system. So we are very excited about this.
    We would look forward to working with you and other Members 
of Congress on this very much.

                            Copyright Issues

    Mr. Pastor. One more question. Can you explain the need for 
the $1.1 million increase for the copyright legislation 
support?
    Dr. Billington. I think we ought to get the Register of 
Copyrights. It has been a very, very busy year for copyright, 
Mr. Chairman. Our Register has been conducting all kinds of 
studies for the Congress right now for other committees.
    Ms. Peters. Thank you. We have a request that is based on 
three various components. One is related to what you have heard 
from the Library, which is we have to become more able to work 
with the digital materials, and we are doing that; our effort 
is named CORDS, the Electronic Copyright Registration, 
Recordation and Deposit System with respect to our $1.1 million 
workload increase, we have requested one additional person who 
would be working as an automation specialist. We also requested 
authority to spend money for digital storage space, i.e., 
electronic bookshelves. So there is $70,000 to build that 
storage.
    The second part has to do with totally reengineering our 
processes, and we need a reengineering study that is estimated 
to cost $400,000. We need a person to head our reengineering 
efforts (a GS-15). It will be an appointment for a three year 
term. There are some automation costs that are also involved.
    The third part concerns our huge backlog of applicants' 
claims waiting to be registered. It is 125,000. It should be 
30,000. We have only 80 percent of the level of staff that we 
had in 1993. So we have included eight additional GS-7 
examiners in our request.
    Finally, government agencies are looking to recover more of 
their costs. We store materials at a Federal record center; for 
the first time it is asking to be reimbursed. We are seeking 
authority to pay that bill. This will be offset by the fees 
that we collect, so we are seeking authority to spend money for 
this purpose.
    Mr. Pastor. One follow-up question. In this synopsis of the 
CORDS review, it talks about higher copyright fee receipts. 
What does that mean?
    Ms. Peters. Congress, in 1997, passed a law that authorized 
the Copyright Office to set fees. Up to that point, it was 
Congress that set the fees. The law provides for the recovery 
of reasonable costs. However, the fees must be fair, must be 
equitable, and must take into consideration the objectives of 
the copyright system, which are, in part, to obtain the books, 
motion pictures and sound recordings, etc., for the Library of 
Congress' collections.
    We have just completed a long period of study, held public 
hearings, solicited public comment and met with everybody. We 
delivered to Congress our proposed fee schedule on February 
1st, with the hope that it would approve it. However Congress 
has 120 days to disapprove it.
    Mr. Pastor. When you say Congress, is that six committees 
or one committee?
    Ms. Peters. Basically Congress as a whole. Our oversight 
committee is the Judiciary Committee. We delivered our report 
to the Speaker of the House and the President of the Senate and 
then to all members of our oversight committee. The way the law 
is worded is: if there is no law disapproving the fees within 
120 days, then they can take effect.
    So we anticipate, as a result of this fee increase, an 
additional $4.8 million. The amount that we are asking for to 
improve our system, however, is about $2 million. So half of 
the increase would go back to Treasury, and half would help us 
do the work that Congress is expecting us to do.
    Mr. Pastor. And the people who obviously need to copyright, 
they are not yelling and screaming that it is getting too high?
    Ms. Peters. Actually, they did yell and scream. We met with 
every group--no one ever says, you need to increase your fees.
    Mr. Pastor. Right, but they are not going to be lobbying 
for a law here to deny your increase?
    Ms. Peters. We originally proposed a $45 basic fee. Our 
recommended fee is only $30, and many people are breathing a 
sigh of relief that it is only a 50 percent increase and not a 
higher increase.
    You might be visited by authors, but I think we have done a 
very good job in balancing the equities here.
    Mr. Pastor. Thank you, Mr. Chairman.
    [A question from Chairman Taylor and response follow:]
                            Copyright Office
    Question. Does your statutory authority allow registration receipts 
to be used for capital expenditures, such as buildings? You may want to 
research that question and provide a detailed explanation in the 
record.
    Response. Yes, the Law allows recovery of reasonable costs for 
copyright services, which include the cost of storage (rental or 
construction of facilities). However, when the Office conducted its 
cost study, it did not consider cost for building a storage facility at 
Fort Meade, and these costs were consequently not included in the cost 
recovery model forwarded to the Congress.
    After forwarding a proposed fee schedule to Congress, the Copyright 
Office determined that the cost of building Copyright storage 
facilities at Fort Meade were estimated at a minimum in the range of $4 
million to $5 million. More accurate data will not be available until a 
building design study is completed with the Architect of the Capitol. 
If the Copyright Office were to recover from fees the cost of building 
a facility at Fort Meade, the basic registration fee would increase an 
additional $10 to a $40 level.
    In conducting the Copyright cost study in fiscal 1998, which was 
utilized in setting fees, storage costs were classified as support 
provided by other federal agencies. In determining the proposed fees, 
it was decided to exclude support costs because of policy 
considerations. These considerations include setting fees that are 
fair, equitable and support the objectives of the copyright system. 
Fulfilling requirement prevented the Office from recovering even the 
full direct Copyright costs. Recovering these additional support costs 
would increase the fees to such an extend that they would drive down 
the demand for services. Thus, greatly diminishing the deposits 
transferred to the Library for its collections and exchange programs 
and severely undermining the registration system.

    Mr. Taylor. Mr. Wamp.
    Mr. Wamp. No.
    Mr. Taylor. Mr. Peterson.
    Mr. Peterson. Nothing.
    Mr. Taylor. Doctor, do you have any other statements that 
you would like to add?
    Dr. Billington. No. I would just be happy to respond to any 
further questions. We might want to extend some of the answers 
perhaps.
    Mr. Taylor. Certainly. We appreciate your appearance today 
and look forward to working with you as the year goes on. Thank 
you very much for being here.
    Ms. Waters is here today to make a statement. Do you have 
any questions of the Library?

                    Cook vs. The Library of Congress

    Ms. Waters. Yes. Mr. Chairman, first let me just thank you 
for being gracious enough to allow me to come in here without 
notice or without any real discussion with staff.
    I have been working on what I consider to be a very serious 
problem, and I was hopeful that prior to the Library of 
Congress' presentation here today the court would have made a 
decision, except that there has been a delay in the court 
proceedings and I don't know why that happened.
    Let me describe it to you. I think that you, working with 
Dr. Billington, can get this behind us.
    I had one of the most heart-wrenching meetings I have ever 
had with employees of the Library of Congress, where they told 
me at the point of tears, and with great agony, about some of 
the practices at the Library of Congress. I am very disturbed 
about this, because the Library of Congress is such a wonderful 
resource for this Nation and for all of us that we should not 
have this blight on the history of it, and we need to get it 
behind us.
    You are all aware of the Howard Cook versus the James 
Billington case, versus James Billington, Library of Congress, 
I suppose. It is a discrimination case, and it is ugly.
    It started back in 1982, and an agreement, as I understand, 
was reached in 1992, and the Library of Congress admitted that 
it had discriminated and settled in 1994 and paid out $8.5 
million and agreed to stop certain practices.
    But to date the practices have not stopped, and the court 
asked the Library to submit a plan of action, I believe, for 
lack of a better description, and to comply and they are simply 
out of compliance. And I am embarrassed that we have got to go 
back before the court to talk about this compliance and will be 
back in court in a matter of days; would have been in court on 
February 5th if this delay had not taken place.
    I don't want to take up the Library's time or your time or 
my time in trying to say, why can't we comply with the court. I 
do intend to go to court on this case, which is going to create 
a lot more tension, a lot more public attention to it, but I 
thought since I discovered they were here today, that you could 
help, Mr. Chairman. You could help by helping to get some 
language along with the appropriation that would say, just 
comply.
    We have worked on some language that may or may not be all 
that is needed, but I wish that you would give some thought to 
this and see if Dr. Billington could agree that language would 
be helpful and that it would go a long way toward the 
settlement of this; that we could get this done, because I want 
to get out of it, but I don't want to have to pass by employees 
who are telling me time and time again about the problems and 
do nothing about it. I would be an irresponsible leader if I 
did that.
    So I come today to make the case and ask for your 
assistance and your help.
    Mr. Taylor. Well, certainly, as a Member of Congress and 
someone that I respect and we have worked together in other 
areas, I would always honor your request. I am always loath to 
get involved with court cases because they have not appointed 
me to the Supreme Court or even the Superior Court here in 
D.C., although I was angling for a job my last 2 years in D.C. 
But we certainly would work with you and the Library any way we 
can.
    Dr. Billington, do you have any statement?
    Dr. Billington. Well, I think we will supply a complete 
answer for the record. I believe we are in compliance. I don't 
think we have had communication from you about these concerns 
before now, but we are anxious to supply you with a complete 
answer, as well as a complete answer for the record.
    [The information follows:]
    [Clerk's note.--The Library of Congress supplied the 
following information for the record.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Dr. Billington. We have produced a very substantial study 
indicating the progress that has been made in these areas of 
concern. I might defer to General Scott for any further 
comment.
    General Scott. Yes, sir. I will just say that in the 
interest of time that we will respond completely. I would also 
say that the two issues that the court is currently looking at 
have to do with the way the Library validates its positions and 
also how the Library uses statistical formulas to determine 
whether there is discrimination or not. Those are the two 
issues that both parties requested an extension about because 
we were not able to make sufficient progress to come to the 
judge. But those are the two issues.
    The other issues that Congresswoman Waters addresses, we 
would be happy to give you a complete report on.
    Mr. Taylor. We don't want to get into trying this case in 
this committee, but we would be glad to work with you. Thank 
you, Ms. Waters.
    Ms. Waters. Thank you, Mr. Chairman. Certainly we would not 
want you to serve as the court in this matter. Having the power 
of the appropriations status that you have oftentimes goes a 
long ways toward helping to urge people to solve problems, and 
that is all that was intended here today.
    Again, I would like to reiterate that without this kind of 
gentle nudging and assistance by Members of Congress, what we 
have is Members of Congress who get involved at another level 
that creates a lot of public attention at a time when the 
Members of this Congress are not wanting to have fingers 
pointed about racism and discrimination. So I would urge you to 
help solve this case so that we don't have to get further 
involved in it.
    Dr. Billington. Well, we certainly are actively involved in 
these two issues that General Scott had mentioned, and we will 
respond in full, and we will be anxious to know the individual 
cases that concern you. We can talk about them.
    Ms. Waters. I will be at the court case. I will be at the 
court hearing at the time that you present the plan that is 
long awaited and hope that somehow a resolution will be done 
there. If not, I will have to continue to work on it. Thank you 
very much.
    Mr. Taylor. Thank you very much.
    Ms. Waters. Thank you very much, Mr. Chairman. I do 
appreciate it.
    Mr. Taylor. You are welcome.
    [Questions from Chairman Taylor and responses follow:]

                        Reprogramming Documents

    Question. For the record, inset all reprogramming 
documents, and any other Committee approval actions.
    Answer. These items are attached.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. We appreciate the job that you have, and with 
all the requests and all the three unions you work with and the 
multitude of employee problems and still do an outstanding job 
with the Library, and thank you very much for being here.
    For the record, we will insert all the program documents 
and any other committee-approved actions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [A question from Chairman Taylor and response follow:]
                Blind and Physically Handicapped Program
    Question. Please describe the efforts of the Library of Congress in 
providing reading material for blind and physically handicapped 
individuals.
    Response. In accordance with the authority provided in 2 U.S.C. 
135(a), 135(b) and 135(c), the National Library Service for the Blind 
and Physically Handicapped (NLS), Library of Congress, administers the 
national program to provide free reading materials for blind and 
physically handicapped adults, children, and U.S. citizens living 
abroad. These materials consist of books, magazines, music scores and 
texts produced in braille, in audio, and other suitable formats.
    Under a special provision of the U.S. copyright law and with the 
permission of authors and publishers of works not covered by this 
provision, NLS selects books on the basis of their appeal to people who 
have wide range of interests. These include bestsellers, biographies, 
fiction, and nonfiction items. Each book and magazine is produced full-
length in braille or on audio cassettes. In fiscal year 1998, NLS 
produced more than 2,000 books and more than 70 magazines on audio disc 
and cassette and in braille. NLS develops, produces, and lends playback 
equipment free. Talking-book machines play disc books and magazines 
recorded at 8 rpm and 16 rpm; cassette machines are designed to play 
NLS cassettes recorded at 15/16 ips on 4 tracks, as well as standard 
cassettes.
    This free library program of braille and recorded materials for 
blind and physically handicapped is circulated to eligible borrowers 
through a cooperating network of 140 regional and sub-regional (local) 
libraries in every state of the Union and U.S. territories. Braille or 
recorded discs or cassette books and playback equipment are distributed 
to network libraries. In 1998 regional libraries circulated more than 
22,500,000 braille and audio books to a readership of 769,000. Readers 
are informed of new books added to the collection through two bimonthly 
publications Braille Book Review and Talking Book Topics. Bibliographic 
information is shared with cooperating state and local network 
libraries in CD-ROM and in on-line distribution. The Union Catalog of 
Special Format books is accessible and searchable on the Internet.
    NLS, established by an act of Congress in 1931, is now exploring 
the change to a digital audio format that will be necessary within 
seven to ten years. Studies are underway to identify technical, 
logistical, and financial requirements.
    Question. The appropriations Bill for FY97 included a change in the 
Copyright Act affecting the Books for the Blind program. Please explain 
the impact of this change and whether additional improvements might be 
possible due to the increased use of electronic publishing.
    Response. Prior to passage of the copyright amendment of 1996, each 
book selected for the National Library Service for the Blind and 
Physically Handicapped (NLS) program required permission from the 
copyright holder(s) before it could be reproduced in special formats 
for the blind. The average length of time required to obtain permission 
was six months. With the exception of foreign publications and dramatic 
literary works, which are not covered by the amendment, this period has 
been reduced to virtually zero. The time required to produce a braille 
or recorded version of a book from start to finish has gone from 
sixteen to nine months. The total time it now takes to produce high 
priority titles, for example bestsellers, is now two months.
    The National Library Service for the Blind and Physically 
Handicapped, Library of Congress is heading the development of a 
standard for the next generation of talking books under the auspices of 
the National Information Standards Organization. A key aspect of the 
system envisioned is the extensive use of electronic files to generate 
audio and braille books in a more efficient and less costly manner than 
currently. NLS has conducted preliminary conversations with the 
Copyright Office and the leading blindness organization to investigate 
methods of enhancing access to publishers' electronic files.

    [Questions from Mr. Hoyer and responses follow:]
                          Law Library Services
    Question. I understand that whenever the House or Senate is in 
session the Law Library is open and available to Members. Please 
provide the following information about this service: the precise 
nature of the service; its estimated annual cost and the number of 
staff (FTEs) required to provide it; the total number of inquiries 
received from Members or committees of each House in the last two 
fiscal years; and the percentage of those inquiries received before or 
after the Law Library's normal business hours. Please also explain 
whether the Law Library is required by law or other directive to remain 
open whenever either House is in session.
    Response. The Law Library Reading Room offers a full range of legal 
research support and collection services to Members of Congress, 
committees, and their staff: Monday through Friday--8:30 am to 9:30 pm 
(except Federal holidays); Saturday--8:30 am to 5:00 pm. Pursuant to 
statute codified at 2 U.S.C. Sec. 138, the Law Library also offers 
reference assistance after hours, whenever either chamber of Congress 
is in session, although this service is rarely utilized.
    Of the 3,913 legal research transactions completed for Congress in 
fiscal 1997, the Law Library Reading Room staff responded to one 
inquiry after core service hours (0.02% of the total). In fiscal 1998, 
the Law Library completed 3,808 legal research transactions, none of 
which were received after core service hours. In the first four months 
of fiscal 1999, the Law Library responded to three requests from 
Congress after-hours (during impeachment-related deliberations). The 
Law Library also accommodated, in this same time period, a request of 
the House Judiciary Chairman to remain open additional hours in order 
to ensure access by the Committee (majority and minority Members/staff) 
to legal collections and research support during its investigation and 
subsequent drafting of articles of impeachment. (The figures cited for 
transactions completed, 3,913 and 3,808, do not include the full range 
of legal information services provided by and through the Law Library 
Reading Room, such as the weekly congressional staff briefings, 
congressional staff attending the Congressional Legal Instructional 
Program seminars, and Members and staff who use the Law Library Reading 
Room without customized assistance.)
    Existing staff provide Reading Room coverage whenever either 
chamber remains in session beyond normal closing hours, and are 
compensated with either overtime pay or compensatory time. No 
additional staff is employed to provide after-hours service.
    Pursuant to the statutory mandate, in fiscal 1997 the Law Library 
Reading Room provided 104 additional hours of telephone reference 
service after normal hours, resulting in personnel costs of $2,257. In 
fiscal year 1998, it provided an additional 136 hours of telephone 
reference service, resulting in personnel costs of $3,026.
                  Vacant Space in St. Cecilia's School
    Question. What plans do you have for the vacant space in the former 
St. Cecelia's School on East Capitol Street, which houses your child-
care center? Could the House put that space to good use?
    Response. In addition to the Child Care Center space on the ground 
floor, the Library continues to need one of the two remaining floors 
(approximately 5,200 sq. ft.). Upon completion of renovation, the 
library would use the space for the following purposes: (1) the need 
for off-site training or planning sessions, currently moved to hotel 
meeting rooms or retreat campuses (at additional expense); (2) ad hoc 
special Library task forces or special initiatives (such as the 
Integrated Library System Program Officer), currently carved out of 
space for planned future assignment, thereby delaying final occupancy 
of our renovated John Adams and Thomas Jefferson Buildings; and (3) 
special requests from the Congress (Members and committees) to provide 
space to ad hoc or on-going offices or commissions (such as the Office 
of Compliance, the Medicare Commission and the Year 2000 group), 
currently carved out of space for planned future assignment, thereby 
delaying final occupancy of our renovated John Adams and Thomas 
Jefferson buildings.
    The remaining space is available for alternative uses by the 
Congress.
                   Shelving Books by Subject Category
    Question. It has been suggested that the Library plans to stop 
shelving certain books by subject categories, and to shelve them 
instead by the height of the volumes and in the order in which they 
arrive. Is that correct? If so, why?
    Response. It is not correct that the Library plans to stop shelving 
books by subject categories except at the secondary storage facility at 
Ft. Meade, where materials will be bar-coded and stored by size in 
specially designed boxes.
    The Library is currently experiencing a severe space shortage in 
its Capitol Hill collections storage areas, and formed a task group to 
review shelving options to ensure that we are making the most 
efficient, cost-effective use of our existing space, consistent with 
the needs of our researchers and staff. The group explored a number of 
ways to ensure the most cost-effective and efficient use of space, both 
short-term and long-term. Some of the suggestions arising from the 
Group's work have already been implemented.
    Exploration of other shelving options has been put in abeyance 
pending completion of the first off-site storage module at Ft. Meade, 
acquisition and implementation of an Integrated Library System, and 
development of a facility at Culpeper, Va. for motion picture and 
recorded sound collections. These three major initiatives are expected 
to solve the Library's collections management needs for the foreseeable 
future.
                          Transit-Pass Program
    Question. Why doesn't the Library participate in the Transit-Pass 
Program?
    Response. The Library requested funding ($504,000) from the 
Congress to participate in the Transit-Pass Program as part of the 
fiscal year 1993 budget. The Congress did not fund the Library's 
request. Since that time, a new law was passed that provides agencies 
with a lower cost option to implement this program. As a result, the 
Library has been evaluating use of the ``pretax'' portion of the 
program enacted by the Transportation Equity Act of the 21st Century 
(TEA-21) effective June 1998. While the ``pre-tax option costs the 
agency significantly less, there would still be a staff requirement to 
manage and monitor the program; similar positions in other Federal 
agencies are staffed at the GS-9 level.
    Due to budgetary constraints, the Library has not implemented the 
$65.00 per month transit benefit, which we estimate would cost more 
than $1.5 million a year. While the Library would welcome additional 
funding to implement the full program, an unfunded expenditure would 
require a further reduction in staff. The Library's actual full-time 
equivalent positions have declined by 13% since 1992, and we do not 
support a further reduction in staff.
                                      Wednesday, February 10, 1999.

                      CONGRESSIONAL BUDGET OFFICE

                               WITNESSES

DAN CRIPPEN, DIRECTOR
BARRY ANDERSON, DEPUTY DIRECTOR
POLLY E. HODGES, BUDGET AND FINANCE OFFICER
    Mr. Taylor. We will now take up the fiscal year 2000 budget 
request of the Congressional Budget Office.
    We have Mr. Dan Crippen, who was just appointed as the new 
CBO Director last Wednesday, February 3rd.
    Congratulations. We welcome you.
    We also have Mr. Barry Anderson, whom Mr. Crippen has named 
as his Deputy Director.
    Before we proceed, let me indicate the budget request. CBO 
is requesting $26.8 million for fiscal year 2000. No staffing 
increases are requested.
    Mr. Crippen, do you want to tell us something about 
yourself since you just became appointed and perhaps tell 
something about your background and your staff, if you would 
like?
    Mr. Crippen. Very well. I will introduce my deputy in a 
moment.
    Thank you, Mr. Chairman. As you noted, this is our fourth 
day on the job, so the most important thing to know about us 
for the purpose of this meeting is that we are the new kids on 
the block.
    I have been in and out of Washington for 20-odd years and 
worked on budgets most of that time, both in and out of 
government. So when I had the opportunity to work at the 
Congressional Budget Office (CBO) it was very much in line with 
my interests and experience. And because Barry was willing to 
come with me, the opportunity was even more attractive. Barry 
knows a whole lot about these things, and as he will tell you, 
he has been working on this for as long as I have.
    We are anxious to get under way. We are just now getting 
under way and are trying to figure out--beyond where the 
cafeteria is--what else goes on. But our able budget officer, 
Polly, has brought us pretty much up to speed on the request. 
Obviously, we are prepared to answer--if not today, in the 
immediate future--any questions you have. Thank you for having 
us. It is good to be here.
    [The information follows:]
                 Biographical Sketch for Dan L. Crippen
    Dan L. Crippen is the fifth director of the Congressional Budget 
Office. Mr. Crippen, who was appointed in February 1999, has served in 
senior positions in the White House and the U.S. Senate and is a 
specialist in issues relating to the federal budget, health care, 
retirement, trade, and telecommunications.
    From 1987 to 1989, he served as the President's adviser on all 
issues relating to domestic policy, including the preparation and 
presentation of the federal budget. In the Senate, he served as chief 
counsel and economic policy adviser to the Senate Majority Leader from 
1981 to 1985, working on major tax and budget bills as well as other 
legislation.
    Mr. Crippen also has substantial experience in the private sector. 
Before joining CBO, he was a principal with Washington Counsel, a 
consulting firm. He has also served as executive director of the 
Merrill Lynch International Advisory Council and as senior vice 
president of the Duberstein Group. Mr. Crippen has a Ph.D. in public 
finance.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Anderson. I just want to say how happy I am to return 
to the legislative branch. I started my career in the General 
Accounting Office and worked there for a number of years before 
becoming a budgeteer, as I have been called, and am glad to 
have taken that name at the Office of Management and Budget 
(OMB) for many years. And I am very happy to be back in the 
legislative branch.
    [The information follows:]
               Biographical Sketch for Barry B. Anderson
    Barry B. Anderson has had a lengthy career in the federal 
government. From 1988 to 1998, he was the senior career official at the 
Office of Management and Budget, where he directed the analysis behind 
and the production of the President's budget proposals. From 1980 to 
1988, he held various management and analytic positions at OMB, and 
from 1972 to 1980, he was an economist with the General Accounting 
Office.
    Before his appointment as Deputy Director of CBO in February 1999, 
he was a vice president with the Jefferson Consulting Group. Mr. 
Anderson has a B.S. from the University of Illinois, an M.B.A. from 
University of Washington at Seattle, and has done postgraduate work in 
econometrics at George Washington University.

    Mr. Taylor. Your prepared statement has been entered into 
the record.
    Would you have any comments you want to make in summarizing 
or any other statement or would you like to go on into the 
questions?
    Mr. Crippen. Go on into the questions.

                       Unfunded Mandates Workload

    Mr. Taylor. All right. In 1995, the Unfunded Mandates 
Reform Act imposed three additional duties on CBO. They 
included cost statements for reported legislation that impose 
mandates on, one, State and local governments; two, the private 
sector; and, three, studies of legislative proposals containing 
Federal mandates.
    In practice, how do you differentiate between studies of 
proposals and cost statements on reported legislation? They 
seem to be the same thing as it relates to the expertise of the 
agency.
    Mr. Crippen. Mr. Chairman, the unfunded mandates 
requirements, as you have said, are relatively new. We have 
done them for about three years now. As I understand it, we 
dedicate approximately 17 FTEs a year to doing the unfunded 
mandates assessments, at a cost of just under $2 million. We do 
approximately 500 of those assessments a year.
    When we are asked to score a bill, we also almost always 
review it for unfunded mandates. So the number of mandates 
assessments may be different from the number of bills, 
obviously, because mandates estimates are an assessment of the 
Federal budgetary impact on either State or local governments 
or businesses; and the legislation pending before the House 
strengthens the requirements, particularly in the private-
sector analysis.
    So the difference in requirements for the new legislation 
is not substantial in that we already do an analysis of each 
bill to see if it meets the threshold test of $100 million or 
$50 million. So we don't anticipate that the new legislation 
will require a lot more effort, but we already put in a fair 
amount of effort on the mandates estimate.
    Mr. Taylor. Has the Congress cut back on introducing new 
mandates to the private sector and State and local governments?
    Mr. Crippen. We can't really tell. We don't have a good way 
of knowing for sure, but our sense is that there is certainly 
more attention being paid to the issue. I am told we do a lot 
of consulting with members and staff before they introduce 
legislation, or even after they do, about what the impacts 
might or might not be and how we would view them. So the 
Congress is certainly paying closer attention than we were 
aware of in the past, but we don't have a tracking system that 
would tell you whether there were more or fewer mandates. We 
look at bills as they come out of committee and as we are 
requested to do so. But our sense certainly is that a lot more 
attention is being paid to the issue.
    Mr. Taylor. Could you provide for the record a list of all 
unfunded mandate studies or statements in fiscal year 1998?
    Mr. Crippen. Yes, sir. I think we brought those with us.
    Mr. Taylor. Okay. We would like to have that for the 
record.
    [The information follows:]
                       Unfunded Mandates Workload
    Question. For the record, provide a list of all the unfunded 
mandate studies or statements done in fiscal year 1998, and this year 
to date.
    Answer. In all, the Congressional Budget Office reviewed more than 
500 bills and other legislative proposals in calendar year 1998 to 
determine whether they contained federal mandates. Most of those 
reviews occur when bills are ordered reported from authorizing 
committees. (Cost estimates are prepared and reported by legislative 
session.) About 12 percent (64 bills) had intergovernmental mandates, 
approximately 1 percent (six bills) had mandates whose costs exceeded 
the threshold of $50 million a year, and another 1 percent (seven 
bills) had costs that could not be determined. CBO also identified 
private-sector mandates in about 14 percent (75 bills) of the bills and 
amendments it examined; more than 3 percent (18 bills) had costs over 
the $100 million threshold for such mandates, and nearly 2 percent 
(nine bills) had costs that could not be determined. Those percentages 
are similar to CBO's experience in the previous two years. The attached 
table summarizes the number of bills and legislative proposals reviewed 
each year for mandates. Tables listing the bills in 1998 containing 
intergovernmental and private-sector mandates are also attached.
    To date in calendar year 1999, CBO has reviewed 13 bills and 
legislative proposals to determine whether they contain mandates. None 
of those bills or proposals contained an intergovernmental mandate. 
Only one, S. 262, the Miscellaneous Trade and Technical Corrections Act 
of 1999, contained a private-sector mandate. That private-sector 
mandate, however, would not impose costs exceeding the $100 million 
threshold.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       Accuracy of CBO Estimates

    Mr. Taylor. Last year CBO did an analysis of estimating 
accuracy over the past several years. Can you summarize your 
findings?
    Mr. Crippen. Barry and I are still looking at some of those 
analyses. Clearly, in the past couple of years, the estimates 
have been a little farther off the mark than in the past. But I 
would say that based on my look at the accuracy of CBO's 
estimates from the outside and on what little we have looked at 
it so far in the past four days, the estimates were not off 
appreciably more than those of others, including OMB, where 
Barry has been, and some of the outside estimators. But, 
clearly, we need to know where we are wrong and why, and that 
is one of the first things we have started looking at since we 
arrived at CBO.
    Now, there has already been some work done. I don't want to 
leave the impression that nobody is paying attention to what 
they have. I am not comfortable enough, though, to be able to 
tell you today whether we know or think we know exactly why we 
were off. Clearly, we were off on revenue forecasts the past 
two or three years by underforecasting, and where we are 
normally off by 1 percent or 2 percent, we were off by 4 
percent and 5 percent. One of the first things Barry and I are 
looking at is why we think we were off and what we can do to 
improve those estimates.
    It is my view, Mr. Chairman, that our business largely is 
to provide the Congress with estimates. Our first priority is 
therefore to make sure we can provide you with the best 
estimates possible and, whenever the estimates are not right, 
to find out why and see what we can do to improve those 
techniques. It is a very important matter for us.
    Mr. Taylor. Do you have any suggestions how you can improve 
it or are you still studying it?
    Mr. Crippen. I am still thinking about it and studying it. 
Barry knows a lot more about estimating than I do.
    Mr. Anderson. In the analysis that I have done, not only 
since I have been at CBO but also over the many years I was at 
OMB, the first thing one learns is humility. By that I mean 
that estimates of the amount of Federal Government transactions 
are not easy to make. Nor are estimates of the amount of the 
growth in the economy easy. That is why there are so many firms 
that try to do it and charge relatively large amounts of money 
to do it but still come out wrong. In fact, as Dan mentioned, 
one of our first acts at CBO is to go back and compare 
ourselves not just with OMB or other government sources but 
also with the private sector.
    No, I don't have any easy way to do it. We have been 
talking to the staff, getting to know them well. They are 
looking at a variety of factors that we would look at. Most 
important, we want to talk to our group of economic advisers. 
We have not yet met with them, but we have about 20 or so 
advisers and want to explore their views about why we missed or 
they missed in the past.
    Mr. Crippen. This is a joint effort as well. We are 
required by statute to take revenue estimates that come from 
the Joint Committee on Taxation. So there is a combined effort 
here between our folks and their folks as to how we view 
legislation and the baseline. After we have done our analysis, 
we need to interact, cooperate, and work with the Joint 
Committee on Taxation to see if we can together do a better 
job.
    Mr. Taylor. Your studies are too large to enter into the 
record, but could you provide us with a summary perhaps of your 
studies that we could put into our record?
    Mr. Crippen. Absolutely.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            CBO's Appropriation Request for Fiscal Year 2000

    Mr. Taylor. Your budget is up by 4.5 percent, an increase 
of $1,150,000. The nation's budget is almost $1.8 trillion. It 
is almost not worth mentioning.
    Mr. Crippen. We are not used to saying million anymore.
    Mr. Taylor. That is right. Us tight folks, we still stumble 
over it.
    What percentage is salary related? I understand a large 
portion of it deals with salary.
    Mr. Crippen. Almost all of the increase--in fact, I think 
all of the increase--is for personnel. The 4.5 percent reflects 
virtually all of that: 4.4 percent is the increase suggested in 
the President's budget for personnel and for salaries. So it is 
almost all personnel, and much of it stems from the projected 
salary increase in the President's budget.
    Mr. Taylor. Is the Federal budget recommending that for all 
Federal employees in that area?
    Mr. Crippen. What they are suggesting is 4.4 percent.
    Mr. Taylor. All across the board?
    Mr. Crippen. Across the board, right.
    Mr. Taylor. Okay. I will have some other questions. I will 
yield to Mr. Pastor.
    Mr. Pastor. I just have a few questions, dealing with 
personnel. What is your authorized personnel allocation in 
terms of FTEs, full-time employees?
    Mr. Crippen. 232.
    Mr. Pastor. You have been around 220, I guess?
    Mr. Crippen. As high as 227 but averaging a little over 
220.
    Mr. Pastor. You don't ask for new positions in this budget?
    Mr. Crippen. No.
    Mr. Pastor. Almost every agency has had a workload 
increase. I am sure you are probably in the same situation. How 
are you able to maintain the increased demand on you and at the 
same time maintain quality of work?
    Mr. Crippen. I think we both have a sense here. I will 
share this answer with Barry.
    From our four days of experience, there certainly is a need 
for some additional help, but we are having difficulty at the 
moment not only finding qualified employees but also retaining 
current staff. We obviously have some slots that are unfilled 
at the moment.
    We intend to be as aggressive as we can, to go out and 
recruit. But finding, for example, Ph.D.s in economics, which 
we use a lot of on one side of the agency, is difficult. We 
aren't very competitive even in the Washington market with the 
International Monetary Fund, World Bank, and others, which are 
essentially unrestricted in many of the salaries they can 
offer. We have a hard time competing, so we have to compete on 
the quality of life and the excitement of going to work, and 
there is a limited pool of people who are willing to do that.
    So part of our dilemma is finding and attracting people, 
into coming to CBO. It is not that we couldn't use some more 
help. We could. So that is our dilemma.
    Part of our request includes an attempt at a modest program 
that would allow us to pay some signing bonuses--a small 
amount--to see if that might help, because, as you know, newly 
minted Ph.D.s, as I was once, come out of graduate school with 
no money, furniture to move and bills to pay, and sometimes 
signing bonuses help get people into their first job.
    Mr. Anderson. The only thing I would add is that although 
we obviously weren't at CBO when the unfunded mandates 
legislation was passed, I believe that the law did add to the 
workload of CBO. There was a commonality in some of the work 
that CBO was doing before that and the unfunded mandates. And, 
in one sense, there was an effort to be efficient--that is, 
taking the people who were already reviewing legislation and 
asking them to now look for something different. There was some 
learning curve in that, I am sure, but nonetheless that effort 
was part of the reason that CBO was able to absorb half of the 
requested increase in staff.
    Mr. Pastor. I saw in the budget we were estimating a 
$100,000 savings by using a different provider rather than 
mainframe? Do you just want to explain that a little bit?
    Mr. Crippen. The House Information Resources, which we have 
been using for most of the mainframe applications, is now 
trying to remove users other than the House of Representatives. 
We are one of the superfluous or additional users that 
initially they wanted to be on their system, but now they would 
rather not service others. We have reached an accommodation 
with the Library of Congress to take some of those services for 
now.
    We still run four mission-critical systems, which relate to 
our budget baseline estimates, on the House computer, and 
eventually we assume we will move those systems as well. But 
the savings you are citing come strictly from changing contract 
terms between the House Information Resources and the Library 
of Congress.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. Hoyer.

                            Dynamic Scoring

    Mr. Hoyer. Thank you.
    Dr. Crippen, was there any discussion on the whole issue of 
dynamic scoring that has been so current with reference to your 
taking this position and your views on the subject?
    Mr. Crippen. In the interview process?
    Mr. Hoyer. Yes.
    Mr. Crippen. There was one conversation in the whole 
process that I had with the current Speaker, Mr. Hastert. He 
asked, essentially, ``What does CBO now do in dynamic 
scoring?'' And we do a lot of things, as you may well know. It 
depends on what you mean by dynamic scoring, of course, but in 
the main it means to me to anticipate behavioral changes 
resulting from changes to a Federal program.
    When it comes to revenues, of course, the Joint Committee 
on Taxation produces the revenue estimates for legislation; and 
so if you were referring to dynamic scoring of revenue 
legislation, we do not do that, in any event. But we do a lot 
of dynamic scoring, and CBO has done dynamic scoring of budget 
resolutions in the aggregate. There have been times that the 
Congress has asked CBO to take the budget resolution and, 
because of a change in policy, provide a new estimate of both 
the economic and budgetary effects resulting from that change.
    That, by the way, is exactly what the Office of Management 
and Budget does every year. The President's budget assumes that 
all of the policies that he or she is proposing are enacted, 
and all of the projections are based on enactment of that 
policy. So they are the most dynamic, if you will, of 
anyestimating procedures.
    Mr. Hoyer. What was the controversy then that existed 
between Dr. O'Neill and the House Budget Committee, for 
instance, on the issue of dynamic scoring, or are you aware of 
it?
    Mr. Crippen. I know there was a controversy. I can't tell 
you precisely what the difference was. I am not sure. Some of 
it had to do, as I recall, with capital gains realizations and 
those kinds of things, which again we don't do. If you are 
talking about a change in current law, those estimates are 
basically with the Joint Committee on Taxation.
    Mr. Hoyer. The concern that some of us have, Doctor, is 
that the projections that some would have you make would make 
it easier to spend more money, either in terms of tax cuts or 
additional expenditures, and would put us therefore at greater 
risk of deficits.
    We have now gone into surplus in terms of the unified 
budget, so some of us have a concern that the CBO estimates 
will somehow be more liberal, if you will, and therefore lead 
us to make determinations that may not be justified by what 
would be perceived as more conservative estimates.
    Do you have any thoughts on what your policy will be in the 
context of what you have described in terms of the joint tax 
committee and what you do?
    Mr. Crippen. Well, in that context, at the moment at least, 
it is hard to see how we would change anything because we have 
a baseline projection in place. If you make changes to that 
baseline for tax purposes, you don't get to see what those 
revenues increases are going to be anyway.
    But, more important, getting to the heart of your question, 
lots of other people, of course, do the same thing we do; it is 
not just the Office of Management and Budget. A number of 
people on Wall Street are very good at this, and a number of 
former staffers around town do their own projections. So we 
can't get too far afield from anybody else in the world without 
your seeing it. So we are constrained. Even if I wanted to be 
crazy, we are effectively constrained by that.
    Equally important, we have a pretty good professional staff 
and a cadre of professionals. When I say a cadre of 
professionals, I mean a group of analysts that is pretty well 
in place. That is not to say that things don't change, but we 
have a pretty good bunch of people who are pretty good at 
making sure we don't stray too far. I think there are some 
natural checks and balances in place, and you will see whether 
anything is changing.

            Problems with Recruiting and Retaining Personnel

    Mr. Hoyer. Doctor, back to the question that was being 
asked by both the Chairman and the Ranking Member on the 
bonuses that you are suggesting. I would be very interested in 
specific examples of either the inability to retain or the 
inability to recruit based upon constraints. If you can't do 
this now, you could do it for the record.
    And then perhaps you could include observations not 
necessarily of yourself but of the personnel officers that were 
involved as to whether or not these were dissimilar from other 
agencies that might have similar problems.
    Now, as you have known, we have grown to 3.6% and we are 
going to go to at least a 4.4%, perhaps a 4.8% pay raise. The 
law requires parity between the military and civilian, which I 
hope to maintain. It appears the military will be 4.8%, which I 
think is appropriate and I would hope is consistent with the 
law that the civilian and military stay at parity, as has been 
the case over the last 5 to 10 years.
    For the record, could you give me those with applications 
not only to your agency but to other agencies who are 
experiencing similar problems?
    But obviously, recruiting is a problem. I don't know, for 
instance, what a top-flight Ph.D. analyst out of one of the 
good schools might demand in the private sector, but I would be 
interested in that comparison as to why we are having trouble 
recruiting because that affects how much we are paying people 
generally.
    Mr. Crippen. Absolutely. I would be happy to.
    As you suggest, Barry and I haven't had enough experience 
to have an instant case in hand, but we will provide you with 
the recent history.
    Mr. Hoyer. Thank you.
    Thank you, Mr. Chairman.
    [Questions from Mr. Hoyer and responses follow:]
        CBO Salaries Compared With Those of Competing Employers
    Question. You have asked for authority to pay employees bonuses as 
part of a plan to improve your ability to attract and retain qualified 
personnel. How out of line is CBO compensation in critical areas 
compared to the salaries the staff you desire can command elsewhere?
    Answer. As illustrated by the examples provided in the next 
question, CBO compensation is often out of line with out competitors at 
all salary levels. For the new Ph.D. we tried to recruit, CBO could 
offer at most $70,000, while the International Monetary Fund is 
offering $90,000. A mid-level analyst was recently hired by the Federal 
Reserve with an offer that included a 24 percent increase in salary and 
close to $20,000 in relocation expenses. And a senior analyst recently 
left us to work at the Urban Institute for a 10 percent salary 
increase.
    Question. Can you offer a recent example of CBO losing exceptional 
personnel, or failing to attract desired personnel, and where the 
personnel went instead?
    Answer. Recent examples are as follows:
                               Recruiting
    We recently ended recruitment efforts with a candidate who will 
complete here Ph.D. in economics at Northwestern University later this 
summer. She received her B.A. in economics with honors from Harvard and 
has twice won the teaching assistant award offered by Northwestern's 
economics department. She was described by her dissertation adviser as 
``the best student that he has worked with in his seven years'' at 
Northwestern.
    Our starting salary for new Ph.D.s is now $63,000 to $67,000 per 
year and, for an outstanding candidate, as high as $70,000 per year. 
This candidate is expecting an offer of $90,000 per year from the 
International Monetary Fund.
                               Retention
    CBO lost one of its senior analysts in December 1998 to RAND. This 
outstanding staff member had a Ph.D. from the Massachusetts Institute 
of Technology and had been with CBO for 13 years, earning a top salary 
of over $100,000. RAND recruited her with a $5,000 increase, a $5,000 
bonus, and the promise of a salary review in one year.
    A principal analyst left CBO in mid-1998 to work for the Federal 
Reserve Board for a $15,000 increase in salary plus two house-hunting 
visits and relocation expenses (estimated at $20,000). An economist 
with a Ph.D. from the University of Pennsylvania, had been with CBO for 
three years and was earning $62,000 per year.
    A senior policy analyst with a Ph.D. and 12 years of experience 
(five years at CBO) has just accepted a job at the Urban Institute that 
provides a 10 percent salary increase.

    Mr. Taylor. On the question about bonuses, how much money 
do you intend to spend on the bonuses? Do you have any idea?
    Mr. Crippen. Barry may remember. Was it 145?
    Mr. Anderson. $180,000.
    Mr. Crippen. That is both for bonuses and potentially for 
paying a signing bonus as well. So it is performance bonuses as 
well as signing bonuses.
    Mr. Taylor. And does OMB or CRS or GAO have those 
procedures?
    Mr. Crippen. They do. In fact, we can give them to you for 
the record, a wrap-up of what each of the other agencies does 
in terms of amounts and percentage of salary and those kinds of 
things.
    [Questions from Chairman Taylor and responses follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Anderson. We have been told--and, again, I can use any 
experience looking at it from other perspectives--that it does 
make a difference, that CBO is at a competitive disadvantage 
against agencies who employ similar kinds of people, in part 
because of the bonuses.
    Mr. Hoyer. Mr. Chairman, would you yield one second?
    Mr. Taylor. Certainly.
    Mr. Hoyer. One of the problems that we have, and we have 
had, for instance, in the Treasury Postal Committee, dealing 
with technical personnel in terms of analysis of evidence 
between ATF and FBI where differentials were made specifically 
for the purposes of keeping or recruiting highly technical 
personnel, and what happened was Justice adopted it and ATF's 
personnel started to leave to go to FBI because of the 
differential.
    You just referenced the problem. It is a problem when we 
adopt personnel policies giving the one agency the ability to 
give a benefit that other agencies don't have, and then what 
happens is you are robbing Peter to pay Paul because one agency 
loses their best people to another agency because they can't 
compete either in retention bonuses or recruiting bonuses.
    So it is really a governmentwide problem, and it is to some 
degree tough to look at it discretely. Because when you affect 
the discrete agency you impact the other agencies in terms of 
their ability to recruit or retain, keep their personnel from 
an intergovernmental transfer, looking for the benefit that is 
not available to their agency.
    Mr. Crippen. As you just suggested, too, it is the best 
people, of course--those to whom you would want to give a 
bonus--that are attracted away from you. So you put your best 
people at risk.
    Mr. Taylor. What is your proposal on the salary levels for 
the director and the deputy director?
    Mr. Crippen. We were told after we arrived at CBO that the 
Senate Budget Committee has, in a bill that Senator Domenici 
has introduced on budget process reform, generously offered to 
raise the levels of both of our positions by one step. I 
frankly haven't looked at that issue since we have been at CBO, 
but I am told that it is in the Senate bill.
    I can't tell you whether that bill will move or not. You 
know better than I. It contains a number of controversial 
budget process reforms. But the higher levels are reflected, I 
think, in our budget submission because of that potentiality.
    Mr. Taylor. Ed, do you have any other questions?
    Mr. Pastor. No.
    Mr. Taylor. Thank you, gentlemen. I appreciate your 
appearance here today.
    Mr. Crippen. It is good to be here.
    Mr. Taylor. Congratulations on your first hearing.
    Mr. Crippen. Thank you.
    [Questions from Chairman Taylor and responses follow:]
             Fiscal Year 2000 Across-the-Board Pay Increase
    Question. The specific increase for the federal COLA is $713,000. 
Please explain how that figure was calculated.
    Answer. CBO is requesting a 4.4 percent across-the-board pay 
increase that is consistent with the pay assumptions underlying the 
President's budget for fiscal year 2000. The $713,000 requested for the 
January 2000 across-the-board increase represents the outlays for pay 
and benefits that will occur in that year. The amount is calculated by 
multiplying 4.4 percent times the CBO payroll as of January 1, 2000; 
increasing the result by a marginal benefit cost of 23 percent; and 
then reducing the total annual cost by 25 percent to arrive at the 
spendout for fiscal year 2000.
               Ceiling on Full-time Equivalent Positions
    Question. You are showing a base employment level of 232 FTEs. How 
many are on board today?
    Answer. As of February 10, 1999, we have 211 employees on board.
         Increase In Pay of CBO's Director And Deputy Director
    Question. What are the Director and Deputy Director's current 
salaries and the proposed salaries? How do they compare with other 
executive and legislative branch salaries?
    Answer. The Director's current salary is $125,900, and the proposed 
salary is $136,700. The Deputy Director's current salary is $118,400, 
and the proposed salary is $125,900. (See the attached table with 
comparable salaries.)
    Question. Are your authorizing Committees in agreement with this 
proposal?
    Answer. Yes, our authorizing committees are in agreement with this 
proposal.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Importance of CBO Support for New Scorekeeping System

    Question. Both House and Senate Appropriations Committees 
are modernizing their scorekeeping computer systems. Do you 
plan to follow their lead?
    Answer. Yes, we plan to modernize the interface between 
CBO's scorekeeping systems and those of the House and Senate 
Appropriations Committees.
    Question. We believe it is important for CBO scorekeeping 
systems to be completely compatible with ours so that we can 
continue to share data. We will be happy to assist with a 
reprogramming if that becomes necessary.
    Answer. CBO is aware of your concern that our systems 
remain compatible. We have been formally asked by the Chairmen 
of the House and Senate Appropriations Committees to join this 
modernization effort, and we are working hard to comply with 
that request in a timely fashion. However, since funding for 
this effort is not included in our budget for fiscal year 1999, 
we will ask the Committee for the authority to reprogram the 
necessary funds.

                Fiscal Year 1998 Reprogramming Requests

    Question. For the record, please supply all reprogramming 
requested last year, and their disposition.
    Answer. In fiscal year 1998, CBO received approval to 
reprogram funds for two projects that were expected to cost a 
total of $328,000. The first project involved the replacement 
of several systems in the CBO library with an integrated 
library software system that was Year 2000 complaint. The cost 
of the new library system was originally estimated to be 
$180,000, but the actual cost was $157,000.
    The second reprogramming request was for $160,000 to 
complete the upgrade of the network wiring in the CBO offices 
on the fourth floor of the Ford House Office Building. The 
final cost for that upgrade was $100,000.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                      Wednesday, February 10, 1999.

                 UNITED STATES CAPITOL VISITORS' CENTER

                                WITNESS

HON. JOHN MICA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
    Mr. Taylor. The meeting will come to order.
    We will start today's hearings with testimony from Members 
of Congress who have contacted the committee, and 
Representative John Mica will make his comments first. John.
    Mr. Mica. Thank you, Mr. Chairman and members of the 
subcommittee. I am here basically in support of expediting the 
long overdue, much studied Visitors' Center. I heard that your 
committee had had some testimony about a start-up date of 2003, 
which I think is totally unacceptable.
    I come from the private sector. I was a developer. And 
there is no reason in heaven's name that we couldn't build this 
project for which the Congress has appropriated $100 million, 
and where we have had over $20 million in private donations. I 
would urge your committee to provide some leadership, some 
direction, in expediting this long overdue facility.
    We have millions and millions of visitors. We are not in 
compliance with meeting even the minimum standards for these 
folks for common public facilities like restrooms. We have had 
people fainting in the heat and freezing in the cold, while the 
project has been studied and studied and studied. Basic plans 
already exist, and I would urge your consideration of trying to 
expedite this to possibly examine a turnkey construction 
project, expediting the review, and then taking the initial 
designs on which we have already spent millions of dollars and 
moving forward with the project. It is basically a shell that 
we are building, and we can add on the requirements, and those 
designs can be finished.
    In addition, there are incredible savings that can be 
realized by starting this project now. Our utilities in this 
building and those that serve the Capitol complex are totally 
out of date. They are so costly that one private company 
estimated that they could build the Visitors' Center for no 
cost to the Federal Government or the Congress, just by the 
savings that could be realized by redoing the utilities to this 
Capitol complex.
    So we are costing money by delay. I would estimate every 
year that we delay the cost for the project will only further 
increase costs, too. So I just come before you today to ask for 
your assistance in working with the other committees of 
jurisdiction, and with the leadership of the House, to urge the 
expediting of this, again, long overdue project.
    Questions?
    Mr. Taylor. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Well, Mr. Mica, you expressed the feeling that 
the whole committee expressed last week in the hearing, that we 
were appalled that it was going to take this long. So we 
started looking at the reasons.
    One of the big reasons is that so many legislative 
committees have a hand in it and, of course, getting everybody 
to agree and sign off on each item and just the time it takes 
to set the different meetings up is difficult. So we had an 
informal discussion with the Speaker's Office and the Senate 
Appropriations Committee and the Secretary of the Senate, and 
they expressed interest.
    We are going to sit down and we are asking the Speaker's 
Office, with the Minority, making sure all ranking members and 
the Minority leader are involved, to see if we can't come up 
with perhaps a joint, one-time meeting that includes all the 
people that are necessary to sign off.
    That is one of the ways.
    Of course, I share your concern that time is going to be 
money, because the longer we take the more costly it is going 
to be.
    And, of course, I agree with your other suggestion, and I 
hope this committee will spend some time looking at ways to 
save money on the project itself without destroying the quality 
of the project.
    Mr. Pastor.
    Mr. Pastor. I would agree with you, Congressman Mica. And 
waiting means that additional monies are going to be expended.
    I agree with the Chairman that somehow we need to put our 
egos aside and decide the best way to do it. And I would agree 
with you, when I was working at the county level we had the 
private sector come in and construct multistory buildings and 
we had oversight, obviously, to make sure that everything was 
on time and under budget. In this case, as long as we continue 
to simply talk about it, we will be expending money with no 
construction taking place.
    So I agree with you. I think we are serious about this, 
especially after the tragic death of our two officers.
    I was coming around into the Capitol to cast a vote, and I 
saw a long line of people, and it was colder than heck out 
there. And I asked, if they were waiting to come in for the 
Senate trial? They said, no, these were just people trying to 
get into the Capitol to visit.
    Mr. Mica. It is unconscionable. And what is interesting, to 
go back to when I presented my bill back in 1995 or whatever, 
you look at the testimony, and the first bit of testimony from 
the security folks here was that we needed to have a buffer and 
not have folks coming in the way that they are coming in, the 
general public. So it is long overdue.
    I appreciate your interest. I think we can get the 
Speaker's attention, and we can bring all the big egos together 
and solve a little problem.
    Mr. Taylor. Well, I appreciate your appearance and the 
reminder, and I appreciate your effort to join with us as this 
committee pushes in that same direction.
    Mr. Mica. Thank you, Mr. Chairman and members. I look 
forward to working with you. Excuse me, gentlemen.
    Mr. Taylor. Thank you.
                              ----------                              

                                      Wednesday, February 10, 1999.

                     CONGRESSIONAL RESEARCH SERVICE


                               WITNESSES

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
HON DAVID E. PRICE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
    Mr. Taylor. We have two other Members with us on a 
different subject. I would like to introduce them: Congressman 
Shays and Congressman Price, Mr. Shays from Connecticut and Mr. 
Price from North Carolina. Mr. Price will start first.
    Mr. Price. Thank you, Mr. Chairman, Ranking Member Pastor. 
On behalf of Representative Chris Shays and myself, I have a 
very brief statement. I will submit the full statement for 
inclusion in the record and deliver an abbreviated version.
    We are here to ask your assistance in continuing the trend 
toward fuller and more efficient public access to the workings 
of Congress. We are proposing that Congress provide the public 
limited Internet access to Congressional Research Service 
Reports and Issue Briefs via Member web sites, and we ask that 
the subcommittee provide an appropriation of $100,000 to 
initiate implementation of this proposal.
    In 1998, Capitol Hill offices sent out roughly a quarter of 
a million CRS publications. That is a lot of paper and postage 
and staff time. Thanks to the information superhighway, there 
is a much more efficient and cost-effective way to get this 
information out to the citizens who need it, without 
compromising CRS's primary mission of providing timely 
information to Members of Congress.
    Right now, the only way Members can provide on-line access 
to CRS publications is by loading them onto their own web 
sites, and a number of Members do this. This requires a 
substantial dedication of staff resources, and with more and 
more Members seeking to expand access, we predict it will 
result in a major duplication of effort.
    So we have proposed legislation to facilitate on-line 
access by requiring CRS, in conjunction with HIR, to set up a 
special Internet site for all publicly available research 
products. Members and committees would then have the option of 
providing links from their web site to this site. This 
legislation would not apply to confidential research undertaken 
by a Member of Congress but only to CRS Reports and Issue 
Briefs.
    Now, this proposal is, we think, a new and improved version 
of one that we offered in the last Congress. We are trying to 
take into account some of the comments that we received on that 
proposal. In our current bill, we are permitting access only by 
way of Member web sites and, in so doing, we are going to 
avoid, we believe, many of the potential speech and debate and 
copyright problems which CRS raised in last year's discussions 
on public Internet access. And by requiring the development of 
a dedicated site we will save substantial staff resources and 
ultimately be saving taxpayer funds.
    We have introduced a bill that lays out our proposal, but 
we know that authorizing legislation, in fact, is not necessary 
to bring the public on-line. So we are therefore coming 
directly to you to request funding to facilitate Internet 
access, and we hope that you will agree that this is a good 
idea.
    Mr. Shays. Thank you.
    Mr. Chairman and Ranking Member, I tell people that being a 
Member of Congress is like attending a large university, being 
told you have to take every course and get a passing grade. We 
are constantly schooling and we are constantly learning.
    The CRS reports I consider as one of the best learning 
tools that we have available. They are extraordinarily well 
written. They are consistently well written. They are concise. 
They are easy to read. They provide very meaningful information 
from people who are truly experts and who try to take their own 
individual perspective out of it. I have nothing but tremendous 
admiration for the documents that CRS provides.
    We are saying issue briefs and reports, which include 
authorization of appropriations products; and appropriations 
products themselves, should be on-line. We are talking about 
2,500 to 3,000, as best we can estimate. And the bottom line is 
they are available now in written form, in documents that we 
give out. But they are also available on the Internet right now 
because Members take these reports, store them in their own 
system, and then they allow people to have access, at 
tremendous cost and duplication, because we have this data in 
more than one system.
    Really, what we are proposing is that someone can come to a 
Member web site and click into the system that would allow them 
to get these centrally-located documents. We really hope that 
CRS helps you see how easily this can be done and how important 
it is.
    And I would say to you that it doesn't include individual 
requests of Members and there is a 30-day lag time. I would say 
one additional benefit, besides the public learning what we 
learn and seeing what we see, some of them will truly be 
experts who will see this and get back to us and maybe point 
out areas that CRS could be a little more heads up or even more 
precise about, and we can pass this information on, and CRS can 
do with it as they will. But I think it will, in fact, even 
help the ultimate product be better.
    Thank you.
    Mr. Taylor. Thank you, Mr. Price, Mr. Shays. I appreciate 
your presentation.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. As you know, it is not just the funding, it is 
an authorizing legislative matter, and we will be glad to pass 
this on to Mr. Thomas. I understand that the committee, the 
Joint Committee on the Library, under the auspices of both 
committees, is studying your proposal and variations of it, and 
we appreciate your bringing it to our attention today.
    Mr. Price. Mr. Chairman, we have introduced a bill that 
would authorize this activity, but the reason we are coming to 
you directly is not to do an end run around that process.
    Mr. Taylor. I understand.
    Mr. PRICE. We are convinced, and I think you will be as 
well when you look at this, that this requires no 
authorization. CRS has the authority now to do this and, with a 
modest appropriation, could get this underway immediately.
    Mr. Shays. Obviously, with the sign-off of the authorizing 
committee, but it doesn't necessarily have to go through the 
legislative process. So, you know, that is the motive for being 
here.
    Mr. Taylor. As a member of the Appropriations Committee for 
a number of years, I know that we would never want to presume 
to both authorize and appropriate in an Appropriations 
Committee.
    Mr. Shays. We would never encourage you to do that, on pain 
of death.
    Mr. Taylor. I understand that. Thank you both for being 
here.
    Mr. Pastor. I wanted to ask a questions.
    Mr. Taylor. Yes.
    Mr. Pastor. I guess your argument is that this already 
falls under the jurisdiction of CRS, so that all it is doing is 
implementing the different technology.
    Mr. Shays. We are making another argument. These reports 
are in our own systems.
    Mr. Pastor. Sure.
    Mr. Shays. They are being used and accessed through the 
Internet in a far more costly system.
    Mr. Pastor. What would be the objective of this 
appropriation of $100,000? It is basically for them to look at 
what would be needed to implement it so every Member can have 
it on the Web site?
    Mr. Price. The $100,000 is derived from CRS's own estimate 
of the technological requirements for implementation. It would 
involve a GS-14 level programmer for a 3-month period. That 
would be a one-time cost to set up the system, and then it 
would involve a GS-13 level staffer full-time. That would be an 
annual cost of $72,000.
    Mr. Shays. That, as of 1998, and we thought there would be 
other miscellaneous.
    Mr. Pastor. $100,000 would be to implement the system, one 
to get it on-line and one to maintain?
    Mr. Price. Yes. Those would be the start-up costs. After 
that, the projections become more uncertain, but certainly 
initially we feel this is a reliable estimate of what it would 
take.
    Mr. Shays. Let me make one other point. The Members who 
store these reports now don't necessarily provide the latest 
update, so some people are accessing reports that are not the 
latest report. So Members are spending their own staff time, 
sometimes, trying to update as well. So there will be a savings 
that you won't realize. I mean, that is significant, but it 
won't show up in the ledger.
    Mr. Pastor. Sure. Thank you, Mr. Chairman.
    Mr. Shays. Mr Taylor, Mr. Pastor, thank you, and Mr. Wamp.
    Mr. Price. Thank you.
                              ----------                              

                                      Wednesday, February 10, 1999.

                          LIBRARY OF CONGRESS


                                WITNESS

PATRICIA WAND, UNIVERSITY LIBRARIAN, AMERICAN UNIVERSITY; REPRESENTING 
    THE AMERICAN LIBRARY ASSOCIATION, ASSOCIATION OF RESEARCH 
    LIBRARIES, AMERICAN ASSOCIATION OF LAW LIBRARIES, MEDICAL LIBRARY 
    ASSOCIATION, AND SPECIAL LIBRARIES ASSOCIATION
    Mr. Taylor. We will now hear from several outside witnesses 
who have been asked to testify. Each witness will be limited to 
5 minutes of oral testimony.
    Your entire statement will be placed in the record, so if 
you could summarize. We will use the time clock on this since 
we have a number of people.
    Ms. Patricia Wand, I believe.
    Ms. Wand. Yes.
    Mr. Taylor. How are you?
    Ms. Wand. I am fine. Thank you very much.
    Mr. Taylor. From the American Library Association.
    Ms. Wand. The American Library Association, among several 
others.
    I am pleased to be before this committee again this year. I 
was here last year, and I notice that there is just one 
returning member, Mr. Hoyer, who, as we know, is a friend of 
the Library. We have worked with him in the metropolitan area 
on Library issues for a long time, and we appreciate his 
support.
    I am Patricia Wand from American University Library. I am 
University Librarian there, and I am here today to represent 
five library associations: The American Library Association, 
the Association of Research Libraries, the American Association 
of Law Libraries, the Medical Library Association and the 
Special Libraries Association.
    I was pleased to be here a few minutes ago as we went 
through the testimony from the Library of Congress in regards 
to their budget. I am particularly pleased to see the level of 
support that the Library of Congress receives from this 
committee, and it is good to know that its vital work to the 
Nation is recognized by the funding committee that supports it 
as well.
    As you know, my longer statement is in the record; I would 
just like to point out a few highlights. It is important to 
note the significant growth of digital resources in a 
relatively short time frame--in the last 4 years have we seen 
exponential growth. But one of the things that we are learning 
is that libraries are pivotal to the dissemination and 
development of these digital resources.
    We also know that the Library of Congress' digital 
initiatives are extremely important to all of us, not just to 
Congress but to libraries across the country. Other libraries 
also make significant investments in these new and evolving 
technologies and services.
    The partnerships, the investments that are being made by 
the Library of Congress and the investments being made by the 
local libraries are providing new opportunities for access to 
information for the Nation and around the world.
    The Library's budget request of $383.7 million provides the 
needed support for the Library of Congress to maintain its 
extremely important ongoing programs as well as to enhance its 
access to digital materials.
    Although this request represents a 5.5 percent increase in 
the Library's budgets, a significant share of that increase is 
to cover mandated costs as we discussed earlier.
    I would like to focus on four program areas: the Library 
Services for the Blind and Physically Handicapped, technology 
initiatives, the Law Library, and security measures.

   NATIONAL LIBRARY SERVICES FOR THE BLIND AND PHYSICALLY HANDICAPPED

    The National Library Services for the Blind and Physically 
Handicapped provides recorded and braille materials for more 
than 773,000 blind and physically handicapped persons across 
the United States. This is accomplished through a cooperative 
network of 140 regional and local libraries and two multistate 
centers that circulate these resources and distribute them to 
eligible borrowers by mail.
    We support the request of $48 million in fiscal year 2000 
for the National Library Services to the Blind and Physically 
Handicapped and the effort to explore the further use of 
digital technologies in order to achieve its missions.

           TECHNOLOGY INITIATIVES OF THE LIBRARY OF CONGRESS

    All libraries face many challenges in regard to technology, 
and the technology initiatives that are undertaken by the 
Library of Congress are extremely important to us. Two key 
automation projects already under way, one of them, the 
Integrated Library System, and the newer one, the Electronic 
Resources Information Project, are fundamental pieces to this 
effort.

                        LAW LIBRARY OF CONGRESS

    In the Law Library, there are two digital library 
initiatives, the Global Legal Information Network, known as 
GLIN, and the National Digital Library Project, which is 
entitled ``A Century of Lawmaking for a New Nation: United 
States Congressional Documents and Debates from 1774 to 1873.''
    We urge your full support for the Law Library's budget of 
$8 million. This will permit the Law Library to continue to 
provide a high level of service and to increase remote access 
to unique digital and legal information.

              SECURITY MEASURES AT THE LIBRARY OF CONGRESS

    We thank Congress for its continued support of the 
Library's efforts to enhance the security of its collection and 
its staff. The supplemental appropriation of $16,900,000 will 
permit the Library to take much-needed measures such as 
recruitment of additional security personnel, the acquisitions 
of security equipment and the like.
    But an additional nominal amount is required to both 
complement and complete these efforts. We support the request 
of $1.3 million to support reader registration, the tagging of 
newly acquired library materials and the additional security 
measures that are needed for the reading rooms.
    In conclusion, Mr. Chairman, as the Library of Congress 
celebrates 200 years of service to Congress and to the people 
of the Nation, we take this opportunity to reaffirm our support 
for this important national institution. We look forward to 
working with the Library of Congress in celebration of its 
bicentennial, where libraries across the country will join once 
again in partnership to highlight local legacies and the role 
of libraries in communities and in the development of democracy 
in this Nation.
    Thank you for the opportunity to speak with you today. All 
five of the associations that I represent look forward to 
working with you and the Library of Congress in the future.
    Mr. Taylor. Thank you. We appreciate your appearance this 
afternoon.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. If you have any questions, if you will just ask 
them.
    Mr. Pastor. Do you want to wait?
    Mr. Taylor. No. Go right ahead, please.
    Mr. Pastor. I just have one question. I have had 
constituents from Arizona drop in, and they were asking for a 
service to be implemented at the local level, but I just have 
to question if it can be implemented on a national level. And I 
think they called it Newslink, where they could call a certain 
number, telephone number, and they would be given the news of 
the day.
    They were sight impaired, but over the telephone they would 
be able to get the current news.
    Ms. Wand. Was this a service from the National Library 
Services for the Blind and Physically Handicapped, or is this a 
commercial service?
    Mr. Pastor. I don't know. I am asking because I don't know.
    Ms. Wand. Right. I don't know the origin of that particular 
service. I don't know if anyone else at the table does.
    Ms. Zagorin. I am not positive, but I think the Library 
Services for the Blind and Physically Handicapped provides a 
link, but we could find out if you would like.
                              ----------                              

                                      Wednesday, February 10, 1999.

                       GOVERNMENT PRINTING OFFICE


                                WITNESS

RIDLEY R. KESSLER, JR., REGIONAL DOCUMENTS LIBRARIAN, U. OF N.C. 
    (CHAPEL HILL); REPRESENTING THE AMERICAN LIBRARY ASSOCIATION, 
    ASSOCIATION OF RESEARCH LIBRARIES, AMERICAN ASSOCIATION OF LAW 
    LIBRARIES, MEDICAL LIBRARY ASSOCIATION, AND SPECIAL LIBRARIES 
    ASSOCIATION
    Mr. Taylor. We also have Mr. Ridley Kessler, Jr., the 
Regional Documents Librarian.
    Mr. Kessler. Hello. How are you? I am very happy to be here 
with you gentlemen.
    I am Ridley Kessler, the Regional Documents Librarian at 
the University of North Carolina at Chapel Hill since 1973, and 
I feel every one of those years.
    I want to congratulate you, sir, on your new chairmanship. 
We are very proud of you. I know you are a graduate of Wake 
Forest University, and of the law school. You might be 
interested to know they have been a depository library for 
about 5 or 6 years, they are one of our newer ones.
    I was up there in December with Tom Ortel, who is one of 
the Government Printing Office inspectors. They went through 
the first inspection, and you would be happy to know that they 
passed with flying colors. I was very impressed. That is one of 
the most open law libraries I have ever been in, very 
spectacular.
    I am here today before you representing 5 national library 
associations to urge your support for the Government Printing 
Office's fiscal year 2000 budget request of $31,245,000, for 
the Superintendent of Documents Salaries and Expenses 
appropriations.
    The future of the depository library program in the 
electronic age is very important to the citizens of North 
Carolina, including your constituents in the 11th District, and 
to the almost 1,400 depository libraries throughout the United 
States. In North Carolina, our 33 depository libraries are 
located in every congressional district. And our students and 
teachers, businessmen and researchers, and certainly members of 
the general public have local, official and, most importantly, 
no-fee access to information produced by the Federal Government 
with their tax dollars.
    I would like to focus on three key points this afternoon. 
First, our associations believe that the GPO's proposed budget 
increase of $1.98 million is very important and essential to 
support the Federal Depository Library Program Electronic 
Collection, including the future development of GPO Access.
    Second, depository libraries provide very significant 
services and investments to maintain their tangible collections 
and facilitate public access to a growing array of electronic 
Federal Government information.
    And, third, our users are often frustrated when the 
Government information they need is fugitive or when electronic 
publications suddenly disappear from agency web sites.
    As librarians, we are very much committed to ensuringthat 
electronic government information is available to the public today and 
that in the future it will still be available.

   Superintendent of Documents Salaries and Expenses FY 2000 Budget 
                           Increase Essential

    The Government Printing Office budget increase is quite 
essential. We commend the significant progress the Government 
Printing Office has made in the transition to a more electronic 
Federal Depository Library Program. It has been very quick, and 
they have done an outstanding job.
    Last year, approximately 34 percent of all titles 
disseminated to depository libraries were in electronic format, 
mostly through GPO Access. GPO Access is the award-winning 
digital collection of more than 70 official government 
databases from all three branches of our government. Each month 
users are downloading from 10 to 15 million documents from GPO 
Access.
    This proposed increase of $1.98 million for fiscal year 
2000 is both appropriate and necessary. It will support the 
maintenance and growth of GPO Access. It will enable the 
Government Printing Office to fulfill its strategic plans for 
the Federal Depository Library Program Electronic Collection, 
including the permanent public access of electronic government 
information.

               FDLP Significant Services and Investments

    We believe strongly that depository libraries provide 
important services and investments, and my formal testimony 
provides you with a very brief description of our regional 
depository library collection at the University of North 
Carolina, as well as some cost data.
    Our depository collection dates back to the early 1800s, 
although we didn't become an official depository library until 
1884. Our collection is housed in almost 19,000 square feet. It 
contains about 2 million printed documents and over 1.4 million 
pieces of microfiche.
    We have six computers dedicated to electronic resources 
that provide public access to our very significant collection 
of CD-ROMs, as well as to the online Federal Depository Library 
Program Electronic Collection.
    Our annual budget includes personnel and administrative 
costs, as well as new computers which we have to replace about 
every 2 years to support our CD-ROM and Internet access. We 
also have one really big honking machine that we use for 
Geographic Information Services, which is extremely expensive. 
We have connectivity charges. We have to buy a lot of new 
software to maintain access. We have to buy new cabinets each 
year to support and file away our microfiche and CD-ROM 
collections. We have cataloging and binding costs, space costs 
and, in addition, depository libraries purchase indexes, 
microfiche and supporting reference materials to enhance their 
collection and make it more usable to the general public.
    Most depository libraries, including our regional at UNC 
Chapel Hill, probably spend in excess of $100,000 a year just 
to buy these materials to supplement their depository 
collection.

                           Fugitive Documents

    Each year, in testimony before this Subcommittee, our 
library associations express concern with the failure of some 
government entities to comply with the United States Code Title 
44, either through increased fiscal constraints or lack of 
understanding of their responsibilities under the law.

      Permanent Public Access of Electronic Government Information

    There is a great need for permanent public access. Each 
year, we express concern that agencies often remove important 
publications from their web sites without capturing them first 
for permanent public access, without any advance notice 
whatsoever. They just--poof--just disappear. These actions have 
fiscal implications because they increase the cost to the 
Government. They increase the cost to libraries to provide 
access to government information, and they make it much more 
difficult for the public to locate and use the electronic 
government information that they need for their daily business.
    The Federal Depository Library Program, we believe, is the 
most efficient system to provide the American public with 
government information. Our participating libraries provide the 
national technological infrastructure that is necessary in this 
electronic age to assist all of your constituents in accessing 
electronic information from the Government.
    The Federal Government must invest in systems and services 
that provide the public with government publications in all 
formats, and they certainly must ensure that valuable 
electronic government information created today will be 
preserved for future generations.
    The Salaries and Expenses increase of $1.98 million will 
assist the Government Printing Office in meeting this 
responsibility for the Federal Depository Library Program 
Electronic Collection.
    Mr. Chairman and members of the Subcommittee, we urge you 
to continue to support the depository library program by 
approving the full budget request of $31,245,000 for fiscal 
year 2000.
    I thank you very much for letting me appear here today. If 
you have any questions, I will do my best to respond.
    Mr. Taylor. Thank you, Mr. Kessler. We appreciate your 
appearance.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Hoyer. I don't have any questions.
    Mr. Pastor. Well, just one question. Maybe you might be 
able to provide more information at a later date, but you were 
saying that Title 44 would probably not be revised in the near 
future?
    Mr. Hoyer. There was an attempt last year to significantly 
reform it, particularly as it dealt with the Joint Committee on 
Printing, dealing with a lot of things that the libraries are 
very concerned about in terms of so-called fugitive documents, 
that is, documents that are prepared but do not get into the 
depository library system. That attempt was not successful, 
however, and there is still discussion about exactly what will 
happen now.
    But, notwithstanding that failure, we defunded the Joint 
Committee on Printing in this committee anyway, thereby 
eliminating its staff. The JCP still exists, but without a 
staff, just like the Joint Committee on the Library.
    Mr. Pastor. In the short time I have been on this 
committee, one of the things that is beginning to bother me is 
that the public is paying for the production of documents and, 
because of the separation between the legislative branch and 
the executive branch, we may have information that the public 
has paid for that is being lost. It is being lost because we 
are not having a procedure that is uniform where we require 
whatever Federal agency publishes a public record that they 
somehow have to deposit it so that it will be stored and the 
public can go and retrieve it.
    The public is paying for it. They should have at least 
access to it, and it should be stored somewhere.
    Mr. Hoyer. Would the gentleman yield?
    Mr. Pastor. Yes.
    Mr. Hoyer. There is a substantial controversy as to who can 
print what, where. The law requires that the GPO print 
government documents. However, with technology's development, 
it has become easier and easier to print on-site. The biggest 
printer of documents is the Department of Defense. There has 
been a real battle back and forth within the Executive Branch.
    Where the executive branch comes into play is there was a 
question as to whether the Joint Committee on Printing is 
constitutional in that we were performing, theoretically, 
executive functions; and the Executive Branch was saying we 
shouldn't be doing this. So where that affects what the 
gentlemen is talking about, where that affects the librarians, 
is that if it is not printed in a central place with a legal 
responsibility to ensure the transfer of those documents to 
depository institutions around the country, there have been 
documents which are printed which are not necessarily secret 
but which never get into the depository system.
    Mr. Pastor. Yes.
    Mr. Hoyer. And we are going to have to address that. It is 
an authorizing issue. The House Administration Committee will 
have to deal with it. The Rules Committee in the Senate will 
deal with it, but that is what has caused the problem, because 
of the constitutional issue and whether or not we can continue 
to organize the same way, and the fact that it now has become 
so easy for people to print their own documents so they don't 
have to go through GPO.
    Mr. Kessler. There are several types of fugitive documents. 
One very good example that I see about five or six times a 
month, hits the small business community. There is a series 
called Military Specifications and Standards. It is not 
classified, there is nothing dangerous about it; for example, 
it includes standards for how the military makes paint. The 
military specifications and standards were a depository item 
for many, many years. I still have old ones downstairs in our 
depository collection.
    Every month I get calls from the eastern, the western, and 
the middle part of our State, from various small, independent 
producers. There's a guy that wants to make paint, he wants to 
try to sell it to Fort Bragg, and he is trying to go through 
the system, but we no longer receive this material.
    I went through the Defense Information and Technical 
Center, which has the most excellent web site you have ever 
seen. It is easy to get into. They have an excellent index.
    I can pull up these standards, but I can't read them or 
print them off because that requires a fee. You have to pay. So 
I have to tell these people, well, I can give you the web site 
but then you have to pay for the information. That is the kind 
of thing that drives documents librarians absolutely wild, and 
we see that in a lot of different applications for other 
electronic information resources.
    Mr. Pastor. Mr. Chairman, we ought to encourage a notion 
that there should be a central place where documents are 
deposited, regardless of what Federal agency publishes them, so 
that the public can have access to it and use it whenever they 
desire since they paid for the publication.
    Mr. Hoyer. Would the gentleman yield again?
    Mr. Pastor. Yes.
    Mr. Hoyer. We have passed, on a number of occasions, 
specific directions, by law, to print through GPO. It is 
ignored, on the theory that we don't have the authority to do 
that because of the constitutional issue. So I agree with the 
gentleman, but it is not that simple.
    Mr. Pastor. Okay. I just want to make my point, Mr. 
Chairman.
    Ms. Wand. As librarians we are delighted that you are 
cognizant of these issues and that you are joining with us in 
trying to correct the deficiencies that we are experiencing. 
When government information in fugitive, we are unable to 
deliver the government information the public needs and has a 
right to, that they have paid for already.
    Mr. Kessler. We appreciate your interest, believe you me. I 
have spent 31 years of my professional life on this one issue.
    Mr. Hoyer. Mr. Pastor has a new job here.
    Mr. Pastor. I have a career for the next 30 years.
    Thank you, Mr. Chairman.
    Mr. Kessler. You give me the government information, 
Congressman. I will get it to the people who need it. Take my 
word for it.
    Mr. Taylor. Thank you, Mr. Kessler. We appreciate your 
testimony--as a member of the board of visitors that put 
together the work on the new library. It is actually not 
exactly new, but it was when I worked on it.
    Mr. Kessler. It still looks good.
    Mr. Taylor. We appreciate your comments about it.
    [Questions from Mr. Hoyer and responses follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                      Wednesday, February 10, 1999.

                    LAW LIBRARY, LIBRARY OF CONGRESS


                               WITNESSES

JANET S. ZAGORIN, CHAIR, ABA STANDING COMMITTEE ON THE LAW LIBRARY OF 
    CONGRESS, REPRESENTING THE AMERICAN BAR ASSOCIATION
SAUL SCHNIDERMAN, REPRESENTING AFSCME LOCAL 2910
DENNIS M. ROTH, REPRESENTING CREA, LOCAL 75
    Mr. Taylor. We have Janet Zagorin, American Bar 
Association, Chairman of the Standing Committee on the Law 
Library of Congress.
    I would like for you to introduce your guest and make what 
statement you want to make in whatever order.
    Ms. Zagorin. I am Janet Zagorin, and I am pleased to be 
representing the ABA. I am the Chairman of the Standing 
Committee on the Law Library of Congress, and I am joined by a 
member of my committee. We are very honored to have former 
Congressman Bill Orton from Utah, and I appreciate your letting 
us appear today before this committee.
    This committee has supported the Law Library's request and 
budget in the past and has been very, very understanding of the 
role of the law library in United States culture.
    You have my written testimony. Bill and I would just like 
to summarize a few really important points, although now I am 
almost convinced that you could probably present the testimony 
for me.
    I have also prepared, which, if you wish, we have copies of 
to assist in summarizing, just a couple of charts that show 
some statistics about the Law Library of Congress, which is 
essentially your library--it is the Library of Congress. If you 
would like to have copies, I can provide them to you.
    Mr. Taylor. Thank you. We would like to have them certainly 
as part of the record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            William T. Orton
    William T. Orton was born in Ogden, Utah, and resides in Provo, 
Utah. He graduated from Weber County High School in Ogden in 1966. 
Orton attended Weber State College. He completed a two-year mission for 
the Mormon Church in Oregon. He received a bachelor's degree in 
anthropology archaeology from Brigham Young University in 1973 and a 
low degree from their law school in 1979. Orton Worked for the Internal 
Revenue Service as a tax examiner, auditor and regional instructor. He 
was a private tax attorney and a counsel to the Atlanta, Ga., law firm 
Merritt & Tenney. He owned the Tax Training Institute, which provided 
education materials and training seminars on tax laws. He was elected 
to the U.S. House in 1990 and re-elected in 1992 and 1994. He lost in 
1996. Orton is married to Jacquelyn Massey.
                                Profile
    Bill Orton had wrestled with the idea of giving up his House seat 
to challenge three-term Sen. Orrin Hatch, R-Utah, in 1994. But in 
February of that year he announced that he'd decided against it. ``As I 
look at it, I see a tremendous opportunity to have an impact, an effect 
right where I'm at,'' Orton said. ``My entire motivation in being back 
here (Congress) is trying to make some changes in the way we're doing 
things in government.'' Orton said he clearly had a better shot at 
reclaiming his House seat than ousting the powerful senator. The 
Democrat, who represents a heavily Republican district, has bucked his 
party with his votes on certain key issues. In fact, he has received 
higher approval ratings from some GOP-backed groups than from liberal 
groups. He voted in favor of a measure to impose a requirement of 
parental notification when minors seek abortions, He voted against 
President Clinton's economic stimulus plan. He opposed a move to force 
businesses to grant unpaid family and medical leave. Orton was not 
among the fiercest defenders of Clinton when allegations surfaced that 
the president may have been involved in questionable real estate 
dealings in Arkansas. The lawmaker decried attempts by Republicans to 
turn hearings on the Whitewater matter into what he called ``a witch 
hunt,'' but even he expressed hope they would provide answers about 
questionable contacts between federal probers and the administration. 
Orton won his first bid for the House in 1990, filling the seat vacated 
by retiring Republican Rep. Howard Nielson. Orton described himself as 
a conservative Democrat, but acknowledged he faced a tough battle in 
what some called the most conservative congressional district in the 
county. Orton said his views on key issues put him in the political 
mainstream, despite his choice of parties. ``I believe essentially that 
abortion is murder,'' he said. ``Supreme Court opinions say the states 
have the right to limit the availability of funding for abortion and 
therefore I believe Congress should not be involved. But rape, incest 
and the life and health of the mother are reasonable restrictions a 
state can impose.'' He favors the death penalty. Orton said his 
experience as a tax attorney convinced him that the deficit could be 
reduced by shifting tax burdens and changing spending priorities. He 
believed the country should lower military spending during the Cold War 
thaw, but opposed cutting back on military personnel. Orton said the 
federal government should play a greater role in funding public 
education, but he opposed federal involvement in choosing school 
curriculums. In the House, Orton served on the Banking & Financial 
Services Committee and the Budget Committee. The liberal Americans for 
Democratic Action gave Orton's 1994 voting record 25 points out of 100; 
the American Conservation Union gave him 79 points.

    Ms. Zagorin. The Law Library of Congress, as you will see 
from those charts, is certainly the largest legal collection in 
the world. And as I said, it is the library of Congress, and it 
is virtually your library across the street.
    While we believe that this law library presents to every 
Member of Congress or their staff upon demand and any member of 
any State or Federal legislative entity the most sophisticated, 
complex and timely research and information in a highly 
confidential manner, I think the interesting thing is that it 
is also the law library across the street of virtually every 
citizen in the United States, and it has become more so that in 
the last couple of years. Contrary to what many people have 
thought in the past about libraries, the Law Library has a much 
more important role in our culture today than it ever did 
before.
    You have heard lots of testimony today about numbers and 
about what is in the Law Library, but it is the preeminent 
collection of democratic rule of law, comparative rule of law 
and foreign law in the world. And while it serves you, it also 
serves, through its unbelievable Web page and Internet access, 
every one of your constituents, your citizens, from students to 
senior citizens. So that while you may get a study on 
extradition laws or health care or pension reform in other 
countries, members of your constituency can log on and find out 
about proposed amendments to health care legislation, Federal 
regulations, congressional hearings, as well as the whole body 
of American law and foreign law for the last 200 years.
    I think that when we look at the budget requests that they 
have given us, and that the Law Library has presented to you, 
it is extremely modern and reasonable in the context that to 
convert to computerization takes some commitment of resources. 
They are expanding all of the resources of the Law Library on-
line, making accessible the collection from any remote site, as 
you were mentioning one of your constituents was asking. But it 
is not just for citizens in the United States, but also for 
citizens outside the United States. It is a return of 
investment, and I don't think that it can be expressed simply 
in numbers.
    I think it is an opportunity, and I don't think that there 
is as powerful a statement about the Congress' commitment to 
the rule of law and to the democratic process than opening your 
library to the world. Basically we are showing people as a role 
model that we are enabling them to access any statute, any 
debate, any argument on the Hill and to use our legislative and 
our legal system as a model for their systems.
    As you see from the charts I gave you, while we have at the 
Law Library of Congress the largest legal collection built over 
200 years, we have the smallest staff and the smallest budget 
of any of the major research law libraries in the United 
States, which are private and not accessible and are not being 
used in a way that we want to express in the democratic 
process. Therefore, the American Bar Association is very 
grateful for your support in the past and for certainly the 
recognition that you have of this committee and the role of the 
Law Library, but we would ask that you support their request 
for an increased budget this year.
    I think Bill has a few comments.
    Mr. Orton. Thank you, Chairman Taylor, Ed and Steny. I 
appreciate the courtesy to appear before you for just a minute 
on behalf of the American Bar Association, testifying in 
support of the budget request by the Law Library of Congress.
    As Janet said, the charts plainly show that the Law Library 
of Congress has the largest collection with the smallest budget 
and the fewest staff resources.
    We can be very proud that they are doing a great deal with 
such few resources, but they need more, and we would like to 
thank you. We appeared last year, and the year before, and the 
year before that asking for additional resources. We appreciate 
what you did last fiscal year. It was very helpful. But we 
still need more, or they still need more. And what they are 
requesting in this fiscal year budget appears to be a very 
large request. It is a 17 percent increase. But, if you look at 
the reality of what has occurred, if you gave them the entire 
request they have asked for, they still would not be back up to 
the 1994 level of staff resources before the 3 years of flat 
budget. So during those 3 years, where there was no increase 
even for inflation, they lost so many resources that if you 
give them the entire budget request, they won't make up what 
they have lost.
    And just one example of the impact of that, much of thelaw 
resources, since they change on a daily basis, are reported through 
looseleaf services like CCH and so on. They send you every week, and 
some daily, an update service so that your legal services is accurate 
enough and up to date. So if you go into the Library or ask your staff 
to pull a statute, you have the up-to-date information with the 
statutes, the court cases, and so on.
    The reality is they have, I think they told us, two staff 
members to file all of those millions of updates. They are so 
far behind. If you go over there right now and ask for 
information, you can't get up-to-date information because they 
simply haven't had the resources to file it yet, and that 
continues to back up on them.
    So they desperately need resources to be able to hire at 
least filing clerks so they can keep it up to date so that your 
library, that you rely on, will be up-to-date and you know that 
the information is accurate.
    So we strongly urge you to provide the requested resources. 
And as I say, it won't even get them back up to where they were 
previously, but we appreciate what the committee has done and 
hope that you will continue to support them. We thank you very 
much for your interest and courtesy and support.
    Mr. Taylor. If the supplements are left out, then you don't 
have the law, and you might question why you are providing a 
law library that doesn't have the law.
    Ms. Zagorin. Well, it is a good question, and as I said at 
the beginning, I assume that all of you know that whenever you 
are in session, when Congress is in session, that law library 
is open so that any member of your staff, whether it is an all-
night session or not, can have access to their research and to 
their research staff. And throughout the course of any 
congressional session, they are invaluable to you and your 
staff in providing some of the most relevant information that 
you rely on. You rely on it both from a domestic and from a 
foreign point of view in trying to develop new statutes, and 
also look at the impact of the previous statutes and the form.
    As Bill said, I think they have done a great deal. I think 
there is a great deal more to do. We must maintain the Law 
Library. As we enter the millennium, I think it would be really 
a very sad comment, at a moment when the whole world is looking 
towards us for our models in terms of the democratic rule of 
law, for us to deny the Law Library the ability to keep up and 
at least to maintain its unparalleled collection. A law library 
or any library does not remain the same--it either falls behind 
or moves ahead, and I really think that this is a library 
devoted to providing service both to Congress and to the 
citizens of the United States. With the increase that we are 
asking, we will be able to do a great deal more on-line, and 
they are bringing together a lot of foreign jurisdictions who 
are using the on-line system for the first time in the history 
of their cultures for access to the statutes.
    So we do appreciate very much the support that you have 
given them in the past, and we really urge you to assist them 
again this year.
    Mr. Hoyer. Mr. Chairman, could I just ask a question. As I 
understand your charts here, Harvard has 36 personnel dedicated 
to the law library.
    Ms. Zagorin. Research.
    Mr. Hoyer. Okay, 36 dedicated to research. The Library of 
Congress has 12. It would be an interesting comparison to know 
the number of transactions. In other words, I don't know 
whether Harvard has more transactions or not than the Library 
of Congress. One would think they do not. They have very close 
to the same number of volumes.
    I went to Georgetown. I noticed Georgetown has quite a 
percentage less in terms of documents. You have the gross 
numbers here, but if you have a lot of volume but not a lot of 
transactions, you may not need as many personnel. On the other 
hand, it is hard to believe that Harvard has more demand on its 
resources than the Library of Congress Law Library, so that I 
think a relevant comparison would be how many transactions 
those 12 researchers handle versus the 36 researchers at 
Harvard.
    Mr. Orton. We can certainly get that information and submit 
it to you.
    Mr. Hoyer. The library itself, I don't know whether Harvard 
keeps that kind of statistics or not.
    Mr. Orton. If they do, we can get it to you.
    Mr. Hoyer. I am pleased to join you in welcoming former 
Congressman Orton here, who was clearly one of our most able 
Members. One of the losses that the American public sustained 
was that Bill Orton was never a member of the Ways and Means 
Committee. He was one of Congress' tax experts and made a 
tremendous contribution during his service.
    Bill, it is good to see you back. Thank you, Mr. Chairman.
    Mr. Taylor. Certainly. We appreciate all of you coming in 
and making your contribution.
    Ms. Zagorin. Thank you very much.
    Mr. Taylor. We now have Local Union 2910, Mr. Saul 
Schniderman, and also Dennis Roth of the Congressional Research 
Employees Association.
    Mr. Schniderman, Mr. Roth, which one wants to go first? Mr. 
Schniderman?
    Mr. Schniderman. Yes.
    Mr. Taylor. All right. If you will make your timing 5 
minutes, and we will put your entire statement into the record 
so you can summarize it if you would like. We will have 
questions for you.
    Mr. Schniderman. Thank you, Chairman Taylor. I think it 
will be under 5 minutes.

                   Library of Congress Professionals

    Chairman Taylor, Ranking Member Pastor and Members of the 
Subcommittee, I am Saul Schniderman, president of the Library 
of Congress Professional Guild, AFSCME 2910, and I am here 
today on behalf of the Guild--that is the name we are known by 
at the Library--speaking in support of the Library's budget 
request for fiscal year 2000. I am also here to thank the 
subcommittee and the staff for the support they have shown the 
Library of Congress and its employees over the years.
    Accompanying me are Peter Inman, Chief Steward for the 
Guild; and Kent Dunlap, our Chief Negotiator; but quite 
frankly, I think they are out in the hall. Oh, no, they are 
here. Thank you.
    We represent over 1,400 professional employees at the 
Library of Congress, excluding employees of the Congressional 
Research Service, and we are dedicated to providing the best 
possible service to the Congress and the American people.

                           AFSCME Affiliation

    We are affiliated with AFSCME, which is the largest union 
in the Executive Branch of government. Along with our sister 
union at the Library of Congress, AFSCME 2477, which represents 
clerical and technical employees, and Local 626, our colleagues 
at the Architect of the Capitol, AFSCME represents over 3,500 
Legislative Branch employees on Capitol Hill.

                          Transit Fare Subsidy

    We have presented each subcommittee member with a copy of 
our written testimony, which outlines our concerns, so this 
afternoon I will bring to your attention only one, and that is 
the major concern for Library professionals, and that is the 
lack of the transit fare subsidy program at the Library of 
Congress.
    As the Chairman, the Ranking Member and subcommittee 
members may know, the Washington metropolitan area is ranked 
second worst in the nation in overall traffic congestion, 
behind Los Angeles. Also our area has the dubious honor of 
being ranked in terms of the longest commuting time and the 
highest per capita congestion costs in wasted fuel. Here on 
Capitol Hill our traffic situation is bad and probably will get 
worse.
    Part of the traffic problem here may be caused by the 
increasing influence of the Congress on the life of the Nation, 
which has brought a renewed interest in the history and the 
role of the Congress and its renowned library. Tourists from 
around the world come to Capitol Hill to visit our two national 
historic landmarks; this building, the United States Congress, 
and the recently renovated Jefferson Building, and these 
tourists often come in automobiles and buses. The tour bus 
situation is especially critical on the Hill because tour buses 
often cruise the streets unable to find a place to park.
    The general increase in tourism in Washington, D.C., the 
upcoming Library of Congress bicentennial, which is 1999 to 
2000, the proposed building of a Visitors' Center on the east 
plaza of the Capitol, these conditions will lead to gridlock, 
congestion, air pollution and possibly road rage on Capitol 
Hill, but I dare say that our Capitol Hill Police, God forbid 
finding somebody on Capitol Hill committing that act.
    There are more than 140 Federal agencies who have done 
their share to curb traffic in the area by participating in the 
transit fare subsidy program. The House of Representatives 
participates, as do the Senate and the Architect of the 
Capitol.
    Our deputy librarian, Mr. Scott, has shown an interest in 
the subsidy program, and when surveyed last year, 43 percent of 
LC employees indicated they would be willing to switch from 
private to public transportation if they had a travel subsidy.
    As an employer of over 4,100 employees, the Library of 
Congress has a pivotal role to play in efforts to relieve 
traffic congestion on Capitol Hill and the region.
    Mr. Chairman, when the Library's four unions brought this 
concern forward to upper management, the response was not 
``no.'' However, the Library did not see fit to include a 
request for funds for transit fare subsidy in its budget 
proposal.
    In any case, one high-ranking LC administrator told me, 
doing the right thing and paying for it are two different 
things.
    This year we are going to be stepping up our efforts to 
educate the staff and management at the Library about the 
benefits of the transit fare subsidy program. And I would like 
to end my testimony by appealing to the subcommittee to assist 
us in any way that you can.
    Traffic congestion and air pollution is a local and a 
regional problem, and the Library of Congress should join the 
House, the Senate and the AOC in being a model employer in this 
regard. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Do you want to ask any questions?
    Mr. Pastor. I know that last year we had a big debate, and 
I think in the appropriation bills we set aside money so that 
the House members and their staffs could participate in such a 
program. The idea was that if they came on the bus or the 
Metro, then we would help them out, and that way congestion 
would be minimized.
    In the area I live in, in Arizona, we are a nonattainment 
area as it deals with air quality. The private sector as well 
as the public sector has implemented programs where employees 
are encouraged to use the public transportation system so that 
we minimize the pollution and at the same time avoid the 
congestion.
    I don't know what the costs would be, but I think it would 
be worthwhile, Mr. Chairman, that we ask the Library of 
Congress to look at it.
    Mr. Taylor. We could.
    Mr. Pastor. And see what they can recommend to us.
    Mr. Taylor. There are two ways to encourage. We could put a 
penalty for those that come in automobiles. That is the other 
way.
    Mr. Pastor. Well, I mean, there have been efforts, I think 
within our own House, that before parking, premiums were given 
to carpooling, and so that if you did not want to participate 
in a carpool, you were encouraged to participate by not having 
either free parking or by getting parking the furthest away 
from where you work. But there are different ways of doing it.
    I think that maybe we might encourage the Library of 
Congress to look at what would be the cost of implementing a 
system where someone who uses the public transportation or 
something can be given some subsidy.
    Mr. Taylor. Or those who do not, pay the penalty.
    Mr. Pastor. Sure, you could. There are ways of doing it.
    Mr. Taylor. Mr. Roth, would you like to make your 
statement?
    Mr. Roth. Okay. Thank you.
    Mr. Chairman, Mr. Pastor, my name is Dennis Roth, president 
of the Congressional Research Employees Association, 
representing all bargaining unit employees in professional, 
technical and clerical positions in the Congressional Research 
Service.

                            CRS Grade Creep

    Before I address the Library and the Congressional Research 
Service's budget request for fiscal year 2000, I would like to 
respond to a perception reference of grade creep in CRS. In 
fact, many positions in CRS are on job ladders, that is, 
multiple graded. Because many CRS employees have been employed 
by the Service for most, if not their entire, careers, and the 
latest data shows that the average employee at CRS is about 
18.4 years, I know compared to Congress that is a lifetime, 
they have been able to achieve the top of their grade ladders. 
Thus, the high grade structure that you see and I think that 
concerns this subcommittee results from the high level of 
performance and many years of dedicated service to the 
Congress. Believe me, as union president, dealing with the 
concerns of staff, promotions are not handed out easily. They 
must be justifiably earned.
    With respect to the fiscal year 2000 budget request, I 
would like to focus on the following issues: The request for a 
full-time ergonomist; workstation replacement in the Madison 
Building; a request for upgrading the Library's digital voice 
switch; the Congressional Research Service succession program 
request; and most importantly, the reorganization of the 
Congressional Research Service.

                         Need for an Ergonomist

    Furniture purchased in the 1970s is not appropriate for 
computers which have replaced typewriters and is increasingly 
leading to health, comfort and productivity problems. The 
Library needs a full-time ergonomist to support and work with 
the volunteers on the Library's Workplace Ergonomics Program 
Committee. Currently, some staff must literally wait months for 
a worksite consultation to determine their ergonomic 
difficulties, and the solutions may be very inexpensive, such 
as using telephone books to prop up your feet, changing your 
screen, getting a screen saver. But a lot of damage can be done 
in that long period it takes to get these evaluations. So an 
ergonomist that could work with this committee and give us some 
force would be very important.

                       Workstation Modernization

    The Library is also requesting funds to modernize the 
workstations in the Madison Building. We wholeheartedly support 
this request and urge you to give it high priority. Desks 
designed for typewriters do not accommodate desktop computer 
equipment, towers, monitors, keyboards, mice, et cetera. But 
more than suitable desks are needed. Ergonomically compatible 
workstations include integrated panels, work surfaces, tables, 
pedestals, shelves, panel-hung lamps and so on. Ergonomically 
deficient workstations lead to health and safety problems, 
which in turn lead to increases in worker compensation claims.
    The Library needs to replace furniture designed and built 
nearly two decades ago with adjustable PC tables, keyboard 
holders, wrist holders and so on. Because nearly every employee 
in CRS now has a computer on their desk or access to one in 
their work area, any delay in this initiative could result in 
higher costs to the Library in terms of sick leave, lower 
productivity and increased on-the-job claims.
    We also request that you strongly encourage the Library to 
include members of the Workplace Ergonomics Committee Program 
as active participants in the selection of the ergonomist and 
in the selection of the new workstations. This would give the 
workers who actually have to sit and use the equipment some 
input into the decision-making process.

                      Voice Communications System

    The Library's existing voice telecommunications system was 
installed at least 10 years ago and is sorely outdated and in 
need of replacement before we find ourselves in a crisis 
situation. Can you imagine trying to call CRS and being told, 
sorry, but the phone system is down, and we don't know when it 
can be brought back up?
    In fact, last Friday the Audix system in the 
Librarycrashed, and it was down for 3 or 4 hours, and it was a total 
surprise. Nobody knew what was happening. So we are already seeing 
evidence of some of the problems. If this request is not funded, it may 
have severe negative consequences.

                       CRS Succession Initiative

    Let me now focus my testimony on the Congressional Research 
Service. As mentioned last year, we strongly feel that the 
Service does not make adequate use of existing staff in trying 
to deal with the retirement/succession initiatives. Your 
committee report on the 1999 budget last year made a similar 
observation. Many CRS employees not in analyst positions 
possess advanced degrees; however, their barrier to advancement 
is that they are already employed in the Service doing a 
different kind of work.
    Promoting from within not only saves money but is good for 
the morale of staff.

                           CRS Reorganization

    On October 19, 1998, CRS Director Dan Mulhollan announced 
to staff a proposed reorganization of the Congressional 
Research Service. Two existing divisions, the Economics 
Division and the Science, Technology and Medicine Division, 
were eliminated, and staff were dispersed into new divisions. 
Under the terms of our collective bargaining agreement, CREA 
had the opportunity to respond to the reorganization proposal 
and did so on November 17th, 1998.
    The issues raised in our response emerged from common 
themes I heard in meetings I held with each division. The 
response itself was prepared with input from our board of 
governors and stewards. I would like briefly to paraphrase from 
the opening of this response: We in CREA are committed to 
maintaining the highest possible level of service to Congress 
and are prepared to work closely with CRS management to ensure 
that paramount objective. We agree that CRS should be organized 
best to serve Congress. At issue is whether this particular 
reorganization plan, which the Director's Office devised 
without consulting staff or frontline managers, will actually 
enhance our service to Congress. Many staff are not convinced 
of a crisis of congressional satisfaction with CRS services. 
Finally, there are strong concerns about allocation of 
analytical resources and significant disruption of our working 
during the year-long process of reorganization and relocation.
    Although this overall feeling still exists, we continue to 
meet our contractual obligations in good faith. While the 
substance of the reorganization is not negotiable, the impact 
of the reorganization on personnel practices, policies and 
working conditions is. We engaged in interest-based bargaining, 
a process I have advocated in my testimony in the past, and we 
have reached agreement very quickly.
    CREA is pleased with the terms of the agreement. However, 
we remain concerned over the extraordinary burdens that will be 
placed on staff over the upcoming year. Despite the rejection 
of consultative management and facilitative leadership 
processes at the beginning of the reorganization process, CRS 
management was willing to reassert consultive management as a 
primary vehicle for dealing with reorganization impact issues.
    The reorganization impact agreement between CRS and CREA 
ultimately reflects the realization that staff participation, 
through the use of consultive management, is the best way of 
affecting change in CRS. As always, we are committed to 
offering the best service possible to the Congress and will 
continue to work with CRS management to determine the 
organization of CRS that will accomplish this.
    I would be happy to answer any questions you may have.
    Mr. Taylor. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. No questions.
    Mr. Taylor. Thank you. We appreciate your statement. It 
will be entered into the record.
    Mr. Roth. Thank you.
                              ----------                              

                                      Wednesday, February 10, 1999.

                        ARCHITECT OF THE CAPITOL


                               WITNESSES

HAZEL DEWS, REPRESENTING AFSCME LOCAL 626
DOLORES JONES, REPRESENTING AFSCME LOCAL 626
    Mr. Taylor. We now have Hazel Dews and Delores Jones 
representing local 626.
    Ms. Dews. Good afternoon, Mr. Chairman, the subcommittee. 
My name is Hazel Dews, and I am the president of the Architect 
of the Capitol Local 626, representing some 700 employees. I 
would like to take this time to thank the subcommittee for this 
opportunity to testify before you. We have submitted testimony 
for the record, and we ask that it be included in the record.
    Mr. Taylor. Without objection.

                              Fire Safety

    Ms. Dews. I have been an employee of the Architect of the 
Capitol for 25 years. After the IG report on fire safety, we 
were very disturbed. We all should be concerned about security 
and safety. It affects everyone employed within these 
buildings.
    Mr. Chairman, we requested a meeting with Mr. Hantman, but 
he failed to respond to our request. I do think we all know how 
devastating a fire can be, especially when you have equipment 
that does not work properly. This is what we have here in some 
of these buildings.
    Mr. Chairman, we should all put security and safety on our 
top priority list. Thank you.
    Mr. Taylor. Thank you, Ms. Dews.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Jones. My name is Delores Jones, Chief Steward for 
Local 626.
    Last Wednesday this committee discussed the need to 
increase security measures throughout the Capitol complex. The 
Architect of the Capitol stated in his budget report that 
terrorist activity throughout the world has increased. As a 
result of that, there is a heightened sensitivity toward 
threats to security on Capitol Hill.

                            Contracting Out

    However, when the Architect was questioned by Congressman 
Hoyer about his plans for contracting out, the Architect stated 
that it would depend on the number of employees who took the 
buy-out.
    Now, attached to our testimony we have a letter from 
Capitol Hill Police supporting us. Currently, the Capitol 
Police can readily identify custodial workers and laborers 
because of their daily interaction with each other. Some of 
these workers have been employed for the Architect for at least 
20 years and have established a friendly relationship with the 
Capitol Police.
    This interaction would not exist with contractors who 
experience high employee turnover. The Union and Capitol Hill 
Police believe that this lack of identity would compromise the 
Capitol Police's ability to provide adequate security and thus 
compromise security for all of us.
    Also, the Architect stated in his budget report last 
Wednesday that he intends to offer buy-outs to bargaining unit 
employees. Should a high percentage of employees from our 
bargaining unit accept the offer and the Architect choose not 
to replace these workers, the union believes this will provide 
the groundwork for the Architect to begin contracting out.
    Since 1993, the Architect of the Capitol has steadily 
decreased the number of custodial and laborer workers in all 
jurisdictions. In 1993, the House had a night custodial staff 
of 250. Today the House has approximately 160 night custodial 
workers. This is a 36 percent decrease in staff since 1993.
    For instance, if an employee is normally lifting 100 pounds 
while performing his duties and now is lifting 200 pounds 
because he is now doing the work of two, sometimes three 
different people's work, you have a greater chance of becoming 
injured due to your increased workload.
    In the past, we have had several employees die and become 
disabled since the downsizing of the night custodial staff. We 
have often asked ourselves if these deaths could have been 
avoided were it not for the amount of physical strain that they 
endured while working in this environment.

                                Staffing

    On several occasions the union has made proposals to AOC 
management to resolve the staffing problems. The union made 
four proposals in May of 1998 that we believed would help 
resolve the problems of absenteeism and workplace injuries. The 
union proposed to management that a swing shift be established 
so that some day employees could perform some of the night 
duties, such as cleaning the banquet and committee rooms that 
were used during the day, rather than leaving those rooms for 
the night employees to do.
    During the fiscal years 1997 and 1998, the House was 
appropriated $32,556,000 and $36,610,000 respectively, an 
increase of $4 million. However, none of this money was used to 
assist the individuals who do the tough jobs, and apparently 
none of that money was used for fire and safety protection 
systems.
    We have not seen a significant increase in equipment, 
supplies or other materials that are necessary for us to 
perform our duties. The union is recommending that this 
committee appropriate funds to provide additional equipment, 
supplies, hire additional custodial workers and laborers and/or 
appropriate funds to pay overtime to current day employees who 
are willing to perform some of the duties normally assigned to 
night staff.
    The union also requested that the superintendents be held 
accountable and justify the hiring of additional supervisory 
staff while decreasing the number of employees.
    In summary, the union believes that the AOC must be more 
accountable to Congress, its visitors and its workers. TheAOC 
has been called the ``last plantation'' or a ``Third World agency'' and 
other nonflattering names. The leadership of this agency must change 
its attitude about worker safety and become a real team player when 
dealing with workplace issues.
    To simply give reasons why things are not working or why 
the agency cannot hire additional staff does not serve the best 
interest of the agency or their employees. The union would like 
to see a more proactive attitude rather than a ``crisis 
management'' style of leadership.
    Simply put, the employees of this agency want to feel proud 
to work for our Architect of the Capitol and to be an integral 
part of making this agency a success story.
    The union should not have to file complaints and requests 
for inspections for obvious workplace hazards. The AOC should 
not have to be compelled by law to implement fire safety 
systems. This should be done because it is the right thing to 
do. These issues should be resolved when brought to the 
attention of the proper officials.
    We hope that this testimony has been useful and 
informative. We sincerely hope that this committee fully 
considers our recommendations for improving the work 
environment in the House of Representatives and throughout the 
Capitol.
    On behalf of the members of AFSCME Local 626, we would like 
to thank Chairman Taylor and all the members of this committee 
for your time and attention. We respectfully request that our 
testimony be entered as part of the official record.
    The employees of the AOC look forward to working with you 
in the future.
    Mr. Taylor. Without objection, the testimony will be 
entered into the record.
    Mr. Pastor, do you have any questions?
    Mr. Pastor. No. I want to thank you for coming forward and 
bringing your concerns. I think it is very important that even 
though we are Members of Congress we also have employees, and 
we have to make sure that people that are under our employ or 
within our employ have a safe environment. We thank you because 
safety concerns that you have are also our concerns. We also 
work here. So we are all on the same side on this one. So we 
appreciate you coming forward and giving us your testimony.
    Ms. Jones. Okay. Thank you.
    [Questions from Mr. Hoyer and responses follow:]

    Question. It was one year ago that AOC workers were photographed 
looking through trash in the Rayburn building for materials mistakenly 
thrown away in a Member's office. In the last year, in your opinion, 
has there been any increased sensitivity in the architect's office to 
workers' safety concerns?
    Answer: No, AOC has not been sensitive to worker safety concerns. 
Example: When, Roll Call reported about legionnaire's disease, AOC 
stated it would review each sick record for employees who had been sick 
for more than six consecutive days in last six months. They asked the 
nurse to check each employee out. This procedure hasn't occurred among 
custodial or laborers, to this date.
    AOC doesn't act unless complaints are filed with the Office of 
Compliance and/or OSHA.
    Employees had to demand working gear from the AOC, required by 
OSHA. Some employees still don't have the proper working gear.
    Employees have requested snow removal gear. There is still no 
response from AOC management.
    Question. Can you address fundamentally why the House Recycling 
program doesn't work better?
    Answer: The recycle program is not enforced by the superintendent's 
office. The congressional staff needs to have some kind of newsletter 
and general training regarding AOC Recycle goals.
    The Recycle Coordinator is not trained properly. When they had a 
qualified recycle coordinator, she was let go, because she would not 
lie to Congress.
    Members' staff are not informed about the recycle program, 
especially new members.
    Custodial workers are blamed for the failing recycle program, 
however, custodial workers follow instruction given by their 
supervisors.

    [Clerk's Note.--AFSCME Local 626 provided the following 
information for the Record:]

    There are no Federal Grants or funding which our organization 
receives.
                               __________
                                      Wednesday, February 10, 1999.

                          U.S. CAPITOL POLICE


                                WITNESS

J. CREEKMUR, REPRESENTING FRATERNAL ORDER OF POLICE LABOR COMMITTEE
    Mr. Taylor. Next is Mr. Creekmur, Fraternal Order of Police 
Labor Committee and Mr. Gashel, who is from the National 
Federation of the Blind.
    Mr. Creekmur.
    Mr. Creekmur. Thank you. Chairman Taylor and Members of the 
Subcommittee, thank you for this opportunity to testify 
regarding the appropriations for the United States Capitol 
Police Department. As head of the union for rank-and-file 
officers, I bring a new perspective to these proceedings. This 
is the first time a representative of the front-line members of 
our agency has ever testified in this setting, and I ask that 
this testimony be entered into the record.
    Mr. Taylor. Without objection.
    Mr. Creekmur. My fellow officers and I take our oaths and 
responsibilities to you and everyone else we serve and protect 
in the Capitol complex very seriously. We hope to inform you 
about some of the significant differences which, if properly 
addressed, can be resolved to improve your security.

                         Body Armor and Weapons

    The events of last summer coupled with a continuing 
security threat have created an urgent need for improved 
weapons and protective body armor. The weapons and body armor 
are critical to each officer's survival. The need for ongoing 
training and proper distribution of manpower is important.
    Our current body armor is more than a decade old in many 
cases. There are no continuing programs to assure proper fit or 
to keep pace with improved technology for body armor. We ask 
that you appropriate sufficient funds to replace all body armor 
and to ensure a continuing system of replacement and 
improvement.
    Nearly a decade has passed since we acquired the 9mm 
weapons we now are using. Although the exchange of gunfire 
repeatedly wounded the man who attacked and killed two of my 
fellow officers last summer, he was able to continue his deadly 
actions and is still alive today. This incident has put very 
real doubts in the minds of all of us who rely on these 
handguns for protection. Since the acquisition of these guns, 
technology and experience have convinced many of us that a 
larger caliber weapon of new design must be secured now.
    In October, the Congress passed a supplemental 
appropriation to provide improvements, which include body armor 
and weapons, along with other security enhancements. To date, 
we have not yet seen a single new vest or weapon. My fellow 
officers and I are deeply concerned about these improvements. I 
am constantly asked by my members about when the weapons and 
body armor will be delivered.
    We had hoped that the needed equipment would be fielded to 
the officers by early spring of 1999. With the addition of 260 
new officers to our Department and the depletion of the current 
stock of available 9mm weapons that we are currently using, it 
is crucial that funds be released before the spring of 1999 to 
purchase the new 40-caliber weapon and improved body armor.

                                Training

    Training of our members has been significantly reduced as 
we have attempted to keep pace with increasing demands on our 
Department to respond to a wider variety of threats. It takes 
additional manpower to relieve officers who are in training. We 
need more instructors and better facilities to establish a 
comprehensive system of continuing education and training 
programs for our members.
    Our officers assigned to stationary posts around the 
Capitol complex are the first line of defense on the perimeter 
of every building. They must be well equipped, well trained, 
and adequately staffed in order to improve their survival and 
yours.

                                Vehicles

    The Patrol Division has suffered reductions in the fleet 
that they use. There are not enough marked vehicles to provide 
for adequate mobilization and protection of the Congress. The 
lack of specialized vehicles, such as an equipment truck for 
the Containment Emergency Response Team, which is known as 
CERT, reduces their effectiveness. We need proper emergency 
equipment on all motorcycles and bicycles for the officers and 
for traffic safety.
    The Department is in need of a new central facility to 
provide for improved storage and maintenance of fleet vehicles. 
We need to also expand and improve on our training operations 
within a central location. At present our Department and its 
many units are scattered across Capitol Hill.
    I would like to request that any appropriations with regard 
to this testimony be released to the Department so that they 
can expeditiously resolve these issues.
    So this, sir, concludes my testimony. I will be happy to 
answer any questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. What gun are you using, the 9mm?
    Mr. Creekmur. The 9mm caliber weapon, which is the type of 
weapon that----
    Mr. Taylor. I understand, but what make.
    Mr. Creekmur. Smith and Wesson.
    Mr. Taylor. What are you thinking about the 40-millimeter?
    Mr. Creekmur. That has yet to be determined by the range 
personnel. The process for that is that a selected group of 
rank-and-file officers would go down and test a variety of 
weapons for that particular caliber, and the one that is 
selected by the rank and file will be the one that the range 
personnel will submit to management, and they will make a 
selection from them.
    Mr. Taylor. The 40-millimeter, there are several brands 
that have a good stable weapon, I know.
    Do you have any questions, Ed?
    Mr. Pastor. Not a question, but I think last week when the 
Chief was before us----
    Mr. Creekmur. Right.
    Mr. Pastor [continuing]. As I remember his testimony, the 
group is working on selecting a weapon that is appropriate and 
also the best way to obtain it.
    Mr. Creekmur. Correct.
    Mr. Pastor. I think someone on the subcommittee asked the 
question of protection, and we were told that every officer 
will be provided the protective gear. We were reassured it will 
be of the latest technology and the best, but the chief and the 
Department have to follow the proper procedures. But I will 
tell you it is my assessment that everything is at least on-
line to give you the protective gear and also the appropriate 
weapons.
    Mr. Taylor. I believe you met with the staff, and the Chief 
has indicated that he would try to get the weapons out of the 
current funds if we haven't secured the enforcement funds, and 
of course we were taking that up right with the Visitor Center 
to try to get all the committees that have to approve it put 
together so that we won't take so long to get those funds. Of 
course, it focuses on the light-weight vest that is protective 
and worthwhile. Especially since more officers are placed 
outside the door to try to get a check before people go through 
the metal detectors. It would be tough to wear the heavy vests. 
We need to get them as light as we can get them.
    I hope that we will see some records on the test, because 
if the test is not beneficial for most caliber weapons, then 
you know it is false security.
    Mr. Creekmur. Right. That is true.
    Mr. Taylor. But I hope we can get the best one available, 
and our committee certainly will be working with you on that.
    Mr. Creekmur. Sir, we appreciate it. And the key as far as 
protective body armor goes, it matters on how heavy, but what 
most officers find more comfortable is making sure the body 
armor is fitted to that particular person. Because what is 
large on me may not be a large on someone else, and that is 
what gives them, I guess, false security. Some officers choose 
not to wear it because it just does not fit properly, and it 
rises up and so on and so forth, so therefore the proper fit, 
by fitting each officer to the body armor, would be more 
beneficial and give them better protection.
    Mr. Taylor. That is a good point. We lost a park ranger in 
my district who was wearing a vest. It hit just below, and I 
don't know about the fitting, but I imagine that was one of the 
problems.
    Mr. Creekmur. Yes, it is.
    Mr. Taylor. Well, thank you very much. We appreciate you 
gentlemen coming in.
    Mr. Taylor. Thank you.
    [Questions from Mr. Hoyer and responses follow:]

    Question. You mentioned that the Capitol Police needs improved 
training facilities. Can you elaborate on that, paying particular 
attention to describing the condition of your current facilities?
    Response. Our current ``training academy'' is located in Annex II. 
It consists of two classrooms on its third floor and one located on its 
seventh floor. Each classroom can accommodate 24 students.
    One small office on the seventh floor has been converted to a 
locker room for male staff. Female staff has lockers within their 
office cubicles. There are half lockers for the students in the class 
rooms. The officers must use public restrooms to change clothes.
    The classroom and field equipment needed to train at these 
locations is old, but serviceable. There is an immediate need to 
replace and upgrade nearly all of our classroom presentation devices, 
communications equipment, vehicles and field uniforms and equipment 
used for exercises.
    The current situation allows the Department to train a minimum 
number of recruits to maintain current strength. It does not permit 
regular in-service training for officers who are serving on posts after 
graduating from the academy. These equipment and space constraints have 
degraded our ability to remain sharp in the field after graduation. It 
hinders continuing education of our members regarding threats and 
responses.
    Now that the Congress has authorized the addition of 260 more 
officers to the Department, it will be impossible for the Department to 
provide appropriate training for the larger classes that are 
anticipated to begin this year. This will further reduce the 
consideration given to continuing education for field officers.
    I believe it is imperative that the Department be provided with a 
permanent facility which is designed to train 200 students 
simultaneously. Further, that it is designed from this perspective to 
include parking; classrooms; locker & shower rooms; staff offices; 
equipment and storage. For too long, our training goals have been 
dictated by physical constraints not over our control. Those 
constraints rob us, and the people we protect, of significant 
advantages over terrorists and other national and international 
threats. Additionally, these restraints hinder our ability to deal with 
ever present local crime on the Capitol grounds.
    Question. Last year Congress appropriated $106 million for security 
enhancements, to fund procurement of new weapons, body armor, and other 
equipment. In the procurement process, does Management consult with the 
union and rank-and-file for input?
    Response. No.
                               __________
                                      Wednesday, February 10, 1999.

                          LIBRARY OF CONGRESS


                                WITNESS

JAMES GASHEL, NATIONAL FEDERATION OF THE BLIND
    Mr. Taylor. Mr. Gashel, we are glad to have you 
representing the National Federation of the Blind.
    Mr. Gashel. I am James Gashel. I am director of 
governmental affairs for the National Federation of the Blind. 
Let me begin with my introduction of our organization. We 
represent blind men and women throughout the United States who 
are members of the National Federation of the Blind.
    As a membership organization of blind people, we are really 
vitally concerned with the amount that you would appropriate to 
the books for the blind and physically handicapped program of 
the Library of Congress. Those members who have accompanied me 
here today evidence that concern because, in fact, the Library, 
in our case, is far more than a library. When you think of a 
library, you usually think of a place where they store books. 
In our case, libraries are our access to knowledge. We can't 
buy a braille book at a bookstore; obviously can't read a print 
book that you would find in most bookstores; and audio books 
that you find are oftentimes the abridged versions of that 
which is found at a bookstore. So the service we need is 
definitely a unique service that the Library of Congress 
provides directly to this important group of citizens.
    Let me just say that the fiscal year 2000 request of the 
Library is really almost $48 million. In terms of the cost per 
individual, it is about $61 and change to provide the service. 
That provides books like this. This is half of an autobiography 
of Abigail Adams by C.W. Akers. So the complete book would be 
twice this size, and they produce this in braille and send it 
to the borrowers throughout the United States. This is very 
typical of what these books look like.
    The recorded media use cassette machines that are 
especially designed for the program and the ordinary tape 
cassette that you are familiar with seeing.
    Now, if the budget request is approved, then the Library 
would be able to produce 2,400 books and 77 popular magazines. 
That is not very many compared to the 62,000 books that are 
expected to be copyrighted in ink print this year. Therefore, 
we desperately need at least the $48 million that has been 
requested, and we would still be lagging behind the number of 
books that appear in print.
    Mr. Chairman, I should say that there is one possible 
solution to this that might be looked at, given the fact that 
we are definitely well into the digital age. Let me first of 
all just mention in the fiscal year 1997 appropriations bill, 
an amendment was included to the Copyright Act which made it 
easier for the Library of Congress to be able to reproduce 
books like this without getting the advanced permission of the 
publishers to be able to do that.
    We envision a further amendment in the Copyright Act, and 
we are talking with staff and members of the Judiciary 
Committee, the Library of Congress, and the publishing 
community at this time to accomplish this. This proposed 
amendment would require that in submitting their material for 
copyright to the Library of Congress, the publishers would also 
submit digital electronic text in a standard format prescribed 
by the National Library Service for the Blind to the Library of 
Congress. If that were to occur, we would envision an 
electronic reservoir of books, which would include anything 
that is copyrighted in this country. The materials could then 
be reproduced and actually e-mailed to a digital machine, which 
could allow a blind individual to read the output in braille 
rather than in the format of a braille volume. This may make a 
book like this become a dinosaur eventually, and it would give 
people like me access to the totality of the 62,000 books that 
are published in ink print every year.
    Just in conclusion, let me say that in a society in which 
we are depending increasingly on access to knowledge, blind 
people must not be left behind, because we want to be able to 
compete on terms of equality. Your approval of the Library's 
budget request will help us do that, and consideration of a 
copyright amendment would also help us do that.
    Finally, I know about the program that Mr. Pastor mentioned 
to deliver daily newspapers to blind people. I would be happy 
to discuss that with you, too, because, again, it is exciting 
new technology that promises to open great doors to blind 
people. Thank you very much.
    Mr. Taylor. Thank you. We certainly appreciate your 
appearance here today and all of your colleagues who are 
gathered.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Taylor. Mr. Pastor, do you have a question?
    Mr. Pastor. I would like to pursue that question I had 
earlier. I know that access is a big issue, and at least in 
Arizona they were proposing it be available at the libraries in 
Phoenix and in Tucson and in Flagstaff. Those would be ideal 
locations where people would call, and get this information. 
The cost was worth the investment. If you want to add to it, I 
would appreciate it. I don't know where the Library of Congress 
would fall in this whole thing.
    Mr. Gashel. They potentially could fall into this, or there 
are other laws, such as the Library Services and Technology 
Act, through--which is under the Labor-Health and Human 
Services education appropriations bill, where I believe about 
$140 million is appropriated to the States for library 
services.
    Let me say that the service called Newsline for the Blind 
is a wonderful way of delivering electronic text from the 
publisher of the newspaper, let us say, or some other 
publication that is of short-term duration, directly to the 
telephone of a blind user. I use this service. We have it in 
Baltimore, and I can read on the telephone every day at 6 in 
the morning the New York Times, the Chicago Tribune, USA Today, 
the Wall Street Journal and The Washington Post and the 
Baltimore Sun. That is probably better newspaper access than 
you all have.
    I sit there and I use a speaker telephone and do it, and 
that is what they are talking about in Arizona. We are setting 
one of these sites up in Charlotte, North Carolina, basically 
as we speak, and our goal is to have a penetration of this 
service in every single State and, quite frankly, in every 
single congressional district in this country, and probably 
this service is in about half the congressional districts right 
now.
    And you are right, the amount of money to set this up is 
very, very small. The first-year cost of setting up one site is 
about $50,000, no more than that, and then it runs at less than 
half of that on a continuous year-to-year basis, and it serves 
a wide dialing area. You can have a couple of sites and serve 
all of Arizona, for example, and pretty well hit the population 
pretty well.
    Illinois has this service, almost everywhere in the whole 
State. Few other States are like that. And eventually, it will 
be something that can be nationwide. It is really a supplement 
to the Library of Congress service, which is books, and this 
service can deliver short-term publications like newspapers. 
You can't go to the trouble of brailling a newspaper and get it 
out to blind people within a day. You can't do it within a 
month, let alone a day. But with this service, audio text over 
the telephone, you can do it within minutes.
    Mr. Pastor. Thank you very much.
    Mr. Taylor. Thank you. We certainly appreciate it.
    Mr. Gashel. Thank you.
    Mr. Taylor. We appreciate each of you coming in, and we 
will certainly look at this appropriation carefully.
    We will now adjourn the legislative appropriations hearing 
subject to the call of the Chair.


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Abrecht, G.L.....................................................   523
Allen, Bill......................................................   301
Anderson, Barry..................................................   701
Archer, Hon. Bill................................................   489
Becker, H.S......................................................   565
Benitez, Ben.....................................................   565
Billington, J.H..................................................   565
Boertlein, Jack..................................................   301
Brown, Beth......................................................   173
Brown, Richard...................................................   173
Buckley, F.J., Jr................................................   245
Cook, C.C., Sr...................................................   245
Creekmur, J......................................................   944
Crippen, Dan.....................................................   701
Cylke, F.K.......................................................   565
Dews, Hazel......................................................   920
DiMario, M.F.....................................................   245
Dodaro, J.M......................................................   193
Eagen, Jay.......................................................     5
Eisold, Dr. J.F..................................................     5
Franklin, Herb...................................................   301
Frenze, C.J......................................................   187
Gashel, James....................................................   952
Green, Gary......................................................   145
Guy, W.M.........................................................   245
Hanlon, Dan......................................................   301
Hantman, A.M...................................................301, 523
Heller, J.S......................................................   807
Hinchman, J.F....................................................   193
Hodges, P.E......................................................   701
Holstein, Bruce..................................................   173
Jenkins, India...................................................   193
Jenkins, J.C.....................................................   565
Jones, Dolores...................................................   920
Kessler, R.R., Jr................................................   829
Lainhart, J.W., IV...............................................5, 173
Lawler, M.B......................................................   245
Livingood, W.S...................................................5, 523
Lopez, K.E.......................................................   565
Mansker, R.T.....................................................   245
Medina, Rubens...................................................   565
Mica, Hon. John..................................................   793
Miley, Robert....................................................   301
Mulhollan, D.P...................................................   565
Oakley, R.L......................................................   867
Paull, L.L.......................................................   489
Peters, Marybeth.................................................   565
Poole, Amita.....................................................   301
Pregnall, Stuart...............................................173, 301
Price, Hon. D.E..................................................   797
Roth, D.M........................................................   875
Saxton, Hon. Jim.................................................   187
Schmitt, B.A.....................................................   489
Schmitt, M. M....................................................   489
Schniderman, Saul................................................   875
Scott, D.L.......................................................   565
Seitz, Virginia..................................................   145
Shays, Hon. Christopher..........................................   797
Sherman, A.M.....................................................   245
Silberman, Ricky.................................................   145
Straub, John.....................................................   173
Suarez, Hector...................................................   301
Tabb, Winston....................................................   565
Theiss, Lynne....................................................   301
Trandahl, Jeff...................................................     5
Turnbull, M.G....................................................   301
Walker, D.M......................................................   193
Wand, Patricia...................................................   804
Washington, Linda................................................   565
Webster, J.D...................................................173, 565
Williams, K.A....................................................   565
Zagorin, J.S.....................................................   875
Ziglar, J.W......................................................   523


                               I N D E X

                              ----------                              --
--------
                                                                   Page
Architect of the Capitol.........................................   301
    501 First Street.............................................   453
    ADA Compliance...............................................   449
    ADA Compliance Costs.........................................   456
    Botanic Garden...............................................   434
    Capital Budget...............................................   435
    Capitol Dome Renovation......................................   441
    Capitol Dome Project.........................................   448
    Capital Projects.............................................   435
    Capitol Power Plant..........................................   434
    Construction and Cost Estimates..............................   448
    Employee Morale..............................................   455
    Fire and Life Safety.........................................   410
    Former St. Cecelia's.........................................   453
    Increased Project Costs......................................   436
    Library of Congress Book Storage Modules.....................   486
    O'Neill House Office Building................................   452
    Opening Statement............................................   302
    Page Dorm Facility...........................................   486
    Perimeter Security Plan......................................   443
    Privatization................................................   455
    Re-engineering Plan..........................................   444
    Re-engineering the AOC.......................................   442
    Reprogrammings...............................................   456
    Security.....................................................   410
    Thermal Storage Facility/East Plant Chiller..................   443
    Unspent Funds................................................   478
    Visitor Center...............................................   384
    Visitor Center Approval Process..............................   404
    Visitor Center Exhibits......................................   404
    Visitor Center Private Sector Funds..........................   408
    Visitor Center Revalidate 1995 Plan..........................   405
    Visitor Center Security......................................   404
    Visitor Center Time Line.....................................   408
    Waste Recycling..............................................   450

Congressional Budget Office......................................   701
    Accuracy of CBO Estimates....................................   773
    Biographical Sketch for Dan. L. Crippen......................   701
    Biographical Sketch for Barry B. Anderson....................   749
    CBO Testimony................................................   703
    CBO's Appropriations Request for Fiscal Year 2000............   778
    Dynamic Scoring..............................................   779
    Problems with Recruiting and Retaining Personnel.............   780
    Request for Authority to Provide Bonuses.....................   783
    Study of CBO Methods and Accuracy............................   775
    Unfunded Mandates Workload...................................   749

General Accounting Office........................................   193
    Changing Workload............................................   235
    Contract Services............................................   219
    Duration of Self Assessment..................................   236
    Employee Compensation........................................   218
    GAO Performance Awards.......................................   237
    Impact of Legislative Mandates...............................   220
    Opening Remarks..............................................   193
    Performance Recognition......................................   218
    Performance Standards........................................   237
    Reducing Printing Costs......................................   239
    Self-Initiated Work..........................................   235
    Source of GAO Work...........................................   235
    Use of GAO by Congressmen....................................   240
    Work Process Reengineering...................................   221

Government Printing Office.......................................   245
    Buyout Authority.............................................   291
    Congressional Printing and Binding...........................   256
    Congressional Record.........................................   257
    Copy Requirements............................................   292
    Detailees to Congress........................................   258
    Electronic Formats...........................................   298
    Electronic Processing........................................   261
    FTE's........................................................   292
    Internet.....................................................   292
    Paper Publications...........................................   256
    Public Printer's Statement...................................   245
    Starr Report.................................................   293
    Title 44.....................................................   299
    Year 2000....................................................   259

Joint Committee on Taxation......................................   489
    High Income Tax Return.......................................   520
    Oral Statement...............................................   489
    Refund Review................................................   520
    Revenue Estimates............................................   519
    Written Testimony............................................   490

Joint Economic Committee.........................................   187
    JEC Budget Request...........................................   188
    JEC Resources................................................   192
    Savings from IMF Reform......................................   187

Legislative Branch Financial Managers Council....................   173
    Architect's Financial System.................................   184
    House Payroll System.........................................   184
    Legislative Branch Standardization of Financial Systems......   185

Library of Congress..............................................   565
    Automation Building Blocks...................................   594
    Bicentennial Commemoration...................................   600
    Bicentennial Coin and Stamp..................................   602
    Budget Request...............................................   565
    Collections Security.........................................   598
    Cook vs the Library of Congress..............................   613
    Copyright Issues.............................................   611
    CRS Succession Plan..........................................   606
    Digital Access Plans.........................................   610
    Five Year Plan...............................................   593
    Full-Time Equivalents........................................   597
    Global Legal Information Network.............................   609
    Growing Workload Increased in Budget.........................   608
    History of CRS Buildup.......................................   606
    ILS Project..................................................   595
    Librarian's Statement........................................   566
    National Audio Visual Conservation Center....................   608
    Off-Site Storage.............................................   595
    Opening Remarks..............................................   565
    Public Dissemination of CRS Products.........................   602
    Reengineering................................................   596
    Reengineering Program........................................   594
    Transition to Digital Formats................................   593

Office of Compliance.............................................   145
    Appeals to the Board.........................................   161
    Occupational Safety and Health...............................   163
    Rate of Employee Injury......................................   159
    Space and Services at the Library of Congress................   162
    Testimony of the Executive Director..........................   146

Testimony of Members of Congress and Other Interested Individuals 
  and Organizations..............................................   793

U.S. Capitol Police Board........................................   523
    Biography of James W. Ziglar.................................   524
    Bulletproof Vests and Weapons................................   554
    Comparability Pay............................................   550
    Comparison of FY99 and FY00 Budget Estimates.................   557
    Computer and Telecommunications Services.....................   551
    Crime Statistics.............................................   542
    Equipment Life-Cycle Replacement.............................   552
    Evaluation of Administrative Operations......................   556
    Facilities...................................................   563
    Fire Safety..................................................   542
    Perimeter Security...........................................   547
    Physical Threats.............................................   552
    Reprogramming Requests for FY 98.............................   560
    Retirement Pay...............................................   554
    Security Enhancements........................................   535
    Statement of the Capitol Police Board and Chief Gary L. 
      Abrecht....................................................   525

U.S. House of Representatives....................................     5
    Allowances and Expenses......................................    79
    Attending Physician..........................................    86
        Periodic Screening.......................................   118
        Preventative Health Measures.............................   117
        Statement of the Attending Physician.....................   117
    Chaplain, Office of the......................................    65
    Chief Administrative Officer.................................     6
        CAO Year 2000 Priorities.................................    91
        Comments on the Year 2000................................   106
        Equipment Uniformity During Increasing Technology........   108
        Federal Financial System Status..........................    89
        Member Accounts and Spending Practices...................   106
        Member Account Policy....................................   107
        Opening Statement........................................     8
        Statement of the CAO.....................................     7
        Task Force Technological Recommendations.................   109
        Technological Advances...................................   111
        Voucher Turn-Around Time.................................    90
    Clerk, Office of the.........................................    29
        Document Management System...............................   101
        GPO and Clerk Document Printing..........................   105
        House Page Dormitory.....................................    94
        Statement of the Clerk...................................    30
    Committee on Appropriations..................................    27
    Corrections Calendar Office..................................    77
    General Counsel, Office of...................................    64
    House Leadership Offices.....................................    11
    Inspector General, Office of.................................    53
    Law Revision Counsel, Office of the..........................    67
        Statement of the Law Revision Counsel....................    68
    Legislative Counsel, Office of the...........................    71
        Statement of the Legislative Counsel.....................    72
    Members' Representational Allowances.........................    25
    Other Authorized Employees...................................    78
    Parliamentarian, Office of the...............................    66
    Salaries, Officers and Employees.............................    28
    Sergeant at Arms, Office of the..............................    41
        Safety Evaluation........................................   119
        Statement of the Sergeant at Arms........................    42
    Standing Committees, Special & Select........................    26

                                <greek-d>
</pre></body></html>
